<html>
<title> - ALASKA NATIVE VILLAGE EROSION</title>
<body><pre>[Senate Hearing 108-808]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-808

                     ALASKA NATIVE VILLAGE EROSION

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARINGS

                      JUNE 29, 2004--ANCHORAGE, AK
                      JUNE 30, 2004--ANCHORAGE, AK

                               __________

         Printed for the use of the Committee on Appropriations



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
95-486                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terrence E. Sauvain, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                         Tuesday, June 29, 2004

                                                                   Page
Opening Statement of Senator Ted Stevens.........................     1
Statement of Senator Conrad Burns................................     2
Statement of Senator Lisa Murkowski, U.S. Senator From Alaska....     2
Statement of Senator John Sununu, U.S. Senator From New Hampshire     3
Statement of Brigadier General Robert L. Davis, Division 
  Engineer, Pacific Ocean Division, United States Army Corps of 
  Engineers......................................................     4
Accompanied by Colonel Tim Gallagher, Commander, United States 
  Army Corps of Engineers' Alaska District.......................     4
Prepared Statement of Brigadier General Robert L. Davis..........     5
Pacific Ocean Division...........................................     6
Alaska Flooding and Erosion......................................     6
Corps of Engineers Authorities...................................     6
Prior Flood and Erosion Control Studies and Projects.............     7
Current Studies and Projects.....................................     8
Challenges.......................................................    11
Prepared Statement of Aleutians East Borough.....................    13
Nelson Lagoon Erosion Control Project............................    13
Statement of John Pennington, Regional Director, U.S. Federal 
  Emergency Management Agency....................................    14
Accompanied by Carl Cook, Division Director, Flood Insurance 
  Mitigation Division, U.S. Federal Emergency Management Agency..    14
Stafford Act Assistance..........................................    14
Pre-disaster Mitigation Program..................................    15
Hazard Mitigation Grant Program..................................    15
Flood Mitigation Assistance Program..............................    16
Prepared Statement of John E. Pennington.........................    16
Statement of Robert A. Robinson, Managing Director, Natural 
  Resources and Environment, U.S. General Accounting Office......    18
    Prepared Statement of........................................    20
Most Alaska Native Villages are Affected to Some Extent by 
  Flooding and Erosion...........................................    24
Alaska Native Villages Have Difficulty Qualifying for Federal 
  Assistance.....................................................    25
Four Villages in Imminent Danger are Planning to Relocate, and 
  the Remaining Five Villages are Taking Other Actions...........    27
Alternatives for Addressing Barriers That Villages Face in 
  Obtaining Federal Services.....................................    28
Statement of Patrick N. Poe, Regional Administrator, Alaska 
  Region, Federal Aviation Administration, U.S. Department of 
  Transportation.................................................    30
Importance of Aviation in Alaska.................................    30
Airport Improvement Program Grants...............................    30
Building an Airport in Alaska....................................    30
Prepared Statement of Patrick N. Poe.............................    31
Federal Assistance to Villages...................................    33
Airport Relocations..............................................    35
FEMA's Prevention Authority......................................    35
Relocate a Village...............................................    36
National Flood Insurance Program.................................    40
Statement of Wayne Mundy, Administrator, Alaska Office of Native 
  American Programs, U.S. Department of Housing and Urban 
  Development....................................................    44
    Prepared Statement of........................................    46
Statement of Edgar Blatchford, Commissioner, Department of 
  Community and Economic Development, Anchorage, Alaska..........    47
    Prepared Statement of........................................    49
Statement of David E. Liebersbach, Director, Division of Homeland 
  Security and Emergency Management, Fort Richardson, Alaska.....    51
    Prepared Statement of........................................    53
Statement of Dr. Thomas R. Karl, Director, National Climatic Data 
  Center, National Oceanic and Atmospheric Administration, U.S. 
  Department of Commerce.........................................    70
    Prepared Statement of........................................    75
Statement of Dr. Syun-Ichi Akasofu, Director, International 
  Arctic Research Center, University of Alaska, Fairbanks........    78
    Prepared Statement of........................................    80

                        Wednesday, June 30, 2004

Opening Statement of Senator Ted Stevens.........................    89
Statement of Senator Lisa Murkowski, U.S. Senator From Alaska....    90
Statement of Hon. Reggie Joule, Alaska State Representative......    91
    Prepared Statement of........................................    93
Statement of George Ahmaogak, Sr., Mayor, North Slope Borough, 
  Barrow, Alaska.................................................    97
    Prepared Statement of........................................   100
Statement of Loretta Bullard, President, Kawerak, Inc............   102
    Prepared Statement of........................................   104
Statement of Myron P. Naneng, Sr., President, Association of 
  Village Council Presidents.....................................   106
    Prepared Statement of........................................   108
Statement of Hugh Short, Mayor, Bethel, Alaska...................   115
    Prepared Statement of........................................   117
Statement of Edith A. Vorderstrasse, Mayor, Barrow, Alaska.......   118
    Prepared Statement of........................................   119
Statement of Steve Ivanoff, President, Unalakleet Native 
  Corporation....................................................   119
    Prepared Statement of........................................   121
Statement of Rex Rock, Chief Executive Officer, Tikigaq 
  Corporation....................................................   123
    Prepared Statement of........................................   125
Statement of Stanley Tom, Tribal Liaison, Newtok Traditional 
  Council........................................................   129
    Prepared Statement of........................................   131
Statement of Enoch Adams, Jr., Chairman, Kivalina Relocation 
  Planning Committee.............................................   132
Statement of Luci Eningowuk, Chairperson, Shishmaref Erosion and 
  Relocation Coalition...........................................   133
    Prepared Statement of........................................   138
Statement of Franklin Rexford, Tribal Administrator, Native 
  Village of Kaktovik............................................   147
Statement of Dr. Joseph Suhayda, Hydraulic Engineers, HESCO 
  Bastion USA, LLC, Hammond, Louisiana...........................   151
    Prepared Statement of........................................   155
HESCO and HESCO Products.........................................   155
HESCO Alaska.....................................................   156
Additional submitted statements..................................   157
Prepared Statement of Thomas K. Bolen, Public Services Director, 
  Northwest Arctic Borough.......................................   157
Prepared Statement of John Duffy, Borough Manager, Matanuska-
  Susitna Borough................................................   158

 
                     ALASKA NATIVE VILLAGE EROSION

                              ----------                              


                         TUESDAY, JUNE 29, 2004

                                       U.S. Senate,
                               Committee on Appropriations,
                                                     Anchorage, AK.
    The committee met at 8:47 a.m., in the Z.J. Loussac Public 
Library, 3600 Denali Street, Anchorage, Alaska, Hon. Ted 
Stevens (chairman) presiding.
    Present: Senators Stevens and Burns.
    Also present: Senators Murkowski and Sununu.


                OPENING STATEMENT OF SENATOR TED STEVENS


    Chairman Stevens. Good morning. I thank you all for 
attending this field hearing. We begin this hearing now 
regarding the impacts of coastal erosion and flooding on the 
Native villages on the west coast of Alaska.
    I'm joined here this morning by Senator Conrad Burns of 
Montana. He's on the Appropriations Committee. Senator Lisa 
Murkowski, my colleague, who serves on the Energy and Natural 
Resources Committee, the Environment and Public Works 
Committee, the Indian Affairs Committee, and the Veterans 
Affairs Committee, and Senator John Sununu who serves on the 
Commerce Committee.
    Your commitment to take time from your busy schedules to 
attend these hearings illustrates a national interest on this 
issue, and we will learn more about how severe erosion has 
impacted Alaska and its people. The testimony from these 
hearings will be useful in determining how to coordinate 
responses and develop solutions to complex problems of erosion 
and flooding in Alaska.
    There will be three panels of witnesses at this hearing 
today and tomorrow. Each panel will have multiple witnesses, 
and to keep the hearing on schedule, I request that each 
witness speak no more than 8 minutes. It's my intention to ask 
the Senators to withhold their questions until we hear the 
testimony of all the witnesses on each panel as they come 
forward. Based on the number of witnesses today, each panel 
will be allowed total time limits. Panel 1 is allowed 80 
minutes; panel 2, 60 minutes; and panel 3, 40 minutes. I hope 
that's acceptable.
    Tomorrow we will hear from villagers from villages most 
affected by coastal erosion and flooding as well as one witness 
with commercial expertise in erosion prevention and mitigation. 
These hearings will try to find whether we have any solutions 
to the problems and have recommendations from the General 
Accounting Office--let me back up. We will examine the findings 
and recommendations of the General Accounting Office report on 
the severe flooding and erosion problems faced in Native 
villages in Alaska.
    In May 2001 some of you attended the appropriations field 
hearings on the impact of climate changes in the Arctic. That 
hearing was held at the University of Alaska in Fairbanks and 
attracted, I believe, the Nation's best scientists on the 
climate change. Later today we'll hear from two individuals on 
the potential costs and implications of that climate change.
    The issue of climate change is involved because of rising 
temperatures, which was one of the main factors theorized in 
the GAO report on coastal erosion and flooding in Alaska. My 
intent at these hearings is to learn how we can provide greater 
assistance to these communities.
    I will now yield to my colleagues to see if they have any 
opening statements. Senator Burns, do you have a statement?


                   STATEMENT OF SENATOR CONRAD BURNS


    Senator Burns. Mr. Chairman, thank you very much for your 
kind invitation to come to Alaska. We enjoy it up here. I 
represent Montana. As far as flooding and erosion, we've been 
so damn dry down there we'll take a little of it. We're a 
little bit better off, but I know that there are challenges it 
imposes on the communities along the coast of Alaska. I'm 
fairly familiar with that part of the world up there because 
I've visited the North Slope, but I've never had the 
opportunity to go out on the west coast part of the State and 
would love to do that one of these days. Thank you for your 
kind invitation. I'll look forward to hearing from the 
witnesses.
    Chairman Stevens. Senator Murkowski, do you have a 
statement?


     STATEMENT OF SENATOR LISA MURKOWSKI, U.S. SENATOR FROM ALASKA


    Senator Murkowski. I do, Mr. Chairman. Thank you. Thank you 
for calling the hearings. I would also like to welcome Senator 
Burns and Senator Sununu. I appreciate their being here and 
having an opportunity to see what is going on. I appreciate 
Senator Burns' statement, and we're pretty dry up north, too. 
It's fire season again here.
    Mr. Chairman, last year the General Accounting Office 
examined the performance of two agencies, the U.S. Army Corps 
of Engineers and the Natural Resources Conservation Service as 
they assist Alaska Native villages wrestling with challenges of 
coastal erosion.
    The GAO reported that small and remote Alaskan villages are 
denied assistance under the Corps' flood control and continuing 
assistance program because they often fail to meet a cost-
benefit test; that is to say that when you compare the cost of 
preventing devastating floods against the value of the public 
infrastructure in the villages, flood control loses. Those 
communities that might meet the cost-benefit analysis criteria 
then fail to qualify for assistance because they can't provide 
the 25/50 percent local match that's required under the 
prevailing policy.
    The Natural Resources Conservation Service, like the Corps, 
utilizes a cost-benefit analysis in its funding decisions, but 
unlike the Corps they consider social and environmental factors 
when calculating the benefit of a project. The GAO noted that 
the Natural Resources Conservation Service also waives cost-
sharing requirements when a community can't afford them.
    The bad news for Alaska Native communities is that the 
Natural Resources Conservation Service funding programs are 
directed at addressing emergencies; in other words, one-time 
events rather than recurring programs. However, the Natural 
Resource Conservation Service is generous in providing 
technical assistance to Alaska Native villages under its 
conservation and technical assistance program.
    So the Corps of Engineers appears to be in the best 
position to help fund projects to protect our villages against 
coastal erosion, but cannot effectively carry out this role due 
to the strings attached to their funding policies. The Natural 
Resource Conservation Service has a funding policy that is 
perhaps more sensitive to the realities affecting our villages, 
but their authority to address the consequences of coastal 
erosion is limited. This is very disturbing.
    Mr. Chairman, I do have a longer opening statement that I 
would like to have included in its entirety in the record, but 
I would like to point out at this time that I hope that these 
hearings are not intended to place blame on anybody, but rather 
to identify solutions. How do we move forward in identifying 
the concerns while we're here in these next 2 days?
    As we search for the solutions, I think we need to be aware 
that FEMA, the Federal Emergency Management Agency, has the 
resources to rebuild that public infrastructure and to help 
families rebuild structures that are destroyed in catastrophic 
floods. We have seen this before when FEMA was called upon to 
address the consequences of flooding in Alatna, in Allakaket 
and in Hughes as they do elsewhere across the State and in the 
country.
    So I would hope that over the next 2 days, as we identify 
ways to prevent this destruction before it happens, we focus on 
that and not on what we do in the aftermath of a catastrophic 
flood. Again, Senator Stevens, thank you for conducting this 
hearing, and I look forward to the testimony over the next 2 
days.
    Chairman Stevens. Thank you very much, Senator.
    Senator Sununu, do you have an opening statement?


   STATEMENT OF SENATOR JOHN SUNUNU, U.S. SENATOR FROM NEW HAMPSHIRE


    Senator Sununu. Thank you, Mr. Chairman. It's a pleasure to 
be here with you and Senator Murkowski, with whom I was pleased 
to be elected to the Senate. I had the opportunity to see her 
work on this and a host of other issues important to Alaska.
    New Hampshire and Alaska share a lot of the same wonderful 
characteristics; a great love for the outdoors, conservation 
and its tradition, and a beautiful coastline. New Hampshire's 
coastline is only 13 miles, not 6,000 miles, so as a result, we 
tend to enjoy our coastline 1 mile at a time. But we have the 
same appreciation for the problems that erosion and flooding 
can cause for the communities that live nearby.
    That's why I'm pleased to be here to listen to the 
testimony, to learn a lot more about the problems that have 
been experienced here. I understand what the Senate can do to 
help these agencies that have some ability to make a difference 
and work together to improve the situation.
    Thank you very much for the invitation to be here.
    Chairman Stevens. Thank you very much, Senator Sununu. On 
the first panel the witnesses will be Brigadier General Larry 
Davis, Division Engineer, Pacific Ocean Division of the United 
States Army Corps of Engineers; Mr. John Pennington, Regional 
Director of the Federal Emergency Management Agency; Mr. Ralph 
A. Robinson, Managing Director of the Natural Resources 
Environment of the General Accounting Office; and Mr. Patrick 
Poe, Alaska's Regional Administrator for the Federal Aviation 
Administration.
    Gentlemen, welcome. General Davis, we'll call on you first. 
I would like you all to present your statements and not use 
more than 8 minutes, if you will, and we will have questions 
when the full panel has presented their witnesses.
    General Davis.

STATEMENT OF BRIGADIER GENERAL ROBERT L. DAVIS, 
            DIVISION ENGINEER, PACIFIC OCEAN DIVISION, 
            UNITED STATES ARMY CORPS OF ENGINEERS
ACCOMPANIED BY COLONEL TIM GALLAGHER, COMMANDER, UNITED STATES ARMY 
            CORPS OF ENGINEERS' ALASKA DISTRICT

    General Davis. Thank you, Mr. Chairman and distinguished 
members of the committee. I deeply appreciate this opportunity 
to appear before you to discuss the flooding and erosion issues 
affecting many Alaskan communities.
    I'm Brigadier General Larry Davis, the Commanding General 
of the U.S. Army Corps of Engineers' Pacific Ocean Division. 
Accompanying me today is Colonel Tim Gallagher, Commander of 
the U.S. Army Corps of Engineers' Alaska District. My complete 
written statement, which I have submitted for the record, 
provides details on this important issue and what the Alaska 
District is doing to address flooding and erosion issues and 
challenges.
    With your permission, I'll provide you with a very brief 
overview of the Pacific Ocean Division, highlight some major 
issues regarding flooding and erosion affecting Alaskan 
communities, and highlight the Corps of Engineers' authorities 
and programs.
    The Pacific Ocean Division is headquartered in Honolulu, 
Hawaii. I have four district offices under my command located 
in Hawaii, Alaska, Japan, and Korea. All my districts have 
important military missions. In addition, my Honolulu and 
Alaska districts have a civil works mission that provides for 
water resources development and restoration, primarily in the 
areas of commercial navigation, flood and coastal storm damage 
reduction, and ecosystem restoration.
    It is through our Alaska District's civil works program 
that we are keenly aware of and involved in addressing flooding 
and erosion problems affecting Alaskan communities, and we 
appreciated the opportunity to participate in and contribute 
data from our past and ongoing studies to GAO's December 2003 
report on this subject.
    Alaska's coasts and riverbanks serve as the home to over 
200 Alaskan communities that utilize the rivers, coastal 
waters, and surrounding areas for subsistence. Coastal areas 
are subject to constant attack from wave action, ocean 
currents, ice and storms. And riverbanks are subjected to 
flooding, annual and episodic ice jams and erosion.
    The flooding and erosion that occurs along Alaska's 
shorelines and riverbanks can have a devastating impact on the 
economic, social, and cultural well-being of the Alaskan 
communities that are located along them. The villages of 
Kivalina, Koyukuk, Newtok and Shishmaref are examples of 
communities that are being forced to consider relocating due to 
severe and chronic erosion and flooding.
    Recently the Alaska District has noted an increasing number 
of requests for flooding and erosion protection assistance. 
This increase appears to be timed similar to observed 
climatological changes that may have an impact on flooding 
frequencies and erosion rates.
    Chairman Stevens. I think it may be one of the connections 
right here causing the trouble.
    General Davis. As indicated in the GAO's report, the Corps 
of Engineers administers key programs for planning and 
constructing flood and erosion control projects. These programs 
include our Specifically Authorized Program, Continuing 
Authorities Program, Planning Assistance to States Program, and 
the Flood Plain Management Services Program. To date, we have 
constructed eight flood control and eight erosion control 
projects in Alaska, and we currently have nine active flood 
damage reduction and 11 active erosion control studies 
underway. While we do have the technical capabilities and 
programs to address flooding and erosion problems, it is often 
difficult for a majority of these small and remote communities 
to meet the benefit-to-cost ratio of 1.0 or greater required 
for Federal participation implementing a solution. The cost of 
construction in the remote areas, weather and the lack of data, 
and the subsistence economies of the communities are major 
contributing factors.
    In addition, many of these communities do not have the 
financial capability to meet the required 35 percent non-
Federal cost sharing required for the Corps of Engineers' 
flood-erosion projects. We like to think of ourselves as 
problem solvers, and we have the technology and experience to 
find solutions to these complex problems. However, the title of 
the GAO's report, ``Alaska Native Villages, Most are Affected 
by Flooding and Erosion, But Few Qualify For Federal 
Assistance,'' appropriately summarizes the dilemma faced by 
these Alaskan communities and the Federal agencies attempting 
to help them.
    Mr. Chairman, this concludes my statement. I'm honored to 
appear before you. I'd be happy to respond to any questions you 
may have.
    Chairman Stevens. Thank you very much.
    [The statements follow:]

        Prepared Statement of Brigadier General Robert L. Davis

                              INTRODUCTION

    Mr. Chairman and distinguished members, thank you for this 
opportunity to appear before you today to discuss erosion and flooding 
issues of utmost importance to coastal and riverine communities in 
Alaska.
    I am Brigadier General Larry Davis, Commander of U.S. Army Corps of 
Engineers' Pacific Ocean Division.
    The General Accounting Office has provided a comprehensive review 
of the erosion and flooding problems in many of the remote communities 
of the state. I hope that our participation in this hearing will add to 
and clarify some of the issues presented in this report.
    With your permission, I will provide you with a brief overview of 
the Pacific Ocean Division, review our Corps of Engineers' flood 
control and erosion authorities and programs, review our prior and 
ongoing flood and erosion control projects, and highlight the major 
issues regarding flooding and erosion affecting Alaskan communities.

                         PACIFIC OCEAN DIVISION

    The Pacific Ocean Division is headquartered in Honolulu, Hawaii. I 
have four district offices under my command located in Hawaii, Alaska, 
Japan, and Korea. All my districts have important Military Missions. In 
addition, my Honolulu and Alaska Districts have a Civil Works Mission 
that provides for water resources development and restoration, 
primarily in the areas of commercial navigation, flood and coastal 
storm damage reduction, and ecosystem restoration.
    It is through our Alaska District's Civil Works program that we are 
keenly aware of and involved in addressing flooding and erosion 
problems affecting Alaskan communities and we appreciated the 
opportunity to participate in and contribute data from our past and 
ongoing studies to GAO's December 2003 report on this subject.

                      ALASKA FLOODING AND EROSION

    Alaska's coasts and riverbanks serve as the home to over 200 
Alaskan communities that utilize the rivers, coastal waters, and 
surrounding areas for subsistence. Coastal areas are subject to 
constant attack from wave action, ocean currents, ice and storms and 
riverbanks are subjected to flooding, annual and episodic ice jams, and 
erosion.
    The flooding and erosion that occurs along Alaska's shorelines and 
riverbanks can have a devastating impact on the economic, social, and 
cultural well-being of the Alaskan communities that are located along 
them. The villages of Kivalina, Koyukuk, Newtok, and Shishmaref are 
examples of communities that are being forced to consider relocating 
due to severe and chronic erosion and flooding.
    Recently the Alaska District has noted an increasing number of 
requests for flooding and erosion protection assistance. This increase 
appears to be timed similar to observed climatological changes that may 
have an impact on flooding frequencies and erosion rates.

                     CORPS OF ENGINEERS AUTHORITIES

    The Corps of Engineers has several authorities to address flooding 
and erosion problems. They include specific Congressional 
authorization, the Continuing Authorities Program, the Planning 
Assistance to States Program, and the Flood Plain Management Services 
Program.
    In addressing flooding and erosion problems, the Corps works 
closely with local, state, Federal, tribal, and private interests to 
understand the concerns represented by these various stakeholders. The 
Corps weighs the concerns, balances the needs, and examines the costs 
and benefits to determine federal interest and to make technically, 
environmentally, socially, economically sound decisions.

Specifically Authorized
    Specifically authorized studies may be initiated as provided by the 
Rivers and Harbors in Alaska Study Resolution, adopted by the U.S. 
House of Representatives Committee on Public Works on December 2, 1970. 
Construction of a project studied under this authority does, however, 
require specific Congressional construction authorization. Non-Federal 
cost sharing requirements are 50 percent for feasibility studies, 25 
percent for preconstruction engineering and design, and 35 percent for 
construction of flooding and erosion projects.
    The 1946 Shore Protection Cost Sharing Act established Federal 
policy to participate in construction of projects to protect the 
publicly-owned or publicly used shores of the United States against 
erosion from waves and currents.

Continuing Authorities Program
    The Continuing Authorities Program authorizes the Corps of 
Engineers to plan, design, and construct erosion and flood control 
projects without additional and specific congressional authorization. 
Most of the Alaska District's erosion and flood control work has been 
conducted under one of the authorities in the Continuing Authorities 
Program (CAP). CAP authorities are funded nationwide and are subject to 
specific limits on allowable Federal expenditures. The applicable 
program authorities that address flooding and erosion include the 
following.
  --Section 14 of the Flood Control Act of 1946, as amended.--This 
        authorizes emergency stream bank and shoreline erosion 
        protection for public facilities subject to a Federal limit of 
        $1,000,000 per project and $15,000,000 nationwide per year. 
        Non-Federal cost sharing requirement is 35 percent.
  --Section 205 of the Flood Control Act of 1948, as amended.--This 
        authorizes small flood control projects subject to a Federal 
        limit of $7,000,000 per project and $50,000,000 nationwide per 
        year. Non-Federal cost sharing requirement is 35 percent.
  --Section 208 of the Flood Control Act of 1954, as amended.--This 
        authorizes snagging and clearing for flood control subject to a 
        Federal limit of $500,000 per project and $7,500,000 nationwide 
        per year. Non-Federal cost sharing requirement is 35 percent.
  --Section 103 of the River and Harbor Act of 1962, as amended.--This 
        authorizes protection of shores of publicly owned property from 
        hurricane and storm damage subject to a Federal limit of 
        $3,000,0000 per project and $30,000,000 nationwide per year. 
        Non-Federal cost sharing requirement is 35 percent.
  --Section 111 of the River and Harbor Act of 1968, as amended.--This 
        authorizes mitigation of shoreline erosion damage cause by 
        Federal navigation projects subject to a Federal limit of 
        $5,000,0000. Non-Federal cost sharing requirement is at the 
        same proportion as the associated Federal navigation project.

Planning Assistance to States
    The Corps' Planning Assistance to States program allows the Corps 
to assist states in the preparation of comprehensive plans for the 
development, utilization, and conservation of water and related 
resources of drainage basins. This may include consideration of 
flooding and erosion problems. There is no construction authority 
associated with this program. Annual Federal funding is limited to 
$500,000 per state or tribe. Non-Federal cost sharing requirement is 50 
percent.

Floodplain Management Services Program
    The Corps' Flood Plain Management Services Program allows the 
Corps' to provide states and local governments with technical services 
and planning guidance on all aspects of flood plain management 
planning. There is no construction authority associated with this 
program. Non-Federal public entities do not have to pay for these 
services.

Other Authorities
    Other Corps of Engineers' authorities that exist include the 
following.
  --Technical Assistance--Section 55, WRDA 74.--This authority allows 
        the Secretary of the Army, acting through the Chief of 
        Engineers, to provide technical and engineering assistance to 
        non-Federal public interests in developing structural and non-
        structural methods of preventing damages attributable to shore 
        and stream bank erosion. Section 55 provides no construction 
        authority. Non-Federal cost sharing is not required.
  --Tribal Partnership Program--Section 203, WRDA 2000.--This program 
        authorizes feasibility studies of water resource projects that 
        will ``substantially benefit Indian tribes and that are located 
        primarily within Indian country or in proximity to Alaska 
        Native villages.'' Section 203 has a $5,000,000 annual program 
        limit and allows no more than $1,000,000 for one Indian tribe. 
        The program provides no construction authority. Non-Federal 
        cost sharing requirement is 50 percent for feasibility studies.
          prior flood and erosion control studies and projects
    To date, the Alaska District has received 63 requests for 
assistance with flooding and erosion problems from 60 communities in 
Alaska. Recently the number of requests for assistance with flooding, 
storm damage and erosion problems have increased. Of the 63 total 
requests, 47 have come within the last 5 years.
    We have constructed eight flood control (7-Specifically Authorized 
and 1-Section 205) and eight erosion control projects (4-
Congressionally Authorized and 4-Section 14) in Alaska at 14 
communities.

Section 14 Projects
    The majority of the requests for action for river erosion or 
coastal storm damage have come in under the Section 14 Emergency Stream 
Bank and Shore Protection Authority. Forty of the 63 community requests 
were for assistance under the Section 14 authority. This emergency 
authority authorizes the Corps to protect essential public facilities 
that face an imminent erosion threat. The proposed protection project 
must cost less than it would cost to relocate the facilities to be 
protected. This authority differs from other Corps programs, because a 
least-cost analysis is performed, rather than a benefit cost analysis 
as is required in other programs.
    Despite the number of requests, we have only constructed four 
projects (Bethel, Deering, Emmonak, and Metlakatla) under the Section 
14 authority. More than half of the Section 14 requests resulted in no 
Federal project because relocation of the threatened structure was the 
least cost solution or the property at risk was private property. Other 
reasons include project costs exceeding the project or program funding 
limits and the financial inability of the community to provide the 
required 35 percent non-Federal cost share.

Congressionally Authorized Projects
    We have constructed seven flood control and four erosion projects 
through specific Congressional authorization.
    Alaska's largest flood control projects are the Chena River Lakes 
and Tanana River projects that protect the 70,000 residents of the City 
of Fairbanks and have prevented millions of dollars in flood damages. 
These projects were specifically authorized by Congress in the Flood 
Control Act of 1968, Public Law 90-483.
    Other projects include erosion control structures in communities 
like Bethel, Homer, and Galena and flood control structures in Seward 
(Lowell Creek Tunnel), Skagway, Hyder (Salmon River), Talkeetna, and 
Juneau (Gold Creek).

                      CURRENT STUDIES AND PROJECTS

    The Alaska District is currently has 9 active flood damage 
reduction and 11 active erosion control studies and projects underway. 
They include the following.

Barrow Storm Damage Reduction
    The Alaska District's largest coastal storm damage reduction study 
is underway at Barrow located about 725 miles north of Anchorage, 
Alaska. In recent years winter storms have caused severe erosion of the 
shoreline. The erosion is threatening numerous public facilities; of 
particular concern is the Barrow solid waste landfill. Ongoing studies 
will obtain the environmental and engineering data necessary to plan 
and design alternative plans to reduce the storm damage. Fieldwork is 
currently underway to identify local sources of gravel that could be 
used to construct various alternatives including the replenishment of 
beach materials.

Kaktovik Erosion and Flooding
    A reconnaissance study at Kaktovik about 650 miles north of 
Anchorage has identified erosion and flooding of the airport as an 
important concern that will be addressed by another agency. Erosion of 
gravesites and lands at Kaktovik is a continuing problem that may 
warrant further study if a cost-sharing sponsor can be identified.

Kenai River Bluff Erosion
    The Kenai River is located approximately 100 miles south of 
Anchorage, Alaska. Erosion of the bluff along the Kenai River is 
endangering both public and private facilities. As directed and with 
funds provided by Congress in fiscal year 2002 and 2003, we initiated 
and are continuing technical evaluations and reconnaissance level 
investigations of the bank stabilization needs along the Lower Kenai 
River. Further study will depend on the findings of these 
investigations and the prospect for developing a solution that is 
environmentally acceptable and supported by sound engineering designs.

Matanuska Watershed
    The Matanuska River is 77 miles long and originates in the Chugach 
and Talkeetna Mountains and empties into the Knik Arm of Upper Cook 
Inlet, approximately 40 miles east of Anchorage, Alaska. With funds 
provided by Congress in fiscal year 2002, we initiated reconnaissance 
phase investigations to evaluate potential solutions to the erosion 
problems along the Matanuska River. The Matanuska Watershed 
reconnaissance study identified riverbank erosion as an important 
problem to address in the feasibility stage of study. Local interests 
are working with the Corps to develop the scope and estimated costs for 
engineering, economic, and environmental studies that would be 
appropriate for a feasibility study.

McGrath Flood Damage Reduction
    McGrath is located in western Alaska approximately 225 miles 
northwest of Anchorage, Alaska and serves as the transportation and 
service center for the surrounding area. Located on a bend of the upper 
Kuskokwim River, McGrath is often subject to flood damages and erosion. 
The water supply treatment plant and important roads, businesses, and 
residences are in danger during high flow conditions. With funds 
provided by Congress in fiscal year 2003, we initiated reconnaissance 
studies, which are scheduled for completion in fiscal year 2004.

Skagway River Flood Control
    Skagway is located at the northernmost end of Taiya Inlet, 
approximately 90 miles northeast of Juneau, Alaska. Much of the old 
City of Skagway is located within the Klondike Gold Rush National 
Historic Park. An existing flood control project was completed by the 
Corps of Engineers in 1940 and consists of a 6,700-foot long dike on 
the east bank of the Skagway River and a rubble-mound containment 
structure 1,800 feet long across the tide flats. With funds provided by 
Congress in fiscal year 2002, we initiated reconnaissance phase 
investigations to evaluate Federal interest in modifications and 
improvements to the existing dike and containment structure to prevent 
flooding to the historic City of Skagway and the airport facilities. 
The reconnaissance report was completed in November 2003 and found that 
there is Federal interest in continuing with feasibility phase studies.

Yakutat Flooding
    Yakutat is located approximately 370 miles southeast of Anchorage, 
Alaska. With fund provided by Congress in fiscal year 2004, we are 
initiating reconnaissance phase investigations to determine Federal 
interest in flood damage protection from flooding hazards created by 
the Hubbard Glacier near Yakutat. The Hubbard Glacier is advancing 
across Russel Fjord where the glacier has created an ice dam twice in 
the past 20 years. If an ice dam occurs, the water level in Russel 
Fjord could raise high enough to overflow into the Situk River similar 
to the overflows that have occurred at least twice in the last few 
hundred years. The Corps is cooperating with the U.S. Forest Service, 
state agencies and the city of Yakutat to evaluate potential ways to 
reduce damages to the world class Situk River fishery and nearby 
infrastructure including the Yakutat airport. A reconnaissance report 
will summarize the evaluation of alternatives that has occurred and 
determine if a Federal interest exists for more detailed studies.

Bethel Bank Stabilization, Alaska
    Bethel is located at the mouth of the Kuskokwim River, 40 miles 
inland from the Bering Sea and approximately 400 air miles northwest of 
Anchorage, Alaska. In accordance with Congressional direction provided 
in the fiscal year 2001 Energy and Water Development Act, we initiated 
engineering activities, from within available funds, to extend the 
existing Bethel Bank Stabilization project an additional 1,200 feet. 
Congress also directed the removal of sediments from Brown Slough that 
hamper navigation. However, it was determined that the Corps does not 
have authority for the removal of sediments from Brown Slough. The 
project decision document was completed in December 2001 and the 
Project Cooperation Agreement was executed in December 2002. The local 
sponsor is continuing with required real estate acquisition and 
construction.

Dillingham Bank Stabilization, Alaska
    Dillingham is located approximately 330 miles southwest of 
Anchorage, Alaska. The Dillingham Bank Stabilization project provides 
1,600 feet of sheet pile bulkhead to protect water and sewer lines, 
communication systems, homes, and businesses along an eroding bluff in 
the City of Dillingham. A Project Cooperation Agreement was executed in 
January 1998 and a construction contract was awarded in September 1998. 
Construction was initiated in fiscal year 1999 and was completed in 
fiscal year 2001. As directed by Congress in the fiscal year 2001 
Energy and Water Development Act, we initiated work to extend the 
project and replace the existing wooden bulkhead at the city dock. In 
fiscal year 2003 and fiscal year 2004 we are continuing with 
preparations of plans and specifications, a project decision document, 
and negotiations for modifications to the existing Project Cooperation 
Agreement.

Galena Bank Stabilization, Alaska
    Galena is located on the north bank of the Yukon River, 270 air 
miles west of Fairbanks, Alaska. In accordance with Congressional 
direction and funds provided in the fiscal year 2001 Energy and Water 
Development Act, we initiated engineering activities to provide 
additional emergency bank stabilization measures at Galena. The work 
will be accomplished under the same terms and conditions as the 
previous emergency bank stabilization project that was completed in 
1987. Stream bank survey work was completed in the summer of fiscal 
year 2001. In fiscal year 2002, we worked on plans and specifications, 
a project decision document, and negotiations for the Project 
Cooperation Agreement. The Project Cooperation Agreement was executed 
in August 2003. Construction is scheduled for award this fiscal year.

Planning Assistance to States
    The Corps' Planning Assistance to the States authority is being 
used at Kivalina and Newtok in western Alaska to assist each community 
with plans to relocate so they can avoid serious erosion and flooding 
problems. Comprehensive community plans are being developed for the new 
village sites. Due to the lack of existing infrastructure to offload 
gravel, it has been a challenge to find low cost sources of gravel for 
constructing pads to prevent permafrost soils from melting under new 
buildings and for elevating structures above potential flood 
elevations.

Alaska Village Erosion Technical Analysis
    As directed by Congress in fiscal year 2004, we initiated the 
Alaska Village Erosion Technical Analysis studies for the villages of 
Shishmaref, Kivalina, Newtok, Unalakleet, Kaktovik, Bethel, and 
Dillingham. A programmatic environmental impact analysis is being done 
for the potential relocation of Shishmaref based on specific guidance 
received from Congress. The studies at each village will estimate the 
damages caused by erosion, evaluate the potential ways to relocate 
communities that cannot be economically protected, and estimate when 
any of these villages would no longer be able to function due to losses 
caused by erosion and flooding.

Continuing Authorities Program
    Under the Continuing Authorities Program, Alaska District has the 
following projects underway.

Deering
    Deering is located on Kotzebue Sound at the mouth of the Inmachuk 
River, 57 miles southwest of Kotzebue. It is built on a flat sand and 
gravel spit 300 feet wide and a half-mile long. Storm waves and high 
water threaten cultural resources along the village shoreline. In July 
of 2002 remains were uncovered by wave action during a storm. A state 
trooper visited the village to perform an on site inspection and made 
the determination that the remains were of ancient origin. 
Archaeologists from the Northern Land Use Research excavated a portion 
of the site to further verify that the remains were of human remains 
from ancient origin. We are currently investigating the erosion problem 
under the Section 14 authority to determine if there is a design 
solution that would cost less than performing an archaeological dig to 
preserve the site.

Kwethluk
    Kwethluk is located along the banks of Kwethluk River on its 
junction with the Kuskokwim River, approximately 12 air miles east of 
Bethel and 390 air miles northwest of Anchorage. The existing 
streambank protection is in need of repair at both the upstream and 
downstream ends of the project. Erosion has created a hole 
approximately 7 feet high and 6-10 feet deep. The overhanging concrete 
is posing a threat to children who might be playing in the area. The 
stream bank adjacent to the city is also in need of protection. It has 
a 7-foot vertical bank in highly erosive soils that extend 
approximately 1 mile along the city limits. An analysis of the erosion 
rates along the Kwethluk River is needed to insure an appropriate long-
term solution to the stream bank problem. There is no work being 
performed this year due to budget limits for the Section 14 authority 
for this fiscal year. We will request funding for work next year under 
the Section 14 authority.

Seward
    Seward is located on Resurrection Bay, on the east coast of Kenai 
Peninsula, 125 highway miles south of Anchorage. The Seward Marine 
Industrial Center (SMIC) site is located on the east side of 
Resurrection Bay at the south end of the SMIC bulkhead. Wave action has 
eroded the gravel fill material near the end of the bulkhead. Wave 
action continues to erode the gravel from behind the bridge sections 
and along the remaining unprotected shoreline. We are currently 
investigating the erosion problem under the Section 14 authority and 
are developing a design solution to protect the utilities in this area 
from the erosion.

Shishmaref
    Shishmaref is located on Sarichef Island, in the Chukchi Sea, just 
north of the Bering Strait. It is five miles from the mainland, 126 
miles north of Nome and 100 miles southwest of Kotzebue. A fall storm 
has caused increased erosion along the beach shore threatening several 
public interests, including the public school. A Report recommending 
construction of a layered rock revetment 230 lineal feet in length has 
been approved. A Section 14 Project Cooperation Agreement is currently 
being developed. Federal construction funds are available with the 
intent of initiating construction by the end of the fiscal year 2004.

Point Hope
    Point Hope is located near the tip of Point Hope peninsula, a large 
gravel spit that forms the western-most extension of the northwest 
Alaska coast, approximately 710 miles northwest of Anchorage. With a 
mean sea level elevation of only 14 feet, wind driven storm surge and 
flooding impacts the village from all directions of the compass. During 
flooding events, the only escape route to high grounds is one of the 
first things to be inundated. This road is in dire need of being raised 
and fortified. The flooding also is damaging significant cultural 
resources located along the shore. We are currently investigating the 
erosion problem under the Section 103 authority to determine if there 
is a design solution that would be eligible for Federal participation.

Fort Yukon
    Fort Yukon is located in the interior region of Alaska on the north 
bank of the Yukon River near its confluence with the Porcupine River. 
Fort Yukon lies about 8 miles north of the Arctic Circle and 140 miles 
northeast of Fairbanks. The city is located immediately upstream of the 
confluence of the Yukon and Porcupine Rivers. These rivers carry large 
amounts of breakup ice in the spring and periodically an ice jam is 
created at the confluence of the two rivers. Ice jams at this location 
often result in an elevated river stage, which floods the low-lying 
areas at Fort Yukon. Floods are also caused by coincident increases in 
river stages due to surges in snowmelt runoff. We are currently 
investigating the erosion problem under the Section 205 authority to 
determine if there is a design solution that would be eligible for 
Federal participation. The community of Fort Yukon has indicated they 
would participate as the non-Federal sponsor for the study currently 
being scoped.

Valdez
    Valdez is located on the north shore of Port Valdez, a deepwater 
fjord in Prince William Sound, approximately 305 road miles east of 
Anchorage. Glacier Stream has been narrowed to pass under a bridge at 
the Richardson Highway. This created a flooding problem in the stream 
and threatens the Richardson Highway and Glacier Stream Road. We are 
currently investigating the erosion problem under the Section 205 
authority to determine if there is a design solution that would be 
eligible for Federal participation.

                               CHALLENGES

    While the Corps of Engineers does have the technical capabilities, 
authorities, and programs to address flooding and erosions problems, it 
is often difficult for the majority of these small and remote 
communities to meet the benefit to cost ratio of 1.0 or greater 
required for Federal participation in implementing a solution. The cost 
of construction in remote areas, weather, lack of data, and the 
subsistence economies of the communities are major contributing 
factors.
    In addition, while some of these communities can meet the 
requirement for 35 percent non Federal cost sharing, many do not have 
the financial capability to cost share.

High Cost Environment
    The cost of building flood and erosion prevention structures is 
much higher in remote Alaska than at similar situations in the 
contiguous United States. Commercial sources of construction material, 
equipment, trained labor, supplies, support facilities and fuel are 
very limited in the remote regions of Alaska. Modes of transportation 
are usually limited to shallow draft barge or air transport. These are 
costly. The construction season is effectively limited to five or six 
months due to the extreme weather conditions. Environmental constraints 
also limit when work can be performed. The most common are restrictions 
to in-water work and limitations to armor rock extraction activities. 
These factors drive the cost of construction up.
    Many of the communities mentioned in the GAO report are in the 
Yukon-Kuskokwim delta region (Western Alaska). In the 21,000 square 
mile area of the Yukon-Kuskokwim delta region, commercial sources for 
rock are very limited and costly (key material in most bank 
stabilization projects). Larger, high quality rock is only available at 
a couple of places, Cape Nome or Saint Paul, both of which are far away 
and have limited production capacity and transportation options. In 
some instances it has been more cost effective to barge material from 
Washington State. Commercial gravel sources are also very limited and 
typically must be barged into a site from 100 to 150 miles away.
    There is some potential for developing local sources of material 
but the price will often be equivalent to the cost of the nearest 
commercial source (that may be several hundred miles away) plus 
transportation. Contractors using these sources are risking the cost to 
bring in equipment to develop an unknown quantity and quality of 
material. This risk is reflected in their bids.
    Construction equipment is typically not available in remote areas 
and has to be barged into the site. Most transportation of equipment 
occurs by barge during very limited shipping seasons. If the equipment 
does not make the last barge before freeze-up it will sit idle (and may 
be vandalized) all winter. It is often six months or more until the 
next barge can make it to the site. Mobilization costs approach a half 
a million dollars on small-scale bank stabilization projects. Barge 
access may not be available, in which case the equipment must be walked 
cross-country in winter. This is a costly high-risk operation for a 
contractor.
    Trained labor, and the supplies and accommodations for labor are in 
short supply or do not exist in remote areas. Construction camps, with 
food and supplies shipped in, are the norm. They are costly.
    Fuel often needs to be shipped in as well. Many communities in 
remote areas barge in only as much fuel as can be stored and that they 
can afford to buy in the fall before the rivers and inlets freeze. Fuel 
supplies may be very limited in the spring. To get an early start on 
the limited construction season, contractors may arrive in an area in 
early spring and find limited fuel and the next fuel barge is not 
scheduled until June when the river is navigable. These contractors 
often resort to flying their fuel in on small planes, 150 to 200 
gallons at a time. Larger deliveries are not possible given the size of 
the airports associated with these communities. Gasoline in Shishmaref 
currently costs over $5.00 a gallon.
    When a piece of equipment breaks down it may require a week to get 
parts out of Anchorage or Seattle. If the personnel at the site cannot 
repair the equipment, a mechanic may have to be flown to the site to 
perform the repair.
    The expense of construction in much of Alaska is directly related 
to the remoteness of the sites. This translates into high cost for 
transportation, materials and labor and a premium for the high risk 
associated with constructing the project. All of these items are 
reflected in the limited number of bids received on a project.

Local Economy
    Of the authorities that the Corps of Engineers has to address 
flooding and erosion problems in Alaskan Native communities, all 
require cost sharing by the local sponsor. While some communities are 
financially capable, many of the small communities do not have the 
ability to cost share even the small Section 14 projects that require a 
local cost share of 35 percent. Their economies are not wholly cash-
based, so local governments have a very limited tax base. Many of these 
communities have a high percentage of the population living ``below the 
poverty level.'' These communities have a subsistence economy that is 
often more robust than the cash economy measured and evaluated by the 
National Census. There are many healthy and socially fulfilled people 
in these communities living ``below the poverty level.''
    Other sources of funds for the required local cost share have been 
difficult to obtain. Communities have applied for Community Block 
Development Grant (CBDG) funds toward construction of erosion control 
projects, but they were unsuccessful. In recent years, the District's 
only cost-shared erosion control projects are in Barrow, Bethel, and 
Homer, all large hub communities that have financial resources, and 
Shishmaref--where the school district has obtained funds from the State 
to preserve the school infrastructure. Our other erosion control 
projects, Dillingham and Galena, were specifically authorized by 
Congress at 100 percent federal expense.

Data Collection
    The Corps of Engineers is uniquely positioned to provide ongoing 
support to communities in danger of flooding, coastal erosion and other 
natural disasters. For example, the Floodplain Management Services work 
performed by the Alaska District provides technical assistance to many 
communities at risk to flooding. This program helps record maximum high 
water marks in many areas that are affected by both high flow stage and 
ice jam flooding. These records correlate with engineering work to 
define real world flood levels for many communities.
    However, there are still significant flooding and coastal data gaps 
throughout Alaska. Little historical or detailed data exists for the 
coastal areas north of the Aleutian Islands and in most remote areas. 
The lack of reliable data can result in higher costs for flooding and 
erosion solutions because designers must be conservative when working 
with little or no data. Long term and reliable data collection and 
modeling are essential to help designers to provide more cost-effective 
designs, and to develop a better understanding of hazards that exist 
for these communities.
    Both the east and west coasts of the contiguous United States have 
benefited from regional coastal studies that have developed design data 
and models for extreme storm events and typical yearly wave climates. 
These types of data collection studies and models are necessary and 
essential for the State of Alaska, which has over half of the total 
national coastline.

                               CONCLUSION

    We like to think of ourselves as problem solvers and we have the 
technology and experience to find solutions to these complex problems. 
However, the title of the GAO's report, ``Alaska Native Villages, Most 
Are Affected by Flooding and Erosion, but Few Qualify for Federal 
Assistance,'' appropriately summarizes the dilemma faced by these 
Alaskan communities and the federal agencies attempting to help them.
    Mr. Chairman, this concludes my portion of our testimony, and I am 
again honored to appear before you.
    At this time, I am prepared to respond to any questions you or the 
Committee may have.

                                 ______
                                 
              Prepared Statement of Aleutians East Borough

                 NELSON LAGOON EROSION CONTROL PROJECT

    Nelson Lagoon, like some other coastal communities in Alaska, has 
an erosion problem. Climate change is blamed for the lack of 
protection, in that in the past the ice pack protected the community's 
shoreline during severe winter storms. The warming trend of the last 
10-15 years has eliminated the ice pack and exposed the shoreline 
throughout the winter seasons. Last winter alone, more than four feet 
of beach was lost. Residents further speculate that the Alaska 
Department of Transportation's excavation of beach sand in another 
location on the spit (for airport construction) accentuated the 
problem. Regardless of cause, approximately one mile of shoreline at 
the community's doorstep is rapidly eroding and ten homes are at risk.
    In 1986, a contractor came in to ``fix'' the erosion problem using 
gabion baskets filled with rocks. However, the rocks were too small 
with respect to the size of the gabion mesh and the rocks fell out, 
were scattered along the beach by wave activity and were eventually 
washed away.
    In addition to the unprotected section of shoreline, another 
``seawall''--a wooden barrier that ran in front of several homes along 
the beach--is not working. Nelson Lagoon has a normal tidal range of 
approximately 18 feet, with storms the tides are in the range of 20-22 
feet. Because the wooden barrier has no weight and is not anchored, it 
floats during high tides and during storms the waves simply roll over 
it. Thus, while it was originally intended to dissipate waves before 
they reach the shore, it is not effective.
    Residents of one house along the beach have, in desperation, 
attempted to fashion their own erosion control. The fisherman head of 
house gathered rocks from an unknown location outside the community and 
filled a series of old plastic fish totes with rocks, bolting them 
together for stability. The makeshift ``seawall'' is approximately six 
feet wide by fifteen feet long. It is crude but apparently effective. 
This makeshift solution might be suggested for other homes along the 
beach, except that Nelson Lagoon has no source of rock and fish totes 
are not affordable for every household.
    The Aleutians East Borough has received $100,000 of Coastal Impact 
Assistance Program grant funds to provide a demonstration erosion 
control project. The project combines local labor and equipment with a 
new technology called ``Geotubes''. This summer 400 feet of sand-filled 
fabric tubes will be placed along the beach in Nelson Lagoon in an 
engineered position. The site has been surveyed and will be surveyed 
again one year and two years after the Geotubes are in place to 
determine effectiveness. This successful project will provide a model 
of erosion control that may be adopted or adapted by other coastal 
communities and used more extensively in Nelson Lagoon. If 
unsuccessful, the report will document the failure of the Geotubes for 
other considering their options for erosion control.
    The Aleutians East Borough requests continued support for 
identifying areas and causes of erosion in Nelson Lagoon and evaluating 
the Geotube Project and other erosion control options.

    Chairman Stevens. Our next witness is John Pennington, 
Regional Director of the Federal Emergency Management Agency. 
John, good morning.

STATEMENT OF JOHN PENNINGTON, REGIONAL DIRECTOR, U.S. 
            FEDERAL EMERGENCY MANAGEMENT AGENCY
ACCOMPANIED BY CARL COOK, DIVISION DIRECTOR, FLOOD INSURANCE MITIGATION 
            DIVISION, U.S. FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Pennington. Good morning, Mr. Chairman, and members of 
the committee. Thank you for inviting us here this morning.
    I'm John Pennington, the Regional Director of the U.S. 
Department of Homeland Security's Federal Emergency Management 
Agency, Region 10, located in Bothell, Washington. Our four 
States incorporate areas of Alaska, Idaho, Washington, and 
Oregon. On behalf of FEMA and the Department of Homeland 
Security, we welcome and appreciate the invitation to appear 
today before the Committee on Appropriations. It is a distinct 
honor and privilege to be here.
    With me today is Carl Cook, who is our Division Director 
for our Flood Insurance Mitigation Division. He's available to 
answer any technical questions as it relates to FEMA policy. As 
you well know, FEMA is the lead Federal agency responsible for 
coordinating disaster response, recovery, and mitigation 
efforts following the disasters and emergencies that are 
declared by the President.

                        STAFFORD ACT ASSISTANCE

    Our programs are made available to communities through our 
State partner organizations, and in this State it is the Alaska 
Division of Homeland Security and Emergency Management. They 
are intended to supplement the response activities and recovery 
programs of States. The programs are authorized by the Robert 
T. Stafford Disaster Relief and Emergency Assistance Act, 
commonly referred to as the Stafford Act. The Stafford Act is 
widely known as the authority by which programs are made 
available following disaster declarations.
    There is a myriad of assistances available under the 
Stafford Act, and I'd like to point out a couple of them that I 
think would be of interest to you. First, the Public Assistance 
Program, which provides assistance for the restoration of 
public and certain private nonprofit facilities that are 
damaged by an event, as well as the reimbursement of costs 
associated with emergency protective measures and debris 
removal.
    The second program is Individual Assistance, which helps 
individuals and families ensure their essential needs are met 
after disasters and that they can begin the often long road to 
successful recovery.
    The third and fourth mitigation programs; the Hazard 
Mitigation Grant Program, which I'll discuss in detail in a 
moment, as well as the Pre-Disaster Mitigation Program, which 
is authorized under the Stafford Act.
    FEMA's programs are primarily designed to assist States and 
communities in carrying out their responsibilities and their 
priorities. Our assistance is available in varying forms, such 
as grants, as well as in both technical and planning 
assistance.
    Before I get into the area of programs, I think it's 
interesting to point out that the success of FEMA, both in this 
region and nationwide, is really built on our partnerships in 
the State, tribal, and private sectors. In this State we have 
been very fortunate to deal with the Alaska Division of 
Homeland Security and Emergency Management, in particular, 
Commissioner Campbell--General Craig Campbell, and Dave 
Liebersbach, who is the Director of the Alaska Division of 
Homeland Security and Emergency Management. We have forged what 
can only be described as a very strong professional working 
relationship with them and we feel really fortunate to have 
them as a partner.
    Considering the subject of ``Alaska Native Villages 
Affected by Flooding and Erosion,'' I'm going to focus on three 
of our programs that I believe can be available to the State of 
Alaska and the Native villages in their efforts to address the 
complex challenges of flooding and erosion.

                    PRE-DISASTER MITIGATION PROGRAM

    First, the Pre-Disaster Mitigation Program. It was 
authorized by Congress under the Disaster Mitigation Act of 
2000, which was signed on October 30 of that year. This program 
is available to communities through the State emergency 
management organizations and is designed to fund the most 
competitive mitigation projects and planning efforts of States 
and communities, as are identified and prioritized in State and 
local mitigation plans. The development and adoption of these 
State and local mitigation plans is required under the Stafford 
Act as a result of the legislative amendments of 2000.
    Funding for this competitive grant program is not triggered 
by a Presidential Disaster Declaration, rather it is funded 
through the annual appropriations process. All States and 
communities throughout the Nation that have FEMA-approved 
mitigation plans are eligible to apply for the program. 
Accordingly, the Pre-Disaster Mitigation Program will help 
sustain an enhanced national mitigation effort year to year, as 
opposed to previous years when FEMA mitigation assistance was 
generally only available after a disaster declaration has taken 
place.
    Examples of projects funded under the program include the 
development of all hazard mitigation plans, seismic 
retrofitting of critical public buildings, and acquisition or 
relocation of flood-prone properties located in the floodplain, 
just to name a few. All projects submitted are developed at the 
State or local level, must be cost-effective, and are approved 
following a nationally competitive peer-review process.

                    HAZARD MITIGATION GRANT PROGRAM

    Second is our Hazard Mitigation Grant Program. It's 
available to States and communities following Presidential 
Disaster Declarations. It's quite similar to the Pre-Disaster 
Mitigation Program just described, though it is only available 
after a disaster declaration and is available only for the 
State in which the declaration was made. Further, the amount of 
assistance available under the Hazard Mitigation Grant Program 
is a percentage of FEMA's assistance made available under the 
response and recovery programs, specifically 7.5 percent of the 
total projected expenditures for the disaster grants. 
Essentially, the greater the losses an affected State incurs, 
the greater the hazard mitigation assistance available.
    As with the Pre-Disaster Mitigation Program, all projects 
are developed at the State or local level, need to be cost 
effective, and are recommended by the State in accordance with 
the State Hazard Mitigation Plan. Again, examples of projects 
funded under the Hazard Mitigation Grant Program include the 
development of all hazard mitigation plans, the seismic 
retrofitting, et cetera.

                  FLOOD MITIGATION ASSISTANCE PROGRAM

    Third, FEMA's Flood Mitigation Assistance Program. It is 
authorized for mitigating structures insured by the National 
Flood Insurance Program within a community participating in 
that particular program. Projects include the elevation, 
relocation, and acquisition of flood-prone structures. Because 
this program is funded by monies collected from policyholders, 
the recent focus of the program has been on mitigating 
repetitive loss structures in order to reduce the drain on the 
actual fund itself. Repetitive loss structures are defined as 
those insured structures where two or more insurance claims 
have been filed in any 10-year period.
    There are two important points that I'd like to bring to 
the committee's attention. One--and this is regarding the Flood 
Mitigation Assistance Program. One, many of the remote Alaskan 
communities vulnerable to flooding and erosion are not 
currently in areas mapped for flood hazards and are not 
participating in the NFIP, which is a requirement for 
consideration under the Flood Mitigation Assistance Program.
    Second, in fiscal year 1998, $600,000 of assistance was 
actually provided to Shishmaref under the Flood Mitigation 
Assistance Program for bank protection and the elevation and 
relocation of approximately nine residences. This assistance 
was provided, however, prior to the policy change that required 
all projects to be targeted at NFIP repetitive loss structures.
    In summary, FEMA may provide assistance to Alaskan Native 
villages affected by flooding and erosion primarily in the 
areas of mitigation planning and project grants. I will ensure 
that our mitigation staff will certainly do anything that it 
can in the areas of PDM, HMGP and NFIP to accomplish that.
    What I'd like to leave with you is--and I think Senator 
Murkowski's comments are very appropriate--that a lot of times 
FEMA does come in afterwards, and I think we are limited by the 
Stafford Act in so many cases. But if something does occur in 
those communities, rest assured that we are there to implement 
the full breadth of the Stafford Act, its policies and programs 
to ensure that those communities are taken care of.
    Thank you.
    Chairman Stevens. Thank you very much.
    [The statement follows:]

                Prepared Statement of John E. Pennington

    Chairman Stevens, and Members of the Committee, I am John E. 
Pennington, Regional Director of the U.S. Department of Homeland 
Security's Federal Emergency Management Agency (FEMA) Region 10 Office 
located in Bothell, Washington. On behalf of FEMA, and the Department 
of Homeland Security, we welcome and appreciate the invitation to 
appear today before the Committee on Appropriations. It is a distinct 
honor and privilege to be here today.
    As you all well know, FEMA is the lead federal agency responsible 
for coordinating disaster response, recovery, and mitigation efforts 
following disasters and emergencies declared by the President. Our 
programs are made available to communities through our state partner 
organizations, and are intended to supplement the response activities 
and recovery programs of states. These programs are authorized under 
the Robert T. Stafford Disaster Relief and Emergency Assistance Act, 
commonly referred to as the ``Stafford Act.'' The Stafford Act is 
widely known as the authority by which programs are made available 
following disaster declarations.
    Assistance that is made available to states, communities, and 
individuals following disasters include:
  --The Public Assistance program, which provides assistance for the 
        restoration of public and certain private non-profit facilities 
        damaged by an event, and the reimbursement of the costs 
        associated with emergency protective measures and debris 
        removal;
  --The Individual Assistance programs, which help individuals and 
        families ensure their essential needs are met after disasters 
        and that they can begin the road to successful recovery; and
  --The Hazard Mitigation Grant program, which I will discuss in detail 
        in a moment.
    Additionally, the Pre-Disaster Mitigation program is authorized 
under the Stafford Act.
    FEMA's programs are designed to assist states and communities in 
carrying out their responsibilities and priorities. Our assistance is 
available in varying forms, such as grants, technical assistance, and 
planning assistance.
    Before I discuss the specific programs applicable to the topic of 
this hearing, I must point out that the success of FEMA and our 
programs is dependent on a strong professional partnership with state 
emergency management offices. Thanks to the leadership of Major General 
Craig Campbell, Commissioner of the Alaska Department of Military and 
Veterans Affairs, and Dave Liebersbach, Director of the Alaska Division 
of Homeland Security and Emergency Management, we have forged a strong 
and lasting professional partnership that ensures successful emergency 
management for Alaskan communities and citizens. FEMA greatly 
appreciates their leadership, professionalism, and dedication.
    Considering the subject of ``Alaska Native Villages Affected by 
Flooding and Erosion,'' I will focus on three of FEMA's programs that 
could be available to the state of Alaska and the Alaskan Native 
villages in their efforts to address the complex challenges of flooding 
and erosion.
    First, the Pre-Disaster Mitigation program was authorized by 
Congress under the Disaster Mitigation Act of 2000, which was signed 
into law on October 30, 2000. This program is available to communities 
through the state emergency management organizations, and is designed 
to fund the most competitive mitigation projects and planning efforts 
of states and communities, as identified and prioritized in state and 
local mitigation plans. The development and adoption of these state and 
local mitigation plans is required under the Stafford Act as a result 
of the legislative amendments of 2000. Funding for this competitive 
grant program is not triggered by a Presidential Disaster Declaration; 
rather it is funded through the annual appropriations process. All 
states and communities throughout the nation that have FEMA-approved 
mitigation plans are eligible to apply for the program. Accordingly, 
the Pre-Disaster Mitigation program will help sustain an enhanced 
national mitigation effort year-to-year, as opposed to previous years 
when FEMA mitigation assistance was generally only available when a 
disaster was declared in a state.
    Examples of projects funded under the program include the 
development of all-hazard mitigation plans, the seismic retrofitting of 
critical public buildings, and acquisition or relocation of flood-prone 
properties located in the floodplain, just to name a few. All projects 
submitted are developed at the state or local level, must be cost-
effective, and are approved following a nationally competitive peer-
review process.
    Second, the Hazard Mitigation Grant Program is available to states 
and communities following Presidential Disaster Declarations. This 
program is quite similar to the Pre-Disaster Mitigation program just 
described, though it is available only after a Disaster is declared, 
and is available only for the state in which the declaration was made. 
Further, the amount of assistance available under the Hazard Mitigation 
Grant Program is a percentage of FEMA's assistance made available under 
the response and recovery programs--specifically 7.5 percent of the 
total projected expenditures for the disaster grants. Essentially, the 
greater the losses an affected state incurs, the greater the hazard 
mitigation assistance available.
    As with the Pre-Disaster Mitigation program, all projects are 
developed at the state or local level, must be cost-effective, and are 
recommended by the state in accordance with the State Hazard Mitigation 
Plan. Again, examples of projects funded under the Hazard Mitigation 
Grant Program include the development of all-hazards mitigation plans, 
the seismic retrofitting of critical public buildings, and acquisition 
or relocation of flood-prone properties located in the floodplain.
    Third, FEMA's Flood Mitigation Assistance program is authorized for 
mitigating structures insured by the National Flood Insurance Program 
within a community participating in the National Flood Insurance 
Program. Projects include the elevation, relocation, and acquisition of 
flood prone structures. Because this program is funded by monies 
collected from policyholders, the recent focus of the program has been 
on mitigating repetitive loss structures in order to reduce the drain 
on the National Flood Insurance Fund. Repetitive loss structures are 
those insured structures where two or more insurance claims have been 
filed in any 10-year period.
    There are two important points I must mention related to the 
potential eligibility of projects under the Flood Mitigation Assistance 
program: (1) Many of the remote Alaskan communities vulnerable to 
flooding and erosion are not currently in areas mapped for flood 
hazards and are not participating in the NFIP, which is a requirement 
for consideration under the Flood Mitigation Assistance program, even 
in unmapped areas; and (2) In fiscal year 1998, $600,000 of assistance 
was provided to Shishmaref under the Flood Mitigation Assistance 
program for bank protection and the elevation and relocation of 
approximately nine residences. This assistance was provided prior to 
the policy change that required all projects to be targeted at NFIP 
repetitive loss structures.
    In summary, FEMA may provide assistance to Alaskan Native Villages 
affected by flooding and erosion primarily in the areas of mitigation 
planning and project grants. I will ensure that the dedicated 
mitigation staff of FEMA will continue to work with the state of Alaska 
to identify and provide technical assistance in the development of 
cost-effective projects for consideration under the Pre-Disaster 
Mitigation and Hazard Mitigation Grant programs and, for communities 
participating in the National Flood Insurance Program, the Flood 
Mitigation Assistance Program. Finally, if one or more communities 
experience significant flooding and a Major Disaster were declared, 
please be assured that the full breadth of our Stafford Act programs 
would become available. FEMA would ensure the recovery and mitigation 
programs would be provided with the greatest of coordination and 
allowable flexibility to ensure the long-term plans of the communities 
are considered, to include the potential relocation of certain 
structures and facilities.
    In closing, I appreciate the opportunity to represent the Federal 
Emergency Management Agency and the Department of Homeland Security 
before the Committee on Appropriations. I am pleased to answer any 
questions you may have.

    Chairman Stevens. Our next witness is Mr. Robert A. 
Robinson, Managing Director of the Natural Resources and 
Environment for the United States General Accounting Office. 
Rob.

STATEMENT OF ROBERT A. ROBINSON, MANAGING DIRECTOR, 
            NATURAL RESOURCES AND ENVIRONMENT, U.S. 
            GENERAL ACCOUNTING OFFICE
    Mr. Robinson. Thank you, Mr. Chairman. It's always a 
pleasure to come to Alaska for any reason, and it's a 
particular privilege to be able to discuss the findings of our 
December 2003 report on flooding and erosion problems in Alaska 
villages. Joining me today is Jack Malcolm, who is GAO's expert 
on Federal Native American programs and the Stafford Act and 
who worked on this project, as well as our ongoing work for you 
looking at rights in the States.
    Our review of Alaska Native village flooding was undertaken 
in response to a congressional mandate set forth in the 
conference report on the 2003 military construction 
appropriation. It had four distinct objectives. First, to 
determine the extent of the flooding and erosion problem. 
Second, to identify Federal and State programs that are 
available to address the problems. Three, to determine how nine 
specific villages were responding to their particular problems, 
and, finally, to identify alternatives for the Congress to 
consider in providing assistance to the villages. Respecting 
the time available, let me just hit the highlights of what we 
found.
    For those interested in a fuller discussion, there are some 
hard copies available in the back of the room as well.
    First, flooding and erosion affects the vast majority of 
Alaska Native villages. The affected villages are in every 
region of the State, specifically almost 90 percent or 184 out 
of 213 villages face flooding and erosion problems of some 
sort. Our findings are consistent with State studies in the 
early 1980s that found a similar count.
    Unfortunately, while many such problems are long-standing, 
it appears that they are getting worse due in part to rising 
temperatures. The cost to address these problems could easily 
exceed $1 billion.
    Second, numerous national programs managed by at least 
seven Federal agencies are available to respond to the flooding 
and erosion problems as discussed. Multiple Alaska State 
programs are also available. The principal programs are 
administered by the Army Corps of Engineers and the Agriculture 
Department's Natural Resources and Conservation Services, DAT- 
and HUD-run multiple programs, and of course, as you heard, 
FEMA runs relative programs as well.
    The good news is that many programs exist. The bad news is 
that the villages often do not meet the key eligibility 
requirements to qualify for assistance. This is occurring for 
two main reasons: One, the expected cost of projects to address 
the problems often exceed the maximum required benefit. The 
main Federal programs require maximum benefits to exceed 
project costs before funding can be provided. This legal 
requirement is set forth in the Flood Control Act of 1936.
    Second, villages often cannot come up with the funds needed 
to satisfy cost-share requirements. As you've heard earlier, 
the Corps of Engineers generally requires that local 
communities can fund between 25 and 50 percent of flood control 
projects. Native villages, of course, do not have the hundreds 
of thousands of dollars that could be necessary to meet this 
obligation.
    The State of Alaska has jumped in on many occasions in the 
past to fulfill that obligation, but State budgets are getting 
short as well.
    Relative to the third objective: Of the nine villages that 
we reviewed, four, Kivalina, Koyukuk, Newtok and Shishmaref are 
in imminent danger and are making plans to relocate at 
potentially very high costs. The cost estimates to relocate 
Kivalina's 388 residents have ranged from $100 million to well 
over $400 million. No estimates are available for Newtok, 
Shishmaref and Koyukuk, but the United States Corps of 
Engineers is actively starting a number of studies to develop 
cost estimates.
    The other five villages, Barrow, Bethel, Kaktovik, Point 
Hope, and Unalakleet, are considering other alternatives, such 
as protecting the infrastructure or supplementing existing 
seawalls. I believe representatives of each one of these nine 
villages will be speaking tomorrow.
    Finally, we presented four options for the Congress to 
consider as it deliberates over how and to what extent Federal 
programs could readily respond to the flooding and erosion 
problems here.
    They are, in order, expanding the role of the Denali 
Commission to include flooding and erosion control among its 
authorized activities; directing Federal agencies, particularly 
the Corps and main NRC programs, to include a value for social 
and environmental factors in their cost-benefit calculations, 
not just a consideration for flood and erosion control projects 
in Alaska Native villages; the programs waiving the Federal 
cost-sharing requirement for flooding and erosion projects in 
Alaska villages and, finally, authorizing villages to 
consolidate or bundle funds from multiple Federal agencies and 
programs to address the problems or satisfy local cost-share 
requirements.
    Obviously, considering such alternatives is a policy 
decision resting with the Congress, and we did not weigh in on 
which, if any, option should be chosen. As needs and 
potentially other options are raised, however, budgetary costs 
as well as the implications of any program changes made for 
Alaska villages would have for the rest of the Nation the 
precedent-setting aspect would have to be considered.
    Mr. Chairman, there is much more we could say and discuss 
on the subject, but let me close here and just mention that 
Jeff and I are available and happy to respond to any questions 
you may have at the appropriate time.
    Thank you.
    Chairman Stevens. Thank you very much.
    [The statement follows:]

                Prepared Statement of Robert A. Robinson

    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to discuss our work on Alaska Native villages affected by 
flooding and erosion. As you know, Alaska's shorelines and riverbanks 
serve as home to over 200 Native villages whose inhabitants generally 
hunt and fish for subsistence. However, these shorelines and riverbanks 
can be subject to periodic, yet severe flooding and erosion. Coastal 
and river flooding and erosion cause millions of dollars of property 
damage in Alaska Native villages, damaging or destroying homes, public 
buildings, and airport runways. Several federal and state agencies are 
directly or indirectly involved in providing assistance for flooding 
and erosion in Alaska. In addition to government agencies, the Denali 
Commission, created by Congress in 1998, is charged with addressing 
crucial needs of rural Alaska communities, particularly isolated Alaska 
Native villages, although it is not directly responsible for responding 
to flooding and erosion.\1\
---------------------------------------------------------------------------
    \1\ Pub. L. No. 105-277, tit. III, 112 Stat. 2681 (1998).
---------------------------------------------------------------------------
    The fiscal year 2003 Conference Report for the military 
construction appropriation bill directed GAO to study Alaska Native 
villages affected by flooding and erosion.\2\ In December 2003, we 
reported on Alaska Native villages' access to federal flooding and 
erosion programs.\3\ These programs are administered by several federal 
agencies, but principally by the U.S. Army Corps of Engineers and the 
Agriculture Department's Natural Resources Conservation Service. Our 
report discussed four alternatives that could help mitigate the 
barriers that villages face in obtaining federal services. Our 
testimony today is based on that report and focuses on (1) the number 
of Alaska Native villages affected by flooding and erosion, (2) the 
extent to which federal assistance has been provided to those villages, 
(3) the efforts of nine villages to respond to flooding and erosion, 
and (4) alternatives that Congress may wish to consider when providing 
assistance for flooding and erosion of Alaska Native villages.
---------------------------------------------------------------------------
    \2\ H. R. Conf. Rep. No. 107-731, at 15 (2002).
    \3\ U.S. General Accounting Office, Alaska Native Villages: Most 
Are Affected by Flooding and Erosion, but Few Qualify for Federal 
Assistance, GAO-04-142 (Washington, D.C.: Dec. 12, 2003).
---------------------------------------------------------------------------
    To meet these objectives, we reviewed federal and state flooding 
and erosion studies and project documents and interviewed federal and 
state agency officials and representatives from nine Alaska Native 
villages. We also visited four of the nine villages. While the 
conference report directed us to include at least six villages in our 
study--Barrow, Bethel, Kaktovik, Kivalina, Point Hope, and Unalakleet--
we added three more--Koyukuk, Newtok, and Shishmaref--based on 
discussions with congressional staff and with federal and state 
officials familiar with flooding and erosion problems. Our December 
2003 report, on which this testimony is based, was prepared in 
accordance with generally accepted government auditing standards.
    In summary, we reported the following:
  --First, 184 out of 213, or 86 percent of Alaska Native villages 
        experience some level of flooding and erosion, according to 
        federal and state officials in Alaska. Native villages on the 
        coast or along rivers have long been subject to both annual and 
        episodic flooding and erosion. Various studies and reports 
        indicate that coastal villages in Alaska are becoming more 
        susceptible to flooding and erosion in part because rising 
        temperatures delay formation of protective shore ice, leaving 
        the villages vulnerable to fall storms. For example, the 
        barrier island village of Shishmaref, which is less than 1,320 
        feet wide, lost 125 feet of beach to erosion during an October 
        1997 storm. In addition, villages in low-lying areas along 
        riverbanks or in river deltas are susceptible to flooding and 
        erosion caused by ice jams, snow and glacial melts, rising sea 
        levels, and heavy rainfall.
  --Second, small and remote Alaska Native villages often fail to 
        qualify for assistance under federal flooding and erosion 
        programs because they do not meet program eligibility criteria. 
        For example, according to the Corps' guidelines for evaluating 
        water resource projects, the Corps generally cannot undertake a 
        project when the economic costs exceed the expected benefits. 
        With few exceptions, Alaska Native villages' requests for 
        assistance under this program are denied because the project 
        costs usually outweigh expected economic benefits as currently 
        defined. Even villages that meet the Corps' cost/benefit 
        criteria may still fail to qualify if they cannot meet cost-
        share requirements for the project. The Natural Resources 
        Conservation Service's Watershed Protection and Flood 
        Prevention Program also requires a cost/benefit analysis 
        similar to that of the Corps. As a result, few Alaska Native 
        villages qualify for assistance under this program. However, 
        the Natural Resources Conservation Service has other programs 
        that have provided limited assistance to these villages--in 
        part because these programs consider additional social and 
        environmental factors in developing their cost/benefit 
        analysis.
  --Third, of the nine villages that we reviewed, four--Kivalina, 
        Koyukuk, Newtok, and Shishmaref--are in imminent danger from 
        flooding and erosion and are making plans to relocate; the 
        remaining villages are taking other actions. Kivalina, Newtok, 
        and Shishmaref are working with relevant federal agencies to 
        determine the suitability of possible relocation sites, while 
        Koyukuk is in the early stages of planning for relocation. 
        Because of the high cost of materials and transportation in 
        remote parts of Alaska, the cost of relocation for these 
        villages is expected to be high. The five villages not 
        currently planning to relocate--Barrow, Bethel, Kaktovik, Point 
        Hope, and Unalakleet--are in various stages of responding to 
        their flooding and erosion problems. For example, two of these 
        villages, Kaktovik and Point Hope, are studying ways to prevent 
        flooding of specific infrastructure, such as the airport 
        runway.
  --Fourth, federal and Alaska state officials and Alaska Native 
        village representatives that we spoke with identified the 
        following three alternatives that could help mitigate barriers 
        to villages' obtaining federal services: (1) expand the role of 
        the Denali Commission to include responsibility for managing a 
        new flooding and erosion assistance program, (2) direct the 
        federal agencies to consider social and environmental factors 
        in their cost benefit analyses for these projects, and (3) 
        waive the federal cost-sharing requirement for flooding and 
        erosion programs for Alaska Native villages. In addition, we 
        identified as a fourth alternative the bundling of funds from 
        various agencies to address flooding and erosion problems in 
        Alaska Native villages. While we did not determine the cost or 
        the national policy implications associated with any of these 
        alternatives, these costs and implications are important 
        considerations in determining the appropriate level of federal 
        services that should be available to respond to flooding and 
        erosion in Alaska Native villages. Consequently, in our report 
        we suggested the Congress consider directing relevant federal 
        agencies and the Denali Commission to assess the feasibility of 
        each of the alternatives, as appropriate. In commenting on our 
        report, the Denali Commission and two federal agencies raised 
        questions about expanding the Denali Commission's role to cover 
        flooding and erosion. While each of these entities recognized 
        the need for improved coordination of federal efforts to 
        address flooding and erosion in Alaska Native villages, none of 
        them provided any specific suggestions on how this should be 
        accomplished or by whom. As a result, we continue to believe 
        that expanding the role of the commission is a viable 
        alternative.

                               BACKGROUND

    Alaska encompasses an area of about 365 million acres--more than 
the combined area of the next three largest states of Texas, 
California, and Montana. The state is bound on three sides by water, 
and its coastline, which stretches about 6,600 miles (excluding island 
shorelines, bays and fjords) and accounts for more than half of the 
entire U.S. coastline, varies from rocky shores, sandy beaches, and 
high cliffs to river deltas, mud flats, and barrier islands. The 
coastline constantly changes through wave action, ocean currents, 
storms, and river deposits and is subject to periodic, yet often 
severe, erosion. Alaska also has more than 12,000 rivers, including 
three of the ten largest in the country: the Yukon, Kuskokwim, and 
Copper Rivers.\4\ (See fig. 1.) While these and other rivers provide 
food, transportation, and recreation for people, as well as habitat for 
fish and wildlife, their waters also shape the landscape. In 
particular, ice jams on rivers and flooding of riverbanks during spring 
breakup change the contour of valleys, wetlands, and human settlements.
---------------------------------------------------------------------------
    \4\ The size is determined by the average rate of flow (discharge 
at the mouth).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Figure 1. Map of Alaska Showing Major Rivers, Oceans, and Mountain 
                                 Ranges

    Permafrost (permanently frozen subsoil) is found over approximately 
80 percent of Alaska. It is deepest and most extensive on the Arctic 
Coastal Plain and decreases in depth further south, eventually becoming 
discontinuous. In northern Alaska, where the permafrost is virtually 
everywhere, most buildings are elevated to minimize the amount of heat 
transferred to the ground to avoid melting the permafrost. However, 
rising temperatures in recent years have led to widespread thawing of 
the permafrost, causing serious damage. As permafrost melts, land 
slumps and erodes, buildings and runways sink, and bulk fuel tank areas 
are threatened. (See fig. 2.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            Figure 2. Sea Erosion at Shishmaref (June 2003)

    Rising temperatures have also affected the thickness, extent, and 
duration of sea ice that forms along the western and northern coasts. 
Loss of sea ice leaves coasts more vulnerable to waves, storm surges, 
and erosion. When combined with the thawing of permafrost along the 
coast, loss of sea ice seriously threatens coastal Alaska Native 
villages. Furthermore, loss of sea ice alters the habitat and 
accessibility of many of the marine mammals that Alaska Natives depend 
upon for subsistence. As the ice melts or moves away early, walruses, 
seals, and polar bears move with it, taking themselves too far away to 
be hunted.
    Federal, state, and local government agencies share responsibility 
for controlling and responding to flooding and erosion. The U.S. Army 
Corps of Engineers has responsibility for planning and constructing 
streambank and shoreline erosion protection and flood control 
structures under a specific set of requirements.\5\ The Department of 
Agriculture's Natural Resources Conservation Service (NRCS) is 
responsible for protecting small watersheds. The Continuing Authorities 
Program, administered by the Corps, and the Watershed Protection and 
Flood Prevention Program, administered by NRCS, are the principal 
programs available to prevent flooding and control erosion. Table 1 
below lists and describes the five authorities under the Corps' 
Continuing Authorities Program that address flooding and erosion, while 
table 2 identifies the main NRCS programs that provide assistance for 
flooding and erosion.
---------------------------------------------------------------------------
    \5\ The Corps may study and construct erosion protection and flood 
control structures, provided it receives authority and appropriations 
from Congress to do so. In addition to building structures, the Corps 
may also consider and implement non-structural and relocation 
alternatives.

TABLE 1.--AUTHORITIES THAT ADDRESS FLOODING AND EROSION UNDER THE CORPS'
                     CONTINUING AUTHORITIES PROGRAM
------------------------------------------------------------------------
             Program authority                       Description
------------------------------------------------------------------------
Section 14 of the Flood Control Act of      For emergency streambank and
 1946.                                       shoreline erosion
                                             protection for public
                                             facilities.
Section 205 of the Flood Control Act of     Authorizes flood control
 1948.                                       projects.
Section 208 of the Flood Control Act of     Authorizes flood control
 1954.                                       activities.
Section 103 of the River and Harbor Act of  Protect shores of publicly
 1962.                                       owned property from
                                             hurricane and storm damage.
Section 111 of the River and Harbor Act of  Mitigate shoreline erosion
 1968.                                       damage caused by federal
                                             navigation projects.
------------------------------------------------------------------------
Source: GAO analysis of Corps program information.

    In addition to the Corps' Continuing Authorities Program, other 
Corps authorities that may address problems related to flooding and 
erosion include the following:
  --Section 22 of the Water Resources Development Act of 1974, which 
        provides authority for the Corps to assist states in the 
        preparation of comprehensive plans for the development, 
        utilization, and conservation of water and related resources of 
        drainage basins.
  --Section 206 of the Flood Control Act of 1960, which allows the 
        Corps' Flood Plain Management Services' Program to provide 
        states and local governments technical services and planning 
        guidance that is needed to support effective flood plain 
        management.

      TABLE 2.--NRCS PROGRAMS THAT RESPOND TO FLOODING AND EROSION
------------------------------------------------------------------------
                  Program                            Description
------------------------------------------------------------------------
Watershed Protection and Flood Prevention   Provides funding for
 Program.                                    projects that control
                                             erosion and prevent
                                             flooding. Limited to
                                             watersheds that are less
                                             than 250,000 acres.
Emergency Watershed Protection Program....  Provides assistance where
                                             there is some imminent
                                             threat--usually from some
                                             sort of erosion caused by
                                             river flooding.
Conservation Technical Assistance Program.  Provides technical
                                             assistance to communities
                                             and individuals to solve
                                             natural resource problems
                                             including reducing erosion,
                                             improving air and water
                                             quality, and maintaining or
                                             restoring wetlands and
                                             habitat.
------------------------------------------------------------------------
Source: GAO analysis of NRCS program information.

    A number of other federal agencies, such as the Departments of 
Transportation, Homeland Security (Federal Emergency Management 
Agency), and Housing and Urban Development, also have programs that can 
assist Alaska Native villages in responding to the consequences of 
flooding by funding tasks such as moving homes, repairing roads and 
boardwalks, or rebuilding airport runways. In additional to government 
agencies, the Denali Commission, created by Congress in 1998, while not 
directly responsible for responding to flooding and erosion, is charged 
with addressing crucial needs of rural Alaska communities, particularly 
isolated Alaska Native villages.
    On the state side, Alaska's Division of Emergency Services responds 
to state disaster declarations dealing with flooding and erosion when 
local communities request assistance. The Alaska Department of 
Community and Economic Development helps communities reduce losses and 
damage from flooding and erosion. The Alaska Department of 
Transportation and Public Facilities funds work to protect runways from 
erosion. Local governments such as the North Slope Borough have also 
funded erosion control and flood protection projects.
most alaska native villages are affected to some extent by flooding and 

                                EROSION

    Flooding and erosion affects 184 out of 213, or 86 percent, of 
Alaska Native villages to some extent, according to studies and 
information provided to us by federal and Alaska state officials. The 
184 affected villages consist of coastal and river villages throughout 
the state. (See fig. 3.) Villages on the coast are affected by flooding 
and erosion from the sea. For example, when these villages are not 
protected by sea ice, they are at risk of flooding and erosion from 
storm surges. In the case of Kivalina, the community has experienced 
frequent erosion from sea storms, particularly in late summer or fall. 
These storms can result in a sea level rise of 10 feet or more, and 
when combined with high tide, the storm surge becomes even greater and 
can be accompanied by waves containing ice. Communities in low-lying 
areas along riverbanks or in river deltas are susceptible to flooding 
and erosion caused by ice jams, snow and glacial melts, rising sea 
levels and heavy rainfall.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Figure 3. Locations of 184 Alaska Native Villages Affected by Flooding 
                              and Erosion

    Flooding and erosion are long-standing problems in Alaska. In 
Bethel, Unalakleet, and Shishmaref for example, these problems have 
been well documented dating back to the 1930s, 1940s, and 1950s, 
respectively. The state has made several efforts to identify 
communities affected by flooding and erosion over the past 30 years. In 
1982, a state contractor developed a list of Alaska communities 
affected by flooding and erosion.\6\ This list identified 169 of the 
213 Alaska Native villages, virtually the same villages identified by 
federal and state officials that we consulted in 2003. In addition, the 
state appointed an Erosion Control Task Force in 1983 to investigate 
and inventory potential erosion problems and to prioritize erosion 
sites by severity and need. In its January 1984 final report, the task 
force identified a total of 30 priority communities with erosion 
problems. Of these 30 communities, 28 are Alaska Native villages. 
Federal and state officials that we spoke with in 2003 also identified 
almost all of the Native communities given priority in the 1984 report 
as still needing assistance.
---------------------------------------------------------------------------
    \6\ This report was prepared for the Alaska Department of Community 
and Regional Affairs, the predecessor of the Alaska Department of 
Community and Economic Development.
---------------------------------------------------------------------------
    While most Alaska Native villages are affected to some extent by 
flooding and erosion, quantifiable data are not available to fully 
assess the severity of the problem. Federal and Alaska state agency 
officials that we contacted could agree on which three or four villages 
experience the most flooding and erosion, but they could not rank 
flooding and erosion in the remaining villages by high, medium, or low 
severity. These agency officials said that determining the extent to 
which villages have been affected by flooding and erosion is difficult 
because Alaska has significant data gaps. These gaps occur because 
remote locations lack monitoring equipment. The officials noted that 
about 400 to 500 gauging stations would have to be added in Alaska to 
attain the same level of gauging as in the Pacific Northwest.
    While flooding and erosion has been documented in Alaska for 
decades, various studies and reports indicate that coastal villages in 
Alaska are becoming more susceptible. This increasing susceptibility is 
due in part to rising temperatures that cause protective shore ice to 
form later in the year, leaving the villages vulnerable to storms. 
According to the Alaska Climate Research Center, mean annual 
temperatures have risen for the period from 1971 to 2000, although 
changes varied from one climate zone to another and were dependent on 
the temperature station selected. For example, Barrow experienced an 
average temperature increase of 4.16 degrees Fahrenheit for the 30-year 
period from 1971 to 2000, while Bethel experienced an increase of 3.08 
degrees Fahrenheit for the same time period.

     ALASKA NATIVE VILLAGES HAVE DIFFICULTY QUALIFYING FOR FEDERAL 
                               ASSISTANCE

    Alaska Native villages have difficulty qualifying for assistance 
under the key federal flooding and erosion programs, largely because of 
program requirements that the project costs not exceed economic 
benefits, or because of cost-sharing requirements. For example, 
according to the Corps' guidelines for evaluating water resource 
projects, the Corps generally cannot undertake a project whose costs 
exceed its expected economic benefits as currently defined.\7\ With few 
exceptions, Alaska Native villages' requests for the Corps' assistance 
are denied because of the Corps' determination that project costs 
outweigh the expected economic benefits. Alaska Native villages have 
difficulty meeting the cost/benefit requirement because many are not 
developed to the extent that the value of their infrastructure is high 
enough to equal the cost of a proposed erosion or flood control 
project. For example, the Alaska Native village of Kongiganak, with a 
population of about 360 people, experiences severe erosion from the 
Kongnignanohk River. However, the Corps decided not to fund an erosion 
project for this village because the cost of the project exceeded the 
expected benefits and because many of the structures threatened are 
private property, which are not eligible for protection under a Section 
14 Emergency Streambank Protection project. Meeting the cost/benefit 
requirement is especially difficult for remote Alaska Native villages 
because the cost of construction is high--largely because labor, 
equipment, and materials have to be brought in from distant locations.
---------------------------------------------------------------------------
    \7\ The Corps' guidelines are based on the Flood Control Act of 
1936, which provides that ``the Federal Government should improve or 
participate in the improvement of navigable waters or their tributaries 
. . . if the benefits . . . are in excess of the estimated costs.'' 33 
U.S.C.  701a.
---------------------------------------------------------------------------
    Even villages that do meet the Corps' cost/benefit criteria may 
still not receive assistance if they cannot provide or find sufficient 
funding to meet the cost-share requirements for the project. By law, 
the Corps generally requires local communities to fund between 25 and 
50 percent of project planning and construction costs for flood 
prevention and erosion control projects.\8\ According to village 
leaders we spoke to, they may need to pay hundreds of thousands of 
dollars or more under these cost-share requirements to fund their 
portion of a project--funding many of them do not have.\9\
---------------------------------------------------------------------------
    \8\ The Corps has the authority to make cost-sharing adjustments 
based upon a community's ability to pay under section 103(m) of the 
Water Resources Development Act of 1986, as amended. 33 U.S.C.  
2213(m).
    \9\ According to state of Alaska officials, historically the state 
has provided the nonfederal matching funds for most Corps of Engineers 
(and other federal) projects, but with the extreme budget deficits 
currently faced by the state of Alaska, matching funds have been 
severely limited.
---------------------------------------------------------------------------
    NRCS has three key programs that can provide assistance to villages 
to protect against flooding and erosion. One program--the Watershed 
Protection and Flood Prevention Program--has a cost/benefit requirement 
similar to the Corps program and as a result, few projects for Alaska 
Native villages have been funded under this program. In contrast, some 
villages have been able to qualify for assistance from NRCS's two other 
programs--the Emergency Watershed Protection Program and the 
Conservation Technical Assistance Program. For example, under its 
Emergency Watershed Protection Program, NRCS allows consideration of 
additional factors in the cost/benefit analysis.\10\ Specifically, NRCS 
considers social or environmental factors when calculating the 
potential benefits of a proposed project, and the importance of 
protecting the subsistence lifestyle of an Alaska Native village can be 
included as one of these factors. In addition, while NRCS encourages 
cost sharing by local communities, this requirement can be waived when 
the local community cannot afford to pay for a project under this 
program. Such was the case in Unalakleet, where the community had 
petitioned federal and state agencies to fund its local cost-share of 
an erosion protection project and was not successful. Eventually, NRCS 
waived the cost-share requirement for the village and covered the total 
cost of the project itself. (See fig. 4.) Another NRCS official in 
Alaska estimated that about 25 villages requested assistance under this 
program during the last 5 years, and of these 25 villages, 6 received 
some assistance from NRCS and 19 were turned down--mostly because there 
were either no feasible solutions or because the problems they wished 
to address were recurring ones and therefore ineligible for the 
program.
---------------------------------------------------------------------------
    \10\ The Emergency Watershed Protection program was authorized 
under the Flood Control Act of 1950, Pub. L. No. 81-516 (1950).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


---------------------------------------------------------------------------
Source: NRCS.

  Figure 4. NRCS Seawall Erosion Protection Project at Unalakleet (c. 
                                 2000)

    Unlike any of the Corps' or NRCS's other programs, NRCS's 
Conservation Technical Assistance Program does not require any cost-
benefit analysis for projects to qualify for assistance.\11\ An NRCS 
official in Alaska estimated that during the last 2 years, NRCS 
provided assistance to about 25 villages under this program. The 
program is designed to help communities and individuals solve natural 
resource problems, improve the health of the watershed, reduce erosion, 
improve air and water quality, or maintain or improve wetlands and 
habitat. The technical assistance provided can range from advice or 
consultation to developing planning, design, and/or engineering 
documents. The program does not fund construction or implementation of 
projects.
---------------------------------------------------------------------------
    \11\ The Conservation Technical Assistance Program was authorized 
under the Soil Conservation and Domestic Allotment Act of 1935, Pub. L. 
No. 74-46 (1935).
---------------------------------------------------------------------------
  FOUR VILLAGES IN IMMINENT DANGER ARE PLANNING TO RELOCATE, AND THE 
            REMAINING FIVE VILLAGES ARE TAKING OTHER ACTIONS

    Four of the nine villages we reviewed are in imminent danger from 
flooding and erosion and are making plans to relocate, while the 
remaining five are taking other actions. Of the four villages 
relocating, Kivalina, Newtok, and Shishmaref are working with relevant 
federal agencies to locate suitable new sites, while Koyukuk is just 
beginning the planning process for relocation. Because of the high cost 
of construction in remote parts of Alaska, the cost of relocation for 
these villages is expected to be high. For example, the Corps estimates 
that the cost to relocate Kivalina could range from $100 million for 
design and construction of infrastructure, including a gravel pad, at 
one site and up to $400 million for just the cost of building a gravel 
pad at another site. Cost estimates for relocating the other three 
villages are not yet available. Of the five villages not currently 
planning to relocate, Barrow, Kaktovik, Point Hope, and Unalakleet each 
have studies underway that target specific infrastructure that is 
vulnerable to flooding and erosion. The fifth village, Bethel, is 
planning to repair and extend an existing seawall to protect the 
village's dock from river erosion. In fiscal year 2003, the Senate 
Committee on Appropriations directed the Corps to perform an analysis 
of costs associated with continued erosion of six of these nine 
villages, potential costs of relocating the villages, and to identify 
the expected timeline for complete failure of useable land associated 
with each community.\12\ Table 3 summarizes the status of the nine 
villages' efforts to respond to their specific flooding and erosion 
problems.
---------------------------------------------------------------------------
    \12\ The Senate report for the Energy and Water Development 
Appropriations Act, 2003, Pub. L. No. 108-7 (2003), directed the Corps 
to study the following communities in Alaska: Bethel, Dillingham, 
Shishmaref, Kaktovik, Kivalina, Unalakleet, and Newtok. S. Rep. No. 
107-220 at 23-24 (2002). The Energy and Water Development 
Appropriations Act, 2004 further provided that the $2 million 
previously provided in the 2003 appropriations was ``to be used to 
provide technical assistance at full Federal expense, to Alaskan 
communities to address the serious impacts of coastal erosion.'' Pub. 
L. No. 108-137,  112, 117 Stat. 1827, 1835-36 (2003).
---------------------------------------------------------------------------
 ALTERNATIVES FOR ADDRESSING BARRIERS THAT VILLAGES FACE IN OBTAINING 
                            FEDERAL SERVICES

    The unique circumstances of Alaska Native villages and their 
inability to qualify for assistance under a variety of federal flooding 
and erosion programs may require special measures to ensure that the 
villages receive certain needed services. Alaska Native villages, which 
are predominately remote and small, often face barriers not commonly 
found in other areas of the United States, such as harsh climate, 
limited access and infrastructure, high fuel and shipping prices, short 
construction seasons, and ice-rich permafrost soils. In addition, many 
of the federal programs to prevent and control flooding and erosion are 
not a good fit for the Alaska Native villages because of the 
requirement that project costs not exceed the economic benefits. 
Federal and Alaska state officials and Alaska Native village 
representatives that we spoke with identified several alternatives for 
Congress that could help mitigate the barriers that villages face in 
obtaining federal services.
    These alternatives include (1) expanding the role of the Denali 
Commission to include responsibilities for managing a new flooding and 
erosion assistance program, (2) directing the Corps and NRCS to include 
social and environmental factors in their cost/benefit analyses for 
projects requested by Alaska Native villages, and (3) waiving the 
federal cost-sharing requirement for flooding and erosion projects for 
Alaska Native villages. In addition, we identified a fourth 
alternative--authorizing the bundling of funds from various agencies to 
address flooding and erosion problems in these villages. Each of these 
alternatives has the potential to increase the level of federal 
services to Alaska Native villages and can be considered individually 
or in any combination. However, adopting some of these alternatives 
will require consideration of a number of important factors, including 
the potential to set a precedent for other communities and programs as 
well as resulting budgetary implications. While we did not determine 
the cost or the national policy implications associated with any of the 
alternatives, these are important considerations when determining 
appropriate federal action.
    In conclusion, Alaska Native villages are being increasingly 
affected by flooding and erosion problems being worsened at least to 
some degree by climatological changes. They must nonetheless find ways 
to respond to these problems. Many Alaska Native villages that are 
small, remote, and have a subsistence lifestyle, lack the resources to 
address the problems on their own. Yet villages have difficulty finding 
assistance under several federal programs, because as currently defined 
the economic costs of the proposed project to control flooding and 
erosion exceed the expected economic benefits. As a result, many 
private homes and other infrastructure continue to be threatened. Given 
the unique circumstances of Alaska Native villages, special measures 
may be required to ensure that these communities receive the assistance 
they need to respond to problems that could continue to increase.
    Mr. Chairman, this completes my prepared statement. I would be 
happy to respond to any questions you or other Members of the Committee 
my have at this time.

                                                         TABLE 3.--NINE ALASKA NATIVE VILLAGES' EFFORTS TO ADDRESS FLOODING AND EROSION
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
           Alaska Native village             Population \1\                                                           Status of efforts
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Villages planning to relocate:
    Kivalina...............................           388    Located on a barrier island that is both overcrowded and shrinking. Cost estimates to relocate range from $100 million to over $400
                                                              million. The Corps is currently negotiating a scope of work for relocation alternatives under both the Planning Assistance to
                                                              States Program and the Alaska Villages Erosion Technical Assistance Program.
    Shishmaref.............................           594    Located on a barrier island and experiencing chronic erosion. Recently selected a relocation site. In the meantime, a Bureau of
                                                              Indian Affairs funded seawall was recently completed to temporarily protect a road project and the Corps is starting a Section 14
                                                              project to extend this seawall to protect the school as well.
    Newtok.................................           329    Suffers chronic erosion along its riverbank. Legislation for a land exchange with the U.S. Fish and Wildlife Service became law in
                                                              November 2003 (Pub. L. No. 108-129). Interim Conveyance No. 1876 signed in April 2004. Relocation studies are continuing under the
                                                              Corps' Planning Assistance to States Program and the Alaska Villages Erosion Technical Assistance Program.
Villages taking other actions:
    Kaktovik...............................           295    Airport runway is subject to annual flooding. The Federal Aviation Administration funded a study to determine least-cost
                                                              alternative, but consensus on a site for a new airport has not been reached.
    Point Hope.............................           725    Airport runway experiences flooding and is at risk of erosion. The North Slope Borough is analyzing construction alternatives for
                                                              an evacuation road.
    Barrow.................................         4,417    The Corps is currently conducting a 5-year feasibility study of storm damage reduction measures. The underlying authority for this
                                                              study is the ``Rivers and Harbors in Alaska'' study resolution adopted by the House of Representatives Committee on Public Works
                                                              on December 2, 1970.
    Unalakleet.............................           741    Coastal and river flooding and erosion have combined to create a chronic problem at the harbor. The Corps has begun a study on
                                                              improving navigational access.
    Bethel.................................         5,899    Spring break-up ice jams on the Kuskokwim River cause both periodic flooding and severe erosion along the riverbank. A Corps
                                                              project to repair and extend the seawall to protect the dock and small boat harbor is stalled over land easements.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Populations for the villages are based on 2003 Alaska State Demographer estimates.

Source: GAO analysis.

    Chairman Stevens. Mr. Pat Poe, Regional Administrator for 
the Federal Aviation Administration, Alaskan Region. Pat, nice 
to see you.

STATEMENT OF PATRICK N. POE, REGIONAL ADMINISTRATOR, 
            ALASKA REGION, FEDERAL AVIATION 
            ADMINISTRATION, U.S. DEPARTMENT OF 
            TRANSPORTATION
    Mr. Poe. Thanks for including me. It's a privilege to be 
with you all. To those who have traveled to Alaska, let me say 
at the outset how pleased I am that you have come to see the 
people and the environment face-to-face.

                    IMPORTANCE OF AVIATION IN ALASKA

    If I might, I would like to do a couple moments as a scene 
setter. Here in Alaska aviation is quite different than I think 
you'll find it anywhere else in the United States. For example, 
for every 58 citizens in Alaska, 1 of them will have a pilot's 
license. For every 10 pilots, there are eight airplanes. Within 
the Anchorage Bowl we have over 4,000 airplanes domiciled right 
here. There are places in Alaska, for instance, 84 percent of 
all the post offices only get mail by airplane. And in many 
villages the only way the children go to school is by airplane, 
to fly to the next village that has a school.
    So aviation is essential to the economy and the lifestyle 
in Alaska. So if the village moves, so does aviation. There are 
several ways that can be done, and I want to outline just a 
couple of them for the committee.
    One, if the village moves within easy reach, so to speak, 
of the existing airport, the FAA is prepared through the 
Airport Improvement Program grant process to support the 
building of an access road to the new village location, or if 
that's not possible, the same program is available to actually 
build a new airport.

                   AIRPORT IMPROVEMENT PROGRAM GRANTS

    The Airport Improvement Program grant is basically a 
partnership between the FAA and the airport sponsor. And in 
terms of all four of the airports that is the State of Alaska 
and the Alaska village community. The sponsor's role is 
critical in this because the sponsor, first of all, puts up a 
degree of matching funds. Under the AIP program the funds range 
from 5 to 7 percent of the total has to be provided by the 
sponsor.
    For rural Alaska and for rural locations across the Nation, 
the lower number is used, so we are looking at a 5-percent 
match. In addition, the sponsor provides the priorities for the 
State. Where the State is the sponsor for the airports, they 
request the grants and we react to that. So part of the issue 
here will ultimately be the priority the State sets on this 
grant submission.
    And the third thing, as the airport sponsor, there's a 
commitment to all of the grant assurances, which basically say 
for 20 years these investments will stay as a benefit to the 
airport and the community they serve.

                     BUILDING AN AIRPORT IN ALASKA

    What does it take to build an airport? Typically in western 
Alaska we're talking 3 to 5 years. We're talking $15 million to 
$20 million. That cost seems high, the timeframe long, but the 
reasons are all the challenges of building in rural Alaska. The 
expense of mobilizing the necessary equipment and workforce, 
the lack of building materials, and the fact that we have very 
short seasons in which to perform construction.
    The FAA and our approach to cost benefit, for just a 
moment, has very stringent cost-benefit requirements for where 
we place nav-aids and for where AIP funds can be used.
    However, acknowledging the differences in Alaska and other 
remote locations, those cost benefits tests have been waived 
for Alaska's rural communities.
    An example of how this might come together at Koyukuk, for 
example, which is one of the four sites mentioned by GAO. In 
2003 an Airport Improvement Program grant was awarded for $10 
million to elevate the runway above the 100-year floodplain. 
That project is underway. The village is looking at two 
different locations for a new village site, either one of which 
would continue to be serviced by the existing airport. The FAA, 
if the need arises, would be prepared through the AIP program 
to help support the creation of an extended access road.
    In closing, I think as far as the airport moving with the 
village, I think the keys to that success are early discussion, 
long lead times. The FAA, I think, enjoys a relationship with 
the State sponsors and other community sponsors for building 
together the aviation infrastructure in Alaska upon which both 
the economy and the lifestyles are built.
    That concludes my comments, Mr. Chairman.
    [The statement follows:]

                  Prepared Statement of Patrick N. Poe

    Thank you for the opportunity to testify today to share FAA 
concerns and issues regarding the erosion in Alaskan communities.
    I wish to preface my remarks by setting the scene for this august 
committee and tell you that Alaska is often called, ``the flyingest 
state in the Union'' because its residents depend to such a great 
extent upon air travel. For more than 200 communities there is no road 
access connecting them to the rest of the state. Transportation within 
Alaska is largely by aircraft. There are fewer than 15,000 miles of 
highway of which only 30 percent are paved in a state of 365 million 
acres.
    Air carriers transport the equivalent of four times the state's 
population each year compared to 1.7 times the U.S. population carried 
by air commerce in the other states. There are 225 air carriers 
certified to operate in Alaska as either scheduled or on-demand 
carriers. Alaska has 387 public use airports and thousands of 
unofficial landing areas.
    Since 1982, the Federal Airport Improvement Program (AIP) has 
provided funding for 900 airport construction and improvement projects. 
This year alone, we anticipate distributing approximately $190 million 
in grants to State and local airport sponsors in Alaska.
    The Federal Aviation Administration (FAA), Airports Division 
provides grants to improve airport infrastructure development including 
those threatened by flooding and erosion. The AIP program could 
potentially contribute a significant portion of the funding for 
relocation of an airport, if necessitated by community relocation. Once 
the decision is made to relocate a village, the airport sponsor shall 
make a determination as to whether the existing airport no longer meets 
the community's needs. The sponsor may apply for an AIP grant to begin 
the planning process concurrently with the relocation effort. FAA 
Airports Division will review the application and either confirm the 
decision to relocate or offer to assist in funding alternative 
measures. It should be noted that the following criteria must be met in 
order for federal AIP funding to be programmed for airport development:
  --1. The airport is in the National Plan of Integrated Airport System 
        (NPIAS). Some of the primary factors for the adoption of an 
        Alaska airport into the NPIAS are: (i) the airport is a public-
        use airport available for use by all citizens and (ii) the 
        airport serves an established community that receives scheduled 
        U.S. mail service.
  --2. Any airport project must comply with the procedures and policies 
        of the National Environmental Policy Act (NEPA).
  --3. The proposed new airport must meet all applicable FAA airport 
        design standards and be documented within an FAA-approved 
        Airport Layout Plan (ALP).
  --4. Any airport project must be requested and supported financially 
        by the designated airport sponsor. The airport sponsor must 
        have the legal authority and financial capability to carry out 
        its responsibilities under the grant agreement. Those 
        responsibilities include contributing a percentage of funding 
        and operating the airport according to grant assurances.

Alaska Villages Subject to Flooding and Erosion
    Alaska villages planning to relocate in an effort to address 
flooding and erosion include: Kivalina, Shishmaref, Newtok, and 
Koyukuk. Of these communities, all are State owned and operated 
airports. Alaska villages taking actions to mitigate erosion and flood 
damage include: Kaktovik, Point Hope, Barrow, Unalakleet, and Bethel.
    Concurrent with deliberations regarding community relocation, the 
FAA and the villages will consider whether the local airports also need 
to be relocated or whether the existing facilities can continue to 
serve the communities at the new village sites.
    At the villages of Kivalina, Shishmaref, and Newtok the Airports 
Division of FAA will support maintaining the existing infrastructure 
while the communities decide to undertake relocation. No major AIP-
funded projects are currently programmed or anticipated in the near 
future for the current airports. If a village decides to relocate and 
it is determined that the airport must also be established in a new 
location, an application for an AIP grant will be entertained by the 
FAA.
    At the village of Koyukuk, a $10,000,000 AIP grant was issued in 
fiscal year 2003 to elevate the runway out of the 100-year flood plain. 
This existing State-owned airport will continue to serve the existing 
community, and either of the two sites currently being considered as 
new locations for the village. FAA may assist in funding an access road 
if one is needed to connect the new community site with the airport.
    At the village of Kaktovik, the airport is subject to periodic 
seasonal flooding. A $300,000 AIP grant was issued in fiscal year 2002 
for the development of a comprehensive airport master plan. The plan, 
due to be completed in the spring of 2005, will evaluate current flood 
and erosion protection at the existing airport and identify future 
potential airport relocation sites that would best serve the future 
needs of the village.
    At the villages of Barrow, Bethel, Point Hope and Unalakleet the 
State of Alaska Department of Transportation and Public Facilities owns 
and operates the airports. The Point Hope airport experiences 
occasional erosion on the north end and is programmed for future AIP 
funding to provide erosion control measures (i.e. armored rock). The 
airport infrastructure at these villages is not subject to coastal 
erosion or flooding.

Alaska Airport Development Data
    Typical costs to construct a new airport in western rural Alaska 
are approximately $15-$20 million. New construction typically takes 3-5 
years to complete depending upon the site, the availability of adequate 
base materials, and environmental conditions. In an extreme case, where 
the new location is unknown and the environmental process will have to 
be conducted, the timeframe could extend to 10 years. Many rural Alaska 
airports are constructed using a technique termed ``silt push up.'' 
This method of airport construction involves the placement of a silt 
sub-base material that often takes several years to settle and drain 
prior to the placement and compaction of the top surface course 
material.
    These high costs and extended construction schedules reflect the 
challenges of building in rural Alaska with expensive mobilization 
costs, lack of suitable construction embankment materials, and short 
construction seasons.
    Capital investments undertaken by the FAA are subject to analysis 
and review requirements set forth in the National Environmental Policy 
Act, as amended. This process includes mandatory coordination with 
other State, Federal, local community, and tribal agencies and 
governments prior to any work being undertaken. Because of these review 
requirements, it is highly unlikely that any FAA project would commence 
at a village without knowledge of an impending relocation.
    FAA Order 7031.2C, Airway Planning Standard Number One (APS-1) is a 
working order, which contains the policy and summarizes the criteria 
used in determining eligibility of terminal locations for 
establishment, discontinuance and improvements of specified types of 
air navigation facilities and air traffic control services.
    Former FAA Administrator Donald Engen wrote the Forward stating the 
following:

    ``The safety and efficiency of air traffic determine requirements 
for air navigational facilities and air traffic control services, but 
these facilities and services should only be established at locations 
where the benefits of service exceed the cost to the government. 
Economic consideration of benefits and costs for both new 
establishments and improvements to existing facilities or service is 
related to air traffic activity levels. This order specifies minimum 
activity levels for terminal air navigation facilities and air traffic 
control services. For certain types of facilities, the order also 
establishes a requirement for additional cost benefit and other 
analyses prior to facility commissioning or decommissioning. Satisfying 
criteria specified herein does not constitute a commitment by the 
Federal Aviation Administration to provide, modify, or discontinue 
eligible facilities or services.''

    Acknowledging Alaska's dependence upon air transportation, there 
are provisions in the Order exempting both the agency and airport 
sponsors in remote locations from the cost/benefit analyses required in 
other regions of the United States.
    If a determination were made requiring the relocations of runways 
or navigational aids, the instrument procedures for the airport would 
be developed concurrently with the new airport construction. The 
current time frame for the development of instrument procedures is 
approximately 12 to 18 months depending upon the availability of survey 
data, completion of environmental studies, and establishment of weather 
and communications facilities.
    In association with the creation of a new airport there will be the 
establishment of air routes and installation of navigation aids. 
Estimates of costs per airport range from $30,000 to $40,000 for two 
approaches.
    FAA has limited facilities at the Kivalina and Shishmaref airports, 
and no facilities at the other airports. There are no known FAA 
environmental cleanup requirements at any of the airports. Costs to 
remove the facilities at the two airports are estimated at $60,000. 
There are requirements in the FAA leases to restore the property upon 
decommissioning of facilities. The estimated costs for FAA facilities 
restoration are $100,000.
    In 2002, Congress funded the Rural Airport Lighting Program to 
improve access for medical and other emergencies. Lighting continues to 
be installed at rural airports until any relocation is completed. At 
three of the four locations referenced in the GAO report (i.e., 
Kivalina, Shishmaref, and Koyukuk) there are projects identified to 
establish airport lighting as an aid to rural access as follows:
    Establish runway end identifier lights (REIL) and precision 
approach path indicators (PAPI) on Runway ends 12 and 30 at Kivalina 
Airport (per the Rural Alaska Lighting Program; funded but not yet 
scheduled for implementation).
    Establish REIL and PAPIs on Koyukuk Airport. A portion of this work 
is funded by AIP dollars as part of the raising of the runway. This 
existing State-owned airport will continue to serve the existing 
community, and the proposed village relocation sites.
    Other projects are on schedule as part of the FAA mission to 
maintain navigation aids while airports remain in use such as:
    Replace radio control equipment for the remote communications 
outlet at Shishmaref Airport (active maintenance operations project).
    Replace obstruction lights on the nondirectional beacon tower at 
Shishmaref Airport (active maintenance operations project).
    In closing, the FAA has a long history of partnership with Alaska's 
communities to develop and improve aviation infrastructure that 
supports the life and economy of this state. We continue that work as 
part of our mission and our stewardship of the state's resources.
    Thank you for inviting me to present this testimony today and for 
your interest in this very important topic.

                     FEDERAL ASSISTANCE TO VILLAGES

    Chairman Stevens. Thank you all very much. I think what we 
probably have here is so many different villages being affected 
at the same time. We have had experience in California and down 
the east coast of separate communities being subjected to wave 
or flooding damage, but I can't remember a situation where we 
faced almost 200 different villages threatened, and according 
to the report, there's at least nine immediately threatened 
that need something unique for each area.
    I do appreciate your being here, Mr. Poe, because what 
really came to our attention first was the annual flooding of 
some of these airports, which was the sole means of access for 
the villages. So we directed the GAO study, and I'm grateful 
for the GAO study having been done so thoroughly and so 
promptly. We do have, I think, some guidelines to proceed on.
    We've got about 40 minutes left on this first panel, so 
we'll allocate time to my colleagues, who have approached this 
to a certain extent new.
    Mr. Robinson, with regard to your report, you did indicate, 
as was quoted by General Davis, that the likelihood of these 
entities being eligible for Federal assistance as you pointed 
out is really a difficult question.
    Have you come to a conclusion as to any recommendations 
that you would make to Congress with regard to changing those 
eligibility requirements under the circumstances that the west 
coast faces?
    Mr. Robinson. We have laid out options, options to 
consider. It's hard to make recommendations--GAO likes to 
confine its recommendations to management issues and the like 
on account of efficiency. This involves sort of policy 
decisions that would have implications all over the State of 
Alaska and for everybody else. Obviously, there are very 
special considerations for Alaskan villages and their 
locations. But we presented our options as alternatives--policy 
considerations for the Congress to consider without taking a 
firm position as to which, if any, should be adopted. Any of 
the four we laid out seems to me would change the equation for 
villages and their ability to obtain funds.
    Chairman Stevens. Senator Murkowski and I face the problem 
almost daily of asking for an Alaska exception. I think 
Congress is getting a little worn out about that. We need to 
have some certainty in this area whether villages should be 
treated alike or whether there should be particular categories 
of exceptions that could be followed by the agencies involved, 
FEMA and the Corps, or whether we should go down the list and 
precisely lay down a category of assistance that would be 
available in each area. When you're dealing with almost 200, 
that's almost impossible in Federal law.
    Mr. Robinson. The Corps can also, if directed--a directed 
project by definition waives the cost-benefit requirement, and 
that has been used on a number of projects across the country.
    Chairman Stevens. General Davis, do you think we're at that 
point where we ought to direct you to proceed without regard to 
local contribution?
    General Davis. Sir, I think there are a number of 
alternatives that could be addressed policywise. One of those 
is for erosion projects, we're not allowed to consider as an 
alternative a nonstructural alternative. A fancy way of saying, 
we can't consider relocation even though it may be a less 
expensive alternative.
    We have the authorities continuing in our CAP program, 
continuing authorities program--gives us the ability to move 
very quickly, but it's limited to a $1 million cap on the 
Federal share. So there's a policy possibility there if we 
could increase that limit.
    We can consider waiving the cost sharing. All of these 
would be changes to policy that we would need your help with, 
but all of these would help us apply some of our capabilities, 
our programs, more consistently in a situation that's very 
rapidly sneaking up on us.
    Chairman Stevens. Is your agency prepared to make 
recommendations to Congress as to which option to pursue--
relocation versus mitigation versus building of structures to 
prevent further erosion? Would you take on that task of 
determining on a site-specific basis what is the best 
recommendation or solution to follow?
    General Davis. Sir, I think we try to consider all those in 
all the studies that we do now. The challenge I mentioned is in 
some of our authorities, because of existing policy, we're not 
allowed to consider relocation. But it would clearly show up as 
we did the economic analysis that that might be the most cost-
effective alternative.
    The other piece that we have mentioned where we have no 
mechanism to address right now is costs associated with social 
and environmental considerations, and there's just nothing in 
law right now that allows us to include them in our cost-
benefit analysis; therefore, a lot of projects that may be on 
the borderline don't have the benefit of that analysis to go 
with it.
    Chairman Stevens. Thank you.

                          AIRPORT RELOCATIONS

    Pat, how about terms of airports, are you prepared--do you 
think it is your province to recommend to Congress which 
airports must be relocated based upon the studies these other 
agencies have made, or shall we have to face the question of 
having the Corps or another entity tell us that that is the 
preferred option? Can you make the determination? I know 
several were flooded 2 years in a row now during parts of the 
summer.
    Mr. Poe. I think the first-tier consideration would not 
come from the FAA. I think the village community and whoever 
the airport sponsor is, whether that's the State or the 
village, should have first say in what happens. Now, I think 
the FAA should and does step in and say that there are 
different mitigation solutions and we can speak to the degree 
of funding available for each.
    In some cases, rural Alaska being one, we have actually 
done armor rock and so forth to prevent further erosion. In 
other locations we have combined with other Federal agencies on 
projects and used the same contractor. The direct answer to 
your question is, I don't see the FAA as being the most 
appropriate agency to step in and say where the villages should 
and how the airport should follow.

                      FEMA'S PREVENTION AUTHORITY

    Chairman Stevens. Mr. Pennington, I think you emphasized 
that you come in after the fact. Is there anyplace that you 
think we should change the laws so you have greater prevention 
authority?
    Mr. Pennington. Good question. There are two of the areas 
that I pointed out that are actually prior to Pre-Disaster 
Mitigation and the Flood Mitigation Assistance Program. The 
challenges that we run into in a lot of the Native village 
communities, unfortunately, is--Shishmaref opted into the 
National Flood Insurance Program. As I pointed out in my 
testimony, the NFIP is a very self-sustaining fund. So they 
opted in and as a result, they've gotten assistance, $600,000, 
for relocation, elevation, et cetera.
    Other Native village communities that are susceptible to 
much of the damage have not opted in and have not been very 
aggressive and, very candidly, we have been very cautious in 
FEMA because we don't want to lead these communities into the 
program where it might not be sustainable for them 
economically. The government infrastructure may not be there to 
enforce building codes, and once that disaster hits, because 
they haven't appropriately complied with the NFIP laws, they 
don't get Federal assistance. So we're very cautious how we 
move into those areas.
    But the pre-disaster mitigation plan, I think, is a good 
example of getting in beforehand, certainly FMA. And in 
FEMA's--I've been in FEMA for 2\1/2\ years as its regional 
Director. One of our greatest strengths, Senator, is 
coordination and collaboration. One of our witnesses mentioned 
bundling of Federal funds. I do think that there's some merit 
to that issue.
    Where I think FEMA comes in is, it's really leading that 
coordination and collaboration. We really truly are confined by 
the Stafford Act. It pretty much says, until that declaration 
comes in with those glaring exceptions, FEMA's programs pretty 
much don't kick loose.
    Chairman Stevens. Thank you very much. I'll have other 
comments later.
    Senator Burns.
    Senator Burns. Well, the discussion--thank you, Mr. 
Chairman--the discussion on this, and I'd like to go out there 
one of these days and just take a look at that country. I want 
to ask General Davis: Are these problems that we're 
encountering now, is this a cyclical thing or is this a 
continuing thing as conditions along the coast? Is it a 
deteriorating thing? Is it over several years, or is it 
cyclical or is it continuing?
    General Davis. Sir, I'm not a scientist, but in the last 
couple of years I've been exposed to coastal erosion issues 
across the United States and I believe the scientists would 
back me up and say it's a constant issue, that the whole--
anybody that lives along an ocean or along the Great Lakes, 
there is kind of a constant erosion situation that's going to 
go on and on. I think as we make decisions, we take that into 
consideration and offer our best advice on whether we armor or 
whether we try to relocate.

                           RELOCATE A VILLAGE

    Senator Burns. We all understand the power and the 
unpredictability of the ocean and we also understand that even 
with our larger rivers inland, both in the 48 contiguous and 
here in Alaska. And I guess it boils down to, do you make a 
decision? Do we try to hold what we have? Or do we relocate 
with the prospects of it probably never getting better or some 
days the ocean will recede to reclaim those lands?
    I think in a sense the American taxpayer didn't make the 
decision on where to locate a village. In the first place, what 
obligation does the American taxpayer have in order to 
relocate? Those are questions that--Congress will ask those 
questions just as sure as we're sitting here. We know most of 
it--we would like to base it on economic reasons, but there's 
also some cultural and social issues here where we do have an 
obligation, I think, to protect and to foster.
    So I would ask--I think those are the decisions that we 
will have to make based on the information we get from GAO and 
from our Senators that represent us up here. We will take 
probably their lead on what to do.
    Mr. Poe, with the FAA, have you already started doing some 
studies, and if relocation is necessary, do you have a pretty 
good idea what your role will be and where you can go with your 
facilities to land aircraft in the outer banks?
    Mr. Poe. Senator Burns, yes, we have what we call airport 
and master plans, and we have funded those through the AIP 
program. Those are underway. We have looked at and in fact have 
taken action to relocate airports without the necessity to 
relocate villages. So we are constantly working closely with 
the community and with the State sponsors, which, by the way, 
all airports are not sponsored by the State of Alaska. In many 
cases it's the community itself.
    Senator Burns. Well, I live down in Montana, you know, and 
nature is a funny thing. You give unto nature what belongs to 
nature and what she gives us we have to use very wisely. Those 
are the unpredictable situations that we deal with. And 
understanding that, there's going to be some tough decisions 
made by these communities and these communities are going to 
make those decisions.
    They can't all be made in Washington, DC. After all, you 
know, we have to do business in 17 square miles of logic-free 
environment there. I look at it pretty much on the grounds of 
what is doable and what is not doable.
    Thank you, Mr. Chairman.
    Chairman Stevens. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    General Davis, you had in your written comments and in your 
statement this morning pointed to the GAO study and title and 
noted how appropriate the title is. We have so many of our 
Native villages that are affected by flooding and erosion, but 
few qualify for Federal assistance. In response to Senator 
Stevens' questions, we were talking about the policy and you 
would need assistance from Congress in effecting changes there.
    Can you identify for me--when we're talking about 
impediments, qualifications for Federal assistance, which 
derive from statute and how much of it actually derives from 
policy? What do we need to look to in statute and what do we 
look to that's policy driven?
    General Davis. I may need some help with that one. I'm not 
sure I can distinguish between statute and policy. The cost-
sharing piece is law, so that would be statutory. Anywhere from 
25 percent to 50 percent, depending on where we are in there. 
The benefit-to-cost ratio of what we gain protecting versus 
what it costs us to do it is a combination of both policy and 
law. I probably owe you something in a follow-up, if you'd let 
me, to give you a little bit more specifics as to which are 
which to help you attack those.
    Senator Murkowski. I think that would be helpful. If we're 
trying to determine how we can assist here, we need to know 
whether statutory changes need to be made versus what you can 
effect by policy.
    In your prepared testimony you made reference to the tribal 
partnership program, which authorizes the feasibility studies 
for projects that are located close to the Native villages or 
located in Indian lands in the Lower 48. I understand that this 
is a 50-percent cost-sharing requirement for this program. I 
don't know in the Lower 48 the circumstances down there 
necessarily, but certainly here in Alaska most of our 
villages--we don't have those resources. We don't have Indian 
gaming here in the State, as you know. Generally, we would be 
unable to meet these specific cost-sharing requirements.
    And then down in the Lower 48 I would imagine you're 
looking at tribes that, unless they have the gaming, most 
likely don't have access to the funds to meet this requirement. 
So I guess my question to you is: Because of this cost-sharing 
requirement being set at this 50-percent level, are you not 
foreclosing the opportunity to really participate in the 
programs because of this particular statutory requirement?
    General Davis. I'd have to agree that that really puts the 
burden on the Alaskan tribes and Native villages because they 
don't have the same access to funds that they have in the Lower 
48. I don't know where that direction came from. I'm advised 
again that that was a statutory regulation. That's not one of 
the Corps' policies, but that was a stipulation put on us.
    But I'd like to prove that with some background, ma'am.
    Senator Murkowski. Again, that would be helpful to know, if 
we wanted to look at that to make some fixes there. One more 
just in terms of this cost sharing and the impact to those that 
might be able to take advantage of these programs.
    Also, this is in your prepared comments, was reference that 
the Corps programs don't permit your agency to fund more than x 
dollars per project. We know, of course, here in Alaska that 
our construction and transportation costs are just plain and 
simple higher than they are anywhere else in the country. Has 
the Corps considered--or what would your opinion be in terms of 
hiking these ceilings to recognize the high-cost locations like 
we have here in Alaska? Is that something that has been 
considered?
    General Davis. Yes, ma'am. It's interesting how many of the 
same challenges we share. Mr. Poe was talking about the cost of 
construction for airports. We certainly have the same 
challenges on relocations or armoring the shore. For those that 
are not familiar with Alaska, my last job was in California. 
And to haul rock to some of these locations would be equivalent 
to quarrying on Playa Linda off of the coast of Los Angeles and 
then dragging it up to Seattle to put it on the shore in 
Seattle.
    One of our most valuable authorities is probably section 
14, which gives us a very quick solution--a very quick review 
process, but it limits us to $1 million plus the cost share. An 
example at Shishmaref would be of the entire coastline that's 
affected there, we're able to use that authority to protect a 
school, but that's like putting a Band-Aid on the entire 
coastline there, which would take care of the school, but the 
rest of the coast is at risk.
    So that's one of the issues that I mentioned earlier where 
it would give us more capability to act and react if that limit 
could be raised beyond the current $1 million limit.
    Senator Murkowski. $1 million doesn't go very far up here.
    General Davis. I know it. We didn't talk about bringing the 
equipment in, bringing the fuel in, as well as bringing the 
materials in. So it's a pretty big challenge. I understand 
Senator Stevens is tired of going to the well to explain why 
things are unique up here, but there are some differences.
    Senator Murkowski. Well, we will just have to continue 
educating people. That's why it helps to have people like 
Senator Burns and Senator Sununu here who are listening and 
understanding, but the challenges that we do have here are 
extreme in some instances. So I'll look forward to kind of the 
breakdown, if you will, between the statutory versus the 
policies. I think that would be interesting to look at.
    Mr. Robinson, I appreciate the four recommendations--I 
don't know whether you call them recommendations, but the 
factors that have to be considered that came out of the GAO 
report. As I looked at them, I guess I made the assumption that 
these were recommendations that should all be considered and 
that this is not, we'll do this one at the expense of the 
others.
    For instance, the comment that was made both by yourself 
and General Davis about the importance of having social and 
environmental factors considered. I would like to think that we 
would be able to have that included, as well as a good 
discussion about waiving the Federal cost-share requirement. So 
I just want to make sure on the record that what you have 
proposed in this report are not mutually exclusive; if you 
accept one, then we don't need the others.
    Mr. Robinson. They are not mutually exclusive. I mean, 
there are differences that could be adopted, but perhaps it's a 
matter of nuance. We are relatively sensitive to making 
recommendations on policy issues. We have been counseled from a 
variety of forums that that's not a good role for the General 
Accounting Office, so we tend to try to cast these things as 
options, legitimate policy options for the Congress to 
consider. If we thought they were illegitimate, we wouldn't 
have put them on the table to begin with.
    Senator Murkowski. Well, you didn't. Therefore, you would 
not be willing to prioritize any of these four?
    Mr. Robinson. Yeah, I would just mention that the one 
that's probably most cost neutral, if you will, the bundling 
option, is more of a mechanical common sense kind of a thing. 
If you've got multiple agencies who can each bring a relatively 
small number of dollars to the table, and each of those would 
bring a different set of paperwork and additional requirement 
and additional standards to meet, if you could establish a 
mechanism to bundle all those relatively small sources of funds 
together under one set of requirements, it makes a world of 
sense from a common-sense standpoint to have that kind of 
option available to you. That would lessen the cost no more 
than having them all available separately.

                    NATIONAL FLOOD INSURANCE PROGRAM

    Senator Murkowski. Mr. Pennington, I have to admit a little 
bit of confusion here. The question was asked, how much can you 
do from a preventive perspective as opposed to coming in and 
cleaning up the mess afterwards. You mentioned the pre-disaster 
relief and flood mitigation, but I think what I understood from 
your comments is that it is not appropriate or it doesn't make 
economic sense to certain villages to take advantage of the 
flood insurance? Help me out here.
    Mr. Pennington. I actually stated it a little awkwardly. 
The last thing I would ever want to do is lead a Native village 
into the National Flood Insurance Program knowing that the 
policies are relatively expensive--they're very expensive, and 
I would not want them to end up defaulting on those policies 
and then somehow be caught up in the bureaucratic mess that 
could deny them Federal assistance in the long haul. So we're 
very cautious about going into those communities.
    Any day, any moment, as soon as this hearing is over, if a 
community wants to jump into the National Flood Insurance 
Program, we're willing to go there. Shishmaref, like I 
mentioned, is in the program. And I think the number of 
policies that are actually issued there are very small. I think 
it's anywhere from two to nine--I've got the numbers. That 
gives them the ability to receive FMA dollars. But because 
there's that lack of building enforcement codes, et cetera, and 
the expense--I don't want to see the tribes and the Native 
villagers go broke paying the policies in the process of trying 
to save the homes just so they can qualify for FMA dollars, if 
that makes sense.
    So we don't have a lot of requests--we have no requests 
from them to get into the NFIP at this point. We consult with 
our State partners and those Native villagers and can certainly 
do that, but we're just a little cautious.
    Senator Murkowski. So it's fair to say that you don't go 
out and advertise and say, come on, we've got a program that 
can assist you from a prevention perspective recognizing that 
in many of these villages they won't be able to qualify in the 
first place because of certain code issues?
    Mr. Pennington. I think the short answer is yes and no. 
Yes, it's a widely popular, widely known, widely advertised 
program throughout our entire region. How we apply that, like 
you mentioned in your previous comments about Alaska's Native 
villages, they are different. They're out there. We just want 
to make sure that trying to apply that one the broad brush NFIP 
approach, that if we apply it in those Native villages that 
it's going to work. And I'm not sure that it necessarily can 
just yet there because of the economic consequences to the 
families up front and perhaps in the long haul.
    Senator Murkowski. Mr. Chairman, I don't know whether any 
of the panelists know, or perhaps you do, whether there has 
been an effort in the past to do any kind of a coordinated 
authority to study these issues. If there hasn't, it certainly 
might be appropriate to have an authority, an erosion control 
authority that would review and work with the collaboration 
coordination of the spectrum, as Mr. Pennington was talking 
about. That might be something that the committee would want to 
consider.
    Chairman Stevens. I think it's a good idea. I think we 
ought to pose that question to the agencies. That would be 
another panel of agencies, also. Seems to me if you follow 
through on that idea, we should ask Federal agencies and State 
agencies to come together in an authority and see if we could 
authorize that authority to have funding under new standards 
that would give the discretion to waive or limit the local 
contribution, but also would have a requirement that if it gets 
to be a decision to relocate, that that relocation would have 
to be approved by Congress.
    I think we could have mitigation and control authority 
immediately. I do not think we can get the money in a time 
sufficiently that's large enough money-wise to move these 
villages if it's going to cost, as anticipated, up to $100 
million or more to move one village. I do think that's a good 
idea if we could get together quickly. When we get back, we'll 
request the meeting of your agencies in Washington and see if 
we can come to an agreement before we have the appropriations 
bill for water and power and see if we can't put in there some 
basic new authorities that will give the flexibility that these 
witnesses indicate is necessary.
    We'll follow through on that suggestion, Senator.
    Senator Murkowski. Thank you.
    Chairman Stevens. Senator Sununu.
    Senator Sununu. Thank you.
    Mr. Robinson, you mentioned bundling, the process of 
bundling, and the degree to which it might make a difference in 
helping villages support some of these costs. Are there any 
other circumstances that you're aware of where this kind of 
approach or process has been used?
    Mr. Robinson. Yes. I think BIA is using something very 
comparable. I think they're quite pleased with the flexibility 
and the common sense that that's offering them and the ability 
to get something done with the minimum of administrative costs 
and the like.
    Senator Sununu. Are there statutory or legal hurdles to 
this being done?
    Mr. Robinson. I believe a statutory exemption would be 
necessary to possibly meet the need to comply with every 
agency's individual set of regulations and the like in the 
concept of the bundling exercise, yes.
    Senator Sununu. In your report you talk about the cost of 
relocating villages, and the figures that I recall range 
between $100 million and $400 million in one case.
    Mr. Robinson. Yes, sir.
    Senator Sununu. One, that's an enormous amount of money. 
But, two, that's a very broad range. What are the key factors 
that create such a significant cost, and why is the uncertainty 
so great to have to provide such a range?
    Mr. Robinson. In the one case, which is the only case where 
we have a firm estimate, which is the Kivalina case, site A 
would cost roughly $100 million, maybe a little more than that, 
based on Corps analysis. Site B would cost well over $400 
million.
    It's a difference in the site and the volume of gravel 
that's necessary to arrange the privilege to protect, the 
permafrost, to insulate the permafrost, if you will; and brings 
it above the flood areas. So it's the volume of gravel and, as 
the General mentioned, the hauling of 8 to 10 inches of gravel 
hundreds of miles to cover hundreds of acres. It's no small 
undertaking especially in this high-cost environment.
    Senator Sununu. General Davis, were the sites that were 
assessed chosen by the Army Corps, the GAO, the village?
    General Davis. I think it was a combination of what the 
locals were asking for and what we were advising under the best 
engineering practices as the most efficient sites as far as the 
engineering piece. The other piece in difference in cost is not 
fully knowing where were the sources of material, whether we 
could get something locally and bring it in at a low cost or 
whether it would have to be shipped great distances at a very 
exorbitant cost.
    Senator Sununu. Finally, your testimony mentioned a number 
of flood/erosion projects that you had undertaken successfully.
    What key factors would you identify for being the drivers 
behind the success of those projects?
    General Davis. I think probably one of the key factors is 
one we're already familiar with and that is that it was before 
cost sharing, so we didn't have that additional challenge of a 
poor community trying to find their cost share. What we found 
that worked, though, is an aggressive, astute, educated, local 
constituency that is willing to work with the State and Federal 
agencies, that understands the process.
    A very key factor is the congressional support that the 
members here in Alaska have given to these projects because 
most of them don't meet the benefit-to-cost ratios and, 
therefore, have to be authorized, as opposed to a project that 
we would recommend. But it's initiative and understanding the 
process and working through the process.
    Senator Sununu. Thank you.
    Chairman Stevens. Thank you very much. I do hope that we 
can find a way to get together and deal with this.
    My last question would be: Is there any one of these 
villages that must be done this year?
    Mr. Robinson. There are four of them that are categorized 
as having imminent problems. The problem is, Senator, that I 
don't think any of them are imminently preparing to move. The 
site selection issues--Newtok might be the farthest along 
because it has a land exchange already worked out with the Fish 
and Wildlife Service. Others are still considering sites.
    Koyukuk is way deep in the decision-making process. So I 
don't think anything is imminent. All the planning and site 
selection issues still have to be completed in most of the 
villages.
    Chairman Stevens. It would be my hope that next year at 
this time we could arrange a field trip and take the Members 
that are interested out to a series of sites and get an in-
depth understanding of some of these problems. I look forward 
to talking with you all when we get back to Washington and this 
meeting we hope to have to see if we can prioritize some of 
these and set up a time to go. Maybe we'd have to go earlier in 
the spring to see the real problem. But I think a field trip up 
there would be helpful to us.
    The members have this map in front of us of the nine 
villages that were really highlighted by the GAO report. We're 
talking about from Maine to Florida, the distance between some 
of these. So it's not a locals problem in the sense of 
distance. It's an enormous problem to deal with the logistics 
of being able to handle even two of these at the same time with 
the same agencies; Corps of Engineers working in Bethel and 
working in Barrow or Kaktovik at the same time. The range of 
distance is the coastline of the South 48.
    So I don't think it's going to be easy to marshal the 
forces to do more than one or two of these in 1 year. We have 
to prioritize where we're going as soon as we can.
    Mr. Robinson. That's a good point. I would say that that 
work is not theoretical. We visited four villages and our audit 
teams came back from visiting the sites with their eyes wide 
open as to the gravity of the issue.
    Chairman Stevens. General Davis.
    General Davis. Sir, I'd like to follow up on your point of 
looking at, say, 1 year. One of my additional duties is to be a 
member of the Corps' Coastal Engineering Research Board. This 
is chaired by our Director of Civil Works. Three division 
commanders sit on there and three outside coastal experts sit 
on there. We meet twice a year.
    We met earlier this month and discussed where our next 
meetings would be. They asked me to host a meeting in Hawaii. I 
told them, if you're asking me to host a meeting, there are 
much more pressing coastal issues in Alaska, so we recommend 
that we hold one of our next two meetings in Alaska. November 
is probably not the right time. We're looking at next May, 
June, bringing that board up here that makes recommendations to 
the Chief of Engineers on where to focus his research efforts 
in coastal engineering.
    So I think it would fit well. Perhaps we might be able to 
tie it in with a future hearing. It helps us address one of the 
challenges that we have, as Senator Burns mentioned, is we 
don't know what we don't know. We won't have the same weight 
gauge and technical data-gathering equipment here on the 
Alaskan coast as we have along the Lower 48. So I think it's 
another step going forward toward the long-range solution that 
focuses some of our capabilities here in the State.
    Chairman Stevens. That's a great suggestion. Maybe we could 
arrange the hearing in Hawaii in November and the field trip in 
the summer.
    General Davis. I think the rest are going to be in the 
District of Columbia unfortunately. So you're welcome to come 
by and visit us.
    Chairman Stevens. On the next panel will be Wayne Mundy, 
Administrator of the Alaska Office of Native American Programs, 
Public and Indian Housing, U.S. Department of Housing and Urban 
Development; Edgar Blatchford, the Commissioner of the 
Department of Community and Economic Development; and Mr. David 
E. Liebersbach, Director of the Division of Homeland Security 
and Emergency Management.
    It is time for our first break.
    We appreciate your attendance and ask that you keep 
comments to 8 minutes so we can keep to our schedule today. 
I'll call first Mr. Wayne Mundy, Administrator of the Alaska 
Office of Native American Programs, Department of Housing and 
Urban Development. Mr. Mundy.

STATEMENT OF WAYNE MUNDY, ADMINISTRATOR, ALASKA OFFICE 
            OF NATIVE AMERICAN PROGRAMS, U.S. 
            DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT
    Mr. Mundy. Mr. Chairman, members of the committee, thank 
you for the opportunity to testify on this topic, which is so 
vital to many Alaska communities. Secretary Jackson and 
Assistant Secretary Liu extend their support to the committee's 
efforts to take a serious look at these issues. Since housing 
is a critical component of any community, it is important that 
the Department of Housing and Urban Development, HUD, be aware 
of and participate in Alaska's efforts to deal with erosion and 
flooding issues.
    I would also like to take this opportunity to thank you, 
Chairman Stevens, Senator Murkowski and Representative Young 
for your ongoing advocacy on behalf of the housing and 
community development needs of American Indians and Alaska 
Native peoples throughout the Nation, and especially in Alaska.
    Flooding, and the resulting erosion problems have hurt many 
villages, rendering some locations permanently uninhabitable. 
HUD programs offer several options to address these problems, 
or, when necessary, move the village. These programs include 
the Native American Housing Assistance and Self Determination 
Acts Program, NAHASDA; the Indian Community Development Block 
Grant Program, ICDBG; the Rural Housing and Economic 
Development Program; the State Community Development Block 
Grant Program; and the Home Investment Partnership Program. 
These sources could be used to help a community develop 
capacity as well as to study, plan and help finance community 
relocation.
    We also have two guaranteed loan programs that can provide 
additional funding sources to assist tribes in leveraging their 
funds and placing income-eligible families in their own homes. 
The title VI program allows the tribe or its tribally 
designated housing entity, TDHE, to leverage their NAHASDA 
funds and pledge future grants as collateral. This loan 
guarantee could be used to fund infrastructure construction as 
well as fund new home acquisition and construction. The Section 
184 Loan Guarantee Program provides the tribe, their TDHE or an 
individual Alaska Native family with a Federal loan guarantee 
for the purpose of building or acquiring new housing units. At 
present, both loan funds are significantly undersubscribed.
    I am pleased to report that in Alaska, tribes, TDHEs and 
Alaska Natives are taking advantage of new opportunities to 
improve their housing conditions by using the Section 184 Loan 
Guarantee Program. This loan guarantee program is an important 
part of the administration's efforts to increase home ownership 
opportunities for the American people, and nowhere is this more 
important than in Alaska Native villages. I'm proud to report 
to you that Alaska leads all area offices of Native American 
programs in this effort. To date, nearly 350 loan guarantees 
have been issued in Alaska.
    Chairman Stevens. How many?
    Mr. Mundy. Over 350, sir.
    HUD certainly appreciates the contribution of the General 
Accounting Office in understanding the impact on erosion and 
flooding. I would like to offer some thoughts based on our 
experience and involvement with Alaska Native villages.
    It is critical that the social impact be considered in the 
analyses by the Army Corps of Engineers and the Natural 
Resources Conservation Service, as Senator Murkowski has 
already pointed out. Alaska's Native villages are isolated 
communities with unique cultures based on local subsistence 
practices. We believe a thorough evaluation of the costs and 
the socioeconomic issues would provide a fuller assessment of 
any proposed actions.
    Alaska Native villages are generally dependent on the State 
and Federal governments. Rarely do Alaska Native villages have 
a tax base or other funding source to meet the cost-sharing 
requirements for existing programs to address flooding and 
erosion. In order for Alaska Native villages to access these 
programs, it may be necessary to waive or substantially reduce 
the cost-sharing requirements.
    In the recent past some communities that have decided to 
undertake village relocation have found themselves eliminated 
or adversely impacted in their efforts to obtain grants that 
would allow them to maintain the investments already made at 
their current locations. Decisions on how long to maintain or 
operate the existing facilities, and when to stop and begin the 
relocation are appropriate issues for mutual agreement between 
the grantors and grantee. This would ensure appropriations are 
wisely spent and not totally lost when a move occurs.
    In HUD's opinion, the bundling of funding sources makes 
very good sense. However, within the GAO report there was no 
discussion of the barriers on matching funds from different 
agencies with different restrictions on the funding. One of the 
most obvious barriers would be the variety of environmental 
assessment and review processes used by the probable partners. 
We recommend that the agencies get together to identify 
barriers in bundling their funds and consider whether it would 
be appropriate to make joint recommendations for possible 
legislative or regulatory or changes to minimize the barriers.
    Clearly, the solution to this problem is beyond the control 
and funding of any single agency. Solutions will only be 
reached through the cooperation of the tribes, the local 
governments, the State agencies, the Federal agencies and any 
private sector entities that are involved. We should be 
challenged not just to look at the historic solutions to these 
problems; we need to apply creative remedies and be willing to 
explore alternatives.
    We do not fully understand the causes of flooding and 
erosion, only that there are communities in distress, and HUD 
possesses some of the tools to help address those issues. This 
hearing offers the opportunity to explore real solutions, even 
if those solutions may be long term. With the collective wisdom 
and desire of all involved, we believe reasonable solutions may 
be found. Again, HUD stands ready to be an active and willing 
partner in this effort, and we applaud your efforts and 
leadership in this area.
    This concludes my prepared remarks. I would be happy to 
answer any questions.
    Thank you very much.
    Chairman Stevens. Thank you for saying your agency is 
available to work with us. That's very good.
    [The statement follows:]

                   Prepared Statement of Wayne Mundy

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify on this topic, which is so vital to many Alaska 
communities. Secretary Jackson and Assistant Secretary Liu extend their 
support to the Committee's efforts to take a serious look at these 
issues. Since housing is a critical component of any community, it is 
important that the Department of Housing and Urban Development (HUD) be 
aware of and participate in Alaska's efforts to deal with erosion and 
flooding.
    I would also like to take this opportunity to thank you, Chairman 
Stevens, Senator Murkowski and Representative Young for your ongoing 
advocacy on behalf of the housing and community development needs of 
American Indians and Alaska Native peoples throughout the Nation, and 
especially in Alaska.

Introduction
    Flooding, and the resulting erosion problems have hurt many 
villages, rendering some locations permanently uninhabitable. HUD 
programs offer several options to address these problems or, when 
necessary, move the village. These programs include the Native American 
Housing Assistance and Self Determination Act's (NAHASDA) Indian 
Housing Block Grant (IHBG) program; the Indian Community Development 
Block Grant (ICDBG) program; the Rural Housing and Economic Development 
(RHED) program; the State Community Development Block Grant (CDBG) 
program; and the HOME Investment Partnership Program. These sources 
could be used to help a community develop capacity as well as to study, 
plan and help finance community relocation.
    We also have two guaranteed loan programs that can provide 
additional funding sources to assist tribes in leveraging their funds 
and placing income-eligible families in their own homes. The Title VI 
program allows the tribe or its tribally designated housing entity 
(TDHE) to leverage their IHBG funds and pledge future grants as 
collateral. This loan guarantee could be used to fund infrastructure 
construction as well as fund new home acquisition and construction. The 
Section 184 Loan Guarantee program provides the tribe, their TDHE or an 
individual Alaska Native family with a Federal loan guarantee for the 
purpose of building or acquiring new housing units. At present, both 
loan funds are significantly undersubscribed. I encourage lenders, 
tribes and their TDHEs to take a close look at the benefits they can 
realize by using these programs to enhance housing development and the 
necessary community infrastructure.
    I am pleased to report that in Alaska, tribes, TDHEs and Alaska 
Natives are taking advantage of new opportunities to improve their 
housing conditions by using the Section 184 Loan Guarantee Program. 
This federally guaranteed home mortgage loan program is an important 
part of this Administration's efforts to increase homeownership 
opportunities for the American people, and nowhere is this more 
important that in Alaska Native villages. I am proud to report to you 
that Alaska leads all Area Offices of Native American Programs in this 
effort. To date, nearly 350 loan guarantees have been issued in Alaska.

Erosion and Flooding Issues
    HUD certainly appreciates the contribution of the General 
Accounting Office in understanding the impact of erosion and flooding. 
I would like to offer some thoughts, based on our experience and 
involvement with Alaska Native villages.
    It is critical that the social impact be considered in the analyses 
by the Army Corps of Engineers and the Natural Resources Conservation 
Service (NRCS). Alaska Native villages are isolated communities with 
unique cultures based on local subsistence practices. We believe a 
thorough evaluation of the costs and the socio-economic issues would 
provide a fuller assessment of any proposed actions.
    Alaska Native villages are generally dependent on the state and 
federal governments. Rarely do Alaska Native villages have a tax base 
or other funding source to meet the cost-sharing requirements for 
existing programs to address flooding and erosion. In order for Alaska 
Native villages to access these programs, it may be necessary to waive 
or substantially reduce the cost-sharing requirements.
    In the recent past, some communities that have decided to undertake 
village relocation have found themselves eliminated or adversely 
impacted in their efforts to obtain grants that would allow them to 
maintain the investments already made at their current locations. 
Decisions on how long to maintain or operate the existing facilities, 
and when to stop and begin the relocation are appropriate issues for 
mutual agreement between the grantor and grantee. This would ensure 
appropriations are wisely spent and not totally lost when a move 
occurs.
    In HUD's opinion, the bundling of funding sources makes very good 
sense. However, there was no discussion of the barriers on matching 
funding from different agencies with different restrictions on the 
funding. One of the most obvious barriers would be the variety of 
environmental assessment and review processes used by the probable 
partners. We recommend the agencies get together to identify barriers 
in bundling their funds and consider whether it would be appropriate to 
make joint recommendations for possible legislative or regulatory 
changes to minimize the barriers.
    Clearly, the solution to this problem is beyond the control and 
funding of any single agency. Solutions will only be reached through 
the cooperation of the tribes, the local governments, the state 
agencies, the federal agencies and any private sector entities that are 
involved. We should be challenged not just to look at the historic 
solutions to these problems; we need to apply creative remedies and be 
willing to explore alternatives. We do not fully understand the causes 
of flooding and erosion, only that there are communities in distress, 
and HUD possesses some of the tools to assist them. This hearing offers 
the opportunity to explore real solutions, even if they are long-term. 
With the collective wisdom and desire of all involved, we believe 
reasonable solutions may be found. Again, HUD stands ready to be an 
active and willing partner in this effort, and we again applaud your 
leadership.
    This concludes my prepared remarks. I would be happy to answer any 
questions you may have.

    Chairman Stevens. Our next witness is Edgar Blatchford, 
Commissioner for the Department of Community and Economic 
Development and the former mayor of Seward. Good morning.

STATEMENT OF EDGAR BLATCHFORD, COMMISSIONER, DEPARTMENT 
            OF COMMUNITY AND ECONOMIC DEVELOPMENT, 
            ANCHORAGE, ALASKA
    Mr. Blatchford. Good morning, Senator, and members of the 
committee. Thank you very much for allowing me to testify 
before you. This is a very important hearing for the people of 
Alaska, particularly rural Alaska in the unorganized borough.
    I am the Commissioner of the Alaska Department of Community 
and Economic Development. Mr. Chairman, the Department's name 
will be changed effective September 2 to the Alaska Department 
of Commerce and Economic Development. If you notice a change 
later, it's because of the legislature and the Governor's 
office changing the name of the department.
    I'm here on, Mr. Chairman and members of the committee, on 
behalf of the State and on behalf of the Governor and we are 
seeking assistance from the Federal Government and direction 
from the Senate Appropriations Committee. Erosion and flooding 
is endemic to our State with nearly all of our communities 
having some type of flooding and/or erosion impact, as I would 
venture may be the case in many of the communities in each of 
the other home States of the members of the committee. Where 
the problem in Alaska differs is where Native communities, 
primarily in what we refer to as the unorganized borough where 
there's no regional government or county equivalent exists and 
those communities are most at risk. A few villages, Mr. 
Chairman, have no room for gradual retreat--the moving back of 
homes and infrastructure as is occurring in numerous 
communities throughout our State.
    Retreat is no longer an option. For a few villages complete 
relocation is likely to be the only viable alternative. We 
cannot fund this daunting task on our own.
    Senator Stevens, I believe, has asked us here today to 
focus on the particular dilemma of this handful of communities 
that are named in the December 2003 General Accounting Office 
report titled ``Alaska Native Villages: Most Are Affected by 
Flooding and Erosion, But Few Qualify For Federal Assistance.'' 
If we together with Federal agencies lead assistance, we can 
forge a roadmap for these few. We will also be paving the way 
for improved planning and development guidelines for the many 
villages that are at risk, but have not passed into this 
imminent threat of loss category.
    Shishmaref, Newtok, Koyukuk, Kivalina--these villages have 
not caught up with the visions of sustainability that we push 
communities to strive for and support through the Denali 
Commission and our other partner agencies.
    Their needs for basic services--a sewer system, a new 
clinic, improved water supply--are real, but unfortunately must 
be put on hold because of the high risk in their current 
village location. In most of the risk communities structural 
erosion/flood control measures are not a cost-effective option, 
but in the case of Shishmaref are still being tried. I fear 
these costly measures will only continue to divert our monetary 
resources and energies from the primary need--relocation.
    Federally led village relocation planning will need to 
continue, but has not been well supported at the State level 
because of a lack of funding and staff. The State encourages 
the Federal lead on relocation planning efforts, but would like 
to see ties to the Governor's Access to the Future initiative 
to see if relocation sites may support more locally sustainable 
economies.
    The erosion planning relocation efforts the Department has 
led, for example, Alakanuk's Erosion and Land Use Plan, found 
other Federal resources and programs were difficult to tap to 
move threatened structures, as Federal authorities are not 
focused or applicable to village relocation needs.
    The Department, Division of Community Advocacy's floodplain 
management efforts have tried to integrate sound erosion 
management policies with our floodplain management program, but 
frankly this is difficult without a Federal erosion policy or 
Federal guidance. For example, the current multimillion dollar, 
5-year effort to modernize the Nation's flood maps--for which 
we are very grateful for and encourage continued Senate 
Appropriations Committee support--we are told that FEMA flood 
mapping dollars cannot be used for delineating an erosion risk. 
Our department is leading this important flood map update 
effort and will try, with limited resources, to include erosion 
risk areas on our rural community-based mapping effort. Sound 
identification of risks is vital to avoid the many problems of 
the past, including community infrastructure in harm's way.
    As the State coordinating department for floodplain 
management in Alaska, our mission is to ``provide technical 
assistance and coordination to reduce public and private sector 
losses and damage from flooding and erosion, primarily to those 
cities and boroughs that participate in the National Flood 
Insurance Program.'' Please understand one person in the State 
is tasked with this daunting mission and the department has no 
dedicated program funds to mitigate the significant flood and 
erosion threats facing families and communities throughout 
Alaska. Nor, to the best of our knowledge, do any State of 
Alaska programs address erosion, unless as a special 
legislative appropriation-directed activity.
    Our Department's flood and erosion management mission, 
however, is dwarfed by our larger departmental mission of 
promoting economically sustainable communities. Now is the time 
to see how, with Federal support, we can merge these two 
missions.
    Federal resources must be brought to focus in assisting the 
most threatened villages. We must come together in a Federal-
State partnership to tackle a comprehensive and coordinated 
plan of action for the most threatened communities named in the 
GAO report. We do not see this as an easy add-on to the 
existing authority of the Denali Commission, as suggested in 
the GAO report, but would welcome discussion of methods to 
proceed with a Federal-State partnership to address the 
problem.
    My staff will be listening closely to comments, suggestions 
and directions that may come from this important hearing, as 
staff is in the midst of preparing a Five-Year Comprehensive 
Floodplain Management Strategy for Alaska.
    Thank you for holding this hearing and for permitting me to 
testify. I welcome your questions and appeal for your support 
on behalf of our most at-risk communities. Thank you.
    Chairman Stevens. Thank you very much. Glad to have your 
comments.
    [The statement follows:]

                 Prepared Statement of Edgar Blatchford

    Thank you, Mister Chairman and members of the Committee for 
traveling to Alaska to hold this important hearing, and for this 
opportunity to testify on behalf of the State and the Department of 
Community and Economic Development.
    I am testifying before you because of our department's Alaska 
Constitutional mandate to assist communities. Thus I serve as spokesman 
for all of rural Alaska.
    Frankly Senators, you would not be here today if we did not need 
the help of the Federal Government and the direction of the Senate 
Appropriations Committee.
    Erosion and flooding is certainly endemic to our State, with nearly 
all of our communities having some type of a flooding and/or erosion 
impact, as I would venture may be the case in many of the communities 
in each of your home states. Where the problem in Alaska differs is 
where Native communities, primarily in what we refer to as the 
Unorganized Borough (no regional government or county-equivalent 
exists), are most at risk. A few villages have no room for gradual 
retreat--the moving back of homes and infrastructure as is occurring in 
numerous communities throughout our state.
    Retreat is no longer an option. For a few villages complete 
relocation is likely to be the only viable alternative. We cannot fund 
this daunting task on our own.
    Senator Stevens, I believe, has asked us here today to focus on the 
particular dilemma of this handful of communities that are named in the 
December 2003 General Accounting Office (GAO) report: Alaska Native 
Villages: Most are Affected By Flooding and Erosion, But Few Qualify 
for Federal Assistance. If together with Federal lead assistance we can 
forge a road-map for these few, we will also be paving the way for 
improved planning and development guidelines for the many villages that 
are at risk but have not passed into this Imminent Threat of Loss 
category.
    Shishmaref, Newtok, Koyukuk, Kivalina--these villages have not 
caught up with the visions of sustainability that we push communities 
to strive for and support through the Denali Commission and our other 
partner agencies.
    Their needs for basic services--a sewer system, a new clinic, 
improved water supply--are real but unfortunately must be on hold 
because of the high risk in their current village location. In most at 
risk communities, structural erosion/flood control measures are not a 
cost effective option--but in the case of Shishmaref are still being 
tried--I fear these costly measures will only continue to divert our 
monetary resources and energies from the primary need--relocation.
    Federally led village relocation planning will need to continue but 
has not been well supported at the State level because of a lack of 
funding and staff. The State encourages the federal lead on relocation 
planning efforts, but would like to see ties to the Governor's Access 
to the Future initiative to see if relocation sites may support more 
locally sustainable economies. The erosion planning relocation efforts 
the department has led (for example, Alakanuk's Erosion & Land Use 
Plan) found other federal resources and programs were difficult to tap 
to move threatened structures, as federal authorities are not focused 
or applicable to village relocation needs.
    The DCED, Division of Community Advocacy's floodplain management 
efforts has tried to integrate sound erosion management policies with 
our floodplain management program, but frankly this is difficult 
without a federal erosion policy, or federal guidance. For example the 
current multi-million dollar, five-year effort to modernize the 
Nation's flood maps--for which we are very grateful for and encourage, 
continued Senate Appropriations Committee support--we are told that 
FEMA flood mapping dollars cannot be used for delineating an erosion 
risk. Our department is leading this important flood map update effort 
and will try, with limited resources, to include erosion risk areas on 
our rural community base mapping effort. Sound identification of risks 
is vital to avoid the many problems of the past--locating community 
infrastructure in harm's way.
    As the State-coordinating department for floodplain management in 
Alaska--our mission is to ``provide technical assistance and 
coordination to reduce public and private sector losses and damage from 
flooding and erosion, primarily to those cities and borough's that 
participate in the National Flood Insurance Program (NFIP)''. Please 
understand one person in the State is tasked with this daunting mission 
and the Department has no dedicated program funds to mitigate the 
significant flood and erosion threats facing families and communities 
throughout Alaska. Nor, to the best of our knowledge, do any State of 
Alaska programs address erosion--unless as a special Legislative 
appropriation directed activity.
    Our Department's flood and erosion management mission, however, is 
dwarfed by our larger departmental mission of promoting economically 
sustainable communities. Now is the time to see how, with federal 
support, we can merge these two Missions.
    Federal resources must be brought to focus in assisting the most 
threatened villages. We must come together in a Federal-State 
partnership to tackle a comprehensive and coordinated plan of action 
for the most threatened communities named in the GAO report. We do not 
see this as an easy add-on to the existing authority of the Denali 
Commission, as suggested in the GAO report, but would welcome 
discussion of methods to proceed with a Federal-State partnership to 
address the problem.
    My staff will be listening closely to comments, suggests and 
directions that may come from this important hearing, as staff is in 
the midst of preparing a Five-Year Comprehensive Floodplain Management 
Strategy for Alaska.
    Thank you for holding this hearing and for permitting me to 
testify. I welcome your questions and appeal for your support on behalf 
of our most at-risk communities.

Additional Background
    The GAO Report on Villages Affected by Flooding and Erosion 
recommended that the Denali Commission's role be expanded; likewise 
DCED is often named as the possible agency to ``lead'' a State (non-
disaster) erosion response effort. DCED, since inception, has been the 
Governor's designated lead State coordinating agency for the National 
Flood Insurance Program; leads the Flood Mitigation Assistance planning 
and project development; and now is lead for Modernizing Flood Maps. 
Staffing is insufficient to meet these existing and growing demands.
    If delegated, DCED would lead coordination if adequately funded. As 
the Alaska Land Managers Cooperative Task Force subcommittee on 
floodplain management reported 25 years ago, ``Substantial evidence 
indicates there does not now exist on the State level an adequate 
program for floodplain planning and management.'' DCED or any other 
State agency would not be able to be an effective ``lead agency'' 
without clearly stated and adopted roles, responsibilities and 
functions for a comprehensive erosion area development policy requiring 
concurrence and coordination with all agencies affected by such 
actions.
    DCED encourages the Senate Appropriations Committee to consider 
increasing support for better statewide hydrologic information that 
would be of great use to many users including developers, consultants, 
agencies organizations and private individuals for the engineering 
design, planning, forecast, monitoring, and other purposes. There is 
strong need for a comprehensive State stream gauging system to better 
define flooding events--especially in rapidly developing areas such as 
the fast growing Kenai Peninsula, Fairbanks North Star Borough and 
Matanuska-Susitna Boroughs.
    Our State Floodplain Management Coordinator assisted the GAO 
extensively in their study. Flooding and erosion affect a significant 
number of Alaskan communities. We agree with the GAO study, indicating 
that the villages of Kivalina, Koyukuk, Newtok and Shishmaref face 
increased danger from floods and erosion. Some of these communities 
have sought assistance with relocation, which is also a goal we 
support.
    Unless a funded, interdisciplinary, systematic approach to 
relocation is undertaken to assist these most threatened communities, 
structures will continue to be temporarily moved back to avoid loss, 
but relocation has not, and will not, occur in several years. 
Relocation has been a topic of discussion and study for Kivalina, 
Shishmaref and Newtok for at least two decades.
    DCED would like to see the federal disaster assistance programs 
included in the many assistance mechanisms that will be needed to 
address the relocation needs of these most threatened Alaska villages. 
In particular, the Flood Mitigation Assistance Program credited by 
General Accounting Office as funding the move of fourteen homes in 
Shishmaref after the 1997 storm, is now limited by the Federal 
Emergency Management Agency guidance only to ``repetitive loss 
structures'' as eligible rather than including ``structures subject to 
imminent collapse or subsidence as a result of erosion or flooding'' as 
is allowable under the Congressional authorizing language.\1\ This 
unfairly limits a viable federal funding mechanism that has 
successfully mitigated the loss of many structures in Shishmaref but 
currently cannot be used.
---------------------------------------------------------------------------
    \1\ See Section 1366(e)(5) Eligible Activities (A) of The National 
Flood Insurance Act of 196 as Amended by the National Flood Insurance 
Reform Act of 1994.
---------------------------------------------------------------------------
    Historically the State has provided the nonfederal matching funds 
for most Corps of Engineers (and other federal projects) faced by the 
State of Alaska. However, the matching funds have been severely 
limited. There is no dedicated State fund for relocation, erosion or 
structural flood control. A number of special legislative pass-through 
grants and Community Development Block Grants have been used to fund 
erosion studies and relocation planning projects but no direct general 
fund exists at the State level.
    To some extent, as many as 213 villages are ``affected'' by erosion 
because erosion is a naturally occurring process. Data collection needs 
some framework for quantification. Standard(s) for measurement; erosion 
zone guidance and federal (or state) standards by which to judge 
erosion risk are needed. The national standard for designing, 
development and siting for the ``100-year flood'' event exists and is 
quantifiable and measurable. A standard for erosion, such as a distance 
measurement needs to be established (such as the life of the structure, 
which itself may need to be standardized--50-year life for a house, 
etc.). Congress has provided limited authorization to implement a 
coastal erosion management program,\2\ but this has not advanced to the 
level of Executive Orders for guiding federal floodplain and wetlands 
management.
---------------------------------------------------------------------------
    \2\ Managing Coastal Erosion, National Research Council (Library of 
Congress CC# 89-13845).

    Chairman Stevens. Our next witness is Dave Liebersbach, 
Director of the Division of Homeland Security and Emergency 
Management. Thank you very much for being here.

STATEMENT OF DAVID E. LIEBERSBACH, DIRECTOR, DIVISION 
            OF HOMELAND SECURITY AND EMERGENCY 
            MANAGEMENT, FORT RICHARDSON, ALASKA
    Mr. Liebersbach. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to testify in this hearing 
today. I appreciate the leadership this committee is providing 
by focusing attention on the problems of flooding and erosion 
that threaten Alaska's community.
    As director for the State's emergency management 
organization, there are three points I'll make today: First, 
the problems of erosion and flooding are significant dangers to 
many Alaskan communities. Second, the solution to the problems 
created by flooding and erosion lay beyond the existing 
capabilities of the communities and the State.
    Third, failure to find a solution to the flooding and 
erosion problems of our communities will place many Alaskan 
residents at an increasing risk in future years.
    My agency, the Division of Homeland Security and Emergency 
Management, acting under the authority of the Governor of 
Alaska, will assist in protecting life and property when local 
governments are overwhelmed by natural disasters or acts of 
terrorism. Additionally, we assist the State, local governments 
and private institutions in planning and preparing for 
disasters or terrorism events.
    Our mission is defined by law in Alaska Statute, title 26, 
chapter 23, which states, ``The Governor is responsible for 
meeting the dangers presented by disasters to the State and its 
people.'' Disasters are defined as the ``occurrence or imminent 
threat of widespread or severe damage, injury, loss of life or 
property, or shortage of food, water or fuel from an 
incident.''
    The law limits the response by the Division of Homeland 
Security and Emergency Management to events which pose ``a 
widespread and severe threat'' to human life or property. One 
home being washed away by a flood is a tragedy. It is not, 
however, a State disaster because it is neither ``widespread'' 
nor ``severe.''
    Similarly, the constantly changing courses of our rivers 
and eroding coastlines are causing tragedies in local 
communities, but not disasters. The village of Noatak is but 
one example where gradually, house by house, one-half the 
village has been forced to relocate as the riverbank erodes. 
The residents have accomplished this, as is proper, without any 
assistance from my agency.
    Since the 1977 reorganization of this agency, the division 
has been involved in over 200 disaster events of varying size, 
dealing with every type of hazard. In the last 20 years we have 
responded to 97 flooding or erosion disaster events, which 
account for 51 percent of our responses. We can only guess what 
the next 20 years will bring, but we can improve our situation 
with good mitigation measures.
    Elevating or relocating structures are examples of disaster 
mitigation. However, outside of a federally declared disaster, 
the State of Alaska has no program to fund disaster mitigation 
projects. For a federally declared disaster the State may spend 
up to 7\1/2\ percent of the total disaster funding on approved 
mitigation projects. Currently, we are using these mitigation 
funds to relocate houses in Alakanuk and elevate houses in Red 
Devil and Sleetmute. Last year this program funding was reduced 
by 50 percent.
    The 2003 report by the United States General Accounting 
Office titled, ``Alaska Native Villages'' is a tremendously 
important study. Our agency assisted the GAO in this study and 
supports the conclusions. Flooding and erosion affect a 
significant number of Alaskan communities. We agree with the 
GAO study indicating that the villages of Kivalina, Koyukuk, 
Newtok and Shishmaref face increased danger from floods and 
erosion. Some of these communities have sought assistance with 
relocation, which is also a goal we support.
    The problem is most acute for some of Alaska's smallest 
communities. Again, the GAO report painted an accurate portrait 
of these problems. The small populations, the limited tax bases 
and the undeveloped nature of local governments are manifested 
in the communities most at risk also being those with the 
fewest local resources available to cope with the problems. We 
also believe the risk of flooding and erosion in many 
communities appears to be increasing and we readily share the 
concerns expressed by residents of Alaska's rural communities.
    In conclusion, our agency has vast experience in disaster 
response and recovery. We will be there for each and all of 
these communities when the next storm strikes. We will be there 
for all the storms that follow. However, our legal mandate does 
not give us the authority, or the funding, to move a community 
out of the path of a storm.
    Clearly, there needs to be legal authority and funding to 
relocate communities that are at risk for catastrophic events. 
I believe these hearings are providing a good forum to develop 
the answers to these critical issues.
    Thank you for holding the hearings and permitting me to 
testify. I welcome questions.
    [The statement follows:]

               Prepared Statement of David E. Liebersbach

    Thank you, Mister Chairman and Members of the Committee for the 
opportunity to testify in this hearing today. I appreciate the 
leadership this Committee is providing by focusing attention on the 
problems of flooding and erosion that threaten Alaska's communities.
    As the Director of the State's emergency management organization, 
there are three points I will make today. First, the problems of 
erosion and flooding are significant dangers to many Alaskan 
communities. Second, the solution to the problems created by flooding 
and erosion lay beyond the existing capabilities of the communities and 
the State. Third, failure to find a solution to the flooding and 
erosion problems of our communities will place many Alaskan residents 
at an increasing risk in future years.
    My agency, the Division of Homeland Security and Emergency 
Management, acting under the authority of the Governor of Alaska, will 
assist in protecting life and property when local governments are 
overwhelmed by natural disasters or acts of terrorism. Additionally we 
assist the State, local governments and private institutions in 
planning and preparing for disasters or terrorism events.
    Our mission is defined by law in Alaska Statute, Title 26, Chapter 
23, which states ``The Governor is responsible for meeting the dangers 
presented by disasters to the State and its people.'' Disasters are 
defined as the ``occurrence or imminent threat of widespread or severe 
damage, injury, loss of life or property, or shortage of food, water, 
or fuel from an incident . . .''
    The law limits the response by the Division of Homeland Security 
and Emergency Management to events which pose ``a widespread and severe 
threat'' to human life or property. One home being washed away by a 
flood is a tragedy. It is not, however, a State disaster because it is 
neither ``wide spread'' nor ``severe.''
    Similarly, the constantly changing courses of our rivers and 
eroding coastlines are causing tragedies in local communities, but not 
disasters. The village of Noatak is but one example where gradually, 
house by house, half the village has been forced to relocate as the 
river bank erodes. The residents have accomplished this, as is proper, 
without any assistance from my agency.
    Since the 1977 reorganization of this agency, the Division has been 
involved in over 200 disaster events of varying size, dealing with 
every type of hazard. In the last 20 years, we have responded to 97 
flooding or erosion disaster events, which accounts for 51 percent of 
our responses. We can only guess what the next 20 years will bring, but 
we can improve our situation with good mitigation measures.
    Elevating or relocating structures are examples of disaster 
mitigation. However, outside of a federally declared disaster, the 
State of Alaska has no program to fund disaster mitigation projects. 
For a federally declared disaster, the State may expend up to 7.5 
percent of the total disaster funding on approved Mitigation projects. 
Currently, we are using these mitigation funds to relocate houses in 
Alakanuk and elevate houses in Red Devil and Sleetmute. Last year, FEMA 
reduced this program funding by 50 percent.
    The 2003 report by the United States General Accounting Office 
titled ``Alaska Native Villages'' is a tremendously important study. My 
agency assisted the GAO in this study and supports the conclusions. 
Flooding and erosion affect a significant number of Alaskan 
communities. We agree with the GAO study, indicating that the villages 
of Kivalina, Koyukuk, Newtok and Shishmaref face increased danger from 
floods and erosion. Some of these communities have sought assistance 
with relocation, which is also a goal we support.
    The problem is most acute for some of Alaska's smallest 
communities. Again, the GAO report painted an accurate portrait of 
these problems. The small populations, the limited tax bases and the 
undeveloped nature of local governments are manifested in the 
communities most at risk also being those with the fewest local 
resources available to cope with the problems. We also believe the risk 
of flooding and erosion in many communities appears to be increasing 
and we readily share the concerns expressed the residents of Alaska's 
rural communities.
    In conclusion, my agency has vast experience in disaster response 
and recovery. We will be there for each and all of these communities 
when the next storm strikes. We will be there for all the storms that 
follow. Unfortunately, our legal mandate does not give us the 
authority, or the funding, to move a community out of the path of the 
storm.
    Clearly, there needs to be legal authority and funding to relocate 
communities that are at risk from catastrophic events. I believe these 
hearings are providing a good forum to develop the answers to these 
critical issues.
    Thank you for holding the hearings and for permitting me to 
testify.

ALASKA DIVISION OF HOMELAND SECURITY & EMERGENCY MANAGEMENT SUMMARY OF FEDERAL & STATE DECLARED DISASTERS (MARCH
                                                1984 TO PRESENT)
----------------------------------------------------------------------------------------------------------------
                                                          Total Cost State/   On the GAO     Total Disasters/
           DISASTER               DSTR #      Category           Fed            Study       Percentage and Cost
----------------------------------------------------------------------------------------------------------------
  Environmental and Economic
          Disasters

Crown Point/May 1, 1986......        86-53          E-5         $712,097.00  ...........
Valdez Oil Spill/March 29,           89-89          E-5         $361,679.00  ...........
 1989.
Moose/March 28, 1990.........       90-108          E-5         $196,522.00  ...........  9 Disasters
Norton Sound Herring Fish/          93-159          E-5               $0.00  ...........  5 percent of total
 July 13, 1992.
Kuskokwim Chum/July 19, 1993.       94-163          E-5               $0.00  ...........
Bristol Bay Fish/July 18,           98-184          E-5       $2,007,846.00  ...........
 1997.
WAFD/July 30, 1998/FEDA......       99-189          E-5      $18,000,000.00  ...........
WAFD/July 30, 1998/ELE.......       99-189          E-5       $6,106,751.35  ...........
Operation Renew Hope/July 19,        1-194          E-5         $747,122.10  ...........
 2000.
                              ----------------------------------------------------------------------------------
      Total Cost.............  ...........  ............     $28,132,017.45
                              ==================================================================================
     Other Infrastructure

Thorne Bay (Bridge)/February         86-52          E-4          $11,778.00  ...........
 3, 1986.
Klehini River Bridge/November        88-68          E-4          $92,482.00  ...........  6 Disasters
 9, 1987.
Whittier/August 8, 1989......        90-98          E-4         $634,103.00  ...........  3 percent of total
Broadcasting/February 22,           90-106          E-4         $130,000.00  ...........
 1990.
Lowell Creek Tunnell/               91-124          E-4         $369,786.00  ...........
 September 27, 1990.
Kotzebue Radio Tower/August          2-197          E-4          $41,226.77  ...........
 13, 2001.
                              ----------------------------------------------------------------------------------
      Total Cost.............  ...........  ............      $1,279,375.77
                              ==================================================================================
        Fuel Shortages

Gambell/May 17, 1985.........        85-35          E-3          $33,673.00  ...........
Togiak/October 1987..........        88-67          E-3          $35,000.00  ...........  6 Disasters
Kongiganak/March 2, 1990.....       90-107          E-3          $20,000.00  ...........  3 percent of total
Manakotak/April 5, 1990......       90-109          E-3          $15,000.00  ...........
Karluk/February 22, 1991.....       91-129          E-3          $22,000.00  ...........
Aniak Loan/August 7, 1991....       92-147          E-3           $5,082.00  ...........
                              ----------------------------------------------------------------------------------
      Total Cost.............  ...........  ............        $130,755.00
                              ==================================================================================
       Public Services

Search and Rescue/September         90-102          E-2         $100,000.00  ...........  3 Disasters
 13, 1989.
Snow and Ice Removal/1990....       90-112          E-2       $2,000,000.00  ...........  2 percent of total
Shaker IV/1993...............       94-166          E-2         $357,778.00  ...........
                              ----------------------------------------------------------------------------------
      Total Cost.............  ...........  ............      $2,457,778.00
                              ==================================================================================
   Utilities (Not caused by
   Natural Disaster Events)

Cold Bay/May 5, 1984.........        84-27          E-1           $1,345.00  ...........
Cold Bay/July 31, 1984.......        85-30          E-1         $740,000.00  ...........
Metlakatla/December 10, 1985.        86-48          E-1          $90,547.00  ...........
Venetie/March 3, 1986........        86-51          E-1          $54,615.00  ...........
Aniak (Sewer)/October 27,            87-57          E-1          $52,500.00  ...........
 1986.
Angoon/November 6, 1987......        88-66          E-1          $29,514.00  ...........
Beaver/March 8, 1988.........        88-71          E-1          $22,990.00  ...........
Chenega Bay/March 25, 1988...        88-73          E-1          $36,423.00  ...........
Eagle/July 22, 1988..........        89-79          E-1           $8,242.00  ...........
Marshall/February 25, 1991...       91-130          E-1          $15,741.00  ...........
Angoon/May 3, 1991...........       91-131          E-1          $91,468.00  ...........  14 Disasters
Little Diomede/July 25, 1991.       92-146          E-1          $67,684.00  ...........  7 percent of total
Seward Sewage/November 20,          92-152          E-1         $754,541.00  ...........
 1991.
Kake Water Incident/July 31,         1-195          E-1         $409,699.25  ...........
 2000.
                              ----------------------------------------------------------------------------------
      Total Cost.............  ...........  ............      $2,375,309.25
                              ==================================================================================
   Earthquakes, Volcanoes,
  Landslides and Avalanches

Mt. Redoubt/December 20, 1989       90-103            D         $269,886.00  ...........  6 Disasters
KPB Mt. Redoubt/January 11,         90-104            D         $149,403.00  ...........  3 percent of total
 1990.
Earthquake Mitigation/              92-151            D         $225,748.00  ...........
 November 7, 1991.
Mt. Spurr/September 21, 1992.       93-161            D         $287,846.00  ...........
Central Gulf Coast Storm/            0-191            D      $17,320,725.00  ...........
 February 4, 2000 \1\.
Denali Earthquake/November 6,        2-203            D      $19,934,500.00  ...........
 2002 \1\.
                              ----------------------------------------------------------------------------------
      Total Cost.............  ...........  ............    $234,937,361.72
                              ==================================================================================
     Fire: Wild Land and
          Structural

Russian Mission/August 9,            85-31             C         $89,325.00  ...........
 1984.
Gambell/August 31, 1985......        86-44             C        $201,693.00  ...........
Manakotak/November 22, 1985..        86-46             C         $69,449.00  ...........
Venetie/January 9, 1987......        87-58             C         $86,000.00  ...........
Delta Junction/May 28, 1987..        87-61             C         $22,257.00  ...........
Wainwright Fire/October 6,           88-65             C      $2,186,931.00  ...........
 1987.
Barrow School Fire/February          88-69             C      $2,410,159.00  ...........
 16, 1988.
Chefornak/March 23, 1988.....        88-72             C        $272,735.00  ...........
Pitka's Point/March 29, 1988.        88-74             C         $97,761.00  ...........
Nondalton/April 5, 1988......        88-75             C        $776,897.00  ...........
Klawock/October 17, 1988.....        89-81             C         $48,157.00  ...........
Yukon Flats/November 10, 1988        89-82             C         $84,757.00  ...........
Tatitlek/January 31, 1990....       90-105             C         $92,242.00  ...........
Stebbins/April 9, 1990.......       90-110             C      $1,000,000.00  ...........
Fire Suppresion/May 30, 1990.       90-115             C      $1,000,000.00  ...........
Teklanika Fire/May 31, 1990..       90-116             C      $1,000,000.00  ...........
Statewide Fires/July 4, 1990.       91-118             C      $1,995,914.00  ...........
Eagle/December 28, 1990......       91-126             C         $33,174.00  ...........
DNR/July 11, 1991............       92-143             C                N/A  ...........
Whitestone/July 25, 1991.....       92-145             C        $168,700.00  ...........
Diomede Fire/September 20,          92-148             C        $974,172.00  ...........
 1991.
DNR Fire Disaster/July 7,           93-158             C                N/A  ...........
 1992 \2\.
Tenakee Springs Fire/July 19,       94-164             C        $169,369.00  ...........
 1993.
Department of Natural Res/          94-165             C      $1,000,000.00  ...........
 August 3, 1993.
DNR Statewide Fire/June 22,         95-179             C                N/A  ...........
 1995 \2\.
Miller's Reach Fire/June 2,         96-181             C      $7,540,509.00  ...........
 1996 \1\.
DNR Fire Suppression/July 14,       96-183             C                N/A  ...........  31 Disasters
 1997 \2\.
DNR Fire Suppression/June 5,        98-187             C                N/A  ...........  16 percent of total
 1998 \2\.
DNR Fire Suppression/May 24,         0-192             C                N/A  ...........
 2000 \2\.
DNR Fire Suppression/June 23,        0-193             C                N/A  ...........
 2000 \2\.
Sleetmute Fire/December 20,          2-199             C        $148,646.57  ...........
 2001.
                              ----------------------------------------------------------------------------------
      Total Cost.............  ...........  ............     $21,468,847.57
                              ==================================================================================
  Extreme Freezing Temps and
          High Winds

Unalakleet/March 5, 1984.....        84-23            B         $726,865.00  ...........
Mountain Village/March 8,            84-24            B         $986,427.00  ...........
 1984.
Elim/March 9, 1984...........        84-25            B         $384,588.00  ...........
Kotzebue/April 30, 1984......        84-26            B         $673,101.00  ...........
Savoonga/February 26, 1985...        85-34            B         $255,954.00  ...........
Thorne Bay/December 5, 1985..        86-47            B         $258,512.00  ...........
Pelican/March 19, 1986.......        86-52            B          $18,024.00  ...........
Kotzebue/February 5, 1987....        87-59            B       $1,231,610.00  ...........
Omega Block(Cold Wthr)/              89-83            B       $1,319,656.00  ...........
 January 28, 1989.
Northwest Arctic Borough/            89-84            B       $4,974,908.00  ...........
 February 1, 1989.
St. George/February 9, 1989..        89-85            B         $229,853.00  ...........
Sand Point/February 27, 1989.        89-86            B          $23,062.00  ...........
Ahkiok/March 2, 1989.........        89-87            B          $45,937.00  ...........
Galena/April 20, 1989........        89-90            B         $175,124.00  ...........  18 Disasters
Hazard Mitigation C.W./1990..       91-119            B         $556,754.00  ...........  9 percent of total
Togiak/February 8, 1991......       91-127            B          $51,384.00  ...........
Larsen Bay/February 14, 1991.       91-128            B          $20,000.00  ...........
South-central Windstorm/March        3-204            B       $5,577,248.00  ...........
 2003 \1\.
                              ----------------------------------------------------------------------------------
      Total Cost.............  ...........  ............     $17,509,007.00
                              ==================================================================================
Flood and Erosion Type Events
    for the last 20 years

Southeast Alaska/November 26,        85-32          A/B         $958,519.00  ...........
 1984.
Unalaska/December 13, 1985...        86-49          A/B         $181,937.00  ...........
North Slope Borough/March 8,         89-88          A/B         $113,364.00      ( \3\ )
 1989.
Alakanuk/June 13,1984........        84-28            A         $277,544.00      ( \3\ )
Emmonak/June 15, 1984........        84-29            A          $22,884.00      ( \3\ )
Haines/January 25, 1985......        85-33            A       $1,581,506.00  ...........
Buckland/May 30, 1985........        85-36            A          $83,585.00      ( \3\ )
Kobuk/May 30, 1985...........        85-37            A          $17,979.00      ( \3\ )
Anvik/June 5, 1985...........        85-38            A          $17,878.00      ( \3\ )
Emmonak/June 11, 1985........        85-39            A          $72,832.00      ( \3\ )
Pilot Station/June 18, 1985..        85-40            A          $34,736.00      ( \3\ )
Upper Kuskokwim River/June           85-41            A          $56,826.00      ( \3\ )
 18, 1985.
Pitka's Point/July 9, 1985...        86-42            A          $12,740.00      ( \3\ )
Bethel/July 10, 1985.........        86-43            A         $475,507.00      ( \3\ )
Cordova/October 31, 1985.....        86-45            A          $16,462.00  ...........
Napakiak/May 15, 1986........        86-54            A          $15,000.00      ( \3\ )
Artic (North Slope) Sea Storm/       87-55            A       $3,791,026.00      ( \3\ )
 September 25, 1986.
Southcentral AK Flood/October        87-56            A       $8,642,440.00  ...........
 12, 1986.
Sleetmute/Red Devil/May 28,          87-60            A          $51,602.00      ( \3\ )
 1987.
Aniak/May 29, 1987...........        87-62            A         $993,861.00      ( \3\ )
Buckland/June 16, 1987.......        87-63            A         $203,548.00      ( \3\ )
DOT--July 24, 1987 \4\.......        88-64            A                 N/A  ...........
Haines Flooding/February 29,         88-70            A          $78,590.00  ...........
 1988.
Crooked Creek/May 12, 1988...        88-76            A         $133,230.00      ( \3\ )
Napakiak/Napaskiak/May 24,           88-77            A         $125,292.00      ( \3\ )
 1988.
Kaltag/May 26, 1988..........        89-78            A          $28,883.00      ( \3\ )
Shishmaref/August 5, 1988....        89-80            A         $318,072.00      ( \3\ )
Glennallen/May 6, 1989.......        89-91            A          $15,000.00
Circle/May 6, 1989...........        89-92            A         $196,657.00      ( \3\ )
Ft. Yukon/May 6, 1989........        89-93            A         $194,812.00      ( \3\ )
89 Spring Floods/June 10,            89-94            A       $4,739,881.00      ( \3\ )
 1989.
Klawock/June 19, 1989........        90-95            A           $9,927.00  ...........
Fairbanks North Star Boro/           90-96            A          $65,640.00  ...........
 August 4, 1989.
Mat-Su Borough/August 4, 1989        90-97            A         $358,772.00  ...........
Municipality of Anchorage/           90-99            A       $2,261,615.00  ...........
 August 30, 1989.
Seward/Kenai Peninsula/August       90-100            A         $529,552.00  ...........
 30, 1989.
DOT--September 13, 1989 \4\..       90-101            A                 N/A  ...........
Hazard Mit. 89 Spring Flood/        90-111            A         $619,828.00  ...........
 April 14, 1990.
McGrath/May 16, 1990.........       90-113            A          $39,409.00      ( \3\ )
Kobuk/May 17, 1990...........       90-114            A           $6,153.00      ( \3\ )
Bethel/July 2, 1990..........       90-117            A         $600,176.00      ( \3\ )
Lower Kuskokwim/September 4,        91-120            A         $835,297.00      ( \3\ )
 1990.
Kotzebue/September 4, 1990...       91-121            A         $328,845.00      ( \3\ )
Nome/September 10, 1990......       91-122            A         $105,000.00  ...........
Teller/September 10, 1990....       91-123            A         $173,723.00      ( \3\ )
Diomede/November 21, 1990....       91-125            A         $622,594.00      ( \3\ )
Fairbanks North Star Boro/May       91-132            A       $1,664,378.00      ( \3\ )
 3-23, 1991.
Aniak/May 1991...............       91-133            A         $550,089.00      ( \3\ )
McGrath/May 1991.............       91-134            A         $608,391.00      ( \3\ )
Red Devil/May 1991...........       91-135            A         $239,953.00      ( \3\ )
Anvik/May 1991...............       91-136            A         $181,700.00      ( \3\ )
Grayling/May 1991............       91-137            A          $78,630.00      ( \3\ )
Emmonak/May 1991.............       91-138            A         $398,246.00      ( \3\ )
Holy Cross/May 1991..........       91-139            A          $20,265.00      ( \3\ )
Alakanuk/May 1991............       91-140            A         $210,506.00      ( \3\ )
Shageluk/May 1991............       91-141            A          $57,867.00      ( \3\ )
Galena/May 1991..............       92-142            A          $67,061.00      ( \3\ )
Mat-Su Borough/July 18, 1991.       92-144            A         $515,900.00  ...........
New Koliganek/October 14,           92-149            A          $67,526.00      ( \3\ )
 1991.
Kodiak/November 2, 1991......       92-150            A       $1,564,957.00      ( \3\ )
Eagle Village Flood/May 19,         92-153            A         $183,729.00      ( \3\ )
 1992.
Eagle City Flood/May 19, 1992       92-154            A          $61,147.00      ( \3\ )
Galena Ice Jam Flood/May 26-        92-155            A         $442,615.00      ( \3\ )
 29, 1992.
Flood Response/June 9, 1992..       92-156            A          $22,059.00  ...........
Yukon River Flood/June 17,          92-157            A       $1,167,796.22      ( \3\ )
 1992.
DOT--August 14,1992 \4\......       93-160            A                 N/A  ...........
DOT--October 5, 1992 \4\.....       93-162            A                 N/A      ( \3\ )
DOT--October 29, 1993 \4\....       94-167            A                 N/A  ...........
Fort Yukon Haz Mit/1993......       94-168            A         $356,765.00  ...........
McGrath Road Disaster/May 23,       94-169            A         $170,999.00  ...........
 1993.
Galena Flood/May 10, 1994....       94-170            A         $614,005.00      ( \3\ )
Cummins Road/July 13, 1994...       95-171            A          $38,810.00  ...........
Mat-Su Borough Loan/July 1,         95-172            A         $500,000.00  ...........
 1994.
1994 Falls Floods/August 24,        95-173            A      $60,883,422.00      ( \3\ )
 1994.
1994 Koyukuk Flood Hmit/            95-173            A      $11,402,495.00      ( \3\ )
 August 24, 1994.
1994 Koyukuk Flood TH/August        95-173            A         $335,616.00      ( \3\ )
 24, 1994.
Metlakatla/November 10, 1994.       95-174            A          $31,863.00      ( \3\ )
Skagway/November 16, 1994....       95-175            A         $112,786.00  ...........
Yukon-Delta Kuskokwim/June 5,       95-176            A         $207,852.00      ( \3\ )
 1995.
Aniak/June 5, 1995...........       95-177            A         $210,213.95  ...........
Bethel/June 5, 1995..........       95-178            A         $128,861.00      ( \3\ )
1995 Southcentral Flood/            96-180            A      $10,526,962.15  ...........
 September 21, 1995.
96 Southeast Storm/September        96-182            A         $528,180.80  ...........
 25, 1996.
Tanana/Copper River Flood/          97-185            A         $946,144.32      ( \3\ )
 1997.
Shishmaref/October 6, 1997...       98-186            A       $1,462,788.11      ( \3\ )
Endicott Mtn Flooding/June          98-188            A         $667,905.92      ( \3\ )
 18, 1998.
Southeastern Storm/October          99-190            A       $1,119,927.94      ( \3\ )
 27, 1998.
Middle Yukon flood/May 31,           1-196            A         $600,000.00      ( \3\ )  ......................
 2001 \1\.
Shismareff Erosion/October           2-198            A          $87,858.74      ( \3\ )
 27, 2001.
Interior Flood/May 30, 2002          2-200            A       $5,809,300.00      ( \3\ )
 \1\.
Northwest Fall Sea Storm/            3-201            A         $851,000.00      ( \3\ )
 October 23, 2002 \1\.
Kenai Peninsula Flooding/            3-202            A      $19,758,068.00  ...........  97 Declared Disasters
 November 2002 \1\.
Salcha Flood/2003 \1\........        3-205            A         $600,000.00  ...........  51 percent of total
July Riverine Flood/July 2003        4-206            A         $500,000.00  ...........
 \1\.
2003 Fall Flood \1\..........        4-207            A         $683,508.00  ...........
Kassan Landslide/2003 \1\....        4-208            A         $524,528.00  ...........
2003 Fall Sea Storm \1\......        4-209            A         $695,000.00  ...........
                              ----------------------------------------------------------------------------------
      Total Cost.............  ...........  ............    $158,466,399.15
----------------------------------------------------------------------------------------------------------------
Legend:
A = Flood, Erosion, and Landslides caused by heavy rains. 97 Events. 51 percent.
B = Extreme Freezing Cold Temps and High Winds. 18 Events. 9 percent.
C = Fire: Wild Land and Structural. 31 Events. 16 percent.
D = Earthquakes, Volcanoes, Landslides and Avalanches. 6 Events. 3 percent.
E = Other.
E-1: Utilities (Not caused by Natural Disaster Events). 14 Events. 7 percent.
E-2: Public Services. 3 Events. 2 percent.
E-3: Fuel Shortages. 6 Events. 3 percent.
E-4: Other Infrastructure. 6 Events. 3 percent.
E-5: Environmental and Economic. 9 Events. 5 percent.
20 Year Disaster Total: 190.
Total Cost All Events: $466,756,850.91.
\1\ Disaster listed are Authorized Costs for the disaster based on Damage Estimates authorized in the Disaster
  Declaration, all others are actual costs.
\2\ DNR Fire Suppression Disasters are tracked and reported on by DNR.
\3\ On the GAO study.
\4\ DOT Federal Highway Funding Disasters are tracked and reported on by DOT.

    Chairman Stevens. Thank you very much. First, Mr. Mundy, 
you mentioned NAHASDA. What can a village use your funding for 
in connection with flooding and erosion issues?
    Mr. Mundy. Mr. Chairman, NAHASDA provides a lot of 
flexibility to tribes to determine how to use their grants. 
Primarily, the grant is for housing and housing-related 
activities, affordable housing-related activities. Shishmaref 
as well as Kivalina have used their NAHASDA grants in the means 
of moving houses, I believe it was from the 2000 storm that 
came on fairly suddenly and their TDHE went in and moved about 
four houses, I believe it was, and prevented them from 
literally falling into the ocean.
    Chairman Stevens. Do you have authority for prevention or 
just to react to disasters?
    Mr. Mundy. Again, if the tribe incorporates that into their 
housing plan. It's how you write things into your housing plan, 
which is an annual requirement under NAHASDA. You can, and in 
Kivalina's case, they annually put into their plan a portion of 
their monies being spent, actively being spent on planning for 
their move, their relocation. The tribe, if they adequately put 
verbiage in it, they can just about do anything, Senator. There 
does not need to be a declaration. They could react relatively 
fast. Again, the constraint becomes the plan. They've got that 
plan and they can amend that plan and have amended the plan in 
some cases to take action.
    I believe the Shishmaref plan was amended to allow an 
activity; the tribe submitted their amendment to HUD by fax. I 
returned that very quickly and it was an approved activity for 
which funding could flow on. So, again, it is very flexible, 
sir.
    Chairman Stevens. You say that you have programs that can 
leverage village funds? What do you mean by that?
    Mr. Mundy. Under the title VI program, sir, Congress 
approved a guaranteed program that allows a tribe to come in 
and take a portion or all of their grant funds and seek a loan 
from a commercial lender and then use those funds to do 
whatever activity they're trying to do, be it build 
infrastructure or whatever. What they're doing, they're 
pledging the repayment of that loan with their future grant 
funds.
    Chairman Stevens. Does each tribe in Alaska have funds 
allocated under NAHASDA?
    Mr. Mundy. Yes, sir. Each tribe has an amount of funds that 
is allocated under a formula. Now, some of those tribes may 
determine if they want to go under an umbrella organization 
such as the regional housing authorities. They assign those 
funds to the regional housing authorities. Then the regional 
housing authorities in concert with that tribe make the 
decisions on how to expend funding.
    Chairman Stevens. How much funding is available for that in 
Alaska?
    Mr. Mundy. Approximately $100 million for all of the 
villages.
    Chairman Stevens. That's annually?
    Mr. Mundy. Annually, sir.
    Chairman Stevens. And your agency is prepared to make money 
available on the basis of leveraging--borrowing the funds for 
the future?
    Mr. Mundy. That's the way that Congress has structured it, 
sir.
    Chairman Stevens. Yes, but how far in the future?
    Mr. Mundy. Again, they're allowed to leverage 5 years of 
funding. So if the tribe gets their allocation of $100,000, 
they can leverage that to $500,000. As long as they can 
demonstrate how that can be repaid to the lender, the lender is 
willing to deal with them. We have done several title VI's 
within Alaska.
    Chairman Stevens. Can they use that money for the local 
share of the Corps of Engineers' project?
    Mr. Mundy. That's a good question, sir. I will have to look 
into that.
    Chairman Stevens. Okay. What other sources of HUD funding 
are available besides that village entitlement?
    Mr. Mundy. There's--probably one of the more active 
programs that has historically been used in emergencies, 
flooding and erosion emergencies, has been the Indian Community 
Housing Development Block Grant Program. Shishmaref took 
advantage of that in their 1997 event and were awarded what was 
known as an imminent threat. Under the IHBG a portion of the 
overall grant is set aside for eminent threat nationally. Then 
as threats come up, those are then funded out of this set-
aside, if you will, from the congressional appropriation.
    Chairman Stevens. Those are for individual houses?
    Mr. Mundy. Typically in--well, in Alakanuk and in Alatna, 
Alakanuk moved eight houses with ICDBG funds and Alatna moved 
two houses with ICDBG funds. The problem with that, the eminent 
threat portion--again, it's a historic program. It's been done 
for probably the past 20 years. As recently as about 1\1/2\ 
weeks ago, the department was prepared to set aside those funds 
again and within our budgeting process we submitted our 
department's operating plan for 2004 to the House 
Appropriations folks for their concurrence. And, unfortunately, 
that set-aside of approximately $4 million was not approved. So 
in 2004 we have no set-aside.
    Chairman Stevens. That was a national figure of $4 million?
    Mr. Mundy. Yes, sir.
    Chairman Stevens. All right. Are you working now with any 
of these nine communities in terms of their planning process?
    Mr. Mundy. Sir, we've been involved with Kivalina, and 
generally we don't jump in; we wait to be asked. The community 
really has to be willing to take the lead in this. We're not 
the leaders. We're just one of many partners in this co-effort. 
We've had active roles in Shishmaref, Kivalina, Newtok, with 
staff participating on relocation committees in each of the 
villages.
    Chairman Stevens. Edgar, is your agency the lead agency or 
is Mr. Mundy's the lead agency?
    Mr. Blatchford. Senator and Mr. Chairman, members of the 
committee, the department is the lead State agency in dealing 
with erosion and flood control. We have the Division of 
Community Advocacy within the department. It's the coordinating 
office for the national insurance program. The constitution in 
the State of Alaska mandates that there shall be a State agency 
that advises and assists communities in the unorganized 
borough.
    So with that responsibility upon the department, we work 
closely with the local municipalities, like Shishmaref and 
Kivalina. In Shishmaref's case what they have done, Mr. 
Chairman, is that they have--in their flood and erosion 
ordinance they have set management standards and they require 
such things as a foundation system that allows for the 
relocation of structures and that the site be certified by a 
professional engineer to be safe from erosion for the useful 
life of the structure or 15 years.
    Now, Mr. Chairman, members of the committee, the Department 
is also contracting out for relocation maps for Newtok and 
Shishmaref.
    Chairman Stevens. Senator Burns.
    Senator Burns. I think Mr. Mundy answered most of my 
questions as far as the money is concerned and how he operates. 
It just sounds like that one figure of $4 million nationwide is 
a pretty low figure. That can be used up awfully fast.
    Mr. Mundy. Yes, sir, it could.
    Senator Burns. How about--are we hearing from anybody at 
SBA, Mr. Chairman, in this thing? Are they involved in these 
hearings?
    Chairman Stevens. They're not involved in these hearings, 
no.
    Senator Burns. Okay. I think he answered most of my 
questions. As far as funding is concerned, we may be a little 
bit low in some areas. But he answered most of my questions. 
Thank you.
    Chairman Stevens. In the village area the small businesses 
have a limited role, but we will deal with them in Washington 
to the extent we have to after this hearing.
    Senator Murkowski.
    Senator Murkowski. Mr. Chairman, this could probably be 
addressed by either you, Mr. Mundy, or Commissioner Blatchford. 
The 184 other communities out there that experience some level 
of flooding or erosion that have been identified in this GAO 
report--we have been kind of focused on the nine communities--
but in the programs that you have available through HUD, when a 
community is asking for assistance or wants to locate some 
homes and they are in these villages that are not necessarily 
under eminent threat, but we know we have erosion difficulties, 
we know we have flooding problems, what guidance, if any, is 
given within these communities?
    Commissioner Blatchford, you mentioned, and I think your 
point is right on, that we need to identify the risks in the 
areas to avoid problems of the past. In other words, we don't 
want to be--we don't want to be putting ourselves in the way of 
problems in the future. So what role, if any, do you have as 
you provide for these programs to make sure that we are 
locating in an area that's going to be relatively safe?
    Mr. Blatchford. Mr. Chairman and Senator Murkowski, the 
department's role is that of a community advocate. We don't go 
into a community unless we have been invited into the 
community. We work as closely as we can with the local 
community through our regional offices. We look to the future, 
Mr. Chairman and Senator Murkowski, and we ask this question 
constantly: Are these communities going to be able to sustain 
the kind of growth that we see coming down the road, that the 
Alaska Native communities are growing, the Alaska Native 
population is growing. So we look for economically viable 
activities.
    We recognize that subsistence is an economic activity, in 
our definition, and the need to preserve the economics or the 
subsistence lifestyle and the culture that goes with 
subsistence activities. But we always look to the future, what 
these communities will look like in 10 to 15 years, and that is 
our primary goal.
    So through our regional offices we work closely with the 
communities when we are invited in. We do some research for 
them. We write ordinances or assist in writing ordinances. We 
work with the Federal Government--in various agencies of the 
Federal Government and in almost all cases we work with the 
other departments in the State government.
    Just to summarize, Senator Murkowski, there is a subcabinet 
group within the cabinet of the Governor and its 
responsibility--one of its responsibilities is to develop 
economic opportunity and policies for rural Alaska, a rural 
strategy. I hope I've answered your question.
    Senator Murkowski. Well, you kind of addressed the big 
picture. I guess I'm wondering whether there is presented 
within these respective villages a map, as best we can 
identify. We don't know which way the river is going to go. We 
don't know the level of wave activity. There is so much we just 
simply cannot anticipate with Mother Nature. But I guess I 
would want some kind of assurance that we are aware that we're 
dealing with Mother Nature at her best or her worse and are 
building in areas that are going to be less efforts than 
others. I don't know whether there's a process that is out 
there either through your department or whether it's something 
that the agencies actually take a look at.
    Mr. Mundy. If I might, Senator Murkowski and Mr. Chair. 
HUD--when tribes build new houses, they must conform to our 
environmental review process. And within that we consider 
erosion, we consider floodplain, we consider those natural 
elements. And I believe that there is some level of assurance 
there that keeps us out of, if you will, harm's way for new 
construction. For the existing properties it becomes a little 
bit more difficult to the extent that they're there and we have 
to deal with them as it happens.
    I'm in a unique position because for 5 years before I came 
to work with HUD, I ran the Bering Straits Regional Housing 
Authority out in Unalaska, and Shishmaref was one of the 
villages that we moved houses in. I'm pleased to report that 
while I was there that HUD was very willing to work with the 
housing authority and the tribe to make sure that concerns were 
met and issues were dealt with and that we clearly could act in 
a very timely way to move houses out of harm's way and deal 
with some of the bureaucracy at a later date.
    So I think that for a large degree for NAHASDA funds 
there's a definite level of flexibility. When you get into some 
of the other HUD funds, it gets a little bit more rigid. 
There's more regulations in place, and they are competitive 
grants except for the imminent threat grant. So, as an agency, 
we fall back on the environmental heavily. I think that would 
offer some assurance to Congress that it's being addressed.
    Senator Murkowski. One more question, and this follows on 
your comments, Dave, about the responses over the past 20 
years, that your division has dealt with 97 flooding or erosion 
disaster events, which accounts for 51 percent of the 
responses. And recognizing that that's what we deal with, we 
know that this occupies a great deal of the time, energy and 
resources within the division, within the department, and yet 
we have no dedicated funds--excuse me--no dedicated program 
within the State of Alaska to deal with flood or erosion 
issues.
    And, Commissioner, you mentioned this in your testimony as 
well. We know that this is an endemic issue to the State. It's 
something that we have been dealing with in my time in the 
legislature. I see Representative Joule in the audience here. 
Every year that I was there the issue of Shishmaref was brought 
up and he was insistent we must do what we can to help. That 
was one village at that specific time.
    But it just seems to me that we've got a situation that 
continues year after year, and if it's not Shishmaref, it's 
Newtok or Kivalina or we can go down the list. I guess the 
question would be to you, Commissioner: Why have we not had a 
more specific focus at the State level on this issue of erosion 
to our coastal communities and to our river communities? Is it 
simply an issue of funding or does it go beyond that?
    Mr. Blatchford. Mr. Chairman, to Senator Murkowski, I think 
it's an issue of our ability to focus. I have a particular 
fondness for Shishmaref since my grandmother was from the 
Shishmaref area. Under another administration, under Governor 
Hickle, I visited Shishmaref and we looked at that problem back 
in the early 1990s. The impetus right now, the focus should be 
on avoiding the problems so that if--I was going to say if I 
come back under another administration, but I don't see that 
happening--that we won't have this problem again.
    We work closely with the communities and we take the lead 
from the people in the community, and we ask for their thoughts 
and their suggestions and at times, Senator Murkowski, the 
local leadership has a better understanding of the elements of 
nature than we do. And so we're careful that we listen to their 
advice and incorporate their advice as we develop policy.
    I think that as we go in, too, Senator and members of the 
committee, we also look at the sustainability to the community, 
whether there would be other economic activities in the 
surrounding area if we were to, say, relocate or encourage the 
relocation of that village. Can we have a self-sustaining 
economy or more private sector jobs that would be further away? 
We look at mining activities, we look at natural resource 
development, and see how that complements and works with the 
subsistence economic base of the community.
    So, in essence, Senator Murkowski, what we do is avoid the 
problem, or try to avoid the problem so that we don't see this 
happening again.
    Senator Murkowski. Just very briefly, then. In your opinion 
what can the State do within the department structure to 
provide more focus to this issue that we know we will continue 
to deal with?
    Mr. Blatchford. Senator Stevens, Senator Murkowski and 
members of the committee, what we can do is work closely or 
closer with the Denali Commission and the other Federal 
agencies and fully recognize that the department is the lead 
agency.
    There's only one department in the State government that 
has that constitutional responsibility to deal with the 
unorganized borough, to be their advocate, so we take that 
responsibility very seriously. We would urge the Federal 
Government to also recognize the unique responsibility of the 
department to the unorganized borough.
    Senator Murkowski. Thank you, Mr. Blatchford.
    Chairman Stevens. Senator Sununu.
    Senator Sununu. Mr. Blatchford, in your last series of 
responses you talked about the desirability of strengthening 
local economies and enabling them to have more sustainable 
industry and activity, and in your written testimony you also 
mentioned the Governor's access to the future initiative and 
that you would like to see stronger ties with that initiative 
in order to help develop and identify those sustainable 
economies.
    Could you talk a little bit more about that initiative and 
also how those efforts would be integrated with Federal 
programs?
    Mr. Blatchford. Thank you. Mr. Chairman, to the Senator, 
access to the future is the Governor's recognition that the 
best locally driven economy is one based on self-determination 
and locally driven activities. We look at the private sector as 
complementing traditional activities, traditional economic 
activities such as subsistence, fishing, gathering, hunting. 
And some private sector opportunities are there.
    We locate an area and if the community or group of 
communities wishes to be involved in the State planning effort, 
we work closely. For example, out in southwest Alaska three 
communities have asked for our assistance in recognizing the 
opportunity that comes with the Bering Sea Fishery. We look at 
working closely with the Denali Commission and the Federal 
agencies. The Denali Commission has done a wonderful job in 
creation of some of these opportunities.
    In the Nightmute area you have a subregional airport and 
then you have a subregional health clinic. I believe the clinic 
has been completed. But also we look at the Federal 
Government's activities, tie it with the traditional 
activities, and tie it with the private sector activities that 
might be developed, like I just said, like in the Bering Sea.
    Senator Sununu. Thank you. Thank you, Mr. Chairman.
    Chairman Stevens. Senator Murkowski had to leave to escort 
the Secretary of Transportation to another meeting. So she will 
be with us tomorrow morning.
    I would like to go back to you, Mr. Liebersbach. How do you 
relate to Edgar Blatchford's commission? If you handle 
disasters and he handles planning; sounds like he's handling 
some planning for disasters. How do you coordinate?
    Mr. Liebersbach. Mr. Chairman, we work with the Department 
of Community and Economic Development in identifying mitigation 
measures, particularly when it relates to floodplains, but also 
in other areas where these communities can be affected in 
things that we recommend to the communities and to the 
department, Mr. Blatchford's department, on types of things to 
be considered when they're looking at community development of 
any kind or relocations, and it's not always limited just to 
flooding.
    We have issues obviously in Alaska with wildfire, which 
right at this very moment as we sit here, we have a rural 
community that's imminently threatened by a wildfire and people 
are being evacuated from it. We have avalanches. We work with 
them in that. But the actual work to move a community, if you 
will, or determine where a community ought to move to falls 
within the purview of the Department of Community and Economic 
Development and our input provides where to avoid risks, if you 
will, if they're moving into new areas.
    Beyond that, of course, we work directly with them when a 
disaster is imminent and/or occurring because they are going to 
be there involved with us in the recovery from that disaster as 
we try to put back in place health and safety and rebuilding 
the community, if necessary, in an economic sustainable 
fashion.
    Chairman Stevens. Well, the report we have indicates that 
your agency was not involved in the Noatak planning and 
relocation. Why was that?
    Mr. Liebersbach. Noatak continues to relocate. It is not 
relocated at this time. But the Noatak relocation, again, as I 
said, has never been declared, if you will, a disaster. It's a 
house-by-house relocation of it. In that situation all we would 
be involved with in terms of engaging in it would be to 
identify the areas they should move back to, not necessarily 
from a funding standpoint, as our funding is related to a 
declared disaster event.
    Now, the one time we did engage there did not include the 
moving of houses, but it was in the 1994 fall floods that 
occurred throughout northern Alaska, including Noatak, and 
there was some involvement in moving part of the graveyard that 
we were engaged in. It had to be done under an emergency 
declaration scenario.
    The moving of the houses in Noatak have been through a 
multiple of funding sources of agencies that work in the Alaska 
villages; the Electrical Cooperative, the Corps of Engineers, 
Department of Housing and Urban Development, HUD, Natural 
Resource Conservation Service and several others, including the 
Alaska Department of Transportation and public facilities have 
been involved in the gradual movement of that community and 
structures in that community, but it's been on a, once again, 
one-by-one, if you will, basis. It's not been a widespread 
declared disaster in Noatak as they move.
    We have other communities similar to that where this has 
gone on. Galena is an example where they have had multiple 
floodings and they have gradually moved to a new site. We have 
Koyukuk, which is getting flooded and is being looked at for a 
possible relocating. Kobuk, a similar type of thing where they 
have to move back from the river, partly due to disaster 
response, but as they get later erosion going on on the Kobuk 
River, they're having to move back from that. They're doing it 
through the use of HUD monies and these other agencies, the 
Corps of Engineers help, possibly Alaska DOT, where it may 
impact roads and/or airports.
    Senator Burns. Is that an ongoing situation; in other 
words, do they do that as necessary, a case-by-case basis?
    Mr. Liebersbach. Senator Burns, through the Chair, yes, 
that's correct. They don't have an event that's occurring. It's 
just erosion constantly going on and they're having to move 
back and it is a continuing situation for them.
    Even Shishmaref is continuing. Although they have some 
significant storm events that may periodically ratchet that 
community up to a disaster level where we have to go in and 
quickly move some houses, but the erosion is constantly out 
there and is not event-driven; it's just ongoing. Eventually, 
we believe, although I'm not a scientific expert, but we feel 
it's going away.
    Chairman Stevens. In reviewing past relocation efforts I 
went back through some history. I don't want to mention the 
village where it occurred. But there was one village that 
refused to move in the past to the desired location because the 
relocation plan did not cover moving the cemetery. Who was 
involved in that in terms of cemetery relocation? Mr. Mundy, 
would your relocation plan include cemeteries as well as 
houses?
    Mr. Mundy. That's a good question. My gut feeling is 
probably no.
    Chairman Stevens. How about you, Edgar?
    Mr. Blatchford. Senator Stevens and members of the 
committee, I think it would include moving cemeteries. I think 
if we move an entire community, since the Department's role is 
that of community advocate, it would take in everything that 
the community is about.
    Chairman Stevens. General, I see you're still here. Do your 
plans include moving cemeteries?
    General Davis. It would just be public facilities.
    Chairman Stevens. Because of that, I did talk to a person 
involved in handling that move in question, and he told me it 
became quite a considerable impediment to move at all. As you 
reviewed these--where's my friend from GAO? Are you still here? 
I don't think they're here. We'll have to ask them that 
question. I don't really remember a discussion of the 
cemeteries per se in these reports and the current controversy 
over these coastal villages. Have any of you dealt with that 
question yet?
    Mr. Liebersbach. Senator Stevens, we deal with that 
question during an event-driven situation. We've had to not 
necessarily relocate, but reinter and be involved in the 
reinterment of caskets, remains, if you will, where because of 
the way these cemeteries are along the river areas and when we 
get a flood, they will actually literally be floated up out of 
the ground and they have to be reinterred.
    This happened in Alaktak during the 1994 floods. In Noatak 
actually it was washing away, caskets were sticking out of the 
ground and they were removed. Here recently due to fall storms 
over in--and I don't recall the name--within the last year we 
were involved with a multi-agency involving several Federal 
agencies where a mass grave site from the early 20th century 
epidemics that occurred out there, mass graves and people were 
being washed out of those. We were involved in getting medical 
examiners out there to be sure there was no continued threat 
from the epidemic a century later here and then worked at 
getting those folks--the ones that were recovered--reinterred. 
But the actual relocation pre-disaster, if you will, has not 
been anything that we have been involved in addressing.
    Chairman Stevens. I think that's one of the issues we 
better address and make sure we cover it. Because if we start 
helping locate new sites, my information is that, as I said, 
that was a stumbling block when the plan did not include moving 
the cemetery. The village people are very much connected to 
their past, and I think we better be sure that the plans 
include moving all of the coastal aspects of the village. I 
hope everyone puts their mind on that. I don't know whether 
we'll have to mention it specifically in Federal legislation or 
not. But I think, Edgar, you better look into that for us.
    Mr. Blatchford. We will, Senator.
    Chairman Stevens. Any other questions of this panel?
    We're going to take another 10-minute break. We'll come 
back to the third panel.
    We have our third panel. Dr. Tom Karl, Director of the 
National Climatic Data Center, National Oceanic and Atmospheric 
Administration and Dr. Syun-Ichi Akasofu, the Director of the 
International Arctic Research Center at the University of 
Alaska Fairbanks.
    Gentlemen, we're pleased to have you here. We will turn to 
Dr. Karl first and wind up with you, Dr. Akasofu. Good morning, 
sir.

STATEMENT OF DR. THOMAS R. KARL, DIRECTOR, NATIONAL 
            CLIMATIC DATA CENTER, NATIONAL OCEANIC AND 
            ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT 
            OF COMMERCE
    Dr. Karl. Thank you, Mr. Chairman and distinguished members 
of the committee. I'm pleased to have this opportunity to 
testify before you today because NOAA has a variety of climate 
observing systems, data, and computer models to help us 
understand climate variability and change as it relates to 
coastal erosion and flooding in Alaska. Also, because it's 
great to be back in Anchorage where I first learned just how 
difficult it can be to predict weather as a weather forecaster 
in the National Weather Service.
    Mr. Chairman, the climate in Alaska is indeed warming. The 
Intergovernmental Panel on Climate Change stated that most of 
the observed warming over the past 50 years is likely to have 
been due to the increases in greenhouse gases, and this was 
generally agreed to by the National Research Council Report in 
its report to President Bush in 2001. However, as also pointed 
out by the NRC and the IPCC, the science of climate change does 
have a degree of uncertainty that will make predictions subject 
to many revisions in the future.
    Alaska's Arctic is recognized as the area of the world 
where changes to the climate are likely to be the largest, and 
is also an area where natural variability has always been 
large. But there are a variety of climate variables that can 
directly affect coastal erosion and flooding.
    Generally, sea ice is important because it thwarts ocean 
wave energy. Wave energy is dependent on distance traveled by 
the wind over open water. Less extensive sea ice exposes the 
coastline to more frequent and potentially higher ocean waves 
and swells. Temperature drives the extent of sea ice, but 
changes in atmospheric and ocean circulation also play an 
important role in understanding multi-year variations of sea 
ice extent. Changes in precipitation type, amount and intensity 
as well as snow cover and ice cover extent can also contribute 
to coastal erosion from stream flow and overland runoff to the 
sea. Loss of permafrost along the coasts can lead to subsidence 
of the land that occurs when ice beneath the sea and along the 
shoreline melts.
    Alaska has considerable permafrost along its northern and 
western coasts. The height of the sea level to the land is the 
ultimate long-term driver for coastal erosion, but Alaskan sea 
level rise is complicated by both climatic factors and geologic 
forces.
    If I may, Mr. Chairman, I'd like to show some of these 
changes and some of these variables in a viewgraph 
presentation, if I can get the projector here.
    Chairman Stevens. That's fine.
    Dr. Karl. I'll speak to that mike over there.
    As I pointed out, the warming in Alaska is among the 
largest in the world, and this diagram shows the mean winter 
temperature changes from 1965 through 2004.
    Let's see if we can get our technician here.
    As I was saying, this diagram shows the temperature changes 
across the globe over the last 40 years. You can see the dark 
areas, Alaska and some of the other Arctic areas in central 
Asia, have had the largest warming over these past 40 years, 
more than four degrees Celsius. So clearly the Alaska region is 
one of the areas----
    Chairman Stevens. Four degrees from where to where?
    Dr. Karl. From the period 1965 to 2004, so over the last 40 
years we have warmed over four degrees Celsius in the Alaska 
region. The only other parts of the world that have warmed as 
much have been central Asia. This kind of change or the warming 
this brings in the higher latitudes is what most of the climate 
models have in mind with increasing greenhouse gases.
    Chairman Stevens. Have there been changes in the Earth 
concomitant with that where the temperatures were lower in this 
period?
    Dr. Karl. During this period, you will see some there are 
some areas in green and blue where temperatures have actually 
decreased. So if you look at the Northeast part of North 
America, there's some slight cooling, but the level of cooling 
is significantly smaller than the rate of temperature increase.
    Chairman Stevens. How many degrees cooler?
    Dr. Karl. It's about one-half a degree to sometimes three-
quarters of a degree at the largest. Most of the world has been 
warming, the largest is in the higher latitudes, especially in 
Alaska.
    Chairman Stevens. Are there any areas that have cooled to 
the extent that this area has warmed?
    Dr. Karl. No. This diagram shows the statewide temperatures 
for Alaska for the four seasons; winter, spring, summer, 
autumn. As you can see, the time series go back to about 1920. 
The temperatures for two 5-year periods in the wintertime in 
the 1930s and in the 1940s were almost as warm as what we've 
seen today, that is you can see by the red bars we sustained a 
warming in the last several decades for a much longer period, a 
number of record warm temperatures that occurred in the 
wintertime, but more significant from the standpoint of 
consistent change are the changes occurring in spring and 
summer.
    Although the overall temperature increases are only two to 
three degrees C, we can see them more consistent as 
temperatures have a more gradual rise; the same thing in the 
summertime, temperatures about one to two degrees C warmer over 
the last couple decades compared to earlier in the century. 
Often in autumn there is very low evidence for temperature 
change. Although I said earlier most of the models predict 
higher warming in the latitude, the seasonal character of the 
way these changes occur are entirely consistent with what some 
of our models suggest.
    The next slide shows how these temperature changes stack up 
in the four seasons around the world. Red dots represent the 
warming, the blue, cooling; the size of the dots are 
proportional to the rate of warming. These are in terms of 
degrees C per decade. As you can see, Alaska is consistent with 
much of the rest of the high latitudes and, again, you'll only 
notice blue dots here in the fall over parts of Europe and 
parts of Asia and you'll see a few blue dots in the wintertime. 
Most of the other seasons you'll see mostly red indicating 
warm.
    Chairman Stevens. How much of that is related to or 
consistent with fallout here in Alaska as compared to the rest 
of the world?
    Dr. Karl. In terms of aerosols in the air?
    Chairman Stevens. Persistent organic pollutants.
    Dr. Karl. Soot? Yeah.
    Chairman Stevens. Charts that show us persistent organic 
pollutants fall in Alaska to a greater extent than anywhere 
else in the world.
    Dr. Karl. That's a very good question. To be honest with 
you--I'll try to be as honest as I possibly can. The amount of 
contribution due to soot is known to be significant, but it's 
very difficult to put an exact quantifier on that. Dr. Hansen 
at the Goddard Institute for Space Sciences has suggested it 
may contribute as much as 10, 20 percent, a significant part of 
the overall warming. However, this has not yet been confirmed 
by the broader scientific community. It's an area of ongoing 
research.
    The next slide. The next slide is a very important aspect 
in understanding coastal erosion and flooding has to do with 
sea level changes. These are sea level changes measured from 
satellites that have been flown on a joint mission by Alaska 
and our French partners. The interesting thing about this 
diagram is you see the gradual rise in sea level represents a 
doubling of the rise in the rate of sea level compared to the 
earlier part of the century.
    These measurements are only 10 years long, but if we 
compare it to our longer sea level rise, there is some 
suggestion that the sea level rise is actually accelerating. 
During the 20th century, our best estimates from the time 
tables is that sea level rose between one-tenth to two-tenths 
of a meter. These data would suggest that sea level, if it 
would continue at this rate, would be rising at two- to three-
tenths of a meter. The protections for the 20th century level, 
our models suggest that the rate of sea level rising in this 
century will be one-tenth of a meter to nine-tenths of a meter.
    Chairman Stevens. By what time?
    Dr. Karl. By the end of the century. Between one-tenth and 
nine-tenths of a meter by the end of this century.
    At the present rate of sea level rise, two- to three-tenths 
of a meter; this is significantly less than the high end as 
predicted by the models. But there is a considerable amount of 
uncertainty because we don't quite know what will happen to the 
Greenland Ice Sheet, whether the increase of margin will 
accumulate more snow up there or whether the increased margin 
will melt more snow and the accumulation of snow won't be able 
to compensate.
    So the bottom line here is sea level is indeed rising, and 
there's some potential it may actually be accelerating from the 
last decade. The next diagram shows what's happening to sea ice 
extent. It's very important because as we mentioned, sea ice 
extent is a good buffer for the wave energy. But sea ice is 
melting, and in fact if you take a look at the rate of sea ice 
melt in spring, the red line, we've lost more sea ice since 
1950 than equivalent to the size of the State of Alaska.
    At the rate of sea ice melt, by the first part of the next 
century we will not have summer sea ice in the Arctic. There 
are a number of models that have been run to try to look at 
what would be projected in terms of sea ice melt rate. There's 
a suggestion in one of the most extreme models that sea ice 
could entirely melt from the Arctic in the first half of this 
century. Most other models suggest that there would still be 
sea ice into the beginning of the 22nd century.
    Chairman Stevens. What about the Antarctic? When we were 
down there, I was told that the ice in the Antarctic is 
increasing.
    Dr. Karl. Because it's so much colder in the Antarctic, 
even though the temperature is warm, the accumulated precip 
actually increases. So it's quite conceivable that ice and snow 
in the Antarctic could actually increase as opposed to 
decreasing. Here in the Arctic we don't have extreme 
temperatures like the central parts of the Antarctic.
    The next slide here is an important aspect of the ability 
of storms to generate waves. As the sea ice melts, the number 
of intense winter cyclones, or intense cyclones any time of 
year is important because they're responsible for high seas. 
The best data that we have suggests that the number of intense 
winter cyclones is in fact increasing.
    This diagram shows the number that you would expect in any 
square mile across the North Pacific. You can see that the 
trend is increasing. We're not 100 percent sure that this data 
is as robust as we see it because we know we are better able to 
measure the storms over the last 20 years because of 
satellites, and we try to account for that in these time 
series, but we're not sure we have been able to eliminate all 
of that potential bias.
    Most models suggest that there may be more intense cyclones 
as global temperatures increase, but, again, that's not a real 
clear indication because of some key factors. One factor would 
suggest that the temperature would raise between the poles, so 
cyclones should decrease as well. Another factor on higher 
levels of the atmosphere suggests it will go the other way. So 
the jury is still out on the effect of understanding this, but 
the data on this suggests we are seeing more intense cyclones.
    The next slide shows a reduction in snow cover extent. I 
won't spend much time here. But less snow cover extent exposes 
the land to precipitation.
    The next diagram shows--I'll skip this in the interest of 
time. The next shows how precipitation has changed. It's very 
difficult to measure precipitation in Alaska because the 
density of stations up here is much less than it is, for 
example, in the Lower 48. Our best estimates suggest that 
precipitation increases 10 to 12 percent mainly in the summer 
and wintertime. Interestingly enough, what we're finding is 
that most of the increase where we have more stations south of 
62 degrees north, that increases the coming of heavier 
precipitation events. Of course that's more conducive to 
erosion and potential flooding. The next diagram shows----
    Chairman Stevens. Pardon me. How extensive is your coverage 
of the coastline?
    Dr. Karl. The coastline is probably--I say probably because 
I haven't done an analysis--but off the top of my head I would 
suspect that the coastline is probably better monitored in the 
interior, but still considerably undermonitored compared to the 
Lower 48, for example. Another issue in trying to understand 
the precipitation is trying to adjust for the biases of wind-
driven snow. It's quite a challenge to try and make sure we are 
actually measuring precipitation as opposed to snow that's 
falling in the gauge. This will give you an idea of the size of 
the corrections we have to apply to some of the data. This is 
for Fairbanks. The black line is true; the red line has been 
adjusted for biases.
    The next diagram shows some of the stations that were 
installed in Alaska. This is in Fairbanks, Alaska. You can see 
the elevated fence around the precipitation gauge trying to 
eliminate wind-blown snow into the gauge.
    The next diagram presents a bit of the challenge that we 
have. This is a station we put up in Barrow, and you can see 
polar bears decided to do some modifications, as you see the 
way these shields are bent, the polar bear decided it looked 
kind of interesting.
    Again, these are some of the challenges, and I think one of 
our key contributions in future years will be to increase the 
density of stations and observing sites across the State.
    If I could just conclude. Changes in the Alaska climate are 
among the largest in the world. They have likely played an 
important role in determining the extent of coastal erosion and 
flooding in Alaska and are likely to continue to do so in the 
future. Accelerated coastal erosion and flooding in Alaska 
cannot be ruled out.
    We at NOAA have got numerous climate monitoring, data 
management and analyses, and climate modeling activities that 
should help us understand, adapt and mitigate the impact of 
climate variability and change on the State of Alaska.
    Thank you, Mr. Chairman, for allowing me to contribute to 
this important hearing. I look forward to answering any 
questions you might have.
    Chairman Stevens. Thank you very much, Dr. Karl.
    [The statement follows:]

                Prepared Statement of Dr. Thomas R. Karl

    Mr. Chairman and Members of the Committee: As Director of the 
National Climatic Data Center, which is part of NOAA's Satellite and 
Information Services, and Program Manager for NOAA's Climate 
Observations and Analysis Program, I am pleased to have the opportunity 
to testify before you today. NOAA has a variety of climate observing 
systems, data, and computer models to help us understand climate 
variability and change as it relates to coastal erosion and flooding in 
Alaska.

Climate Change in the Arctic
    The Intergovernmental Panel on Climate Change (IPCC) stated that 
most of the observed warming over the past 50 years is likely to have 
been due to the increases in greenhouse gases, and this was generally 
agreed to by the National Research Council (NRC) in its report to 
President Bush in 2001. However, as also pointed out by the NRC and the 
IPCC the science of climate change does have a degree of uncertainty 
that will make predictions subject to many revisions in the future.
    The Arctic is recognized as the area of the world where changes to 
the climate are likely to be the largest, and is also an area where 
natural variability has always been large. Current climate models 
predict a greater warming for the Arctic than for the rest of the 
globe. The amount of warming would lead to significant impacts. The 
projections of future changes however, are complicated by possible 
interactions involving stratospheric ozone, human-induced atmospheric 
aerosols, and changes in other parts of the Arctic system. For this 
reason, current estimates of future changes to the Arctic vary 
significantly among climate models. The model results disagree as to 
both the magnitude of changes and the regional aspects of these 
changes. We also know that the Arctic undergoes considerable natural 
climate variation on decadal and longer time scales and this must be 
considered in addition to any anthropogenic change.
    As an outgrowth of discussions among NOAA, the Arctic Council and 
the International Arctic Science Committee, and the National Science 
Foundation in fiscal year 2000, it was agreed that the International 
Arctic Research Center (IARC) could be the site for the Secretariat of 
a new international activity, the Arctic Climate Impact Assessment 
(ACIA). As an activity of the Arctic Council, the ACIA is nearing 
completion. Scientists from all eight Arctic countries have contributed 
to its completion. NOAA is the minor co-sponsor of the ACIA, while the 
National Science Foundation is providing the major support to the ACIA 
through the IARC. The Secretariat for the ACIA is located at the 
University of Alaska and is headed by Dr. Gunter Weller, who is also 
Director of NOAA's Cooperative Institute for Arctic Research.
    The ACIA will result in improved knowledge regarding past climate 
variability and change over the entire Arctic, projections of Arctic 
climate variability in the future, and an evaluation of the impacts of 
climate variability and change on the biological environment, human 
uses of the environment, and social structures. The Arctic Council will 
use this knowledge to prepare a policy report discussing actions that 
governments should consider in response to anticipated changes in 
Arctic climate. More information on ACIA can be found on its website at 
http://www.acia.uaf.edu.

Climate Considerations Related to Coastal Erosion and Flooding in 
        Alaska
    There are a variety of climate variables that can directly affect 
coastal erosion. Our degree of uncertainty regarding how these 
variables are changing and could change over the course of the 21st 
Century is not uniform from variable to variable. For climate 
monitoring, this uncertainty arises from the length of the data record, 
its spatial and temporal resolution, as well as the capability of 
instruments used to measure climate-related change. Many of our long-
term climate model projections are also subject to considerable 
uncertainty. Climate variables of particular interest related to 
coastal erosion and flooding include: (1) sea ice, snow cover, and 
permafrost extent all directly driven by temperature change and to some 
extent by atmospheric and oceanic circulation; (2) storminess as 
related to wave height and storm surges; (3) precipitation and related 
snow and ice cover; and (4) sea level as related to land ice, ocean 
temperature, and movement of the land relative to the ocean owing to 
geologic features and glacial rebound of the land as land ice melts.
    Generally, sea ice extent is important because it thwarts ocean 
wave energy. Wave energy is dependent on distance traveled by the wind 
over open water. Less extensive sea ice exposes the coastline to more 
frequent and potentially higher ocean waves and swells. Temperature 
drives the extent of sea ice, but changes in atmospheric and ocean 
circulation also play an important role in understanding multi-year 
variations of sea ice extent. Changes in precipitation type, amount and 
intensity as well as snow and ice cover extent, can also contribute to 
coastal erosion from stream flow and overland runoff to the sea. Loss 
of permafrost along coasts can lead to subsidence of the land that 
occurs when ice beneath the sea and along the shoreline melts. Alaska 
has considerable permafrost along its northern and western coasts. The 
height of the sea relative to the land is the ultimate long-term driver 
for coastal erosion, but Alaskan sea level rise is complicated by both 
climatic factors and geologic forces affecting local and regional 
changes in the height of the land relative to the ocean.

Atmospheric Temperature
    Temperatures in Alaska have increased. Observed data indicate that 
Alaskan spring and summer surface temperatures have increased by about 
2 to 3 degrees Celsius (about 4 to 5 degrees Fahrenheit) in the last 
few decades. However, there are no discernible trends of temperature 
during autumn, and changes in winter temperature are more complex. 
There were two five-year periods in the first half of the 20th Century 
when temperatures were nearly as warm as today, but during recent 
decades record-breaking high temperatures have become more common.
    Although the number of reporting stations in Alaska is quite low 
relative to our station network in mid-latitudes, the data 
uncertainties are not large enough to overwhelm the increases observed. 
Additionally, NOAA has now established two Climate Reference Stations 
to help discern any acceleration or deceleration of current temperature 
trends.
    Most climate model projections for temperature change during the 
21st Century suggest that Alaska, and the Arctic as a whole, will warm 
at least twice as much as the rest of the world. The warming is 
expected to be largest during the cold half of the year. The observed 
lack of warming during the autumn and the relatively large increases 
during other times of the year is not entirely consistent with model 
projections. They do not depict this asymmetry. This suggests we 
require more observations, and better and higher resolution models.
    As temperatures increase and more sea ice is melted, a natural 
climate feedback occurs, due to the less reflective character of the 
ocean formerly covered by sea ice. These feedbacks can lead to an 
accelerated warming and additional sea ice melting. For example, the 
average of the five models used in the Arctic Climate Impact Assessment 
project substantial reductions in summertime sea ice around the entire 
Arctic Basin, with one model projecting an ice-free Arctic in the 
summer by the middle of this century. On average, the climate models 
project an acceleration of sea ice retreat, with periods of extensive 
melting spreading progressively further into spring and fall.

Sea Ice Extent
    Large portions of Arctic sea ice form during the cold seasons and 
melt during the warm seasons. Considerable sea ice persists through the 
melt-season, but due to ocean circulation and the resultant movement, 
multi-year sea ice makes up only a fraction of the total ice extent. 
Our records indicate that the formation of new sea ice each year cannot 
keep up with the rate of melting. This melting is consistent with 
observed surface warming. Arctic sea ice has been steadily decreasing 
since the 1950s, measured largely from continuous coverage provided by 
NOAA polar orbiting satellites beginning in the 1970s. Prior to that 
time, assessment of Arctic sea ice extent during the first half of the 
20th Century was limited to reports from land stations and ocean 
surface observations. We have less confidence in the data from the 
first part of the Century, but independent anecdotal evidence, such as 
interviews with native peoples of Alaska, also suggests substantially 
greater sea ice extent during this time. NOAA is working to increase 
our sea ice monitoring capability through ice-tethered buoys to 
determine sea ice thickness and other key aspects of sea ice.
    It is important to understand the trends of coastal sea ice extent 
since sea ice extent is an important determinant of wave energy 
affecting coastlines. As the storms which create wave energy also have 
a strong component of seasonality, it is important to know how sea ice 
is changing by season. In the Pacific, major extra-tropical storms 
occur most frequently during autumn through spring. Since the 1950s, 
sea ice extent during winter and autumn has decreased from 15 to 14 and 
12 to 11 million square kilometers, respectively. Since the 1950s, 
decreases in spring and summer are substantially greater, down from an 
average of 15 to 12 and 11 to 8 million square miles, respectively. 
This is equivalent to more than 10 percent of the North American land 
mass and is a larger area than the State of Alaska. At the present rate 
of decrease, the Arctic would be ice-free in summer during the first 
half of the 22nd Century. All climate models project this trend to 
continue regardless of the emission scenario used and the sensitivity 
of the model.

Storms
    The climatology of Pacific Ocean storms favors the development of 
the strongest storms (extra-tropical cyclones) from autumn to spring. 
Although there are remaining uncertainties in the quality of data, 
analyses of Pacific Ocean extra-tropical cyclones over the past 50 
years indicate little change in the total number, but a significant 
increase in the number of intense cyclones (storms with low central 
pressure and resultant high winds and waves). The increase in extra-
tropical storms is punctuated with considerable year-to-year 
variability. The extent to which the increase in intense cyclones is 
related to global warming remains uncertain, although there is some 
evidence to suggest as the world warms the intensity of cyclones could 
increase. But because there are competing factors that act to cancel 
each other, the case for an increase in cyclone intensity is yet to be 
settled. Similarly, our ability to remove biases in the data also 
remains uncertain owing to more plentiful data on storm intensity in 
recent decades.
    Regardless of whether intense cyclones are increasing in number or 
whether they will increase in the future, the greater expanse of open 
water with less extensive sea ice means that ocean waves with resultant 
coastal erosion can occur more frequently and with greater impact.

Precipitation and Snow Cover Extent
    One of the most difficult quantities to measure across the State of 
Alaska is precipitation. This is due to the variable nature of 
precipitation in general, the relatively low number of observing 
stations across the State, and the difficulty of providing high-quality 
data in the harsh Arctic environment. Over time, we anticipate that 
NOAA's Climate Reference Network and the modernization of NOAA's 
Cooperative Observing Network could help to alleviate this problem.
    Based on existing records, however, there is evidence to indicate 
that during the past 40 years as temperatures have warmed, more 
precipitation is now falling in liquid form (rain) as opposed to solid 
form (snow, ice). The quantity of precipitation has also increased 
during the 20th Century, with much of that occurring during the recent 
period of warming over the past 40 years. The increase is estimated to 
be between 10 to 20 percent with most of the increase occurring during 
the summer and winter as opposed to the transition seasons. Owing to 
greater overall precipitation in the summer, the percent increase in 
summer equates to a greater quantity of precipitation compared to 
winter.
    The large uncertainty in the estimated precipitation trends is, in 
large part, attributed to the low density of observing stations, but 
also stems from the difficulty of measuring wind-blown solid 
precipitation. Analyses of changes in heavy precipitation events have 
been conducted for areas south of 62 degrees north latitude, and they 
show that the frequency of heavy precipitation events has substantially 
(30 to 40 percent) increased during the past several decades. 
Additionally, a disproportionate amount of the precipitation increase 
is attributed to the heaviest precipitation events.
    Climate models project that precipitation will increase by a 
greater proportion in the high latitudes compared to the rest of the 
world. This is consistent from model to model, as is the fact that this 
increase is expected to be disproportionately large in the heavier 
precipitation events. Both can lead to increased erosion.
    NOAA's polar-orbiting environmental satellite data and surface-
based observations have also observed major changes in snow cover 
extent. North American snow cover extent has decreased by about 1 
million square kilometers and this trend is expected to continue or 
accelerate. Surface observers also report a one to two week reduction 
in the number of days with snow on the ground across the State. In 
addition, in the Arctic, the lake and river ice season is now estimated 
to be 12 days less compared to the 19th Century.
    The increase in total precipitation and liquid precipitation, 
especially when falling on less extensive snow cover, can affect soil 
erosion. However, the complicated effects of changes in precipitation 
type and intensity, earlier break-up of winter ice, and less extensive 
snow cover have not been well evaluated with respect to potential 
impacts on coastal erosion and flooding. It will be necessary to know 
which factor dominates in order to understand whether coastal erosion 
and flooding will be enhanced or ameliorated due to changes in 
precipitation and snow cover extent.

Permafrost
    The thawing of the permafrost, especially along the northern 
coasts, is expected to continue. Long-term measurements of temperatures 
within the permafrost are rare, but it is clear that as the air and 
ocean temperatures have warmed permafrost is also melting. As 
permafrost melts along the coastlines the effect on coastal erosion can 
be compounded by sea ice retreat. The thaw causes the land to subside 
along the shore exposing more land to the action of the waves.

Sea Level
    As ocean temperatures warm and glacial ice melts, global average 
sea level is increasing. Sea level rise during the 20th Century is 
estimated to be between 0.1 and 0.2 meters. To put this in context, the 
Intergovernmental Panel on Climate Change (IPCC) estimates that during 
the last 6,000 years, global average sea level variations on time-
scales of a few hundred years and longer are likely to have been less 
than 0.3 to 0.5 meters. The IPCC also notes that no significant 
acceleration in the rate of sea level rise during the 20th century has 
been detected.
    Under a scenario of climate warming, climate models project changes 
in sea level by the end of the 21st Century of between 0.1 to 0.9 
meters. This large range is related to uncertainties regarding 
increasing snowfall in Greenland and Antarctica as the climate warms 
(warm air can hold more water vapor leading to heavier snowfall when 
temperatures are below freezing) versus the rate of melting due to 
warming. Generally, increases in sea level are projected by climate 
models to be higher in high latitudes. Such a general increase in sea 
level would expose more land to coastal erosion through wave energy and 
storm surges.
    However, it is important to recognize that there are many local and 
regional variations of sea level rise and such variations are no 
exception in Alaska. Complications arise due to geologic forces, the 
rebound of the land as glaciers melt and, in some areas, local 
engineering projects. For some areas in Alaska, sea level is actually 
falling due to natural geologic and glacial rebound effects, (e.g., 
parts of Southeast Alaska), but this is generally not the case in much 
of Alaska. The global rise in sea level is due to both melting of land 
ice and the thermal expansion of ocean water. There are other factors 
that also play a role in sea level such as the amount of water held 
back by human-made land reservoirs, leading to sea level falls, but 
this effect does not dominate.
    NOAA maintains a global network of tide gauges that have provided 
the only data to calculate global sea-level rise prior to the satellite 
era. High quality tide-gauges are a high priority within NOAA to ensure 
adequate reference points to gauge sea level changes. NASA, in 
cooperation with our French partners, has been flying a satellite 
altimeter as part of their Topex/Poseidon and JASON missions. These 
missions provide high precision global sea level data when calibrated 
with NOAA and other country tide-gauges. Recent analyses of these data 
suggest that global sea level may have accelerated its increase during 
the 1990s by a factor of two or more compared to increases. Additional 
data will be required to confirm such a trend, and points to the 
importance of continuing satellite altimetry missions and maintenance 
and expansion of global tide gauges.

Conclusion
    Changes in Alaskan climate are among the largest in the world. They 
have likely played an important role in determining the extent of 
coastal erosion and flooding in Alaska and are likely to continue to do 
so in the future. Accelerated coastal erosion and flooding in Alaska 
cannot be ruled out.
    NOAA has numerous climate monitoring, data management and analyses, 
and climate modeling activities that should help us understand, adapt 
and mitigate the impact of climate variability and change on the State 
of Alaska.
    Thank you, Mr. Chairman for allowing me to contribute to this 
important hearing. I look forward to answering any questions you might 
have.

    Chairman Stevens. Your turn, Dr. Akasofu.

STATEMENT OF DR. SYUN-ICHI AKASOFU, DIRECTOR, 
            INTERNATIONAL ARCTIC RESEARCH CENTER, 
            UNIVERSITY OF ALASKA, FAIRBANKS
    Dr. Akasofu. Mr. Chairman and members of the committee, 
thank you for providing me an opportunity to testify at this 
important hearing today.
    I'd like to address the cause and effect of climate change 
on the coasts and coastal communities of Alaska.
    First of all, it's important to recognize that prominent 
climate change has been in progress in the Arctic during the 
last several decades. During the past few decades, the area of 
the Arctic Ocean sea ice has shrunk approximately 5 to 10 
percent, but at an accelerating rate, and its thickness is 
decreasing.
    Mr. Chairman, I would like for you to see viewgraphs. Is it 
okay if I stand here?
    Chairman Stevens. Yes, sir, go ahead.
    Dr. Akasofu. This shows the changes of sea ice in the 
Arctic Ocean from 1979 to 2003. So you can see quite a bit of 
shrinkage.
    Chairman Stevens. What time of year is that, Doctor?
    Dr. Akasofu. Since 1979 and then we are comparing 1979 and 
2003.
    Chairman Stevens. Spring, summer, fall? What is it?
    Dr. Akasofu. The summer, and 1979 the first time that 
satellite data became available, so those are satellite data.
    The Arctic is quite unique in that, as the previous speaker 
mentioned, climate change is prominent in comparison to the 
rest of the Earth. It is generally believed that various ice 
forms in the Arctic cause positive feedback in enhancing 
climate change.
    Many of these climate change phenomena in the Arctic could 
be interpreted as a result of ``warming,'' the warming in 
quotations. Scientists have been seriously debating whether or 
not the cause of the ``warming'' is natural or manmade. Here, 
``manmade'' means the greenhouse effect. It's fair to say, 
both. Then the question is, how much each is contributing. I do 
not think that any decent scientist can claim explicitly how 
much the greenhouse effect is contributing to the present 
Arctic ``warming'' trend.
    So I'd like to show you an example. It's a bit difficult to 
see. The shrinking of sea ice in the Arctic Ocean appears to be 
related to inflow of warm North Atlantic waters into the Arctic 
Ocean. You can see the red one, the green one, Alaska near the 
top. The red one is the warm Atlantic water coming into the 
Arctic Ocean.
    The strength of the inflow varies as a part of what we call 
the North Atlantic oscillation, which is a natural phenomenon; 
it has multi-decadal periods and has been intense during the 
last several decades, so that it is not really accurate to 
claim that the present shrinking of sea ice is all manmade. 
Many scientists find ``warming'' trends, but cannot refer to 
their causes explicitly, and the press takes excerpts from 
these to claim that all warming is manmade.
    The scientific consensus is that large natural variations 
are superimposed on any trend caused by greenhouse effects, as 
the previous speaker also emphasized. But what's important here 
is that aside from the debates on the cause of the ``warming,'' 
is that climate change is in progress and Alaskans have to face 
this trend seriously. Since the subject of coastal erosion is 
not my specialty, I consulted with several of my colleagues 
including Dr. Orson Smith, School of Engineering, UAA, Dr. John 
Walsh, International Arctic Research Center, and Dr. Glenn 
Juday, UAF. As far as coastal erosion is concerned, they are of 
the opinion that sea level rise caused by global warming is 
expected to be about 16 inches, 40 centimeters, in the next 100 
years. With the present rate it is not the most serious threat 
in the near future.
    The most important threat comes from the expected retreat 
of sea ice in this region. In fact, this almost looks like the 
new movie, ``The Day After Tomorrow.'' So what's happening is 
that because the sea ice is retreating, the gap between the 
coastline and the sea ice, that is the place that intense 
cyclones tend to form. In fact, during the last 6 or 7 years or 
so, of seven damaging coastal flood events, five were born in 
the Arctic Ocean.
    This was a study by the National Weather Service in 
Fairbanks. And so this is the type of cyclone. In fact, this 
caused very severe damage in Barrow and I'm sure in other 
places.
    This diagram shows that looking at the entire Arctic 
region, the number of extreme events causing coastline erosion 
have been increasing from about the 1960s. The only problem we 
have now is that we have not finished looking at the data 
earlier. So how this trend is a new trend or was there any 
earlier event similar to that, we are not investigating. So at 
least I can say that at this point there are some newspaper 
articles to say in some of the villages this is due to global 
warming. This is very hard to prove.
    Definitely the coastline is changing, but we are not sure--
that's hard to prove that this is due to a greenhouse effect. I 
had an opportunity to talk to Mr. Kenneth Toovak, Sr. in 
Barrow. He was trying to explain that at the present time the--
this is from Barrow to Point Barrow Road--and this is what's 
happening now, that the waves are crossing. And at the present 
time lots of water is going on to make this the barrier, but he 
thinks that it's not really working. Waves are still crossing. 
He is of the opinion that the sloughs are a way of building the 
bank much better. So that's what he told me.
    I would like to conclude my testimony.
    Chairman Stevens. Doctor, to what extent will this be--it's 
on the west coast as well as the Arctic coast?
    Dr. Akasofu. I'm sorry, I don't have data on this, but 
definitely my understanding is that coastline erosion in Alaska 
is very serious. But I cannot compare Alaskan erosion and the 
west coast's erosion in general.
    Chairman Stevens. I mean the west coast of Alaska.
    Dr. Akasofu. At the present time this is what we call 
extreme event, very intense cyclones tend to form Northwest of 
Alaska in the open sea area and then start to move to the 
Southeast direction. So hitting the Barrow area and also the 
northern part of the Bering Sea because of the straight 
coastline. So I think they are about the same. The cyclones 
tend to form in the open sea because the sea is open now and 
then move toward Barrow. That is a general trend the National 
Weather Service people told me.
    Chairman Stevens. And the thinning of the sea ice means 
that the shoreline is more affected by the wave action coming 
in?
    Dr. Akasofu. The sea ice tends to protect the coastline 
from the big waves, but now if this warming trend or shrinkage 
of the Arctic Ocean sea ice continues, the coastline, the 
protection by the sea ice is lost. Also the open sea tends to 
encourage the formation of intense cyclones. Is this a new 
trend or what? At the International Arctic Research Center 
we're trying to find out.
    Chairman Stevens. Thank you very much, Doctor.
    [The statement follows:]

              Prepared Statement of Dr. Syun-Ichi Akasofu

    Thank you for the opportunity to testify at this important hearing 
today.
    Today, I would like to address the cause and effect of climate 
change on the coasts and coastal communities of Alaska.
    First of all, it is important to recognize that prominent climate 
change has been in progress in the Arctic during the last several 
decades. During the past few decades, the area of the Arctic Ocean sea 
ice has shrunk approximately 5-10 percent, but at an accelerating rate, 
and its thickness is decreasing (from about 4m to 3m). Many Alaskan 
glaciers are receding; the Columbia Glacier is receding at a speed of 
more than 10m per year. Permafrost temperature in Alaska is changing. 
Air temperature records show an increase of 1 C (2 F) per decade in 
Siberia, Alaska, and Canada; the global average increase is about 0.6 
C (1.2 F) per century.
    The Arctic is quite unique in that climate change is prominent in 
comparison to the rest of the earth. It is generally believed that 
various ice forms in the Arctic cause positive feed-back in enhancing 
climate change.
    Many of these climate change phenomena in the Arctic could be 
interpreted as results of warming. Scientists have been seriously 
debating whether or not the cause of the warming is natural or man-
made? Here, man-made means the greenhouse effect. It is fair to say, 
both. Then, the question is how much each is contributing? I do not 
think that any decent scientist can claim explicitly how much the 
greenhouse effect is contributing to the present arctic warming trend.
    I would like to summarize several important findings of the arctic 
research community.
    The shrinking sea ice in the Arctic Ocean appears to be related to 
inflow of warm North Atlantic waters into the Arctic Ocean. The 
strength of the inflow varies as a part of the North Atlantic 
Oscillation (NAO), which is a natural phenomenon; it has multi-decadal 
periods and has been intense during the last several decades, so that 
it is not accurate to claim that the present shrinking of sea ice is 
all man-made. It is not certain if NAO is enhanced by the greenhouse 
effect.
    Some of the past records on glaciers indicate that glaciers in 
Alaska and Greenland began receding as early as 1900 or earlier (e.g. 
the Portage Glacier), well before the CO<INF>2</INF> increase became 
serious. Furthermore, the collapse of the Columbia Glacier is partly 
due to mechanical causes. In Norway, glaciers are advancing.
    Permafrost temperatures decreased until about 1970 and then began 
to increase. The increase appears to have slowed down recently. 
Meanwhile, the amount of CO<INF>2</INF> has been increasing 
monotonically since 1900.
    These are a few examples to show that it is not appropriate to 
claim all warming trends are caused by the greenhouse effect. The 
collapse of houses built on permafrost is certainly man-made (heating), 
not a direct consequence of the greenhouse effect. There is too much 
confusion on such issues.
    Computer modeling has been improved greatly during the last decade 
or so. However, the computer is a very imperfect ``earth'' when we 
conduct CO<INF>2</INF> experiments with it. For example, clouds cause 
warming by trapping infrared radiation, but cause cooling by reflecting 
solar energy back to space. Scientists are still debating which is more 
important. A computer behaves exactly as we instruct. Until we 
understand quantitatively all major processes related to climate 
change, a computer cannot provide reasonably accurate prediction on 
future climate. Computer modeling is now predicting the shrinking of 
sea ice in the Arctic Ocean in 2050 or 2100. However, the models cannot 
reproduce the seasonal changes; observations show the maximum shrinking 
in summer, while computer simulations indicate it to be in the winter. 
There are still many contradictions of this kind. We have too many 
unknown factors in instructing the computer. There is still too much 
unknown to rely completely on the computer to predict the temperature 
in 2100.
    Many scientists find warming trends, but can't refer to their 
causes explicitly, and the press takes excerpts from these to claim 
that all warming is man-made. The scientific consensus is that large 
natural variations are superimposed on any trend caused by greenhouse 
effects. I would like to repeat that any decent scientist cannot claim 
explicitly how much the greenhouse effect is contributing to the 
present arctic warming trend.
    What is important here, aside from the debate on the cause of the 
warming, is that climate change is in progress and Alaskans have to 
face the trend seriously. Since the subject of coastal erosion is not 
my specialty, I consulted with several of my colleagues including Dr. 
Orson Smith, School of Engineering, UAA, Dr. John Walsh, International 
Arctic Research Center, and Dr. Glenn Juday, UAF.
Coastal Erosion
    Sea level rise caused by global warming is expected to be about 
40cm (16 inches) in 2100. With the present rate, it is not the most 
serious threat in the near future.
    The most important threat comes from the expected retreat of sea 
ice, exposing coastlines to wave/surge effects.
    According to the National Weather Service, there were 7 damaging 
coastal flood events during the last six years. Among them, five were 
caused by cyclones that were born in the open region of the Arctic 
Ocean and moved in the SW direction. Both Kivalina and Shishmaref are 
affected by this effect. This is a new trend. Furthermore, according to 
National Weather Service research, a number of intense cyclones over 
the entire Arctic have been increasing in recent years. However, it is 
hard to prove that such a trend is caused by global warming.
    In this report I would like to mention that Mr. Kenneth Toovak, 
Sr., Barrow, is of the opinion that the present bank-building in Barrow 
is not working. I would also like to add also that Dr. Orson Smith has 
made various presentations on the subject of design criteria in 
preventing coastal erosion.
Permafrost Melting and Others
    The temperature of permafrost is near the melting point (0 C/32 
F) in the interior of Alaska, so that permafrost in the Interior is 
quite sensitive to climate change, in particular to the present warming 
trend. As you are well aware, thawing of permafrost causes considerable 
damage to house structures, roads, forests, and other structures.
    In addition to the warming trend, the precipitation has decreased 
considerably in the Interior during recent years, causing a variety of 
effects on vegetation. Trees are suffering directly from this effect 
and also indirectly from insects.
Mission of the International Arctic Research Center
    An important responsibility of scientists at IARC and the arctic 
research community is to reduce uncertainty of the present prediction 
of: the southern edge of sea ice of the Arctic Ocean; the occurrence of 
extreme events; permafrost temperature; temperature and precipitation; 
and shift of the tree line.
    The first two studies will be able to bring fruitful collaboration 
as we combine efforts of scientists and engineers at both UAF and UAA.
    Thank you again for the opportunity to present this testimony 
today, and thank you for your interest in this important issue. Please 
feel free to contact me if you have any additional questions.

    Chairman Stevens. I must confess that the variety of 
reports we've had, it's amazing we haven't had more of these 
stations put up in Alaska.
    Dr. Karl, is your agency seeking establishment of these 
sort of listening posts in the area where this change is taking 
place?
    Dr. Karl. Yes, Senator. In fact, you asked a question 
earlier that I could clarify. My colleague from the National 
Weather Service did in fact indicate that 5 to 10 percent of 
the stations in Alaska are along the coast. It's probably one 
of our greatest needs, is additional stations.
    We have a number of additional programs ongoing. We have a 
cooperative weather observation monitorization program going on 
in the agency, which over time will increase and improve the 
observing sites in Alaska. We have a couple of climate network 
stations and we're working hard trying to increase the number 
up in Alaska.
    We have 20 or so tie gauges, which are extremely important 
to help pin down the satellite measurements from space. The 
measurement of precipitation, as I mentioned, also could be 
important for some of the inland areas for erosion. Yes, indeed 
we are trying to improve the networks.
    Chairman Stevens. Are these floating buoys, are they the 
ones you've got permanently affixed to the land?
    Dr. Karl. Well, working in cooperation with some of the 
other agencies, I've asked to have some ice-tethered buoys in 
the Arctic to not only trying to measure ocean temperatures, 
but to actually look at the ice thickness because that also 
would be an important key, to look at how ice extent will 
change if we can better understand what ice thickness is 
actually doing.
    Chairman Stevens. Are you working with the Corps of 
Engineers on this project, or is this your own?
    Dr. Karl. Right now we are not to my knowledge working with 
the Corps of Engineers on that project. We have in the past, 
around the 1980s, completed some spectral looking at wave 
extent for the Army Corps on a number of coastlines that 
enabled them to be able to use that for planning.
    To do those analyses requires a dedicated effort to go back 
and look at all the historical data and run a model 
consistently to generate data to see how they're changing. 
Today you can actually project in the future on various 
scenarios to see how that might change.
    Chairman Stevens. There's no requested funding for 
additional sites?
    Dr. Karl. In the President's budget there is funding for 
additional sites for a climate reference network and a weather 
monitorization program.
    Chairman Stevens. In Alaska, that is?
    Dr. Karl. Two included in Alaska.
    Chairman Stevens. Thank you very much.
    Dr. Akasofu, do you see any emergencies arising out of the 
information that's available to you so far as far as the Arctic 
is concerned? Any of these things that have to be done now to 
try to deal with these changes that you predict?
    Dr. Akasofu. What I can say is that what we call extreme 
events, they tend to happen in Alaska about once a year. But 
there is indication they're increasing in number, but I do not 
see that right away immediately that the extreme events come 
once a year, so----
    Chairman Stevens. Senator Burns.
    Senator Burns. This is an interesting discussion. I'm 
interested in these cyclones. Tell me what they are. I was 
raised in the Midwest. I know what a cyclone is as far as the 
Midwest is concerned. We call them tornadoes today, but they 
used to be called cyclones.
    Dr. Karl. Yes, and I apologize for not clarifying that. 
Probably the best way to describe it is in the Midwest it's a 
winter storm, the kind of weather you get with a winter storm 
in the Midwest where you get winds and snow or rain.
    Senator Burns. No. A cyclone--it's a circular motion like a 
tornado.
    Dr. Karl. In terms of the terminology I use--I understand 
people have used the term cyclone or tornadoes in the Midwest, 
but tropical cyclones is a term that the scientific community 
has given to storms that are outside the tropics. Inside the 
tropics is a tropical cyclone. They really refer to large-scale 
circulations. These are circulations that are thousands of 
miles across, typical to the winter storms that you would see 
in the Midwest. When I said the number of intense winter 
cyclones are increasing, I'm referring to those kinds of storms 
that you would experience in the Midwest during the wintertime.
    Senator Burns. But our storms aren't circular. They're just 
a straight wind, and on those blizzards and everything like 
that. I mean, that's a straight wind. That has no circular 
motion to it at all. I'm not going to get into semantics with 
you.
    I would like to see some of your slides. I would like to 
take some slides that you showed us. I would like to have a 
copy of those, if I could. I would suggest that there's a book 
on the market. It came out about 10 or 15 years ago written by 
a man by the name of Hancock, ``Fingerprints of the Gods.'' 
Have you read that?
    Dr. Karl. No, I haven't.
    Senator Burns. Have you ever heard about it?
    Dr. Karl. No, I haven't.
    Senator Burns. There's a 28,000-year wobble in the Earth. I 
can have a man that's got a doctorate in geology that would 
come up and tell you that the equator used to go across 
Montana. Where are we finding our dinosaurs in our digs? 
They're found in the Dakotas and Montana. We know that their 
environment was tropical mostly, very warm, and that's where 
we're finding them today.
    Have we done any bores in the ice in the Arctic that would 
give us some idea of the changing of seasons?
    Dr. Karl. Yes, we have actually, Senator, have cores both 
in Greenland as well as Antarctica to help try and understand. 
I think perhaps what you're referring to is the Milankovitch 
cycles.
    Senator Burns. Have we had changes in climate this dramatic 
before in the history of those ice packs?
    Dr. Karl. One of the difficulties in looking at those today 
is trying to get the resolution that would be needed to look at 
a very small period of time like the erosion over the last 4 
years. But indeed, there's been large changes in the past that 
occurred over longer periods of time. There is an interesting 
issue--the National Research Council put out a report on the 
climate change. There is some suggestions in the past that 
indeed sometimes the climate can change very abruptly. For 
example, 11,500 years ago when the glaciers were melting and 
the St. Lawrence River broke into the Atlantic and changed the 
climate for 500 years in Europe and North America as the world 
was in fact warming. Indeed there is evidence in the past that 
we've had abrupt climate changes.
    Senator Burns. Well, we had the Missoula flood, too, that 
went all the way to Portland. What I'm saying is that, yes, I 
think we're in a climate change, but I think we're always in a 
constant climate change. If there's a wobble in the Earth, and 
Hancock pretty well substantiated that in this book that I 
would suggest you read, and it had to do with the building, of 
all things, the pyramids, and also how they relate to Machu 
Picchu and how similar mindsets--how they relate to each other 
and the times that they were built. And what happened to all of 
that knowledge it took to build a perfect pyramid went away for 
some reason or another. Also, the dinosaurs and other what we 
refer to as prehistoric animals. What happened to them, that 
lived in a tropical setting in a tropical environment, which 
that's what their bones tell us. Yet they're being found in an 
area where it's basically very cold today and semi-arid.
    I think there has to be some reading on this. I'm not a 
very educated guy. I don't have a college education. I just run 
cows. But it seems like even the rings of trees will tell us, 
the growth range of the canyon of the trees will tell us what 
kind of seasons we have.
    Dr. Akasofu, do you want to comment on that?
    Dr. Akasofu. I think what you're emphasizing is there are 
many natural changes, so the question is now--what's happening 
now, is it natural changes or man-made or both? If both, how 
much is due to man-made? That's the one that scientists are 
working on, emphasizing the major natural changes.
    Senator Burns. Well, we know it wasn't a man-made situation 
that done away with the dinosaurs, I don't think. Thank you for 
these. I appreciate these slides and your information. Very 
interesting. I appreciate your testimony, too. Thank you.
    Chairman Stevens. Dr. Burns, thank you very much. Dr. 
Sununu.
    Senator Sununu. I would also like a copy of the slides. I 
thought they were well done.
    Dr. Akasofu, you talked about the impact of the North 
Atlantic oscillator on the retreat of the sea ice in the North 
Atlantic, and that it's a variation and the movement or the 
strength of that oscillator. Is there a good series of data 
going back 30 or 40 years to try to correlate?
    Dr. Akasofu. That's as far as we can go, and you can see 
that this temperature changes that go with the NAO, North 
Atlantic oscillation. They start to increase around 1920 and 
they reached a 1940 maximum and then began to decrease until 
about 1970 and started to increase.
    Senator Sununu. So the blue line that says Arctic----
    Dr. Akasofu. The blue is Arctic and the red one is the 
global average that most people talk about.
    Senator Sununu. The blue line labeled Arctic, is that the 
temperature of the North Atlantic oscillator or the temperature 
at a particular point?
    Dr. Akasofu. Around the Arctic coastline at more than 50 
observatories and this is the average. It represents the Arctic 
situation.
    Senator Sununu. But it's the land temperature or----
    Dr. Akasofu. Coastland, yes. So we have the effect of both 
the land and the ocean as well. The Arctic Ocean temperature 
changes in a similar way. So there's a big natural change, as 
you can see, and what we have been--I've been looking at is the 
changes after 1970. And our question is, we had something 
similar around 1920 to 1940, so the question is: Is the 
increase after 1970 due to man-made or natural? We're not sure 
yet.
    Senator Sununu. Do you have a similar time series that 
shows the inflows or the temperature of the inflows from the 
North Atlantic?
    Dr. Akasofu. We have also a data from North Atlantic 
seawater, a very similar change. So we think that the inflow, 
the intensity changes all the time over a period. It's very 
interesting, the Arctic temperature.
    Senator Sununu. You note in your testimony that there are 
some places here in Alaska that are advancing. Although you 
sort of indicate there are a large number of glaciers that are 
retreating. But you point out that in Norway most of the 
glaciers are advancing and advancing. Can you elaborate on 
that? Do you have any data to describe the rate of advancement 
of glaciers in Norway?
    Dr. Akasofu. I think that most people think that when the 
NAO, North Atlantic oscillation, they tend to have more snow in 
the Norway area, so that's maybe the cause.
    Senator Sununu. You also note that permafrost temperatures 
decreased until about 1970. How good is the data for showing 
that decrease, and how far back can we go before we lose 
accurate data?
    Dr. Akasofu. This is permafrost temperature changes in 
Fairbanks and it's very similar in Barrow as well. You can see 
that the temperature decreased quite a bit until about 1970 
when it started to increase, so this is a period that, again, 
we were worrying about that all the permafrost is thawing. But 
now that trend seems to kind of slow. During this period, 
carbon dioxide is increasing so why this change in--we can't 
correlate too well with CO<INF>2</INF>. But nevertheless this 
is a similar trend also in Siberia and other places similar 
change.
    Senator Sununu. Dr. Karl, one of the things that Dr. 
Akasofu described in his testimony is the computer technology 
of the modeling. We are fortunate to be in the age that the 
models and computers are constantly improving. He notes that 
existing models can't reproduce seasonal changes accurately and 
that the observations show the maximum shrinkage of the Arctic 
ice in the summer, well, computer simulations indicate that it 
ought to be in the winter.
    Do you agree with those statements, or would you add 
anything?
    Dr. Karl. First off, I would like to add a few things. I 
just wanted to mention--perhaps the Senator might be 
interested--I do have a graph of the North Atlantic oscillation 
and the Arctic oscillation.
    Senator Sununu. Yes, if you could include that with your 
testimony, I would appreciate it.
    Dr. Karl. Clearly climate models are by no means perfect. 
They are, however, the best tool to understand what we might 
expect in the future. There are many flaws in models and people 
have written books about the flaws in the models. However, by 
and large, if we take a look at how we would evaluate them, 
what we've been able to do is go back in terms of looking at 
the past climate records and use the models to see if we could 
understand whether our understanding would be able to reproduce 
the gross features of past climate.
    In general, I think they have done a reasonably good job. 
When you begin to look at details, that's when they begin to 
fall apart. I would agree there are still many improvements 
that need to be made and seasonal cycle is one issue, being 
able to reproduce the diurnal cycle is another issue. The list 
goes on.
    Senator Sununu. Final question, you mentioned clouds. Is it 
a matter of determining the tradeoff between their blanketing 
effect and their reflectivity?
    Dr. Karl. Yes. It's a matter of high clouds versus low 
clouds, reflectivity. We're struggling even to understand how 
clouds have changed based on the observed record with our 
satellites. So even if you were to give me a model that you 
believed perfect and you asked me to compare it with 
observations, I would have a hard time telling you which I 
believed, the model or the observations.
    Chairman Stevens. Thank you. I think that all of us 
appreciate your taking the time, each of you doctors, to come 
and share your knowledge and interpretations with us. It may be 
necessary for us to pursue this further next year when we get 
the legislative efforts for sort of long-term legislation to 
deal with the phenomena we're looking at now. I really would 
appreciate your help, Dr. Karl, if you'd tell us what you think 
we really need along the coastline to get some of this data 
that's missing now.
    Dr. Akasofu, I know you know we're putting some effort into 
Barrow and effort into the university there. We would like to 
have your guidance as to what you also think you would need to 
further your studies, Arctic Institute studies of these 
changes. Give us some indication of where you think this is 
going.
    The information that our trees are growing further up 
north, that there is less density to the permafrost on shore 
seems to be a phenomena that's not exclusively along the coast. 
We don't know if we're going to have some changes on the land 
mass of the Arctic of Alaska that need attention in the 
foreseeable future.
    Dr. Akasofu. We work with National Weather Service and 
NOAA, so we're happy to work with Dr. Karl.
    Chairman Stevens. This would be nice to have that 
cooperation between your people in the Arctic Institute that 
you head and NOAA, so we can get some guidance with regard to 
what else is going to happen in Alaska. The coastal storms, the 
coastal damage erosion is one that seems to be the most 
predicted right now, although I think that the timeframe is 
longer than we thought it was for the change. I think we have 
more time to work on it than was apparent.
    If it's true that there are some 200 villages that are 
ultimately going to be affected along the coastline and along 
the rivers, I think we have to have a long-term plan to see 
what we can do and maybe bring about some relocation of the 
villages far before the crisis period arrives because it's more 
expensive to move over a crisis than it is in the long term.

                            COMMITTEE RECESS

    But I do thank you very much for coming to help us 
understand the problem further. We're going to recess this 
hearing and start again tomorrow morning at 8:30. Tomorrow 
we're going to listen to the Alaska villagers, tribal 
organizations, and we also have one witness who has some 
commercial expertise in erosion prevention and mitigation that 
may be of interest to you, also. So we do thank all the 
witnesses this morning, and we will recess until 8:30 tomorrow 
morning.
    [Whereupon, at 12:15 p.m., Tuesday, June 29, the committee 
was recessed, to reconvene at 8:30 a.m., Wednesday, June 30.]


                     ALASKA NATIVE VILLAGE EROSION

                              ----------                              


                        WEDNESDAY, JUNE 30, 2004

                                       U.S. Senate,
                               Committee on Appropriations,
                                                     Anchorage, AK.
    The committee met at 8:40 a.m., in the Z.J. Loussac Public 
Library, 3600 Denali Street, Anchorage, Alaska, Hon. Ted 
Stevens (chairman) presiding.
    Present: Senators Stevens and Burns.
    Also present: Senators Murkowski and Sununu.

                OPENING STATEMENT OF SENATOR TED STEVENS

    Chairman Stevens. I'd like to call Representative Joule, 
Mr. Ahmaogak, Ms. Bullard and Mr. Naneng to the table, please. 
We welcome you all to the second day of these hearings. 
Yesterday was a very successful day for us. We learned a great 
deal from the scientific and government people who were here.
    We were pleased to hear that HUD has a plan now to allow 
the leveraging of $100 million to start the process of dealing 
with some of these areas that are threatened by erosion, and we 
will follow through with them when we get back to Washington.
    This is a United States Senate Appropriations field 
hearing. Senate Murkowski and I thank our colleagues, Conrad 
Burns and John Sununu, for joining us, and I thank the 
witnesses who have traveled here from very many remote 
locations to present testimony today.
    There are three panels of witnesses this morning. Each 
panel will have multiple witnesses, and to keep the hearing on 
schedule I request, again, as we did yesterday, that the 
witnesses not speak for more than 8 minutes. Senators will hold 
their questions until all the panel has testified, and then we 
will ask questions and stay within the allotted time for each 
panel.
    The first panel is allowed 1 hour; the second panel, 1 
hour; and the third panel 1 hour and 15 minutes. We have 
witnesses from Alaska's community organizations and regional 
and State elected officials, as well as one witness who has 
expertise in erosion prevention and mitigation.
    These 2 days of field hearings are a result of an 
appropriations field hearing held in Fairbanks in May 2001 on 
the impacts of climate change in the Arctic and the 
congressional directed General Accounting Office report to 
study Alaska Native villages affected by severe erosion and 
flooding to determine what Federal and State programs may be 
able to provide assistance.
    It's critical to hear from people who have witnessed the 
flooding and erosion to understand the magnitude and severity 
of how the villages have been impacted and changed in many ways 
forever the Alaska coastline and ecosystems.
    Senator Burns is a member of the Appropriations Committee. 
We'll call on him first.
    Senator Burns. Thank you, Mr. Chairman. Yesterday was a 
very fruitful day. I have no formal statement. I look forward 
to hearing from the witnesses.
    Chairman Stevens. Senator Murkowski.

     STATEMENT OF SENATOR LISA MURKOWSKI, U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I too 
appreciate the hearings and gained a lot from what we heard 
yesterday. While I don't serve on the Appropriations Committee, 
I do serve on three committees that do have certainly an 
interest in what is going on here this morning and yesterday. I 
serve on the Environment and Public Works Committee. We've got 
oversight of natural hazards and flood control issues. Also on 
the Indian Affairs Committee and Energy, which does have 
certain ties here today.
    I won't be able to stay with you for the full morning. I am 
convening a summit on domestic violence at 10 a.m. this 
morning, but my chief of staff will be here throughout the 
morning and will be listening and reporting back to me as to 
the comments that we hear this morning.
    I would like to offer just a couple brief observations on 
what we gathered yesterday. In my opinion the Congress and the 
State need to be focused on two very distinct issues. The first 
is how we protect our communities from the flood and storms 
while they remain in their locations, and the second component 
is how do we find the resources to move these communities if 
relocation is the route to go for a long-term solution.
    I would ask those that will be presenting this morning--I'm 
very interested in your experiences that each of you have had 
in your communities working with the Corps of Engineers as well 
as the other Federal agencies that are involved. Are they 
engaged in your problems? Do they understand? Are they helping 
in the level and in the manner in which you really need? And if 
not, what can they do--what can we do to improve this?
    And I would look forward to hearing your perspectives from 
that angle.
    Mr. Chairman, I appreciate again the opportunity to join 
you this morning, and I'm so very pleased that we could have 
our colleagues from Montana and New Hampshire join us as well.
    Chairman Stevens. Senator Sununu, do you have a statement 
this morning?
    Senator Sununu. I'd simply like to thank the witnesses for 
travelling to be here. The testimony yesterday was outstanding 
and I don't think we could possibly develop the depth of 
understanding for a problem like this without this kind of 
thorough hearing. So it's extremely helpful and I look forward 
to today's testimony.
    Chairman Stevens. Thank you very much. On our first panel 
is Representative Reggie Joule. Representative Joule represents 
District 40 in the Alaska Legislature.
    Good morning, Representative. I would, again, ask that all 
witnesses hold their statements to 8 minutes. We're pleased to 
hear from you.

STATEMENT OF HON. REGGIE JOULE, ALASKA STATE 
            REPRESENTATIVE
    Mr. Joule. Thank you. Good morning, Mr. Chairman. Senator 
Murkowski, welcome home. Senator Burns and Senator Sununu, 
welcome to Alaska.
    My name is Reggie Joule, for the record. I am from the 
community of Kotzebue, Alaska, located just 30 miles north of 
the Arctic Circle where this time of the year the Sun does not 
set. I represent House District 40, which stretches from the 
Canadian border in the north, encompasses all of the North 
Slope and down to the Kotzebue area, the Northwest Arctic 
Borough, and over to Shishmaref, almost from the Canadian 
border to the Russian border, 19 communities in my district in 
an area of about 120,000 square miles.
    In Alaska we are bound on three sides by coast, over 6,000 
miles of coastline. This accounts for more than half of the 
entire U.S. coastline. We also have 12,000 rivers, 3 of the 10 
largest in the country; the Yukon, the Kuskokwin and the 
Copper. While we are the largest in the United States in mass, 
we're, I think, way down second to the last in terms of number 
of people. We have just over 600,000 people, of which 19 
percent or approximately 120,000 are Alaska's Native people. 
Many of Alaska Native people live in remote villages and have 
been there for generations.
    Most of our villages are located along the coastline or our 
river systems and we have located to those places because of 
the resources that are there, food resources. And today and for 
a few years now erosion is threatening many of our homes. As 
you heard yesterday, 184 communities are impacted either by 
coastline erosion or flooding. While many of the problems with 
erosion and flooding are longstanding, various studies indicate 
that coastal villages are becoming more susceptible to flooding 
and erosion due, in part, to our changing temperatures.
    The Geophysical Institute in Fairbanks has compiled some 
interesting data on mean annual temperature trends in Alaska 
for the 1971 to 2000 time period as indicated by some of the 
data below. In Barrow, for instance, annual temperatures 
increased 4.16 degrees with spring temperatures increasing 6.97 
degrees. Kotzebue: Annual temperatures increased 1.68 degrees 
with spring temperatures increasing 3.56 degrees. And in 
Bethel, annual temperatures increased 3.08 degrees while spring 
temperatures increased a whopping 7.64 degrees.
    Additionally, a 1999 report for the U.S. Global Change 
Research Program found that the extent and thickness of sea ice 
in the Arctic has decreased substantially with thickness 
decreasing by more than 4 feet or approximately 40 percent. 
Thickness at one point was at 10 feet; today it's measured at 6 
feet, and that is kind of an add-on to some of what you heard 
yesterday.
    Let's talk about some things at the State level first. 
Currently, there are no specific State programs or funding for 
erosion management. The three main departments in the State of 
Alaska that help assist with erosion and flooding on an 
emergency basis are the Department of Transportation (DOT), the 
Department of Community and Economic Development (DCED), and 
the Office of Emergency Management (OEM). The State currently 
only has one staff member in DCED to work on floodplain erosion 
management and this position is largely funded by the Federal 
Government through the FEMA program. Generally speaking, the 
State departments don't have the authority to focus on 
prevention of problems, but rather deal with situations when it 
is an emergency and life or property is threatened.
    There is no State program to fund mitigation projects 
outside of a federally-declared disaster or in special 
instances if the State were to make special appropriations. The 
Office of Emergency Management intervenes only when there's 
``an occurrence or imminent threat of widespread or severe 
damage, injury, loss of life or property, shortage of food or 
fuel from an incident.''
    A State or Federal disaster declaration must be issued 
before the OEM can assist. Similarly, the other departments 
intervene only when disaster strikes.
    The only available funding for erosion problems has been as 
a supplemental request when an emergency arises. Oftentimes, 
like in the case of Shishmaref, it's taken some time to be able 
to get some of that funding. The Alaska State Legislature has 
begun to recognize the issues, but this recognition has been 
long in coming. This year the State legislature passed Senate 
Joint Resolution 25, a resolution which recognized Alaska's 
erosion problems and requested the Federal Government to ease 
some of its requirements for the funding. Unfortunately, 
recognition has come at a time when the State is struggling 
financially, so there aren't the financial resources available 
that we would like to have to address some of these issues.
    Let's talk about some of the possible solutions, first at 
the State level, and then we'll move on to the Federal level. 
Possible solutions to expand the role of the Denali Commission 
or a State department, such as DCED, to include managing a 
flood and erosion assistance program and fund and staff the 
entity appropriately so that it can begin to tackle the 
problem. The designated agent should be an entity that already 
has a positive relationship with rural Alaska and an alliance 
with the construction industry. The agent can work to ensure 
that by hiring reputable and experienced engineers, 
hydrologists, and other professionals erosion abatement money 
is maximized.
    Designate the same entity to coordinate the erosion issue 
between the State and Federal government.
    Adopt a statewide erosion plan, which includes an 
assessment of the villages.
    Adopt State policies about building infrastructure in 
threatened areas or a policy covering structural erosion 
control projects. Develop a planning process so capital 
facilities are built outside of erosion and flooding zones or 
are built so that they can be moved at a later date. Policies 
should also be adopted regarding relocation of villages that 
include site selection criteria that ensures a village will not 
have to be relocated for a long period of time. We don't need 
to be going through this over and over.
    Adopt State legislation on flood/erosion plan management, 
if needed.
    Provide designated funding for erosion management.
    Educate both State and Federal officials about the erosion 
and flooding problems and how best to combat erosion abatement.
    When working through all of the ideas outlined above, rural 
Alaskans should be included in the process. Additionally, if 
communities are relocated, the residents should be allowed to 
maintain their connection to the area.
    Chairman Stevens. The time?
    Mr. Joule. Yes. The cost-benefit analysis: Federal agencies 
aren't allowed to undertake projects whose costs exceed 
expected benefits. So you heard some about this yesterday.
    But in closing, Mr. Chairman, members of the committee, 
direct the Corps of Engineers and the Natural Resources 
Conservation Service (NCRS) to include social and environmental 
factors in their cost-benefit analysis for requested projects, 
and to consider the economic impact of lost subsistence 
resources.
    Direct the Corps and NCRS to account for the higher cost of 
construction and fuel.
    And, Mr. Chairman, the rest of this is on my written 
statement for your review. I just would like to say that remote 
Alaska villages face challenges found nowhere else, and these 
obstacles range from harsh climates, the permafrost issues, 
limited infrastructure. And we urge this committee to consider 
action and help many of the villages in the State. Thank you.
    Chairman Stevens. Thank you very much. There's no question 
that your district has substantial problems right now, and 
we'll work with you, the State legislature in January. We will 
have some suggestions for the legislature too.
    [The statement follows:]

                Prepared Statement of Hon. Reggie Joule

    Good afternoon. Thank you for the opportunity to testify in this 
important hearing today. My name is Representative Reggie Joule and I 
represent House District 40. I represent a unique area of the state. My 
district stretches from the Canadian to the Russian Border. It is an 
area rich in natural resources (Prudhoe Bay and Red Dog Mine). It is 
also an area that has been inhabited by the Inupiat for thousand of 
years. Today I am here to talk with you about erosion and flooding in 
our remote area of the state.

Introduction and Background
    First, one must ask why Alaska as a state is having such a problem 
with erosion and flooding. In part, it is because as the largest state 
we have an enormous coastline and river system.
  --Alaska encompasses 365 million acres, more than the combined area 
        of the next 3 largest states (Texas, California and Montana).
  --Our state is bound on three sides by water and has a coastline of 
        6,600 miles.
  --Our coastline accounts for more then half of the entire U.S. 
        Coastline.
  --Alaska also has more then 12,000 rivers, including three of the ten 
        largest in the country (Yukon, Kuskokwim and Copper Rivers).
  --Although the largest state, Alaska is the second least populated 
        state with only 630,000 people of which 19 percent or about 
        120,000 are Alaska Natives.
  --Many Alaska Natives live in remote villages that have been 
        inhabited by the same families for generations. Most of these 
        villages are located along a coastline or river system so that 
        Native people can utilize the food resources. Today erosion 
        threatens many of our homes.
    In fact, flooding and erosion impacts 184 out of 213 Alaska Native 
villages or about 86 percent of the villages. (Number of villages 
impacted may be higher but quantifiable data for remote villages is 
unavailable). Between 1972 and 1991, the state spent over $40 million 
for erosion control statewide.

What are the potential causes of the erosion and flooding and why has 
        it worsened in recent years?
    While many of the problems with erosion and flooding are long-
standing, various studies indicate that coastal villages are becoming 
more susceptible to flooding and erosion due, in part, to rising 
temperatures. The Geophysical Institute in Fairbanks has compiled some 
interesting data on mean annual temperature trends in Alaska for the 
1971 to 2000 time period as indicated by the data below:
  --Barrow: Annual temperature increased 4.16 degrees with spring 
        temperatures increasing 6.97 degrees.
  --Kotzebue: Annual temperatures increased 1.68 degrees with spring 
        temperatures increasing 3.56 degrees.
  --Bethel: Annual temperatures increased 3.08 degrees with spring 
        temperatures increasing a whopping 7.64 degrees!
    Additionally, a 1999 report for the U.S. Global Change Research 
Program found that the extent and thickness of sea ice in the Arctic 
has decreased substantially with thickness decreasing by more then 4 
feet (from 10 feet to 6 feet thick).
    Rising temperatures cause protective shore ice to form later in the 
year leaving villages vulnerable to fall storms because the shore ice 
that would normally protect the shore from the crashing waves isn't 
there. Moreover, with less ice, storm surges have become more sever 
because large, open water areas generate larger and more destructive 
waves. This has resulted in more serious erosion in recent years with 
over 100 feet of land being lost in a single storm. A village in my 
district called Shishmaref, which is only 1,320 feet wide, lost 125 
feet of beach to erosion in a single storm in October 1977.
    In recent years rising temperatures have also resulted in 
widespread thawing of the permafrost, causing serious damage. Melting 
and thawing permafrost is also more sensitive to small variations in 
temperatures. (1997 Report of the Intergovernmental Panel on Climate 
Change). As permafrost melts buildings, bulk fuel tank farms, and 
runways sink. Additionally, river villages are impacted by erosion and 
flooding caused by ice jams, snow and glacial melts, heavy rainfall and 
rising sea levels all of which have been exacerbated by rising 
temperatures and melting permafrost.

Gaining perspective by taking a closer look at some specific villages 
        and the erosion and flooding problems they face
    I would like to familiarize you with this topic by taking a look at 
some of the villages in my district. I represent 19 villages, 16 of 
which are impacted by erosion and flooding. The villages impacted by 
coastal erosion are Barrow, Kaktovik, Point Hope, Point Lay, 
Wainwright, Kivalina, Kotzebue, Deering and Shishmaref. The villages 
impacted by river erosion and flooding are Nuiqsut, Ambler, Buckland, 
Kiana, Kobuk, Noatak, Noorvik, and Selawik.\1\
---------------------------------------------------------------------------
    \1\ Note that many rural villages do not have a naturally occurring 
gravel source to build a seawall or other protective system. This means 
the gravel for a project must be barged in to an area from the nearest 
source, which can be a significant distance. This of course adds a 
significant cost to the project.
---------------------------------------------------------------------------
    In the district I represent two villages, Shishmaref and Kivalina, 
are in imminent danger of flooding. These two villages are planning to 
relocate entirely.

            Shishmaref
    Shishmaref is a small village of about 562 people. It lies on a 
barrier island in the Chukchi Sea and experiences chronic erosion along 
the shorelines. The island is no wider then a quarter of a mile. Since 
the 1970s the community has tried a variety of erosion protection 
measures, from sandbags and gabion seawalls to a concrete block mat. 
Ultimately, all of the attempts failed to prevent long-term erosion. To 
date 19 homes have been moved to prevent them from literally falling 
into the sea. The community is currently working on constructing a 
temporary seawall, which is expected to last 10 to 15 years, to give 
the village time to relocate. Money for the seawall is coming from 
several sources including the State of Alaska, the Corps of Engineers 
(Corps), Kawarek Corporation, and other federal monies. The village is 
currently working with Natural Resource Conservation Services (NCRS) on 
selecting an appropriate site to build a new village.

            Kivalina
    Kivalina is a small village of about 377 people. It also lies on a 
barrier island that is surrounded by the Chukchi Sea and Kivalina 
Lagoon. The village is shrinking from chronic erosion on both 
shorelines. There is no further room for expansion and the only option 
for the village is to relocate. It is believed that the right 
combination of storms could flood the entire village at any time, 
resulting in the loss of property and life. Cost estimates to relocate 
the village range from $100 million to $400 million. The village is 
working with the Corps on finding possible new sites as the first two 
site selections for a new village failed to meet certain criteria.
    Other villages in my area are conducting flooding and erosion 
studies or are improving infrastructure to cope with flooding and 
erosion problems. Below is a sampling of the villages and the issues 
they face:

            Kaktovik
    The village of Kaktovik is located on Barter Island at the northern 
edge of the Arctic National Wildlife Refuge. The village has a problem 
with the runway, which floods every fall, shutting the airport down for 
several days at a time. When evaluating the situation it is important 
to note that for many remote communities the only real access to urban 
facilities, including hospitals, is by air. A flood study at the 
airport has been conducted. The village, with the assistance of the 
FAA, is now exploring whether it is cheaper to fix the existing airport 
or to build a new runway in a different location that won't flood. The 
FAA will support the least-cost alternative and will fund 93.75 percent 
of the project with the local government covering the rest of the cost.

            Kotzebue
    Kotzebue is a second-class city with a population of about 3,082 
and serves as the urban center for all of the villages in the Northwest 
region. The city is located on a spit surrounded by the Chukchi Sea and 
Kotzebue Sound. In recent years, former Governor Knowles declared the 
road along the beachfront (Shore Avenue) area a disaster due to washout 
caused by severe fall storms. This summer the community will rebuild 
the road infrastructure with the assistance of the Department of 
Emergency Services. In 2006, the city will work with the Department of 
Transportation to prevent further erosion by building a seawall along 
the shoreline in front of the city.

            Barrow
    Barrow is a first-class city with a population over 4,000. The city 
is located on the Chukchi Sea and serves as the urban center for all of 
the villages in the North Slope Borough. It is estimated that 
approximately $500 million of Barrow's infrastructure is located in the 
flood plain. Barrow, in conjunction with the Corps, has a study 
underway for coping with beachfront erosion that threatens the 
village's multi-million dollar utility corridor and local landfill. In 
the past, the city has used sandbags and dredging to rebuild the 
beachfront and to prevent erosion with little success. North Slope 
Borough officials estimate that each time there is a flood it costs the 
community approximately $500,000.

            Point Hope
    Point Hope is located near the end of a triangular spit, which juts 
15 miles into the Chukchi Sea. This peninsula is one of the longest 
continually inhabited areas in Northwest America. Some of the earliest 
residents came to the peninsula some 2,000 years ago after crossing the 
Siberian land bridge. Today some 800 people call Point Hope home. Due 
to concerns about erosion and flooding, Point Hope is researching 
alternatives for an emergency evacuation road and relocating the 
runway.

            Noatak
    Noatak is located on the west bank of the Noatak River, 55 miles 
north of Kotzebue. It is about 60 feet above sea level. Approximately 
400 people, mostly of Inupiaq Eskimo descent, call this small community 
home. Due to flooding the community of Noatak had to move graves and 
build a new graveyard. The project is still not complete, as a road to 
the new gravesite remains unfinished. The changing course of the river 
and riverbank erosion has also forced about half of the residents to 
relocate or move their existing homes. The residents have done most of 
the work on their own with little to no assistance from the state.

            Noorvik
    Noorvik is also a river community. It is located on the bank of the 
Nazuruk Channel on the Kobuk River. Approximately 550 people call 
Noorvik home. Noorvik also had to relocate its airport due to flooding.
    As you can see from these examples, the erosion and flooding 
problem is very real and costly in Alaska. We need help.

What state programs are available to assist villages with erosion and 
        flooding and why aren't they working?
    There is no specific state program or funding for erosion 
management. The three main departments that help assist with erosion 
and flooding on an emergency basis are the Department of 
Transportation, Department of Community and Economic Development 
(DCED), and the Office of Emergency Management. The state has only one 
staff member in DCED to work on flood plain erosion management and this 
position is largely funded by the federal government (75 percent) 
through the FEMA program. Generally speaking, the state departments 
don't have the authority to focus on prevention of problems but rather 
deal with the situation when it is an emergency and life or property is 
threatened. There is no state program to fund mitigation projects, 
outside of a federally-declared disaster. The Office of Emergency 
Management intervenes only when there is ``an occurrence or imminent 
threat of widespread or severe damage, injury, loss of life or 
property, shortage of food, or fuel from an incident.'' See A.S. 26.23. 
A state or federal disaster declaration must be issued before the OEM 
can assist. Similarly, the other departments intervene only when 
disaster strikes.
    The only available funding for erosion problems has been as a 
supplemental request when an emergency arises. Oftentimes, like in the 
case of Shishmaref, it has taken years to get funding. Shishmaref began 
asking for money to build a seawall around 1984. During the intervening 
years it did receive sporadic funding ($1.7 million) and built a 
partial seawall that failed. Finally this year Shishmaref received some 
state funding to build a partial seawall, which will help protect the 
village for another 10 to 15 years while it relocates. There is no 
statewide erosion policy or plan on how to tackle the problem. There is 
no state policy about building infrastructure in threatened areas or a 
policy covering structural erosion control projects. Therefore, there 
is no planning process to insure that capital facilities are built 
outside of erosion and flooding zones or built so that they can be 
moved at a later date. In fact, there is no state legislation on flood/
erosion plain management at all. There is no state or federal agency 
designated or funded to coordinate erosion control between the state 
and federal governments. In sum, there is a real lack of state 
resources to address erosion problems.
    The Alaska State Legislature has begun to recognize the issues but 
this recognition has been long in coming. This year the legislature 
passed SJR 25, a resolution which recognized Alaska's erosion problems 
and requested the federal government to ease some of its requirements 
for funding. Unfortunately, recognition has come at a time when the 
state is struggling financially, so there aren't the financial 
resources available that we would like to have to address the problems. 
Additionally, there are a number of legislators who favor funding 
projects in urban areas of the state where most of the population 
resides. There are also a few legislators who believe that no money 
should be spent in rural areas and that threatened village residents 
should simply move to the city.

What are some possible solutions to the erosion problem on the state 
        level?
    Listed below are some possible solutions to Alaska's erosion and 
flooding problem:
  --Expand the role of the Denali Commission or a state department to 
        include managing a flood and erosion assistance program and 
        fund and staff the entity appropriately so that it can begin to 
        tackle the problem. The designated agent should be an entity 
        that already has a positive relationship with rural Alaska and 
        an alliance with the construction industry. The agent can work 
        to ensure that by hiring reputable and experienced engineers, 
        hydrologists, and other professionals erosion abatement money 
        is maximized.
  --Designate the same entity to coordinate the erosion issue between 
        the state and federal government.
  --Adopt a statewide erosion plan, which includes an assessment of the 
        villages.
  --Adopt state policies about building infrastructure in threatened 
        areas or a policy covering structural erosion control projects. 
        Develop a planning process so capital facilities are built 
        outside of erosion and flooding zones or are built so that they 
        can be moved at a later date. Policies should also be adopted 
        regarding relocation of villages that include site selection 
        criteria that ensures a village will not have to be relocated 
        in the foreseeable future.
  --Adopt state legislation on flood/erosion plain management if 
        needed.
  --Provide designated funding for erosion management.
  --Educate both state and federal officials about the erosion and 
        flooding problems and how best to combat erosion abatement.
  --When working through all of the ideas outlined above rural Alaskans 
        should be included in the process. Additionally, if communities 
        are relocated the residents should be allowed to maintain their 
        connection to the area.
    Adoption of any of these measures would be a step in the right 
direction.

What federal programs are available to assist villages with erosion and 
        flooding and why aren't they working?
    The principal federal programs that prevent and control erosion and 
flooding are administered by the Corps of Engineers (Continuing 
Authorities Program) and the Natural Resource Conservation Services 
(Watershed Protection and Flood Prevention). The problem with these 
programs is that the villages usually fail to qualify for federal 
assistance because they can't meet the federal requirements listed 
below:
  --Cost Benefit Analysis.--Federal agencies aren't allowed to 
        undertake projects whose costs exceed expected benefits. This 
        requirement fails to account for social or environmental 
        factors, or the economic or cultural value of subsistence. Only 
        one NCRS program, the Emergency Watershed Protection program, 
        accounts for these factors. Additionally, there is no 
        adjustment to account for the high cost of construction and 
        fuel in remote areas. Most villages fail to meet this 
        requirement.
  --Match Requirement.--The match requirement requires local 
        communities to fund between 25 to 50 percent of the project. A 
        few programs will waive this requirement. Some of the poorest 
        communities in the state are being asked to contribute 
        thousands of dollars in match money, a requirement they simply 
        can't meet.

How can we solve the funding issue and get the needed resources to our 
        villages?
    Listed below are some possible funding solutions to Alaska's 
erosion and flooding problems:
  --Direct the Corps and the NCRS to include social and environmental 
        factors in their cost/benefit analysis for requested projects, 
        and to consider the economic impact of lost subsistence 
        resources. An additional consideration might also be whether a 
        cultural heritage site or a national historic landmark is at 
        risk. (Point Hope is recognized as a nationally significant 
        cultural site as is Barrow and many other villages);
  --Direct the Corps and NCRS to account for the higher cost of 
        construction and fuel in Alaska in the cost/benefit analysis;
  --Waive the federal cost share requirements for flooding and erosion 
        projects in Alaska;
                                   or
  --Fund the Denali Commission with specific provisions that the funds 
        can be used by the communities to meet the required cost share 
        provisions;
  --Authorize the bundling of funds from various agencies to respond to 
        flooding and erosion;
  --Earmark some of the federal income from the state for oil, timber 
        or other natural resources revenues to fund erosion and 
        flooding projects in Alaska; and
  --Expand the role of the Denali Commission to include managing a 
        flood and erosion assistance program.
    Remote Alaska villages face challenges found nowhere else in the 
United States. These obstacles range from harsh climates, ice-rich 
permafrost soils, limited infrastructure, high fuel and shipping 
prices, short construction seasons, and limited or no access to 
transportation networks. The proposed changes outlined above would give 
federal agencies more flexibility and would allow them to address 
Alaska's unique rural flooding and erosion challenges. I urge you to 
seriously consider these changes and help Alaska begin to tackle 
erosion and flooding.
    Thank you for your time.

    Chairman Stevens. Good morning, Mayor. It's nice to see 
you. Appreciate you coming down to be with us from Barrow. Can 
we have your testimony?

STATEMENT OF GEORGE AHMAOGAK, SR., MAYOR, NORTH SLOPE 
            BOROUGH, BARROW, ALASKA
    Mr. Ahmaogak. My name is Mayor George Ahmaogak. I'm now 
serving my fifth term in office. Each term is 3 years. You can 
see I've went through a lot of storm-related situations in my 
time.
    I represent the North Slope Borough. The North Slope 
Borough is the regional government for northern Alaska charged 
with responding to storm-related emergencies and planning for 
erosion control. Five of our villages are coastal and have 
significant erosion problems. Sandy soils, low elevation, and 
permafrost make erosion a fact of life in Arctic Alaska. Unlike 
most soils, exposed permafrost warms and melts then slumps and 
washes away. Instead of helping to rebuild beaches, erosion 
material on our shores just disappears.
    A strong warming trend has led to multiple shrinking of the 
Arctic Ocean ice and has made our subsistence way more 
difficult from my personal observation. Gravel was scraped from 
Barrow's beaches in 1940 for the construction of the Naval 
Arctic Research Lab. The same approach was used for the 
construction of the State of Alaska airport runway for the Will 
Rogers Airport in Barrow. This loss of beach material 
accelerated erosion along the shore.
    Storms have the greatest impact on erosion in our coastal 
villages. Storms in 1954, 1963, and 1986 caused extensive 
flooding and carried away large chunks of our coastline. The 
1986 storm resulted in the State of Alaska disaster declaration 
for all of our coastal communities. Federal and State private 
studies of coastal erosion in our region have documented the 
problems for 50 years or more. Estimates of the annual loss of 
soils from coastal areas suggest that we're losing an average 
of about 4 feet of coastline per year.
    The airport runways at the coastal villages of Kaktovik 
near the Canadian border and Point Hope to the west of Barrow 
flood each and every year cutting these communities off from 
any transportation link to the outside world.
    Our whaling culture is tied to the sea and our coastal 
villages are in traditional locations for access to subsistence 
activities. Erosion is a constant challenge for us. We welcome 
your interest in this problem, and we look forward to Federal 
participation in finding solutions. I also want to mention the 
fact that the North Slope Borough as part of the solution has 
supported the effort in creating the Barrow Global Climate 
Change Research Facility. I'm sure you've seen my letters time 
and time over, the letter-writing campaign, supporting the need 
for this research facility to start now getting the baseline 
data of the climate changes taking place. We still 
wholeheartedly support that. My understanding is now that we're 
in a planning stage of this facility.
    We are in extreme need of getting that baseline data to 
find out what exactly in scientific terms is going on with the 
global changes that are taking place. If I had a message to you 
this morning, I would accelerate my interest in that facility 
and you make it a reality. I think science is one method and 
baseline data is what we need to find out what the problem is. 
Barrow is going to be the host of this research facility. So we 
need your support in that effort to make this a reality.
    I had a question on the Corps of Engineers--in our 
experience with the Corps of Engineers. As you know, we have 
other coastal villages that are subject to the flooding. Barrow 
is one of the worst ones. We have a memorandum of understanding 
with the Corps of Engineers to deal with our erosion problem 
and that other local government at this stage will pay 50 
percent of the local costs--of the overall costs in restoration 
and engineering and construction mitigation of any flooding to 
take place.
    Unfortunately, ironically, the other villages that are 
subject to erosion as well, we can't convince the Corps of 
Engineers to meet their criteria to be able to be accepted just 
like Barrow is. Our municipality is very interested in trying 
to do that. We have been trying to overcome that problem of 
getting those other villages recognized by the Corps of 
Engineers so they can have a mitigation plan, a design plan and 
a construction plan for the coastal erosion that takes place.
    Barrow is the only one that we've worked so hard to be able 
to make it a reality. So we have a memorandum of understanding 
with the Corps of Engineers just for Barrow. The other three 
outlying villages need the Army Corps of Engineers. If there 
are any solutions to be had, I would suggest that any 
assistance you can offer to try to convince the Corps of 
Engineers to include those three other villages. We're willing 
and able to try and work with them. It's like working with a 
brick wall and the bureaucratic process you have to do to 
qualify some of these villages is astronomical.
    I just wanted to mention that we do have an MOA just for 
Barrow and we're willing to pay capital costs. We're fortunate 
enough to have the resources in local funds to be able to pay 
the 50 percent share of the capital costs. I feel also--what 
about the other rural Alaskans, which they don't have financial 
resources to even come up with their 50 percent share of the 
costs. You know yourself that rural Alaska is in a real 
critical financial situation out there. They will never have 
the financial resources to be able to address those needs.
    I feel for those guys that are having the same problems we 
are but have no financial resources. I want to talk about 
disaster declarations at the local level when we do have storms 
that are like we had in 1986. We made emergency declarations at 
the local level. It's a tedious process. Once you make a 
declaration, then you have to get the State of Alaska to also 
agree with your declaration and the Federal level.
    The responsibility and burden of proof is laid on the local 
communities to make that disaster declaration and the damage 
assessments that need to be done so they can get it termed as a 
disaster. We're going through this tedious process of meeting 
those requirements. Fortunately, the borough has been able to 
do that. At times when we declared a disaster, we couldn't get 
the State of Alaska to agree with us. Now it's the local 
communities that bear the costs for these disasters.
    You can't convince the State, you can't convince the 
Federal agencies and FEMA. I think if there was suggestions and 
solutions to this all, there needs to be improvement on the 
declaration process and when these coastal villages declare 
declaration, they need help now. You have to understand, they 
have no telephone when they have a disaster, no communication.
    We're fortunate in the North Slope Borough to have the 
resources. When we declare a declaration, we can call out, then 
do the damage assessment with our staff and try to convince the 
State and then try to convince the Federal process and the FEMA 
process. That's an extreme awful difficult process. If there's 
any suggestions or solutions to be had, once a local community 
declares a declaration, they need help and that means 
improvement, at least for now when they declare disaster 
declaration.
    I thank you for the opportunity to testify here. I'll stay 
within my 8 minutes. Thank you.
    Chairman Stevens. Thank you, Mayor. Nice to have you here.
    [The statement follows:]

             Prepared Statement of George N. Ahmaogak, Sr.

    Thank you for this opportunity to share information and local 
perspectives on erosion in the northernmost coastal communities of 
Alaska. These problems have become severe in recent decades and give 
every indication of worsening in the future.

Background
    The North Slope Borough is the regional government for the entire 
area north of the Brooks Range. Our municipal powers make us the entity 
charged with responding to storm-related emergencies, addressing near-
term erosion issues, and planning a coordinated response to the long-
term effects of erosion in all of our communities.
    The North Slope Borough has several thousand miles of coastline 
within its borders and thousands of miles of rivers. Our people reside 
in eight villages, all of which have historic ties to our Inupiat 
Eskimo ancestors. Five of the eight communities--Kaktovik, Barrow, 
Wainwright, Point Lay and Point Hope--are located along the coast. Two 
others--Nuiqsut and Atqasuk--are situated on rivers and experience some 
of the same problems, though to a much lesser degree.
    Our prevailing sandy soils, low elevations and permafrost probably 
guarantee a certain amount of erosion as a fact of life on the Arctic 
coastal plain. Our average tidal change is only around a foot, but wave 
action during storms can create ocean surges of ten feet or more. Since 
much of the region is just a few feet above sea level, the effects of 
storms can be devastating. A 1963 storm, for example, flooded millions 
of acres along the coast.
    Our sandy soils and permafrost tend to aggravate storm-related 
erosion considerably. The sandy soils are easily eroded, and as their 
ice-rich underpinnings are exposed in shoreside bluffs, they simply 
melt and wash away instead of replenishing the beach as most soils do.
Human Factors in North Slope Erosion
    Human interventions in the past 50 years have aggravated the 
natural occurrence of erosion considerably. A strong warming trend in 
the Arctic has led to very noticeable declines in the extent of the 
Arctic ice pack. Our whaling communities comment on this frequently, as 
the retreating ice pack increases the open water area during whaling 
season and makes whaling more difficult. A greater expanse of open 
water also allows storms to generate more wave action, making them more 
damaging when they hit the shore.
    Construction activities have also accelerated erosion. When the 
Navy built the Naval Arctic Research Lab near Barrow during the 1940s, 
gravel was scraped off nearby beaches for use in roads and building 
pads. Similarly, gravel was mined from local beaches for the 
construction of Barrow's first airport runway. These changes to the 
natural slope of the waterfront noticeably increased erosion in 
subsequent years.

Storm Damage and Responses in Recent History
    Storms in 1954, 1963 and 1986 were the most significant erosion 
events in the past half-century. The September 1986 storm did 
significant damage to the North Slope. As a result, all the coastal 
communities of the North Slope Borough were declared disaster 
emergencies by the State of Alaska. This classification resulted in 
FEMA and the North Slope Borough developing a Hazard Mitigation Plan. 
This plan resulted in repairs to infrastructure in the communities, but 
no mitigation of future erosion was possible under the program.
    After a pair of storms in September of 1986, the North Slope 
Borough hired the firm of Tekmarine from California to inspect the 
storm damage and evaluate various protection measures. Tekmarine was a 
coastal engineering firm that had been providing erosion protection to 
the oil industry at Prudhoe Bay in support of offshore island 
construction. The report, completed in 1987, was titled Bluff and 
Shoreline Protection Study for Barrow, Alaska. It is relevant to both 
Barrow and Wainwright, due to the similarities of coastal conditions at 
both communities.
    Page 1 of the Tekmarine report includes a statement that reflected 
conditions at the time of the storm and has only grown more relevant as 
time has passed:

    ``The coastal erosion at Barrow has been recorded in scientific 
literature for at least the past 30 years, but the erosion has become a 
serious problem recently as it began to threaten the local community. 
In particular, the receding bluff-line has encroached upon the housing 
and the streets of Barrow, and it is feared that the spit separating 
the sewage and fresh-water lagoons may be breached if the shoreline 
erosion is allowed to continue.''

    Page 9 of the Tekmarine report reviews some of the documented 
history of North Slope coastal erosion. While the comments are specific 
to Barrow, these or similar events have occurred at all the coastal 
communities within the North Slope Borough over the last 60 years:

    ``The most devastating single episode of bluff erosion in this 
region occurred during the storm of October 3, 1963, described as `the 
worst storm in the memory of the Eskimo people' (Hume and Schalk, 
1967). The water was open at the time and a storm tide estimated to be 
about 12 feet developed. The entire Barrow spit was under water and 
more sediment was moved `in a few hours than would normally be 
transported in 10 years' (Hume and Schalk, 1967). Just how much of the 
bluff retreated as a result of that storm is unknown, although it may 
well have been as much as one polygon width, according to Max Brewer, 
who was Director of the Naval Arctic Research Laboratory at the time 
(Walker, 1985). The debris line investigated by Hume and Schalk (1967) 
clearly demonstrates that during the 1963 storm, the sea overtopped the 
spit to inundate both the fresh-water and sewage lagoons.
    ``Prior to 1963, a fall storm in 1954 (Schalk, 1957) was the worst 
ever, in which a surge elevation of 9 to 10 feet is reported to have 
occurred. A storm accompanying a storm surge of 4 to 6 feet occurred in 
September 1986, causing considerable damage to the bluffs at Barrow and 
Wainwright (Interagency Hazard Mitigation Team, 1986).''

    This historical information is important to the people of the North 
Slope because it shows just how severe storm and coastal erosion damage 
has been and can be. If the events of the 1986 storm resulted in a 
disaster declaration for all of the coastal communities within the 
borough, it is not hard to image what would result with a re-occurrence 
of either the 1954 or 1963 storm events.
    Over the past 30 years, the Anchorage engineering firm of LCMF, LLC 
has participated in a number of erosion and mitigation studies for the 
North Slope Borough. The following excerpt from one of their reports 
provides detail on the extent and nature of storm-related erosion in 
the Arctic:

    ``The rate of [beach] erosion at Barrow has been estimated by 
various studies as anywhere from 0.2 feet to 6 feet per year. After 
evaluating the results of several studies on the local erosion rate, 
the Tekmariner report (1987) settled on a rate of 4 feet per year.
    ``Storms are the critical factor in both bluff erosion and retreat 
of the shoreline. Along the coast, undercutting is caused by the action 
of waves, mainly during storm surges. According to MacCarthy (1953), 
the undercutting is followed by slumping and landsliding down the face 
of the bluff. When ice wedges surrounding tundra polygons are present 
within the solids of a bluff, the fracturing of the wedges causes large 
parts of the polygons to fall from the bluff as a unit. Ice and water 
within the permafrost melt and wet the soil, acting to loosen the 
slumping materials when thawed, so that they are quickly mixed into the 
sea and beach.'' (LCMF--May 1991, page 4)

    The 1986 storm submerged Kaktovik's airport runway on Barter Island 
in the eastern reaches of the North Slope Borough. The runway continues 
to flood on an annual basis, as outlined in the recent GAO report, 
Flooding and Erosion in Alaska Native Villages. While the community is 
buffered from coastal erosion by the runway, the permafrost bluffs 
adjacent to the lagoon and community do not escape erosion problems. In 
the early 1980s, a seawall had to be built in conjunction with roadways 
along the lagoon to prevent continued erosion from encroaching into the 
right-of-way and causing the new roadway to fail.
    Another effect of erosion occurred at the DEW line (Distant Early 
Warning) station at Barter Island, which is no longer in operation. As 
part of its decommissioning, the DEW line landfill was closed by 
encapsulation (covered with dirt). Unfortunately this landfill is 
adjacent to the coast, and by the year 2000, erosion had caused the 
encapsulation to fail.
    Erosion is a constant enemy across the North Slope. Materials for 
use in mitigation measures are scarce and very expensive. Consequently, 
most responses in the past have been sporadic and have met with limited 
success. However, two villages have been completely relocated due to 
erosion. Point Hope was moved in the early 1970s, but significant loss 
of cultural artifacts has continued in the area of the old townsite. 
Point Hope is notable as the oldest continually inhabited settlement in 
North America. In its current location, access to higher ground is 
severely limited. There is one roadway leading from Point Hope towards 
higher ground, but a portion of it descends to the northerly edge of 
the spit along Marrayatt Inlet where it is also submerged and dangerous 
during flooding. The village's runway continues to flood in the fall 
every year, as mentioned in the GAO report cited above.
    The community of Point Lay was relocated from the coastal barrier 
islands to land at the mouth of the Kokolik River in the late 1970s. 
However, this move was not sufficient to escape flooding in the area. 
Five years later, the community was moved again to its current location 
on high ground behind the barrier islands. Even so, coastal erosion 
continues to impact access to the community by sea lifts, and community 
infrastructure--such as the sewage discharge line--is losing stability 
at its discharge point due to erosion in that area.

Conclusion
    Low elevations, permafrost and the loss of protection from 
shrinking sea ice expanses makes erosion a constant challenge and an 
occasional disaster for the people of the North Slope. The range of 
mitigation responses is limited and expensive, but our Inupiat whaling 
culture is inextricably bound to the sea and our communities are 
destined to remain near the water's edge. Our best hope is for a 
coordinated effort among agencies at all levels, using the best 
engineering experience and technology, and based on careful planning 
and respect for the needs of local communities. We appreciate your 
concern and we look forward to federal participation in this urgent 
problem.

    Chairman Stevens. Ms. Bullard.

STATEMENT OF LORETTA BULLARD, PRESIDENT, KAWERAK, INC.
    Ms. Bullard. Thank you. Good morning, Senators. Thank you 
for the opportunity to testify and welcome to Alaska. My name 
is Loretta Bullard and I'm the president of Kawerak, which is a 
Native nonprofit corporation and consortium of 20 federally-
recognized tribes in Northwest Alaska. We contract with the 
Federal and State governments to provide diverse services 
throughout the Bering Straits Region.
    I want to state that Kawerak is one of the few 
organizations in the Nation that has contracted with the Bureau 
of Indian Affairs (BIA) roads program and using some of our BIA 
roads money we have been able to provide assistance to 
Shishmaref, which is one of our northern communities that has 
severe erosion problems. We are able to use our BIA roads 
program dollars to match our Federal money. So while we didn't 
use it on a match basis for the situation in Shishmaref, we did 
have some discussions with the Corps early on to possibly use 
our BIA roads dollars to provide that match.
    This is in response to the question by Senator Murkowski 
earlier about the Corps. We had discussions with the Corps 
about using our roads dollars to match their dollars to go 
through the planning and feasibility process so Shishmaref will 
be able to have protections in place in their community. We 
subsequently decided not to because we spent all of our 
matching dollars to go through the planning and feasibility 
process. There are photos in this display here showing that we 
had taken our BIA dollars and constructed a 450-foot seawall 
protection for the town.
    We concluded that Shishmaref didn't have the time to go 
through a 3 or 5, 6-year feasibility process only to find that 
they had a 50 percent match which they couldn't afford versus 
if we took our limited money we were able to construct a 
seawall to help protect that community. So that's what we did.
    We have had discussions with the Corps of Engineers that 
they have been redirected to look at their cost-benefit 
analysis that they did a number of years ago. They did a cost-
benefit analysis to determine whether Diomede could have a 
docking facility. From the initial analysis the conclusion was 
the benefit was not there, therefore, they could not have their 
needs addressed. We also included photos of Diomede to show 
their access problems.
    While they're not extremely subject to erosion, they do get 
major storms out there and do have flooding. They're not able 
to access assistance through the Corps of Engineers because of 
the cost-benefit analysis. Diomede is a small community, 150, 
160 people, 45 percent children. They simply don't have the 
match available to construct a small harbor facility. Because 
they don't have a docking facility out there, the only thing 
they have is a fuel barge.
    Major freight just doesn't get out there unless you put it 
on a plane which lands on the sea ice which is there from 
January through maybe mid-May. There was a time people 
freighted their items on very small boats, 20, 25-foot boats 
max. The size is limited. But they're another example of a 
community that is not able to meet the Corps' match 
requirement, and the Corps has been talking with them about 
using the BIA roads dollars. Kawarek is contracting for the 
entire region and to match to the Corps' dollars, which, you 
know, we could explore doing that, but I would hate to get in 
the position of having extremely limited roads dollars that 
everyone is hoping to match State funds to get projects in 
other villages.
    We were able to do the project in Shishmaref, but I would 
hate to see us spend every single dollar to match the Corps' 
dollars. We concur with many of the recommendations in the 
report. I just want to suggest that when you do--we encourage 
that a work group be appointed. When Secretary Thompson went to 
Shishmaref, the first thing he said was, who's in charge? There 
was nobody in charge in terms of a Federal agency.
    I kind of think the position the rural villages are faced 
with is a huge bureaucracy. To do the applications, manage the 
money, folks really need help, and many of our smaller 
communities don't have that ability to manage the large 
engineering projects. Just coordinating people, I think, is a 
huge amount of work.
    We also suggest that, you know, the Corps be the lead and 
that a work group be established of Federal and State agencies 
and rural Alaskans be appointed to serve on that. It also helps 
to educate those of us in rural Alaska that have to work these 
systems in order to gain assistance. So I would encourage that 
to be done.
    In closing, we encourage funds to be made available, 
appropriated on a basis to help us address these issues. Thank 
you for the opportunity to testify.
    Chairman Stevens. Thank you very much, Loretta. I have read 
your statement and we do thank you for the recommendations 
you've made and we'll try to follow up. I will have some 
conversation later.
    [The statement follows:]

                 Prepared Statement of Loretta Bullard

    Thank you Senator Stevens and members of the committee for the 
opportunity to testify today. My name is Loretta Bullard. I am 
President of Kawerak, Inc. Kawerak is a regional Native non-profit 
corporation and consortium of 20 federally recognized tribes in 
northwest Alaska. We contract with the federal and state governments to 
provide diverse services throughout the Bering Straits region.
    Thank you for giving us this opportunity to present our needs and 
recommendations. We are pleased that Congress is exploring erosion and 
flooding concerns in Alaska.
    To start, I would like to thank Senator Stevens and this Committee 
for directing the GAO to compile their recent report on erosion and 
flooding issues in village Alaska. The GAO report explored in detail 
the needs of several of our communities (Shishmaref and Unalakleet) and 
did a good job in laying out the issues. I find myself supporting just 
about every single recommendation in the report. Alaska has over 6,600 
miles of coast line. I've attached a map to my testimony that reflects 
the sheer size of the State of Alaska in relation to the lower 48. 
While our population is small and our communities remote, just about 
every single village in the state is located on the ocean or along a 
major river where erosion and flooding problems are more likely to 
occur.
    Kawerak is one of the few tribal organizations nationally--and the 
only tribal consortium--which has contracted to perform the entire 
Bureau of Indian Affairs ``Indian Reservation Roads'' (IRR) program 
under the Indian Self-Determination and Education Assistance Act. IRR 
funding, when it is available, is an ideal funding source for village 
Alaska because under federal law, it can be used for a local match to 
leverage other funding sources, including federal funds. Over the past 
year and a half, the Corps of Engineers has explored meeting some of 
our villages need for assistance, with the idea that Kawerak would 
provide the local match.
    Because we are compacting to provide the IRR program in the Bering 
Straits Region, we were able to make resources available to Shishmaref 
to construct a small sea wall to protect a portion of their roads and 
community infrastructure until such time as they relocate--and to fund 
a position at Shishmaref to serve as staff support to the Shishmaref 
Erosion and Relocation Coalition to aid them in their relocation 
planning.
    I know what we've been able to do to assist our villages utilizing 
our BIA IRR resources--but question what federal agency is taking the 
lead in providing assistance to other villages in desperate need of 
assistance? Based on our experience, I'd have to conclude there is no 
one agency in the lead. Secretary Thompson cut to the chase last summer 
during his trip to Shishmaref when he inquired which federal agency was 
in charge of helping Shishmaref?--and there was not a definitive 
response. The villages are basically placed in the position of trying 
to identify and set in place a patchwork of assistance. In my mind--
it's probably akin to herding cats and not a very effective way of 
getting things done.
    We concur with the recommendation contained in the GAO report that 
a federal agency should be appointed to lead a work group consisting of 
the various federal and state agencies to work on erosion and flooding 
issues in rural Alaska.
    We recommend that the responsibility be delegated to a work group 
led by the Corps of Engineers, rather then the Denali Commission. It 
could perhaps be a work group within the Denali Commission itself. The 
Corps has the in-house expertise to handle the issues. It would also 
serve to insure decision making is not driven by politics. We recommend 
that rural Alaskans be appointed to serve on the work group so that we 
are able to channel our issues, concerns, and recommendations and have 
them fully considered in the decision making processes. This process 
could also serve to help educate rural Alaskans as to potential sources 
of assistance and how to access them.
    The Denali Commission's latest draft of their Investment policy 
states that the Commission will only consider proposals to create new 
communities if Congress directs the relocation of an existing 
community. I interpret this language to say the Denali Commission does 
not want to be the lead in this arena. Rather, they have elected to 
defer to Congress to make the decision as to whether a community should 
receive assistance to relocate. If this is going to be the process, a 
process needs to be set in place to allow for this.
    Once the work group is appointed, we recommend that their first 
order of business be to gather data so that those communities in 
greatest need of assistance, receive the help they need.
    In reviewing the list of communities identified in the region as 
being impacted by erosion and flooding, I think the list could be 
substantially reduced. The sheer number of villages identified as 
possibly in need of aid serves to discourage agencies and appropriators 
from making resources available to address needs. It's pretty 
overwhelming. Where does one start? I encourage the task force to 
solicit regional and local involvement in the prioritization of 
support. If you were to ask, for example, our Kawerak Board of 
Directors to identify what villages in the region had significant 
erosion and flooding problems that were in immediate need of 
assistance, the answer would not be the list contained in the report.
    We recommend that the work group be tasked with developing 
recommendations for consideration by Congress and the State of Alaska--
to streamline the planning, application, award and management of funds 
and technical assistance to provide coordinated, collaborative, non-
duplicative and timely support.
    Federal and State agencies all have different planning, 
applications, grant accounting, management, match requirements, fiscal 
and programmatic reporting requirements associated with their 
assistance. I'm surprised that anything gets done in rural Alaska given 
the complexity of the various statutes, regulations, and applications 
that small rural communities must successfully navigate and contend 
with in order to access assistance from the federal and state 
governments. There is a certain population threshold at which 
municipalities and boroughs can manage and inter-act effectively with 
the federal and state governments on complex engineering projects. Many 
villages in Alaska do not meet those thresholds and require assistance 
even to know what assistance is available and how to go about accessing 
it. I stress assistance in a timely fashion. I understand the Corp 
informed Shishmaref in 1953 that it would be cheaper for them to 
relocate than to construct a seawall. Well, here we are 51 years 
later--and they haven't moved yet! Timeliness is of concern given 
agencies reluctance to invest resources in communities that may move at 
some remote point in the future.
    In reviewing the Table 4 in the GAO report, the List of Federal 
Programs That Can Address Problems Caused by Flooding and Erosion, I 
was surprised to see that GAO included the BIA Roads Maintenance and 
Housing Improvement Programs as possible sources of funds to address 
erosion and flooding issues. The Alaska Regional Office budget for the 
BIA Roads Maintenance program for the entire state is $300,000. The 
entire Alaska Regional Office budget to construct or repair homes is 
only $4.1 million. Our region's share of those funds for fiscal year 
2004, is only $350,000. With this funding, we are able to construct 3 
homes.
    We encourage the Corp of Engineers to amend their cost/benefit 
analysis process to provide consideration for the protection of and 
value of subsistence resources available at that location.
    Some of our village sites have been continuously occupied for 4,000 
to 6,000 years. The reason we have occupied these sites is that the 
sites themselves are very rich in natural resources upon which we 
depend. A good example is Little Diomede.
    The village of Little Diomede is located on a very small, steep 
island about 40 miles off the tip of the Seward Peninsula between 
Alaska and Russia. They have a population of about 150 people. Little 
Diomede is situated there because of the proximity to subsistence 
resources. There are huge migrations of whales and walrus through the 
Bering Straits spring and fall. Residents are able to fish and hunt for 
seals year around and crab are readily available. Hundreds of thousands 
of seabirds nest on the island each spring--eggs and birds are taken 
for subsistence purposes. Edible plants grow on the island and are 
harvested by villagers. While Diomede is a wonderful location to access 
subsistence foods, it's extremely difficult to safely transport people 
and goods to and from the community.
    Little Diomede does not have an airport, they have a heliport. The 
U.S. Postal Service contracts with Evergreen to deliver mail and small 
freight, once a week via a helicopter during the ice free months. Mail 
has priority on the helicopter, passengers are a secondary concern. 
Individuals trying to get to Diomede can sit in Wales for weeks, trying 
to get home with limited space available on the helicopter, weather--
and the once a year mechanical inspection of the helicopter. When the 
sea ice freezes thick enough and doesn't float away with the current, 
(January-February?) residents of Diomede construct an ice runway on the 
sea ice. At that point, small computer airlines provide daily service 
until the runway floats away (which is usually late April-mid May). 
Diomede residents travel back and forth to the mainland during the ice 
free months via small 16-22 foot boats. Diomede does not have an 
erosion or flooding problem--they have what I consider to be an access 
problem.
    Because Diomede does not have a docking facility and freight barges 
have had to wait for calm weather to offload, barge companies are very 
reluctant to barge freight into Diomede. The only barge that now goes 
into Diomede on an annual basis is the Crowley fuel barge. I understand 
a private individual in Nome occasionally hauls freight to Diomede via 
a small landing craft. Last summer, Rural Cap chartered a fishing boat 
to bring housing renovation materials to the island. Other then that, 
Diomede residents either have to airlift freight in during the time 
they have an ice runway, fly it in via the helicopter if the item(s) 
will fit in a helicopter--or transport items to the island in their own 
personal boats. This can have fatal consequences--as happened in 1998 
when a heavily laden boat disappeared between Wales and Little Diomede. 
Two boats departed Wales, one boat made it--the other didn't. Six lives 
were lost.
    Little Diomede could benefit tremendously from a docking facility, 
but under earlier analysis by the Corps, they did not qualify under the 
cost benefit analysis. Even if they had, given that Diomede has a 
population of 150--of which 46 percent are children and a subsistence-
based economy, they would not be able to meet the Corps match 
requirements. Unfortunately, our small city governments have little tax 
base and do not receive municipal assistance from the State of Alaska. 
Our tribal governments do not have taxing authority. Capital 
improvements are dependent on outside funding. I understand, thanks to 
direction by Senator Stevens' office, that the Corps is re-evaluating 
the situation and that language has been incorporated into H.R. 2557 
that would address this specific situation. I encourage members of 
Congress to support this provision.
    I bring Diomede up because this to me is a situation where 
exceptions should be made. The Corps funding process needs to provide 
assistance in those situations where no other options are available. If 
Diomede had a docking facility, they could bring in freight and 
passengers at a substantially reduced cost during the ice free months.
    We encourage the Corp of Engineers to set up a process whereby 
communities can request that the match requirement be waived; to waive 
the local match requirement when the local government(s) are unable to 
contribute; and provide for an appeal mechanism so that the decision 
can be fully considered.
    And in closing, we encourage Congress to make funds available so 
that these very real needs can be addressed on a phased basis.
    Thank you for the opportunity to testify today.

    Chairman Stevens. Myron, good morning. Myron Naneng is 
president of the Association of Village Council Presidents. 
We're glad to have your testimony.

STATEMENT OF MYRON P. NANENG, SR., PRESIDENT, 
            ASSOCIATION OF VILLAGE COUNCIL PRESIDENTS
    Mr. Naneng. Good morning, Senator, and good morning to the 
distinguished guests who are here to talk about the flooding 
and erosion problems within our State. Thanks for coming and 
hello. If you were in a group, it would probably translate, 
what's up?
    I would like to thank you for giving me the opportunity to 
testify before you on some of the problems in the Yukon/
Kuskokwim Delta. My name is Myron Naneng. I'm the president of 
the Association of Village Council Presidents. I have a 
consortium of 56 villages on the Yukon/Kuskokwim Delta. There 
are many problems that are occurring in the villages regarding 
flooding and erosion.
    On an annual basis during springtime on the river system, 
the Kuskokwim and Yukon, we used to have floods there because 
of ice conditions. Because of the weather changes or climate 
changes, we haven't had one major flood within the Lower Yukon 
or Kuskokwim since about 1985, but we still do have floods that 
affect our villages. That does not stop the erosion that's 
still occurring in the villages.
    The village of Newtok is one prime example of a village 
that needs to relocate to another site because of erosion. 
Other villages are also looking at long-term impacts of 
erosion. In the village of Hooper Bay last week they had a 
meeting regarding the airport. They built that airport back in 
1968 when I was still running around not knowing what's on the 
horizon. The runway is now starting to get shorter. Every year 
they're doing mitigation of the runway. They're starting to 
discuss potential sites for a new location away from the beach.
    Chairman Stevens. What village?
    Mr. Naneng. The village of Hooper Bay. So the DOT and the 
community got together, and they've been in discussions with 
them since January about a potential new site, but they got 
together to get local comments with DOT about a potential site 
that would be away from the coast. They talked about potential 
mitigation, meaning what can we do to prevent further erosion 
of the runway. They went to a lot of effort to try and prevent 
that erosion from happening, but it is still occurring.
    Villages on the Yukon, especially those on the Lower Yukon 
at the mouth of the river, are more subject to erosion due to 
the soil conditions. The efforts made by some of the villages 
like Alakanak, Emmonak, Kotlik and Nunam Iqua regarding the 
erosion of the riverbanks. At Emmonak they put some rock piles 
on the riverbanks to prevent that. That's working, however, 
there's a site above the village that's slowly moving in to 
what was once the community dump site. So as they deal with 
what's in front of the village, they're also concerned about 
what's going on above the village. So that's one situation that 
has to be dealt with by the community and outside entities.
    And Kotlik and Nunam Iqua are in the same situation. One of 
the things that has happened with many of the villages on the 
Yukon and Kuskokwim is new construction of homes and 
infrastructure is being moved away from the riverbank, which 
has been the life-sustaining and subsistence activity, 
sustenance of our people. So they are moving away from the 
riverbanks.
    On the Kuskokwim erosion is pretty much evident throughout 
the river system due to the similar soil and river conditions 
that are occurring on the Yukon, just like on the Lower Yukon. 
I could say much about Bethel. You have the representative that 
will be discussing the Bethel issue. It's really no different 
that the rest of the small villages. The coastal villages on 
the Bering Sea between the mouth of the Yukon from Kotlik to 
Platinum are really no different as far as this erosion and 
flooding issue.
    I have stated what Hooper Bay is trying to do in terms of 
relocating their airport, but the other villages, as many as 10 
other villages are affected annually. The flooding occurs 
mostly during the fall time when the weather changes, but 
flooding causes erosion to occur similar to what you have heard 
of the effects on Shishmaref which is up north. So our villages 
are being impacted by that.
    And one of the recommendations that I have is I think we 
need to go to each of the villages to identify what problems 
they are having in terms of erosion. What problems with the 
long-term impact with the flooding that occurs annually. Each 
village will identify their own problems and how it affects 
them, because if we go from one village which may be 10 miles 
away, they say the problem we have is different than the next 
village.
    So, with that, I think one of the things that you've heard 
regarding some of the issues that they have identified, you 
know, a potential site, but there's more to do in terms of 
trying to stop or prevent the erosion from occurring. And I 
think that would require working together, being able to 
relocate to a site that's more suitable and will not affect 
them for long term.
    So we need to involve the villages, those that are going to 
be directly impacted at the village level, in planning and 
implementation of how to address some of the issues that they 
have regarding flooding and erosion. You know, if we have a 
great big plan of someone coming in from the outside to say 
that this is the way the erosion is going to be addressed and 
this led to further damage, they may not identify some of the 
things that the people in the villages have seen and not 
included in the plans of how to address them.
    So I'd like to thank you for the opportunity to write some 
information regarding the issues that we have with flooding and 
erosion. I will state that I'm not an engineer, but I think 
that the people that live in the villages have a better idea of 
how to address some of these concerns and might also be able to 
address some of the identifiable problems they have observed 
for many years.
    Thank you very much.
    [The statement follows:]

               Prepared Statement of Myron P. Naneng, Sr.

    My name is Myron P. Naneng, Sr., President of the Association of 
Village Council Presidents. The Association of Village Council 
Presidents is a tribal consortium that represents 56 villages on the 
Yukon/Kuskokwim Delta in Western Alaska.
    First, I would like to thank you for this opportunity to make a 
presentation regarding the problems of the floods and erosion that is 
effecting our numerous villages on the Yukon/Kuskokwim Delta.
    Floods occur on an annual basis and this is primarily caused by 
snow and ice conditions in the river systems, while on the coast, it is 
caused by weather. The floods occur on the coast during the fall season 
before winter sets in to freeze the lakes and sea on the coast.
    However, erosion is more of a problem that faces many of the 
villages within the region, both on the coast and river systems. The 
village of Newtok is the prime example of a village within our region 
that needs to relocate to a new site. The location has been arranged by 
all stakeholders who have landholdings that would allow this now, 
however, the problem may be how to accomplish it.
    Other villages are now looking at longer term impacts of erosion on 
their infrastructure. Take for instance, the airport in Hooper Bay. 
Over the years, the airport has gotten shorter due to erosion at one 
end. Now, it may eventually all be at sea, due to the erosion that is 
occurring along the whole length of the runway. The village 
corporation, and the local community are having planning meetings with 
State of Alaska, Department of Public Facilities and Transportation to 
identify a new site for the airport that is far removed from the 
coastal erosion.
    Villages on the Yukon River, especially those near the mouth of the 
river are more subject to erosion than those further upriver. This is 
more due to the soil and tundra that the villages are located on. 
Villages of Alakanak, Emmonak, Kotlik and Nunam Iqua are slowly eroding 
on the riverbanks. At Emmonak, rocks have been placed on the riverbank 
to slow the erosion down and it is showing some success. However, a 
site above the village is eroding that may cause some concern for the 
village eventually. Alakanak is in a similar situation, with erosion 
eating away some land front along the river. Whatever can be used to 
slow the erosion has been placed on the riverbank. Nunam Iqua and 
Kotlik face the same problem of eroding riverbank.
    On the Kuskokwim River, the villages of Upper/Lower Kalskag's, 
Tuluksak, Akiak, Akiachak, Kwethluk, Bethel, Napaskiak, Oscarville, 
Napakiak, Tuntutuliak, Eek have erosion problems. Other villages that 
are in the tributaries are also affected by erosion. Bethel has been 
addressing the problem with a seawall that extends most of riverfront, 
and Kwethluk has placed sand bags in areas that are considered 
problematic.
    Coastal villages are not exempt from the problem as well. Quihagak, 
Kongiganak, Kwillingok are also having erosion issues. However, these 
villages are affected by floods in the fall that are similar to those 
that affect Shishmaref, but not to as great extend as that village.
    A survey of erosion problems should be done with each village. 
Understanding the seasonal impacts, such as the spring floods in the 
river systems, with ice has an impact on the riverbanks. Fall flooding 
and tidal impacts along the coast have more of an impact on coastal 
villages. However, each village has its own identifiable problem, that 
causes the erosion that is part of the eco-system and villages need to 
be participants in planning and addressing the erosion problem.
    Thank you for the opportunity to present information on the 
problems of erosion. Since I am not an engineer, I will not suggest how 
to deal with these erosion problems, but would highly recommend that 
who ever is going to be working on these that local input be garnered 
to the maximum extend possible. Have a great stay here in Alaska, and 
if you have come back for a short time, welcome back and if you're a 
first time visitor, welcome.

    Chairman Stevens. Thank you very much. If the Senators will 
look at the map that we have provided, the A, B, C, D areas are 
between the Yukon and Kuskokwim, the lower river is the 
Kuskokwim and the upper is the Yukon. It has 56 villages in 
that area. I think this is the area that probably has the worst 
flooding problem as compared to those that are on the shoreline 
that have the erosion problem, primarily from the sea, but the 
erosion is the same on the rivers even though there's no 
flooding, right?
    Mr. Naneng. Yes. One thing I would like to add is when you 
go to each and every village, like Russian Mission on the Yukon 
and Kuskokwim, you will see these measuring--what they call the 
measuring tape type things where they show 5 feet, 6 feet, all 
the way down to 4 feet. And it shows what they consider to be 
the flood levels and how high the water gets when it's 
threatening villages.
    Chairman Stevens. There's a photo right now up there on 
erosion. Because Senator Murkowski has to leave, let me yield 
to her first. Senator Murkowski.
    Senator Murkowski. Thank you, Senator Stevens. I appreciate 
that courtesy. As you well know, Myron, when I was out in the 
YK Delta last summer, I had an opportunity to look at the 
erosion in some of those river delta communities. We did see 
the measurements in every community. I don't think there was a 
single community that I visited of the 12 or 13 where we didn't 
see evidence of flooding. The high-level mark unofficially on 
some building or whether going down on the riverbank itself. So 
it was very apparent, very visible as we know.
    Just listening to the testimony of the four of you, there's 
a common theme here. Loretta, you mentioned just the 
bureaucracy that you have to deal with with the Corps and all 
the hoops and hurdles that need to be jumped, but I also heard 
a request, if you will, for an assessment of what we have out 
there. Representative Joule, I noticed in your testimony under 
your proposal for possible solutions, you suggested adopting of 
a statewide erosion plan, which includes an assessment of the 
villages.
    I would ask the panel, whether or not there is an informal 
assessment, whether with, Myron, in your area, is there a 
regional assessment of the status of erosion, or is there any 
coordinated effort at this point either at the local or State 
level that you are aware of? I throw that out to all four of 
you.
    Mr. Joule. Senator Murkowski, at the State level, as I 
stated, there's--basically we have to wait for a declaration of 
some sort. We're aware of areas that will have a problem, but 
generally because we don't have State policies in place, we're 
kind of hamstrung to do anything until the declaration has been 
declared of some sort. So we're pretty much in the reaction 
mode.
    I'll let the other panelists speak more to their own. I 
will state that sometimes opportunities present themselves and 
with the expertise and testimony that we've had and also in 
some of the work that we're currently doing with the current 
administration, we can take a lot of this information and begin 
the ground work so it can happen on a statewide level.
    Senator Murkowski. Anybody else want to add to that?
    Mr. Naneng. Senator Murkowski, there is no coordinated 
effort that I know of to identify the concerns regarding the 
flooding and erosion. Like Representative Joule says, the only 
time they start--have a major concern about it is when major 
flooding or erosion is taking away infrastructure in the 
community.
    Senator Murkowski. So there is no preemptive effort; it's 
all crisis management.
    Mr. Ahmaogak. I'll try to answer your question in terms of 
whether there has been an assessment. At the local level we do 
our own assessment in terms of erosion and mitigation plans 
that we know are the best of our level, but there is poor 
coordination at this time in terms of erosion practices and 
why, when, what parts of it. For our part from the North Slope, 
it's done entirely on our own. No coordination at the State, no 
coordination at the Federal level, just to answer your 
question.
    Studies have been conducted at our own level, but nobody at 
the State or Federal agencies coordinate or help us in our 
effort.
    Ms. Bullard. Just one comment. If you can move houses fast 
enough so they don't get damaged, therefore you don't have a 
disaster, therefore you don't get assistance. That's kind of 
what folks are faced with. You move stuff fast enough, you 
don't have a disaster.
    Senator Murkowski. Mayor, I wanted to follow up on your 
comments. First of all, as far as the Barrow research facility, 
I had an opportunity to talk with you folks up there about that 
and all the promises that that holds. So I'm looking forward to 
working with you to make that a reality. You mentioned the 
memorandum of understanding that Barrow has insofar as a 
mitigation plan, but that you're the only community up there in 
your area that has a mitigation plan.
    Other than the cost and meeting the 50-percent cost 
sharing, what are the other barriers to working out a 
mitigation plan that the other villages have up on the Slope 
there? Is it just the cost issue, or are there any other 
factors involved?
    Mr. Ahmaogak. I don't think it's purely on a cost issue 
alone. I think it goes a lot more than that. Qualifications to 
meet their stringent requirements to be able to qualify as a 
village, to be able to partner with the Army Corps of Engineers 
is really strict and difficult to try to achieve and convince 
them.
    We've attempted numerous times to try to enable some of our 
villages to be at it. We've never been able to do so. It's not 
just cost. Their requirements are placing them as part of the 
mitigation plan and to pay 50 percent, all of those sort of 
requirements are very difficult. We've done it only for Barrow.
    Senator Murkowski. Why was Barrow able to be more 
successful with it than, say, any of the other villages?
    Mr. Ahmaogak. We took it one step further and allowed for 
some technical research, scientific advice, and those 
requirements to meet a lot of the strict requirements. I can't 
per se right now pinpoint what those difficulties are, but we 
couldn't convince the Corps to accept the other two villages, 
to be under the Corps of Engineers.
    I think the qualifications in place up there to be included 
as a mitigation plan, their requirements are very strict and 
difficult at best to achieve. We're willing to work with the 
villages by all means to help them out, but it's the Corps of 
Engineers that keeps saying no, no, no.
    Senator Murkowski. Ms. Bullard, you had mentioned using the 
BIA roads money in an attempt to use this as the match, and I 
appreciate the dilemma that that puts you in, and a decision as 
to whether or not to utilize all those monies for something 
like feasibility and then realize you have nothing available to 
do the preventive maintenance work to be done right now in 
order to stop it, whether it's putting rocks out on the banks 
or what have you.
    What else can we do? I'm concerned because the problems 
that we're talking about here--it's not as if you've got a 
different situation in different regions of the State. Sounds 
like it's pretty much uniform across the board. We don't have 
the ability to meet the match. We're dealing with a Corps that 
is certainly well intentioned, but you've got a bureaucratic 
process that is difficult to negotiate at best.
    You have suggested that you think that through this working 
group you can make some headway, but really where do we go? If 
we don't have the money and we're dealing with a level of 
bureaucracy that can't be penetrated, what do we do?
    Ms. Bullard. My suggestion is that a process be set in 
place whereby the matching requirement can be waived and that, 
you know, these communities need to be helped and they don't 
have the money, many of them don't have the money.
    Senator Murkowski. But it sounds like it's more than just 
the money. As the mayor has indicated, the cost share is a big 
factor, but perhaps not the only factor. How do we get beyond 
the dollar problem that we have, but also in working things out 
with the Corps so we can make some progress?
    Ms. Bullard. I think that, again, perhaps this work group 
could develop recommendations and consideration by Congress in 
terms of streamlining the process, streamlining the application 
process, the money management process, so that you can put 
those resources together. For example, right now you've got 
this agency doing this little piece maybe, if we can get them 
to do it, and someone over here doing something entirely 
different. They all have different qualifications in terms of 
their sharing funds.
    I'm surprised anything gets done in the bush because it's 
all so complicated. Trying to drive these processes from a 
community of 200, 300, 400 people. It's very difficult.
    Mr. Ahmaogak. If I could interject to your question. In 
light of--I realize there's a lot of funding needed here to do 
a lot of mitigation. We sense that all across Alaska--
relocations for the storm surges. But I think the villages and 
the regions outside of rural Alaska are in dire need, and like 
I stated, my suggestion is that we need help when we declare an 
emergency. That's the first and foremost thing, that when we 
need help, we need help.
    That would be a big plus on our part in the event we don't 
get mitigation funds. We're still vulnerable to coastal 
erosions and disaster preparations and all what have you. But 
science, I believe, is one effort that, like what we suggested 
before with global climate change and the reason why we wanted 
to do it is to get the baseline data on what is really 
happening out there.
    The first and foremost thing is if science can be had, then 
perhaps maybe as a tool that we can find out what is the best 
cost benefit that we can do to reduce the cost to do the 
mitigation plan. We don't have that technical expertise per se. 
It will certainly help us out if we have the best coastal 
erosion people in the world to help us and say, hey, we can 
help you design something that would be cost effective and 
economical.
    We don't have any of those resources. I would highly 
suggest that something like this be looked at from our 
standpoint. It would be cheaper for the Federal Government and 
at the State and local level. We don't have expertise like that 
at the State; we need that. That's only a small part of what 
needs to be done before mitigation plans.
    Senator Murkowski. Mr. Chairman, I regret it, but I am 
going to have to excuse myself. Thank you for bringing this 
very important hearing and inviting so many qualified speakers.
    Chairman Stevens. Thank you very much, Senator.
    Senator Burns.
    Senator Burns. Thank you, Mr. Chairman. I've been just 
sitting here and listening to the conversation and the 
challenges you have in your villages, especially along the 
Yukon River. It's been our experience in Montana, these darn 
rivers go where they want to go, and no matter what the 
conditions are around them, we're going to have times of 
flooding and times of low water and these kind of things. But I 
was interested in Ms. Bullard's comments that sometimes when 
you try to coordinate an area as large as you have to deal with 
here and as many challenges as you have, it's kind of like 
herding calves on horseback.
    You would operate really well in Washington, DC, which I 
still maintain is 17 square miles of logic-free environment. 
Whenever you've got to coordinate, especially between 
bureaucracies; you've got the BIA, you've got the Department of 
the Interior, you've got the Corps of Engineers, and then 
you've got your State people who have specific ideas on how 
we're either going to try to control erosion here or relocate 
or whatever for what's happening.
    I happen to believe that we've got a situation that is both 
environmental and cyclical at the same time. Those are very 
serious challenges. The chairman of the Appropriations 
Committee sitting over here on the right has made a comment 
that sometimes these agencies are bound by law on what they can 
do, so we're going to have to do something in Congress to 
change some of the ways we react to your part of the world and 
Mr. Naneng's part of the world because there's different 
circumstances.
    Then Mr. Joule has got to coordinate the whole thing. So 
it's very interesting, very interesting dialog here, and I 
don't have a specific question. These hearings are very, very 
good for me because it's hard for us to fathom the challenges 
you have coming from the Lower 48. Because you have--it's a 
different world. I realize that. I've been here many times. 
I've always understood it. We'll have to deal with it.
    Sometimes Congress only deals with disasters and 
catastrophes. That's what changes quicker and sometimes in the 
wrong direction than any other time. We react to different 
losses at different times. Thank you for your testimony this 
morning. I appreciate that very much. Thanks for being candid 
with us. You've been very candid and very realistic about the 
challenges that you have. Thank you.
    Chairman Stevens. Senator Sununu.
    Senator Sununu. Are there any examples of emergency 
response or mitigation in the villages with which you work that 
have been successful? Where the emergency response was well 
coordinated, organization was effective, or specific mitigation 
projects that have been built or constructed either with a 
State, Federal or local initiative that's been successful that 
we should look at as a model of what might be achieved? Mr. 
Mayor.
    Mr. Ahmaogak. Thank you. Good question. We do have--we 
wrote up our own emergency disaster standard operating 
procedures at the local level including the input of all the 
villages, so it's well coordinated just for our region, that we 
have laid out numerous procedures that are there in case we 
have to declare a disaster and all resources are certainly 
there at the local level. But then outside of that, we have 
nothing.
    And I think the State and local agencies need to work 
closely with these localities that have written these plans and 
to fit in and coordinate much more so and not have even copies 
of them if they can. We do have some small minor grant funds 
that we have to apply for that are highly competitive in 
writing these things. It's really a competitive grant, and 
that's the process we had to go through to write our own 
disaster coordination plan and standard operating procedures.
    I think it should be suggested that this be much more 
freely resources available so that all the regions and all the 
villages not compete for this. It doesn't make any sense. Make 
funds available to write their plans. At the local level, once 
they have their plans at the State and Federal levels, disaster 
plans, in terms of mitigation that you should use as a model, 
that's a very difficult question. Financial resources are very 
limited. You've heard it all across here that we don't have the 
resources with the budget cuts and the economy going down, I 
mean, that's very difficult.
    We would like to have the resources and make a lot of 
suggestions at the local level and to the State agencies and 
Federal agencies and try to set that model, but it's not all 
coming together well. We're entirely on our own, so to speak, 
out there when we have situations like that. But we're willing 
to attempt to do that from the North Slope, to build a model 
that's something that can really work. That's how I would 
answer your question.
    In terms of mitigation, Army Corps is just one example 
where attempts to see how that's going to play out with 
planning and design and matching capital grants and the 
engineering that's going to happen and the resources that's 
going to be made available, like gravel to do the mitigation. 
I'm trying to see if that's going to be a worthwhile model. It 
takes, I think ironically, a 6-year period working with Army 
Corps of Engineers from the planning stages to engineering to 
construction. By that time, you have 6 years of storms. So I 
can't answer that question. This is the first model we have 
attempted at the local level.
    Senator Sununu. That's in Barrow?
    Mr. Ahmaogak. That's in Barrow, that's right.
    Senator Sununu. Mr. Naneng.
    Mr. Naneng. It takes a Governor or someone higher up to 
declare a disaster before anything happens, before a disaster 
is responded to. For instance, out in Bethel, Governor Knowles' 
declaration of disaster took time to get money from Congress to 
address the seawall, the erosion of the seawall. That applies 
in the same way to each and every one of the villages.
    Senator Sununu. Thank you.
    Senator Burns. Could I ask the mayor a question? The storms 
that you have alluded to, were they summer storms?
    Mr. Ahmaogak. Pardon me?
    Senator Burns. The storms you've alluded to in the 
testimony you had, were these storms in the summer or winter?
    Mr. Ahmaogak. These storms are happening mostly in the fall 
time, like October.
    Chairman Stevens. Well, I hope you are all familiar with 
the study that the GAO made. We would like the GAO to review 
this. They've made some great suggestions, but there are some 
alternatives there. I would appreciate if you would give us 
your opinion concerning their suggestions. I do think, George, 
your concept of these baseline studies is really, really sound. 
We must do that. We must know what we're working against.
    The testimony we heard yesterday about the cyclones, the 
winter cyclones is rather startling. And if that's a true 
prediction, we're going to start getting more winter storms. 
That will be difficult to handle in your part of the State. 
There's no question about that. I would urge you to take a look 
at this. We've got extra copies back there. Give us ideas as to 
what options they suggest you feel are best. They have made 
their suggestions based upon past reactions in other parts of 
the country.
    I do think that Lisa's suggestion yesterday that we try to 
set up an authority to deal with the erosion/flooding control 
made some sense. Whether that should be a State authority or a 
Federal authority or something like a Federal/State authority 
needs to be examined. Again, we would like to have your 
suggestions on that too. We do thank you very much for coming 
and for your participation in this hearing.
    It is something we have to pay some attention to because 
every indication is, unfortunately, things are going to get 
worse in terms of this area of flooding and erosion.
    We will now take a 10-minute recess while we get ready for 
the next series of witnesses. Our next panel is Mayor Hugh 
Short, Ms. Vorderstrasse, Mr. Ivanoff and Mr. Rock.
    Thank you for coming very much. Good morning. Glad to see 
you. Call on the mayor of Bethel, Mr. Hugh Short, first. Let me 
again ask you to keep your statements to 8 minutes or less. Two 
other panels are left this morning. Mr. Short.
STATEMENT OF HUGH SHORT, MAYOR, BETHEL, ALASKA
    Mr. Short. Thank you, Senator Stevens, Senator Burns and 
Senator Sununu. It's a real honor to be sitting here to provide 
my testimony to you.
    First off, I would like to welcome you to Alaska and tell 
you a little bit about Bethel. The city of Bethel is located on 
the north shore of the largest oxbow along the Kuskokwim River. 
The lower Kuskokwim River is an active meandering river that 
travels through low-lying tundra regions to the Bering Sea. In 
a region without interconnecting roads, this river provides the 
principal transportation corridor for most heavy commodities 
including fuel.
    Because of the river's active meander and low-lying 
terrain, it is susceptible to both active erosion and flooding. 
The Kuskokwim River is the key to economic self-sufficiency in 
our region, and Bethel serves as the host that can promote 
economic self-determination.
    There's about 6,000 residents in the city of Bethel. We 
serve as the regional hub for about 25,000 residents in the YK 
Delta. If you look in the GAO report, there's 56 communities; 
49 of the 56 communities in our region are on that list of 
communities that are affected by flooding and erosion, so this 
issue is very close to the heart of many people in the region.
    The location and growth of the city of Bethel is 
attributable to its being the farthest upriver location that 
can accommodate large ocean-going vessels. This governed the 
location of the U.S. Army Air Corps airbase developed during 
World War II. The port and the airbase would provide the 
necessary beginning infrastructure for many other large Federal 
Government in the 1950s, such as the White Alice communications 
facility, the regional IHS hospital and a large Air Force 
facility that was later converted to the regional BIA 
headquarters.
    The community has always been challenged with active river 
erosion. In earlier periods, the 1960s through the 1970s, the 
community itself attempted to contain this erosion. I was born 
and raised in Bethel. I was born in 1973. My father is in the 
taxi cab business, and one of the first attempts growing up in 
the 1970s in Bethel was when a car was broken down, they would 
take it down to the bank and sit it on the beach there. I have 
pictures of hundreds of cars sitting on the beach of Bethel as 
an attempt of the community to try and deal with the erosion. 
In fact, there are postcards still floating around with that 
picture.
    However, it was soon learned that the resources needed to 
effectively manage this were far beyond the means of the 
community. As a result, vast amounts of river frontage real 
estate were lost to erosion. In 1968 Congress, by resolution, 
directed the Corps of Engineers to investigate this erosion 
problem. Unfortunately, Bethel found itself in a similar status 
as many of the smaller communities now being mentioned in the 
GAO December 2003 report--the cost of an effective erosion 
control project far exceeded the required cost/benefit ratio.
    It would be another decade, 1978, before Congress again 
directed the Corps, through a continuing resolution of its 
original 1968 resolution, to again investigate the erosion 
problem. Tragically, throughout the previous decade, a 
significant amount of irreplaceable land was lost. However, 
because significant large infrastructures were now being 
threatened, including the bulk fuel facility and the IHS 
hospital, the Corps determined that an effective erosion 
containment project would have a positive cost/benefit ratio.
    As a result of this, in the 1980s and 1990s, through both 
State and Federal funding, the 8,000 linear feet of erosion 
protection was put into place. Since this construction, no 
further uplands have been lost. Just a side note that's not 
included in here, the city of Bethel currently spends 
approximately $300,000 per year in maintenance of that seawall 
and erosion protection.
    As mentioned in the report, the city again is engaged 
through the Corps in rehabbing, extending and improving another 
1,200 feet of this wall system.
    We certainly support the recommendations being offered in 
the December 2003 GAO report. Particularly, the recommendation 
that social and environmental factors be considered in cost/
benefit analysis and the cost/benefit requirement relief 
proposed in H.R. 2557. If such had been available to the city 
during the 1960s and 1970s, literally hundreds of thousands of 
dollars of valuable land could have been saved, as well as 
homes.
    Additionally, we support the recommendation that the Denali 
Commission serve as the clearinghouse for future erosion and 
flooding support. The Denali Commission has set the bar for 
coordination and intervention of major projects in rural 
Alaska.
    In conclusion, it is also important to mention that a 
significant portion of the city's downtown is situated in a 
FEMA-determined special hazard flood area. The city has been in 
the National Flood Insurance Program since 1974. It 
historically maintains a rigorous management posture when it 
comes to development within this special flood hazard area. We 
believe the community's flood claim history over the past 
decades bears this out.
    A side note, Bethel has the resources, Bethel has the 
infrastructure and the population to support a relationship 
with the Corps of Engineers. We have the capabilities, we have 
staff within the city to do that. Unfortunately, many of the 
communities that Mr. Naneng spoke about earlier do not have 
those resources.
    The best example that I can see of a successful Denali 
Commission intervention probably has been health clinic 
construction in the State of Alaska. If you look at the amount 
of clinics constructed in the last 5 years through the Denali 
Commission and the coordination that the Denali Commission has 
provided, it has allowed smaller communities to be able to 
access that kind of scale. There's resources there, there's the 
staff at the Denali Commission, ANTHC is available.
    Thinking about Senator Murkowski's comments earlier, I 
believe that if an approach was taken with the erosion and 
flooding to allow the Denali Commission or another organization 
to be the clearinghouse to be able to provide that technical 
assistance to small villages and someone was on the other end 
of the line to answer that phone and help them, I believe that 
will go a long way, along with relationships with regional 
organizations.
    If you look at the most successful areas, regional 
organizations provide that infrastructure to be able to get the 
information and type of assistance out there.
    So, I thank you. I hope I haven't gone over the 8 minutes. 
I'd be willing to answer any questions later on.
    Chairman Stevens. Thank you very much, Mr. Short.
    [The statement follows:]

                    Prepared Statement of Hugh Short

    Dear Senator Stevens and members of the Committee on 
Appropriations, thank you for providing the City of Bethel and other 
rural communities affected by flooding and erosion the opportunity to 
testify about this extremely important issue.
    The City of Bethel is located on the north shore of the largest 
oxbow along the Kuskokwim River. The lower Kuskokwim River is an active 
meandering river that travels through low lying tundra regions to the 
Bering Sea. In a region without interconnecting roads this river 
provides the principal transportation corridor for most heavy 
commodities including fuel. Because of the rivers active meander and 
low lying terrain it is susceptible to both active erosion and 
flooding. The Kuskokwim River is the key to economic self-sufficiency 
in our region, and Bethel serves as the host that can promote economic 
self-determination.
    The location and growth of the City of Bethel is attributable to 
its being the farthest upriver location that can accommodate large 
ocean going vessels. This governed the location of the U.S. Army Air 
Corps airbase developed during WW II. The port and the airbase would 
provide the necessary beginning infrastructure for many other large 
federal government projects in the 1950's such as the White Alice 
communications facility (part of NORAD), the regional IHS hospital and 
a large Air Force facility that was later converted to the regional BIA 
headquarters.
    The community has always been challenged with active river erosion. 
In earlier periods (1960's through the 1970's) the community itself 
attempted to contain this erosion. However, it was soon learned that 
the resources needed to effectively manage this were far beyond the 
means of the community. As a result vast amounts of river frontage real 
estate were lost to erosion. In 1968 Congress, by resolution, directed 
the Corps of Engineers to investigate this erosion problem. 
Unfortunately Bethel found itself in a similar status as many of the 
smaller communities now being mentioned in the GAO December 2003 Alaska 
Native Villages report--the cost of an effective erosion control 
project far exceeded the required cost/benefit ratio.
    It would be another decade (1978) before Congress again directed 
the Corps, through a continuing resolution of its original 1968 
resolution, to again investigate the erosion problem. Tragically, 
throughout that previous decade, significant amounts of irreplaceable 
land was lost. However, because significant large infrastructures were 
now being threatened (bulk fuel facility and the IHS hospital compound) 
the Corps determined that an effective erosion containment project 
would have a positive cost/benefit ratio.
    As a result of this in the 1980's and 1990's, through both state 
and federal funding, the 8,000 linear feet of erosion protection now in 
place was erected. Since this construction no further uplands have been 
lost to erosion.
    As mentioned in the December 2003 GAO report, the city is again 
engaged through the Corps in rehabbing, extending and improving another 
1,200 feet of this wall system.
    We certainly support the recommendations being offered in the 
December 2003 GAO report. Particularly the recommendation that social 
and environmental factors be considered in cost/benefit analysis, and 
the cost/benefit requirement relief proposed in H.R. 2557. If such had 
been available to our city during the 1960's and 1970's, literally 
hundreds of thousands of dollars of now irretrievable land could have 
been saved.
    Additionally, we support the recommendation that the Denali 
Commission serve as the clearinghouse for future erosion and flooding 
support. The Denali Commission has set the bar for coordination and 
intervention of major projects in rural Alaska.
    In conclusion it is also important to mention that a significant 
portion of the city's downtown is situated in a FEMA determined Special 
Hazard flood area. The city has been in the national flood insurance 
program since 1974. It historically maintains a rigorous management 
posture when it comes to development within this special flood hazard 
area. We believe the communities flood claim history over the past 
decades bears this out.
    Thank you again for your interest in erosion and flooding in Alaska 
Native villages. Please let me know if you have further questions.

    Chairman Stevens. Ms. Vorderstrasse.

STATEMENT OF EDITH A. VORDERSTRASSE, MAYOR, BARROW, 
            ALASKA
    Ms. Vorderstrasse. Good morning, Senator. Mr. Chair and 
members of the committee, thank you for giving me the 
opportunity to testify on behalf of our community, Barrow.
    I was born and raised in Barrow. I have seen many changes 
to our coastline. As a child, I got to enjoy the vast coastline 
we once had. The coastline was once our playground, a place for 
celebration of our communities. For those of you who may not 
understand what nalukataq is, it's when we have a successful 
spring whale hunt and the crews select their day of 
celebration, a gathering place of our successful hunters where 
they butchered their harvest.
    We in Barrow have always lived near the sea because we 
depended on the sea for our livelihood. Particularly, when we 
lived in sand houses and had little in the way of 
infrastructure. However, in the last hundred years we have put 
down roots that did not foresee the erosion of our coastline. 
We have millions of dollars in infrastructure in harm's way. As 
the ice on the Arctic Ocean grows more fragile, so does our 
coastline.
    We are experiencing more frequent storms as early as July, 
and the ice is nowhere to be seen for at least 150 to 200 
miles. We are at a crossroads. Is it practical to stand and 
fight our mother ocean, or do we surrender and move? Do we 
sacrifice our beautiful beaches to concrete and barriers to our 
livelihood or do we pull back?
    One way or the other we have to make an attempt to salvage 
or plan new facilities to take the places of the ones that 
currently exist. We are very fortunate that the North Slope 
Borough was established in 1972 where the Borough took most of 
the municipality's powers so that they can provide for our 
community, and we work very closely with Mayor Ahmaogak. Mayor 
Ahmaogak provided you wonderful information today with the 
history of the storms and erosion, the riverbanks and their 
erosion. It's not just our beach, but it's also the rivers 
where our ancestors went out hunting.
    My parents have had to move their hunting cabins several 
times away from the rivers. Sitting here listening to all the 
different panels from yesterday and today, we have come to an 
understanding of how we all need to work together. And I want 
to thank you for recognizing the bureaucratic dilemma that we 
are in when we have a storm in trying to address the needs and 
trying to declare a disaster.
    I think as we all sit here listening to all the testimony, 
questioning the scientists talking about the weather changes, 
it has brought us to a closer relationship to where we as 
community leaders, as our legislature--and how we all need 
appropriations from you, from the United States, in order to 
address these needs that we have in our communities. I just 
would like to thank the Senate Appropriations Committee for 
coming to Alaska to listen to our concerns, and hopefully that 
there will be enough money appropriated in order to address 
some of these.
    Some of our communities have a much greater serious need, 
and I just would like to thank all of you for coming here and 
listening to our concerns. Thank you.
    Chairman Stevens. Thank you.
    [The statement follows:]

              Prepared Statement of Edith A. Vorderstrasse

    Mr. Chairman and Members of the Committee, thank you for giving me 
this opportunity to testify on behalf of my community Barrow.
    Born and raised in Barrow, Alaska, I have seen many changes to our 
coastline. As a child I got to enjoy our vast coastline we once had. 
The coastline was our playground, a place where celebrations of the 
community take place such a Nalukataq (summer celebration of the 
successful whaling captains and their crews after the spring hunt), and 
gathering place of our successful hunters where they butchered their 
harvest.
    We in Barrow have always lived near the sea because we depend on 
the sea for our livelihood. This was practical when we lived in sod 
houses and had little in the way of infrastructure however in the last 
hundred years we have put down roots that didn't foresee the erosion of 
our coastline. We have millions of dollars in structures and 
infrastructure in harms way. As the calming hand of ice on the Arctic 
Ocean grows more fragile so does our coastline. We are experiencing 
more frequent storms as earlier as July and the calming hand of the ice 
in nowhere to be seen for it is at less 150 to 200 miles away. We are 
at a crossroads. Is it practical to stand and fight our mother ocean? 
Or do we surrender and move. Do we sacrifice our beautiful beaches to 
concrete and barriers to our lifeblood or do we pull back? One way or 
another we have to make an attempt to salvage or plan new facilities to 
take the place of the ones that currently exist.
    We as a community will need to make some difficult decisions in the 
very near future to address the above and we don't have the financial 
means to address it.
    Sitting here listening to all the different panels from yesterday 
and today, we all have come to an understanding that we need to work 
together in order for us to accomplish the task that is before us. 
Organizations must be willing to restructure the application process so 
that communities will be able to qualify for the assistance that they 
need. Thank you for recognizing the bureaucratic dilemma we endure when 
our communities are in distress and need the assistance of the agencies 
during a storm or after the assessment of the storm.

    Chairman Stevens. Mr. Ivanoff.

STATEMENT OF STEVE IVANOFF, PRESIDENT, UNALAKLEET 
            NATIVE CORPORATION
    Mr. Ivanoff. Thank you, Mr. Chairman. Welcome back home. To 
Senator Burns and Senator Sununu, welcome to our State. We hope 
this is a very pleasant experience for you in the hope that you 
will make it back again.
    I'll be speaking to you today as President of the 
Unalakleet Native Corporation and thank you for this 
opportunity. Unfortunately, our village is very experienced on 
both flooding and erosion issues.
    Unalakleet is roughly 400 miles west of Anchorage. The site 
location was chosen for its access, quick and easy access to 
the subsistence resources in that area. This settlement has 
been in existence for over 2,000 years, as confirmed by an 
archaeologist. Historically, we have been host to several 
Federal agencies. We had an Air Force Base located 5 miles 
northeast of the village. We had White Alice communication site 
stationed 10 miles to the east, and we had an FAA site in the 
past.
    These facilities have all closed down with the end of the 
cold war and modern technology. As a child, I was experienced 
with the floods of 1964 and 1974. We spent several days at the 
Air Force Base waiting out the storms with the other children, 
women, and others from our village while the men basically 
stayed back and watched the storms consume our community.
    For 29 years we were fortunate to not have floods of this 
magnitude. However, we did see the normal fall storms that 
consumed some structures and in my lifetime I have seen several 
buildings moved. Our community was successful in having a 
declaration of disaster from last year's fall storm. 
Unfortunately, we have yet to see these funds allocated, and 
meanwhile we continue to see with the storms that have been 
coming our structures and gabion wall erode slowly.
    My comments are not intended to be critical of the National 
Resources Conservation Service or any agency involved in 
assisting us. We appreciate any and all of the services they 
have provided. I mention the NRCS because they have been the 
most receptive agency to be here in our needs. They have been 
good to work with and their interpretation is rural friendly, 
we feel, and we appreciate their work.
    But in the month of November is when we have the storms in 
our area, as you saw yesterday the cyclones develop in the 
Arctic Ocean. Growing up we didn't see that. All of our storms 
historically came from the Bering Sea, but with the ice moving 
it's a new scenario.
    In the late 1970s, after the flood of 1974, the State DOT 
built a road along the west side of the village, creating an 
access road between the airport and the business section of 
town, but more importantly a barrier between the community and 
the ocean. This has held safely for our structures for 29 
years.
    Erosion, the greatest erosion occurs at the mouth of the 
river. Additionally, erosion occurs along the beach. Erosion 
takes place somewhat in the springtime, but primarily with the 
fall storms. In 2000 the NRCS built us a retaining wall in our 
village beginning at the mouth of the river and stretching 
along the beach. It was a $1 million project. Without this wall 
we would have seen some structures in our communities, I 
believe, fall into the ocean. The retaining wall is good, but 
has room for improvement.
    We were not allowed to improve on the contour of the land, 
but basically to be a pro-active measure, but with the 
guidelines we have to follow the contour of the land. The 
Native Village of Unalakleet working with this program built 
this, recognizing that the wall was too low in some areas, and 
we believe that the wall basically saved some of the buildings 
from structural damage. The above are considerations for future 
improvements.
    They were left out of the original project due to funding 
constraints. We feel the life of this project has been 
diminished due to stringent funding guidelines. We are in 
desperate need of immediate protection from flooding and 
erosion. As you've heard before, we don't qualify for the 
projects under the Corps' interpretation of the guidelines. The 
State of Alaska has provided local match for studies by the 
U.S. Army Corps of Engineers in the amount of over $50 million 
and has yet to see a construction project of significance from 
this study.
    Our village has been, and currently is active, in trying to 
make changes to these policies. However, we are frustrated with 
the hurdles that we face. Until there are changes in Federal 
policies or an exemption is made for underdeveloped States such 
as Alaska, we will remain vulnerable. While most of the revenue 
generated in Alaska is extracted from the rural areas, we still 
struggle for simple things such as safety. In rural Alaska 
subsistence is the biggest driving force of existence and has 
not been accounted for in the benefit side of the policies. 
However, I understand that it is now being considered.
    We have seen some successes with the construction of the 
roads and the gabion wall, but we need to eliminate the 
hardships that come with each disaster. Unfortunately, there 
are funds available for reactive measures, but little for 
proactive safeguards.
    We are one of the youngest and the most underdeveloped 
States in the Union. This makes the job of our Alaska 
congressional delegation, and you, our Senate Appropriations 
Committee, a monumental task given Alaska's immediate needs, 
especially when compared to the existing infrastructure of the 
other States. Our wonderful State has a lot to offer, but we do 
need to make it a safe place for all, residents and visitors 
alike. We sympathize with the other communities facing their 
own flooding and erosion problems and realize there is no one-
size-fits-all solution.
    An elder from our village was telling us last week that he 
paid $19 for a roll of roofing paper and $102 to get it to our 
village, so his $19 roofing paper cost him $121.
    In conclusion, I invite you to visit Unalakleet and see the 
threats we face. The Federal programs are not functioning the 
way they should and the way we think you intended. We 
appreciate the study done by the General Accounting Office 
released last December and urge Congress to implement its 
recommendations.
    Again, thank you.
    Chairman Stevens. Thank you, Mr. Ivanoff.
    [The statement follows:]

                  Prepared Statement of Steve Ivanoff

    Welcome to our great State of Alaska. We hope this is a very 
pleasant experience for you, in the hope that you will come back again. 
I am Steve Ivanoff from Unalakleet and will be speaking to you today as 
the President of Unalakleet Native Corporation.
    Thank you for the opportunity to testify on the flooding and 
erosion problems we have, and have had in our community of Unalakleet. 
Unfortunately, we are experienced on both of these issues.

Introduction--Background
    Unalakleet is 393 air miles west of Anchorage on the easternmost 
part of Norton Sound. This location was selected to provide quick and 
easy access to the many subsistence activities that this area has to 
offer. It sits on a sand-spit between the Unalakleet River and the 
Norton Sound. This settlement has been estimated to be in existence for 
over 2,000 years. The population is approaching 800 with an Alaska 
Native population of approximately 85 percent, Inupiat and Yupik 
Eskimos, and Athabascan Indians. It is classified as a regional sub-
hub, serving mail and freighting services for itself and four other 
villages. The Bering Straits School District central offices are 
located in Unalakleet serving 15 villages in the Norton Sound region, 
and a sub-regional clinic that provides medical services for Unalakleet 
residents and four other villages. Commercial fishing was the driving 
force of economics for decades but with the decline of the salmon stock 
and the crash of the herring market, Unalakleet has become a service 
providing community. A 6,000 foot runway was constructed in the 60's as 
our village was a host to hundreds of Air Force service men for a 
couple of decades having an Air Force base 5 miles northeast of the 
village. A White Alice site was also stationed 10 miles to the east, 
along with a Federal Aviation Administration facility, housing a number 
of workers and their families. These facilities were all shut down with 
the end of the cold war and modern technology. As a result of these 
services we still have contaminated soils being extracted from our 
subsistence grounds as I speak.
    As a child I remember staying at the Air Force base for a few days 
during the floods of 1964, and 1974 along with the other youth, women, 
and elders from our village. Some homes, including ours, were removed 
from their foundations and many others filled with water halfway up the 
walls during these floods. For 29 years we were fortunate to experience 
milder fall storms and did not have another surge of this magnitude 
until the flood of 2003. However, within those 29 years we did 
experience the normal fall storms and saw buildings moved to escape 
disaster and some structures consumed by the ocean. With their own 
resources the community tried to combat the storms with crude means but 
saw all of these temporary fixes overwhelmed by the ocean. The village 
agencies were successful in having Unalakleet declared a disaster from 
the flood of 2003. The funds have yet to be allocated that will cover 
the cost of the clean up and repair to the gabion wall. In addition, 
areas that had protective rock need to be restored. This flood filled 
yards and basements with seawater that made it over the wall. I had to 
have rock hauled in by a local contractor to divert the water surge 
around my home. The first load he hauled in was sand and dissipated in 
seconds but fortunately the rock quickly diverted the water.
    My comments are not intended to be critical of the National 
Resource Conservation Service (NRCS) or any agency involved in 
assisting us. We appreciate any and all of the services they have 
graciously provided.
    Flooding.--The month of November is when we have the storms that 
have threatened our community with water surges from the ocean. In the 
late 70's a road was constructed on the ocean side of the village 
serving two purposes. It provided an access route between the airport 
and the business section of the village, and more importantly, a 
barrier between the community structures and the ocean. This road is 
0.9 of a mile long and had water surging over it only on the lower 
section on the southern end. This lower section of the road is roughly 
2 feet below the high point of this road and would be more effective if 
the whole road were to be raised at or above this level. Another road 
was constructed in the 80's on the north-eastern part of the village 
providing an access road to the hillside and a barrier from the water 
surge. These two locations are different with the western side 
providing a relief from the pounding ocean waves.
    Erosion.--The greatest erosion occurs at the mouth of the river, 
additional erosion occurs along the beach. This takes place during the 
spring thaw and the fall storms. In the year 2000, a gabion wall 
erosion protection project was constructed beginning at the mouth of 
the river and running along the beach. This 1,400-foot project was 
funded by NRCS in the amount of $1 million. The gabion wall is shown in 
the attached photos. This wall protected structures within the 
community during the November flood of 2003. The gabion wall is good, 
but has room for improvement, as we all know hindsight is 20/20. As a 
former site supervisor for this project I feel these improvements can 
be applied:
  --The ends of a gabion wall needs to start and end at a solid base, 
        this project should have been pulled in at the end to the 
        existing road. Any structure should be back filled to eliminate 
        the backwash that causes the loss of rock as observed. The 
        plans did not call for backfill but we asked the site 
        inspectors to have this done, fortunately they approved this 
        otherwise a lot more damage would have occurred.
  --The ocean side of the project should have had a toe constructed 
        below the low-tide line on the beach. This would eliminate the 
        undercutting we are now observing.
  --A stronger wire mesh or alternate material should be used for the 
        gabion baskets as we are seeing a high level of wear and tear 
        from driftwood. We are concerned about the longevity of the 
        wire mesh, as much of the coating on the wire has worn off, 
        exposing the wire to the corrosive saltwater and accelerating 
        rust.
  --We were not allowed to elevate the structure, leaving us to follow 
        the contour of the surrounding grounds. Elevating the wall 
        would have eliminated the need for a declaration providing 
        disaster assistance. The Native Village of Unalakleet and 
        funding from a Kawerak heavy equipment training program, 
        provided for the haul of additional rock for the top of the 
        gabions. This additional material acted as a splash rail that 
        saved some buildings from structural damage. These are 
        considerations for future improvements. They were left out of 
        the original project due to funding constraints. We feel the 
        life of this project has been diminished due to stringent 
        funding guidelines.
    We are in desperate need of immediate protection from flooding and 
erosion. Based on current cost benefit analysis guidelines of the 
federal programs that address flooding and erosion we do not qualify 
for projects. The State of Alaska has provided local match for studies 
by the Army Corps of Engineers in the amount of over $50 million, and 
has yet to see construction projects of any significance from these 
studies. Our village has been, and currently is active, in trying to 
make a change to these policies. We are frustrated with the hurdles 
that we face. Until there are changes in federal policies, or an 
exemption is made for underdeveloped states such as Alaska, we will 
remain vulnerable.
    While most of the revenue generated in Alaska is extracted from the 
rural areas, we still struggle for simple things such as safety. In 
rural Alaska, subsistence in the biggest driving force of existence and 
has not been accounted for in the benefit side of the policies, 
however, I understand that it is now being considered.
    We have seen some successes with the construction of the roads 
mentioned above and the gabion wall but we need to eliminate the 
hardships that come with each disaster. Unfortunately there are funds 
available for reactive measures but little for proactive safeguards.
    We are one of the youngest and the most underdeveloped states in 
the Union. This makes the job of our Alaska Congressional delegation, 
and you, our Senate Appropriations Committee, a monumental task given 
Alaska's immediate needs, especially when compared to the existing 
infrastructure of the other states. Our wonderful State has a lot to 
offer, but we do need to make it a safe place for all, residents and 
visitors alike. We sympathize with the other communities facing their 
own flooding and erosion problems and realize there is no one size fits 
all solution.
    In conclusion, I invite you to visit Unalakleet, and see the 
threats we face. The federal programs are not functioning the way they 
should, and the way we think you intended. We appreciate the study done 
by the General Accounting Office, released last December, and urge 
Congress to implement its recommendations.

    Chairman Stevens. Mr. Rock.

STATEMENT OF REX ROCK, CHIEF EXECUTIVE OFFICER, TIKIGAQ 
            CORPORATION
    Mr. Rock. Mr. Chairman, members of the committee, I would 
like to thank you for the opportunity to testify in this 
important hearing today on behalf of our Tri-Lateral Committee 
which consists of our Native Village of Point Hope, the city of 
Point Hope, and Tikigaq Corporation. I am currently the Chief 
Executive Officer of Tikigaq Corporation and am testifying on 
behalf of the Tri-Lateral Committee.
    Point Hope is the oldest, continually inhabited community 
in Northwest Alaska, which dates back to 600 B.C. Point Hope is 
recognized nationally as a culturally relevant site. Today 
approximately 850 residents call Point Hope home. Our 
population is primarily Inupiaq, or in the western culture 
referred to as Eskimo. We are part of the North Slope Borough 
and are a second-class city. Point Hope is a bowhead whaling 
community.
    You might ask, why emphasize the fact that we are a bowhead 
whaling community? Our community has many traditions 
surrounding our whaling, and if there's one thing it has taught 
us, it is that working as one for our people, you can 
accomplish great things. Our whaling culture is so much a part 
of our daily life that our community synergy is defined by it. 
Our community has worked together on our flooding issues and 
now we need your help.
    We've noticed a lot of changes in the weather patterns in 
Point Hope. The ice breaks up and leaves the shore a lot 
earlier than usual. We have always had ice until July and now 
it is gone the first week of June. In the fall the shore ice is 
late and often isn't there to protect the shoreline when the 
fall storms hit. Storms are earlier with larger and stronger 
wave patterns. Our underground ice cellars are not as cold as 
they used to be. Some cellars that were built in permafrost are 
now melting and are full of water during the summer.
    Our beaches now have runoffs either from the ocean or from 
the lagoon or lakes, which makes the gravel a lot softer. Our 
runway has been in jeopardy of flooding several times. 
Community members worry about evacuation in the event of 
flooding.
    Over the past decade we realized that three separate 
organizations working to obtain any assistance for funding 
projects was cumbersome and likely to end unsuccessfully. Using 
common goals as our guiding factor, the Tri-Lateral Committee 
was formed in 2001. Quarterly meetings are held and hosted by 
the different organizations. A list of priority projects was 
created and the organizations have supported working together 
as a method to target legislation and assistance from the North 
Slope Borough, the State of Alaska, and the Federal Government.
    The number one priority on the list is an evacuation road 
that would lead to higher ground in case of flooding. This was 
the primary concern of the community that came up at a variety 
of gatherings, from the Native Corporation's annual meetings to 
community meetings and gatherings.
    Tikigaq relocated back in the late 1970s from the west side 
of our runway to where it is today due to extreme flooding. 
Today we still face flooding issues, mainly in the fall. The 
flooding occurs from strong winds blowing out of the West and 
Northwest creating large waves that bombard our North beach. 
Our North beach is about 12 miles long and the south side is 18 
miles long. The water actually reached the North end of our 
runway last year. Flooding of the runway is a growing concern 
of our community.
    One thing that I would note is that during last year's 
storms, the winds were blowing at 30 knots. If they were at 45, 
definitely they would have been flooding the runway.
    Until last year we were able to push gravel with heavy 
equipment forming berms to stop the wave action. During last 
year's storms we weren't able to do this because our equipment 
began sinking in the gravel. This has never happened before. We 
were unable to use vehicles and equipment to help monitor the 
flooding. Simple things such as ATV four-wheelers sank into the 
gravel. That's never happened before.
    Unlike prior years we didn't know how much water was 
actually coming over the beach into the lagoon due to the 
sinking problem. You may be asking, why is this a concern? The 
only way out of our community during these storms is to the 
East on a 7-mile road that leads to our freshwater lake source. 
We constantly monitor the road during each storm. If this road 
is cut off due to flooding, we are stuck with nowhere to go.
    Potentially, all life and property would be lost. Sometimes 
during these storms the Kukpak River's outlet into the ocean 
becomes sealed, then both the river and ocean begin filling and 
flooding the lagoon compounding the problem. During the storms, 
people begin to panic and worry, especially when we are unable 
to even monitor the severity of the problem like last year. 
What is of great concern is the possible loss of lives if we 
don't get an evacuation road built.
    How would building an evacuation road help our community? 
First and foremost it would save lives in the event of 
flooding. It will also provide access to an area where we would 
be able to build a new runway. We all know that it is just a 
matter of time before the current one is under water and we 
will need a new one. We ask that you help us plan and build an 
evacuation road.
    Again, I would like to thank you for allowing my community 
to be a part of this important hearing. We look forward to 
hearing from you on behalf of our Tri-Lateral Committee. Our 
village extends an open invitation to all of you. Thank you.
    [The statement follows:]

                     Prepared Statement of Rex Rock

    I would like to thank you for the opportunity to testify in this 
important hearing today on behalf of our Tri-lateral Committee which 
consists of our Native Village of Point Hope (tribal organization), the 
City of Point Hope, and Tikigaq Corporation (Native corporation). I am 
currently the Chief Executive Officer of Tikigaq Corporation and am 
testifying on behalf of the Tri-lateral Committee.

                INTRODUCTION AND BACKGROUND INFORMATION

    Point Hope (Tikigaq) is the oldest continually inhabited community 
in Northwest Alaska, which dates back to 600 B.C. Point Hope is 
recognized nationally as a culturally relevant site (National Historic 
Landmark). Today approximately 850 residents call Point Hope home. Our 
population is primarily Inupiaq, or in the western culture referred to 
as Eskimo. We are part of the North Slope Borough and are a second-
class city. Point Hope is a Bowhead whaling community. In fact, our 
ancestors crossed the Siberian land bridge some 2,000 years ago to hunt 
bowhead whales.
    You might ask why emphasize the fact that we are a Bowhead whaling 
community? Our community has many traditions surrounding our whaling 
and if there is one thing it has taught us, it is that working as one 
for our people you can accomplish great things. Our whaling culture is 
so much a part of our daily life that our community synergy is defined 
by it. Our community has worked together on our flooding issues and now 
we need your help.
The Problems in Point Hope
    We have noticed a lot of changes in the weather patterns in Point 
Hope. The ice breaks up and leaves the shore a lot earlier then usual. 
We have always had ice until July and now it is gone the first week of 
June. In the fall the shore ice is late and often isn't there to 
protect the shoreline when the fall storms hit. Storms are earlier with 
larger and stronger wave patterns. Our underground ice cellars are not 
as cold as they use to be. Some cellars that were built in permafrost 
are now melting and full of water during the summer. Our beaches now 
have runoffs either from the ocean or from the lagoon or lakes, which 
makes the gravel a lot softer. Our runway has been in jeopardy of 
flooding several times. Community members worry about evacuating in the 
event of flooding.

What we have done as a community to address the problems
    Over the past decade we realized that three separate organizations 
working to obtain any assistance for funding projects was cumbersome 
and likely to end unsuccessfully. Using common goals as our guiding 
factor, the Tri-lateral Committee was formed in 2001. Quarterly 
meetings are held and hosted by the different organizations. A list of 
priority projects was created and the organizations have supported 
working together as a method to target legislation and assistance from 
the North Slope Borough, the State of Alaska and the Federal 
Government.
    The number one priority on the list is an evacuation road that 
would lead to higher ground in case of flooding. This was the primary 
concern of the community that came up at a variety of gatherings from 
the Native Corporation's annual meetings to community meetings and 
gatherings.
    Tikigaq relocated back in the late 70's from the west side of our 
runway to where it is today due to extreme flooding. Today we still 
face flooding issues, mainly in the fall. The flooding occurs from 
strong winds blowing out of the West and Northwest creating large waves 
that bombard our North beach. Our North beach is about 12 miles long 
and the south side is 18 miles long. The water actually reached the 
North end of our runway last year.\1\ Flooding of the runway is a 
growing concern for our community.
---------------------------------------------------------------------------
    \1\ Our runway lines up with the prevailing winds out of the 
Northeast. The problem with this is that you are not always able to 
land aircraft due to the crosswinds from the Northwest. This means that 
in certain emergencies we may not be able to use the runway to evacuate 
the community.
---------------------------------------------------------------------------
    Until last year we are able to push gravel with heavy equipment, if 
needed, to help slow the wave action and protect the beach and the 
community.\2\ During last years storms, we weren't able to do this 
because our equipment began sinking into the gravel, this has never 
happened before. We were unable to use vehicles and equipment to help 
monitor the flooding. Unlike prior years we didn't know how much water 
was actually coming over the beach into the lagoon due to the sinking 
problem. You may be asking why is this a concern? The only way out of 
our community during these storms is to the East on a 7-mile road that 
leads to our fresh water lake source. We constantly monitor the road 
during each storm. If this road is cut off due to flooding, we are 
stuck with nowhere to go. Potentially all life and property would be 
lost. Sometimes during these storms the Kukpak rivers outlet into the 
ocean becomes sealed then both the river and ocean begin filling and 
flooding the lagoon compounding the problem. During the storms people 
begin to panic and worry especially when we are unable to even monitor 
the severity of the problem like last year. What is of great concern is 
the possible loss of lives if we don't get an evacuation road built.
---------------------------------------------------------------------------
    \2\ Some of the photos we submitted show burms we built out of the 
beach gravel to protect our community. A subsequent photo shows that 
our efforts failed and the burm was washed out to sea. About three 
years prior to that, the water reached the west side of our runway and 
the runway itself served as an actual barrier for our community. You 
will also notice in some photos a partial seawall was built out of huge 
rocks that were brought in from Nome. That wall has begun to wash out 
as well.
---------------------------------------------------------------------------
Conclusion
    How would building an evacuation road help our community? First and 
foremost it will save lives in the event of flooding. It will also 
provide access to an area where we would be able to build a new runway. 
We all know that it is just a matter of time before the current one is 
under water and we will need a new one. Please help us plan and build 
an evacuation road.
    Again I would like to thank you for allowing my community to be a 
part of this important hearing. We look forward to hearing from you and 
on behalf of our Tri-lateral Committee. Our villages extends an open 
invitation to all of you, know that you will be welcome in our 
community at any time. If you have questions or comments feel free to 
call either Rex Tuzroyluk, Jr., President of Native Village (368-2330), 
Ronald Oviok, Sr., City Mayor (368-2537) or Sayers Tuzroyluk, Sr., 
Chairman Tikigaq Corp. (368-2235)

    Chairman Stevens. Thank you very much. Your village was 
moved in the past once, wasn't it, Mr. Rock?
    Mr. Rock. That's correct, in the 1970s.
    Chairman Stevens. The new location is on the other side--on 
the upland side of the airport now?
    Mr. Rock. Back then it was what the Borough could afford. 
We moved on the east end of the runway, about 1\1/2\ miles.
    Chairman Stevens. Have you surveyed out a site that if you 
have to move you would prefer to move to?
    Mr. Rock. Yes. It's higher ground and it's about 10 to 15 
miles from where we currently are.
    Chairman Stevens. Has the FAA or the State helped you 
locate a new site for a runway?
    Mr. Rock. No, they haven't.
    Chairman Stevens. You have a traditional graveyard in your 
area, don't you?
    Mr. Rock. That's correct. It's marked by whale jawbones.
    Chairman Stevens. Does your plan include moving that 
graveyard?
    Mr. Rock. Not currently, no. We just continually expand it, 
you know.
    Chairman Stevens. Didn't it suffer some erosion recently?
    Mr. Rock. It's getting very close to that.
    Chairman Stevens. Thank you.
    Mr. Short, your area is the one area that has been 
successful in obtaining the funds. I remember we worked on that 
for a long time with the Corps of Engineers. You sound 
satisfied with what the Corps of Engineers has done. Is that 
right?
    Mr. Short. For the most part, yes.
    Chairman Stevens. Do you have plans for an extension of 
that now? Are you asking the Corps to extend it further?
    Mr. Short. 1,200 more feet.
    Chairman Stevens. Thank you.
    Ms. Vorderstrasse, I was in Barrow and it seems to me that 
the beach is coming close now to your sewage containment pool 
and also to your city landfill dump. Is that right?
    Ms. Vorderstrasse. That's correct, Senator. It is very 
close. We have one pump station which is very close to our 
beach, and that pump station provides service to at least one-
third of our community. And our community center is very close 
to the beach, and during the storms, as you've been seeing here 
on the slides, it becomes a great concern.
    And as you very well know, where Oliver Letuk's (ph) house 
is on the bluffs--the erosion there--we have already moved some 
of those houses once before. They are going to have to be 
relocated here in the very near future.
    Chairman Stevens. That's because of the melting of the 
substructure in the permafrost, right?
    Ms. Vorderstrasse. Correct.
    Chairman Stevens. Has your city approved a relocation plan?
    Ms. Vorderstrasse. No, we haven't. We work very closely 
with the North Slope Borough in reference to plans such as 
relocation and whatnot. We work with Mayor Ahmaogak. They're 
adding to our runway. It's kind of a concern because of the 
rapidness of the erosion and whatnot. Our runway is close to--
one end of it is going to be very close to our beach.
    Chairman Stevens. Mr. Ivanoff, what's the situation with 
regard to your runway? It's down closer to the sea than the 
village.
    Mr. Ivanoff. Yes, sir. In the flood of last fall part of 
the fencing on the runway was eroded. The State DOT is coming 
out with a project that will put in rock on the west side, 
ocean side, and I'm not sure if they are going to build it up. 
But they are in the process of upgrading the runway. But for 
the most part, the runway--just a section of the runway, that's 
correct.
    Chairman Stevens. Mr. Burns, do you have any questions?
    Senator Burns. I don't have any questions. The structure 
we're going to have to change in order to do some of these 
things. Knowing what your situation is, I don't have any 
questions for you, but we're going to deal with the structure 
on what will facilitate maybe getting you some help. That's 
what we're dealing with right now. You've all got your 
different challenges in your communities. It's good to hear 
about those. Thank you.
    Chairman Stevens. Senator Sununu.
    Senator Sununu. I would be interested to know, in each of 
your villages, what, if anything, has been done locally to try 
to slow the erosion process and whether or not any of these 
efforts, even in the short term, have been at all successful.
    Mr. Short. I sort of talked about what we initially did 
back in the 1980s was construct an 8,000-foot seawall. We're 
currently looking at putting in another 1,200 feet, which would 
give us just under 2 miles of seawall right in front of our 
community. It's been very stable; we haven't lost any more land 
since then.
    The $4 million that Senator Stevens helped us get to extend 
that 1,200 feet has been very helpful along with the other 
funds.
    Senator Sununu. That work was originally done in the 1980s?
    Mr. Short. In the 1980s and throughout the 1990s. It has 
been a continuous process to get there. I think probably Bethel 
is one of the success stories, and we would be happy to share 
any of that information.
    Senator Sununu. What was the total, or what has been the 
total cost of the seawall construction?
    Mr. Short. Right now I think we're right around $28 million 
with the new 1,200 feet.
    Senator Sununu. It's along the river?
    Mr. Short. Yes. We call it a seawall.
    Ms. Vorderstrasse. The city of Barrow has used real huge 
bags and they stuffed the bags with gravel, and then they put 
them up against the bluffs and along the beach. And as you have 
seen here on the slides, during the storms and even before the 
storms they used a tractor to make berms of gravel, and that is 
kind of our temporary seawall.
    Senator Sununu. How successful has it been?
    Ms. Vorderstrasse. Not very successful. Because as the 
storms come in--and it just--the ocean just beats on those 
bags, it beats beyond the bags, and the erosion is continuing 
to where the--it's just creating another section in the back 
and the waves that come in sometimes are greater than the 
temporary sand berms that they built and they come onto our 
road.
    Senator Sununu. Is the labor and the organization for that 
effort handled locally?
    Ms. Vorderstrasse. It's handled by the North Slope Borough.
    Senator Sununu. Mr. Ivanoff.
    Mr. Ivanoff. In the back of my testimony you'll see some 
pictures. On the first page you'll see a higher section of the 
road built in the late 1970s that prevented water. The logs 
that you see in these photos came out of the Yukon River. With 
the tide they move north and they land up on our beaches there.
    But the top photo shows the road that was built in the 
1970s. The high part of that road has really seen some influx 
from the ocean, but the southern end is 2 feet lower than the 
higher part of the road and has water and debris going over the 
top.
    On erosion, you'll notice the gabion wall on the second 
page of the pictures. It was constructed in 2000 and it has 
been a major blessing, you know. There are problems with it. 
You'll see on the bottom photo, the second page, the wire mesh 
part is starting to break up. It has halted the erosion, but 
we're worried about the longevity of the life of this product.
    Senator Sununu. What was the total cost of the work done in 
2000?
    Mr. Ivanoff. It was in the area of $1 million.
    Senator Sununu. And how was it funded?
    Mr. Ivanoff. Through NRCS.
    Senator Sununu. Mr. Rock?
    Mr. Rock. We don't have anything that's been successful. In 
the summer during these months, the corporation with the 
Borough, loaned equipment and we have a lot of volunteers that 
go and actually push gravel and push berms up to help protect 
for the fall storms that we know are going to hit. They tried 
at one time some rocks from Nome; they imported from Nome to 
certain sections to see if that would work. That's getting 
washed out. The runway itself that sits to the west of the 
community serves as an actual barrier. The water came up to the 
level of the runway and it stopped right there.
    Senator Sununu. Thank you.
    Chairman Stevens. We thank you all very much. We are going 
to go back with a lot more information than we had before. 
Thank you very much for those photographs. They're helpful, Mr. 
Ivanoff. I do appreciate that. We appreciate your coming to 
give us the information we need to go back and try to work this 
out. Thank you very much.
    Our next panel is Dr. Joseph Suhayda, oceanic consultant; 
Mr. Rexford from Kaktovik; Luci Eningowuk, Chairperson on 
Shishmaref Erosion and Relocation; Enoch Adams, Chair from 
Kivalina's Relocation Planning Committee; and Stanley Tom, 
Tribal Liaison for Newtok Tribal Council.
    Dr. Suhayda, if you will wait, we'll make you a separate 
panel at the end. Okay?
    Dr. Suhayda. Yes, that's fine.
    Chairman Stevens. You're going to show us the Bastion. 
Let's take a 5-minute break.
    Senator Sununu is on a long distance call and he'll be in 
in a minute, but I'm pleased to welcome Mr. Tom, Stanley Tom, 
Tribal Liaison from Newtok; Mr. Enoch Adams from Kivalina, 
their Relocation Planning Committee; Ms. Eningowuk, Chairperson 
from Shishmaref; and Mr. Rexford, the tribal administrator from 
Kaktovik.
    The last witness has a little display, so we'll get with 
him after the four of you. Let's start with you, Mr. Tom.
    Thank you very much for coming.

STATEMENT OF STANLEY TOM, TRIBAL LIAISON, NEWTOK 
            TRADITIONAL COUNCIL
    Mr. Tom. Thank you. My name is Stanley Tom. I serve on the 
Newtok Traditional Council. I have been with the Newtok 
Traditional Council since 1997 as president, before the Newtok 
Traditional Council became contracted to Public Law 93-638. We 
are fairly new with Public Law 93-638. It's our fourth year and 
we are in the learning process.
    Newtok Traditional Council had a 3-year agreement with the 
Army Corps back in October 2001, and it was Planning Assistance 
to State project with an agreement for cost-share study 
relocation improvement. Ever since the agreement, I feel it's a 
slow process and the Native Village of Newtok needs to lay out 
the new village site at Nelson Island before erosion hits the 
existing village.
    The land exchange was finalized between the Newtok Native 
Corporation and Fish and Wildlife Service on April 28, 2004, by 
Secretary of the Interior, Gale Norton.
    The Army Corps of Engineers needs to speed up the new 
village site. We had a previous meeting with the agencies and I 
had a concern with the FAA. They said they would not build the 
airport, only if we moved the village site, and it's way too 
late to build an airport.
    How will we ship the supplies to the new village site when 
we start to build the town on the new site such as: The barge 
landing area, water infiltration gallery area, the proposed 
airport site, and the area of the proposed infrastructure for 
roads and streets?
    The ASCG made a proposed land use and transportation plan 
for Newtok back in 2001 to BIA. During the BIA workshop I 
checked our proposed planning list. We are at the bottom of the 
list for the year 2020. That's way too late for the roads to be 
built for the village site.
    ASCG, Inc. also made a background for relocation report for 
January 2004, and the report was sent to various agencies. We 
had some replies from the background and relocation report. The 
report covered the introduction, village characteristics, the 
ocean problem, contained the erosion problem, statistical 
analysis of the erosion rate. The average annual erosion rate 
is about 62 to 130 feet per year. The existing barge landing is 
being impacted by erosion now and by 2006 it will be gone.
    Under my observation the existing airport will be impacted 
in the year 2011 or less, because there are small lakes in that 
area and in that area our water resource will be impacted 
first.
    The Department of Commerce and Economic Development will be 
doing a community profile mapping of the existing and the new 
relocation site, and I need both to be done as soon as 
possible, especially the new village site so we can start 
working on the environmental review record for the new village 
site, also known as the National Environment Policy Act.
    The Newtok Traditional Council needs to do a community 
comprehensive planning for the new village site, and I just 
finished a mini-grant for $30,000 from the State of Alaska. I 
hope it will be approved because the Federal and State will not 
appropriate any funds without a community comprehensive plan 
for any planning funds.
    The Newtok Traditional Council has approved its village 
move by the Background for Relocation Report. We need to start 
establishing the new site this year. If the Army Corps of 
Engineers are not ready to start a new site, the Newtok 
Traditional Council should hire an architect and engineer to 
speed up the new village site. The problem is the Newtok 
Traditional Council does not have any funding.
    I know we made a 100 percent Federal partnership agreement 
with the Army Corps of Engineers to assist us on the 
development of our relocation effort.
    There are three funds available. The first is the Planning 
Assistance Program, Alaska Villages Erosion Technical 
Assistance Program, and the Energy and Water Development 
Appropriation Act.
    I would like the full Senate Committee to speed up the 
Newtok relocation to start on the village site before the 
existing village is impacted by erosion.
    Chairman Stevens. Thank you. We'll have some questions 
later.
    [The statement follows:]

                   Prepared Statement of Stanley Tom

    My name is Stanley Tom, Tribal Liaison, for the Newtok Traditional 
Council.
    I have been working with Newtok Traditional Council since 1997 as 
President, before the Newtok Traditional Council became contracted to 
Public Law 93-638.
    We're fairly new with Public Law 93-638, it's our 4th year and we 
are in a learning process.
    Newtok Traditional Council had a 3-year agreement with the Army 
Corps back in October 2001, and it was Planning Assistance to State 
(PAS) project with the agreement for cost-share study relocation 
improvement project.
    Ever since the agreement, I feel it's a slow process and Native 
Village of Newtok needs to lay out the new village site at Nelson 
Island, before the erosion hits the existing village.
    The land exchange was finalized between the Newtok Native 
Corporation and Fish and Wildlife on April 28, 2004 by Secretary of the 
Interior Gale A. Norton.
    The Army Corps of Engineers need to speed up the new village site. 
We had a previous meeting with agencies, and I had a concern with the 
FAA. They said they would not build the airport, only if we moved the 
village site, and it's way too late to build an airport.
    How will we ship the supplies to the new village site when we 
started to build the Township or the new village site such as: barge 
landing area, water infiltration gallery area, the proposed airport 
site, and the area of the proposed village infrastructure area roads 
and streets.
    The ASCG, Inc. made a proposed land use and transportation plan for 
Newtok village back in December of 2001 to Bureau of Indian Affairs. 
During the BIA Providers Workshop, I checked on our proposed 
transportation planning list. We are on the bottom list for fiscal year 
2020. That's way too late for the roads to be built for the new village 
site.
    ASCG, Inc. also made a ``Background for Relocation report'' January 
of 2004, and the report was sent to various agencies. We had some 
replies from the background relocation report, the report covered the 
introduction, village characteristics, summary of erosion problem, it 
contained the erosion problem, statistical analysis of the erosion 
rate, the average annual erosion rate is about 62 to 130 feet per year, 
the existing barge landing is being impacted by the erosion now and by 
2006 it will be gone.
    Under my observation the existing airport will be impacted in the 
year 2011 or less because there are small lakes in that area, and in 
that area our water resource will be impacted first.
    Department of Commerce and Economic Development will be doing a 
community profile mapping of the existing and the new relocation site, 
and I need both to be conducted as soon as possible, especially the new 
village site so we can start working on the environmental review record 
for the new village site.
    The Newtok Traditional Council needs to do a community 
comprehensive planning for the new village site, and I just finished a 
mini-grant for $30,000 from the State of Alaska and I'm hoping it will 
be approved, because the federal and the State will not appropriate any 
funds without the community comprehensive planning for any planning 
funds.
    The Newtok Traditional Council has proved its village move by 
``Background for Relocation Report.'' We need to start establishing the 
new village site this year and if the Army Corps of Engineers are not 
ready to start the new village site, then the Newtok Traditional 
Council should hire an architect and engineers to speed-up the new 
village site. The problem is that the Newtok Traditional Council does 
not have any funding.
    I know we made a 100 percent federal partnership agreement with the 
Army Corps of Engineers to assist us on the development of our 
relocation effort.
    There are three funds available; first program is Planning 
Assistance to State Program (PAS), Alaska Villages Erosion Technical 
Assistance program (AVETA), and Energy and Water Development 
Appropriation Act (EWDA).
    I would like the full Senate Committee to speed-up the Newtok 
relocation effort to start on the new village site, before the existing 
village is impacted by the erosion.

    Chairman Stevens. Mr. Adams. You are chair of the Kivalina 
Relocation Planning Committee.

STATEMENT OF ENOCH ADAMS, JR., CHAIRMAN, KIVALINA 
            RELOCATION PLANNING COMMITTEE
    Mr. Adams. Yes, sir.
    Mr. Chairman and distinguished members of the committee, I 
appreciate the opportunity to testify before you today to 
discuss the flooding and erosion issues affecting Kivalina. I'm 
Enoch Adams, Jr., chairman of the Kivalina Relocation Planning 
Committee.
    With your permission, I would like to present background 
information regarding our relocation efforts, the 
misunderstandings that came about, and a possible solution 
that's deemed necessary by the Kivalina Relocation Planning 
Committee.
    In the late 1980s and early 1990s the subject of relocation 
was brought to Kivalina's attention because the Federal 
Government would not build a water and sewage system due to the 
former and current conditions of our community. At a joint 
meeting of the city of Kivalina and the Native Village of 
Kivalina, a decision was made by both entities to establish a 
planning committee made up of local community members that had 
various differing backgrounds to ensure that all segments of 
the community would be represented. I was appointed to this 
committee to represent the education community because I was a 
teacher at the local high school at the time.
    While I'm not currently a teacher, I'm still a member of 
the committee as the local entities made one of the conditions 
of the committee to be that the members serve in perpetuity so 
that attrition of knowledge be held to a minimum. In other 
words, the less new appointments are made, the less need for 
educating new members.
    Soon after the appointments were made, the Kivalina 
Relocation Planning Committee was formally recognized by the 
local entities and introduced to the community in 1996. 
Shortly, the Northwest Arctic Borough was asked to become 
involved as the lead entity because of the apparent lack of 
resources as to how this whole relocation idea would be 
implemented. Because of the mitigating costs recognized by the 
Federal Government of building a water and sewer system at the 
present site, the Alaska Army Corps of Engineers, Alaska 
District was involved from the beginning.
    Currently, we are in the eighth year of a 5-year planning 
phase. This fact is largely due to the fact that all those 
involved, including the Army Corps of Engineers, have never 
done a comprehensive relocation project where an entire 
community has been moved. Although some of those involved have 
mentioned the fact that such a move is costly is the primary 
reason for the length of time that this has taken.
    According to the original timeline draft by the Corps, 
construction of the site should have begun last summer, in 
2003. But we are at some point in the last half of the planning 
stage. And I have always believed that when the time comes for 
seeking funds for this apparently ``daunting'' project, as the 
GAO report has described it, we do have a legitimate reason to 
ask for such funds. Because, beneath it all, the U.S. 
Government does have the underpinnings of equity. It is that 
sometimes which has to be brought to the surface by anyone 
involved.
    Over the years in countless meetings and discussions both 
public and private by all those involved, some things have been 
said that should not have been said, conclusions have been made 
that are not accurate, especially about our people, and, 
particularly, our community, which has brought some of us to 
the point of not speaking at all. But those of us from Kivalina 
will still continue to strive to have healthy discussions about 
our needs, especially with this relocation effort. We are still 
trying to help others understand where we as a community are 
coming from.
    I do not think that a blanket funding for the Alaskan 
villages is wise. I believe every community's flooding and 
erosion issues are so unique that they need to be dealt with 
individually. My biggest fear regarding this is that some 
community's, or communities', need, or needs, might be 
overlooked. I think we all agree that an expanded role of the 
Federal Government is necessary. We all agree, too, that the 
cost/benefit analysis requirements need to be changed, maybe 
even new ones be added.
    I further believe that it is incumbent of us to remind the 
Federal Government of its trust responsibility to tribes, which 
brings me to my last point.
    As you may understand why, I purposely did not go into 
detail about the misunderstandings that resulted. I also need 
to mention that yesterday some stated that they represent all 
the villages in Alaska. I respectfully disagree with that 
statement because what I further heard, I disagree with. And I 
do not think I need to go into detail what it was because of 
the solution I think that is needed.
    In Kivalina we do have an excellent working relationship 
with the Native Village of Kivalina. In the memorandum of 
agreement between the city of Kivalina, the Native Village of 
Kivalina, and the Northwest Arctic Borough, for some reason or 
reasons only the Native Village of Kivalina has backed up its 
responsibilities with both financial and staffing requests from 
the KRPC. Because of certain Federal agencies' trust 
responsibility to tribes, the Native Village of Kivalina is in 
a unique position to work directly with the U.S. Congress.
    I do not think an expanded role of the Denali Commission is 
necessary because they may just end up repeating services that 
can be capably done by the Native Village of Kivalina. I need 
to mention that for several years the KRPC functioned very well 
when we received funds through the Native Village of Kivalina 
to hire a local relocation coordinator, which is called for in 
the memorandum of agreement. I know that if this sort of 
relationship is established with the Federal Government 
regarding our village relocation, that the needs of our people 
will be met.
    Thank you for listening to my testimony, and I will try my 
best to answer any questions that you may have.
    Chairman Stevens. Thank you very much. Appreciate that.
    Ms. Eningowuk.

STATEMENT OF LUCI ENINGOWUK, CHAIRPERSON, SHISHMAREF 
            EROSION AND RELOCATION COALITION
    Ms. Eningowuk. The Shishmaref Erosion and Relocation 
Coalition thanks you for this opportunity to testify before you 
today.
    I am Luci Eningowuk, Chairperson of the Coalition, which is 
made up of the governing bodies of the city of Shishmaref, the 
Native Village of Shishmaref, and the Shishmaref Native 
Corporation. We have also representatives from the youth 
council and the elder council. I wish to state that the elders 
are an integral part of our planning.
    Shishmaref is where it is because of what the ocean, 
rivers, streams, and land provide to us. If the water and land 
couldn't sustain us, we would have moved out long ago. 
Subsistence is our economic base. Why do you work if not to 
feed your families? Our grocery store is out there, in the 
water and on the land. We are Shishmaref; we are Inupiaq 
Natives. Subsistence is our way of life. We are hunters and we 
are gatherers. Who and what we are is based on how we live and 
the way we live. We have been here for countless generations. 
We value our way of life; we value the environment as it 
sustains us; it provides for our very existence.
    I have been very fortunate in my life. I have traveled to 
many places, including the home of our Federal Government, 
Washington, DC. I have seen our national treasures. Shishmaref, 
too, is a national treasure. But right now we are holding on as 
we watch the sea eat away at everything we, and you, have 
built.
    We are proud people. It is very difficult for us to ask for 
your assistance, but we do ask for it, for our very existence, 
for my people. Please remember that we are your people, too. I 
am here to ask for your help.
    We have provided a packet for you with additional 
information, photos, and a CD with a video file of the November 
2003 storm.
    I plan to address four points that are important to the 
Village of Shishmaref. They are relocation of the existing 
community to the mainland, ongoing beach erosion and efforts to 
minimize its impact, lack of funding for immediate 
infrastructure needs, and the need for State and Federal multi-
agency coordination.
    The Coalition is committed to the relocation of the 
community. A relocation project is underway and is currently in 
its early planning stage. The relocation project must be 
completed as the integrity of our community is dependent upon 
it.
    Our goal for the project is to provide expedited relocation 
of the community to the mainland. Within this effort the 
project must provide both a safe place to live and conditions 
that support the subsistence lifestyle for the people of 
Shishmaref. The people of Shishmaref are committed to keeping 
our community intact and we are committed to our heritage, 
which includes the subsistence way of life passed on to us by 
our ancestors.
    The community was established as a year-round settlement as 
a result of the introduction of Government services, including 
education and health care. Also, tribal members moved within 
our traditional lands for the subsistence harvest. We, like our 
ancestors, follow the seasons.
    Every year, until the protective winter pack ice returns, 
we agonize whether the next storm will be the one that wipes us 
out. To date, we have lost numerous buildings and boats, an 
ATV, snow machines, meat-drying racks and buried food. 
Tragically, we have lost one home. So far we have been able to 
move 18 threatened homes to the National Guard Armory building. 
Moving these structures is a labor-intensive process. We are 
quickly running out of space on our ever-shrinking island.
    The community of Shishmaref had determined that the threat 
to life from reoccurring beachfront erosion required immediate 
action.
    I want to cover my points; I have four.
    One, relocation of the existing community to the mainland.
    The community has expressed and reconfirmed its desire to 
retain community integrity through relocation. Overwhelming 
support was shown through a community-wide vote held on July 
10, 2002. The community and Coalition would like to stress the 
immediacy of the problem and continue to push for an expedited 
relocation of Shishmaref to a place on the nearby mainland 
location, Tin Creek.
    The Coalition, with the support of the Kawerak, has to date 
coordinated a significant number of agencies, including the 
National Resources Conservation Service. I wish to take a 
moment to thank NRCS for their work in assessing suitable 
relocation sites. Their resource team has shown the greatest 
respect of our needs and has proven that working with a high 
level of cooperation is possible. With the assistance of the 
NRCS we have narrowed the search for our mainland location.
    Others that we have worked with include the U.S. Army Corps 
of Engineers, Alaska Department of Community and Economic 
Development, and local and regional entities. Our experience 
has shown that there's a lack of continuity between the various 
Federal and State agencies and programs. There is an extensive 
amount of executive branch interpretation.
    For the most part we have found that none of the agencies 
have programs that cover a full range of our needs. Matching 
requirements in many cases are exorbitant, precluding us from 
qualifying for assistance, as Shishmaref has no viable funding 
source.
    Our community is heavily reliant on subsistence, as are 
most rural Alaskan communities. Our diet is based on the 
animals and plants found nearby. Relocation of our community to 
an area away from our home territory would have a devastating 
effect on how we exist and who we are.
    Consolidation with another community is not acceptable as 
it will cause extensive competition for subsistence foods and 
depletion of natural resources. Our way of life is centered 
around subsistence; it is the driving force of our existence. 
This is illustrated by the scattering of Alaska Native villages 
across the State.
    The no-action option for Shishmaref is the annihilation of 
our community by dissemination. We are a community tied 
together by family, common goals, values, and tradition. We are 
different from our neighbors. The community of Shishmaref has a 
long and proud history. We are unique and need to be valued as 
a national treasure by the people of the United States. We 
deserve the attention and help of the American people and the 
Federal Government.
    Our plight has attracted statewide, national, and 
international attention. To date we have provided information 
to numerous media organizations. The international press is 
particularly interested to know what the Federal Government is 
doing to help us.
    Two, ongoing beach erosion and efforts to minimize its 
impact.
    The use of Federal funds places a requirement for advance 
planning. This requirement precludes an immediate relocation as 
an intact community, because we anticipate that even an 
expedited relocation will take years to prepare for. In the 
meantime, we continue to seek assistance to provide shoreline 
protection for the immediate community. Our Strategic 
Relocation Plan for resettlement is anticipated to begin by 
2009.
    Kawerak, our regional nonprofit tribal government 
consortium applied for and built on our behalf a 450-foot armor 
rockgabion seawall. The funding came from the Indian 
Reservation Roads, IRR, program which allows 100 percent 
Federal funding. Nineteen villages that participated in 
Kawerak's program helped to fund our project with funds 
identified for their benefit by the IRR program.
    We have been approved for a section 14, emergency shoreline 
protection project with the Army Corps of Engineers. The 
project is to provide protection for the shoreline in front of 
our school, approximately 230 feet. The section 14 has a $1 
million Federal cap and requires a 35 percent match. The State 
has committed to provide the local match for this project; 
however, it is very difficult for the State to come up with 
funding for these projects. Therefore, we request that the 
Federal Government waive the cost-share requirement for the 
Alaska Native village projects associated with flooding and 
erosion.
    In addition, Shishmaref has worked closely with the State 
to find additional funding to protect an additional 3,000 feet 
of the community. The legislature has put $2 million in 
appropriations, but the appropriation is not yet finalized. 
These funds are intended to provide for local match to Federal 
programs. We continue to have serious concerns that these funds 
would be required to go toward feasibility studies instead of 
construction.
    We recommend that Federal programs designed to help 
communities at risk must be redesigned by Congress to minimize 
burdensome planning requirements. The emphasis must be on 
funding actual construction. In addition, amendments to 
legislation must be written that consider the ability of a 
community to fund the local match or the local match 
requirement should be allowable.
    Disaster programs are designed to do cleanup after the 
emergency rather than allocating funds for prevention. Both the 
State and Federal agencies have told us they couldn't provide 
assistance until a disaster declaration has been made. The 
declaration itself requires a dollar value for the damage. In 
our case, because no value is provided for the lost land and 
because we have been able to take homes out of harm's way, we 
don't qualify. Alaska Natives don't have the infrastructure 
found elsewhere in the United States; therefore, there is 
little value assessed when there are losses within Alaska's 
rural communities.
    Three, lack of funding for immediate and future 
infrastructure needs.
    Shishmaref does not have modern water and sewer. 
Honeybucket haul systems are located in front of every two to 
four homes. The city hauls these containers to the landfill 1.5 
miles to the west end of the island. In 2002 shortly after the 
community voted to relocate, we learned that the agencies who 
had previously identified infrastructure projects for 
Shishmaref would no longer provide us with assistance, such as 
a new clinic, tank farm, water and sewer. We believe that the 
decision made by funding agencies to either assist or not needs 
to take into consideration the human impacts.
    Alaska Village Electric, AVEC, designed our tank farm 
project so that it could be relocated, however, this was not 
acceptable to the funding agency, the Denali Commission. We 
prefer that the water and sewer project be reserved for our 
relocation site. Haphazard actions and decisions have far-
reaching negative social and economic impacts.
    Currently, there is no infrastructure at the new site. We 
request assistance to build an emergency evacuation building at 
the Tin Creek relocation site, a structure that would be the 
command center and provide room for evacuation offices, clinic, 
school, and warehouse for emergency supplies should the island 
have to be evacuated. Continued development of current basic 
essential health and sanitation needs must be done. The 
community needs a healthy environment.
    We don't know the actual costs to relocate the village. We 
believe that much of the infrastructure that will be needed for 
the new location has been moved from our current location. 
Because of this, the deferred infrastructure development that 
would have been needed on the island, roads, clinic, water, 
sewer, et cetera, should be considered in the equation of 
calculating the costs of relocation.
    Four, the need for State and Federal multi-agency 
coordination.
    The process of relocating an entire community requires 
extensive inter-agency cooperation and coordination. There is 
currently no one agency stepping forward to take the lead. To 
be blunt, no agency's programs are designed to provide for a 
project as complex as a full village relocation. Each agency 
has its own responsibility, and often there is a gap in 
responsibility from program to program.
    We have reviewed the GAO report completed in December 2003 
and we encourage you to consider their recommendations. We 
strongly agree that the coordinated effort to address issues 
caused by erosion and flooding of the threatened Alaska Native 
villages is necessary. We believe that whichever agency is 
assigned to lead the effort, it must be one that has proven 
itself to be reliable in addressing the needs of Alaska Native 
villages.
    The situation facing Shishmaref needs to be categorized as 
an emergency, and overly burdensome Federal regulations must be 
eased. Many Federal requirements drive up the costs. We believe 
that the relocation could be accomplished at a significantly 
reduced cost if the agencies were allowed to act under 
emergency exceptions and if the agencies were not required to 
implement overly burdensome feasibility studies and cost-
benefit analysis. We are not requesting a lessening of the 
engineering or NEPA requirements, but an approach that utilizes 
common sense.
    The GAO report provides excellent recommendations to 
address the needs of Alaska Native villages threatened by 
erosion and flooding. We urge Congress to take action based on 
their report. However, our situation is urgent. We are unlikely 
to survive until new statutes, regulations, or policies can be 
developed and implemented.
    Because of this, we request that Shishmaref be identified 
as a demonstration project with maximum flexibility authorized 
and that it be used to help determine what changes are needed 
in the statutes, regulations, and policies overall.
    Shishmaref does not have the necessary internal 
administrative capacity to facilitate such a massive effort 
without additional funding and technical assistance. Kawerak 
provides staff support and facilitation to Shishmaref, but is 
limited primarily to the transportation components of the 
relocation. Shishmaref requests additional assistance from the 
Federal Government.
    I thank you for this opportunity to testify before you and 
to share with you my home, Shishmaref.
    Chairman Stevens. Thank you very much. Excellent statement.
    [The statement follows:]

                  Prepared Statement of Luci Eningowuk

    The Shishmaref Erosion and Relocation Coalition thank you for this 
opportunity to testify before you today. I am Luci Eningowuk, 
Chairperson of the Coalition. The Coalition is made up of the governing 
bodies of the City of Shishmaref and the Native Village of Shishmaref 
(the federally recognized tribe), and the board of the Shishmaref 
Native Corporation. We have provided a packet for you today with 
additional information, photos, and a CD with a video file of the 
November 2003 storm.
    I plan to address four points that are important to the community 
of Shishmaref. They are: (1) relocation of the existing community to 
the mainland; (2) ongoing beach erosion and efforts to minimize its 
impact; (3) lack of funding for immediate infrastructure needs; and (4) 
the need for state and federal multi-agency coordination.
    The Coalition is committed to the relocation of the community. A 
relocation project is underway and is currently in its early planning 
stage. The relocation project must be completed, as the integrity of 
our community is dependent upon it. Our goal for the project is to 
provide for an expedited relocation of the community to the mainland. 
Within this effort, the project must provide both a safe place to live 
and conditions that support the subsistence life style for the people 
of Shishmaref. The people of Shishmaref are committed to keeping our 
community intact, and we are committed to preserving our heritage, 
which includes the subsistence way of life passed on to us by our 
ancestors.
    Before I begin, on behalf of the Coalition, I must commend the 
United States Department of Agriculture's Natural Resource Conservation 
Service (NRCS), for their work in assessing suitable relocation sites. 
Their research team has shown the greatest respect of our needs, and 
has proven that working with a high level of cooperation is possible. 
To date, the NRCS has assessed nine sites identified by the community. 
With their assistance, we have narrowed the search for a mainland 
location.

Introduction--Background
    The community of Shishmaref is situated on a barrier island no 
wider than one-quarter of a mile and 3 miles in length. Shishmaref is 
located approximately 20 miles south of the Arctic Circle and 50 miles 
northeast of the Bering Strait. The community is home to 600 people 
mostly consisting of Inupiaq Natives. The community is a traditional 
native village that is heavily reliant on subsistence lifestyle 
activities based in and around the Chukchi Sea. The local economy is 
subsistence based, supplemented by part-time and seasonal jobs, and the 
sale of traditional arts and crafts.
    The community, was established as a year round settlement, as a 
result of the introduction of government services including education 
and health care. Prior to this, tribal members moved within our 
traditional lands for the subsistence harvest. Our ancestors followed 
the seasons, moving from the rivers and streams, to the coast, and then 
on to the coastal islands. This tradition is still followed today.
    Our subsistence lifestyle takes us to our camps in numerous 
locations along the mainland and coastal islands. We travel by 
snowmachine over the ice and by boat when the ice is no longer safe. 
Our primary subsistence foods include: bearded seal, walrus, fish 
(salmon, white fish, trout, and herring) moose, musk-oxen, caribou, 
ducks, geese, ptarmigan, berries (salmon berries, blackberries, 
blueberries, and cranberries), and assorted greens. To preserve the 
fish and meat, we hang it on drift wood racks to dry. Many of our 
residents store their food in the permafrost to provide natural cold 
storage. Subsistence foods are also stored in containers of seal oil, 
which is a natural preservative.
    The land under Shishmaref is a fine, silty sand that is highly 
vulnerable to erosion. Permafrost is prevalent throughout the area and 
normally is found at a depth of 3 feet. The permafrost binds the moist 
sand together and helps slow the rate of erosion. On average, the 
island's northern shore has experienced erosion of 3-5 feet per year. 
Higher rates of erosion were experienced during the storms of: November 
9th and 10th, 1973; October 4th, 1997; October 7th, 2001; and most 
recently November 21st and 22nd, 2003. During these storms, highly 
susceptible areas had losses of as much as 125 feet horizontal 
distance.
    Every year, until the protective winter pack ice returns, we 
agonize that the next storm will be the one that wipes us out. To date, 
we have lost numerous storage buildings and boats, an ATV, 2 
snowmachines (snowmobile), meat-drying racks, and buried food. 
Tragically we have lost 1 home; so far we have been able to move 18 
threatened homes and the National Guard Armory. Moving the structures 
is a labor-intensive process, which includes placing the structure on 
beams, hooking them up with heavy chains, and dragging them to a safer 
location on the island utilizing available heavy equipment. However, 
those of us living here know, that it is merely a matter of time before 
we experience greater losses. We are quickly running out of space on 
our ever-shrinking island.
    We experience erosion creeping in from both the southern lagoon 
side and the northern Chukchi Sea side of the island. High tide is 3 
feet higher than the normal tide. During high tide storms, the wave 
action can increase an additional 3 feet or more above the high tide. 
The impact to the island is that more of the exposed bluff is in direct 
contact with the water, erosion is accelerated, more of the bluff is 
undercut, and in many locations the waves crest over the bluff.
    The community of Shishmaref had determined that the threat to life 
and property from reoccurring beachfront erosion required immediate 
action. The community established the Erosion and Relocation Coalition. 
The makeup of the Coalition is the governing members of the City of 
Shishmaref and the Native Village of Shishmaref (Indian Reorganization 
Act), the board of the Shishmaref Native Corporation, along with 
representation from the Elder and Youth Councils. The Coalition was 
formed to provide a unified community voice, One People, One Voice, to 
seek assistance in providing immediate erosion protection for the 
island while we focus our efforts on relocation to the mainland.
    Shishmaref is not alone; other Alaska Native Villages are facing a 
significant threat from ongoing global climate changes. Areas that have 
in the past been protected by our durable permafrost are now at risk. 
More and more communities are reporting problems with persistent 
erosion and flooding.

Relocation of the existing community to the mainland
    The situation at Shishmaref is dire, and we believe that a disaster 
is pending that will cause loss of life and property. The rate of 
erosion and the number of flooding events has accelerated. Even though 
the storms have been moderate in level, the damage is more severe in 
recent years. The community has expressed and reconfirmed its desire to 
retain community integrity through relocation. Overwhelming support was 
shown through a community wide vote held on July 10, 2002. The 
community and Coalition would like to stress the immediacy of the 
problem and continue to push for an expedited relocation of Shishmaref 
to a safe place on the nearby mainland location--Tin Creek.
    The Coalition, with the support of Kawerak, Inc., has to date 
coordinated and communicated with: NRCS, the U.S. Army Corps of 
Engineers, Alaska Department of Community and Economic Development, the 
Federal Emergency Management Agency, the Alaska Division of Emergency 
Services, the National Park Service, the Alaska Native Health 
Consortium, the Bureau of Indian Affairs, the Bureau of Land 
Management, the Bering Straits Native Corporation, the Bering Straits 
Regional Housing Authority, the Alaska Village Electric Cooperative, 
Tel-Alaska, the Alaska Department of Transportation and Public 
Facilities, Housing and Urban Development, the Alaska Federation of 
Natives, the State House and Senate, and we have worked with our Alaska 
congressional delegation. Our experience has shown that there is a lack 
of continuity between the various federal and State programs and 
agencies. There is an extensive amount of executive branch 
interpretation. For the most part, we have found that none of the 
agencies have programs that cover the full range of our needs. Matching 
requirements, in many cases are exorbitant, precluding us from 
qualifying for assistance, as Shishmaref has no viable funding source.
    Our community is heavily reliant on subsistence, as are most rural 
Alaska Native Communities. Our diet is based on the animals and plants 
found nearby. Relocation of our community to an area away from our home 
territory would have a devastating impact on how we exist and who we 
are. Consolidation with another community is not acceptable, as it will 
cause extensive competition for subsistence foods, and depletion of 
natural resources. Our way of life is centered around subsistence; it 
is the driving force of our existence. This is illustrated by the 
scattering of Alaska Native Villages across the State.
    The no action option for Shishmaref is the annihilation of our 
community by dissemination. We are a community tied together by family, 
common goals, values, and traditions. We are different from our 
neighbors. The community of Shishmaref has a long and proud history. We 
are unique, and need to be valued as a national treasure by the people 
of the United States. We deserve the attention and help of the American 
people and the federal government.
    Our plight has attracted statewide, national, and international 
attention. To date, we have provided information to the following media 
organizations; regional media, AP Wire, Anchorage Daily News, KTUU 
Channel 2--Anchorage, Alaska Public Radio, The New York Times, People 
Magazine, The New Yorker Magazine, National Geographic, The Weather 
Channel, plus several international media groups from Canada, Britain, 
Japan, France, Germany, Norway, and the calls keep coming. The 
international press is particularly interested to know what the federal 
government is doing to help us.

Ongoing beach erosion and efforts to minimize its impact
    The use of federal funds places a requirement for advance planning. 
This requirement precludes an immediate relocation as an intact 
community. Because of this, we anticipate that even an expedited 
relocation will take years to prepare for. In the meantime, we continue 
to seek assistance to provide shoreline protection for the immediate 
community. Our Strategic Relocation Plan for resettlement is 
anticipated to begin by 2009.
    Kawerak, Inc. our regional non-profit tribal government consortium 
applied for and built on our behalf, a 450 foot armor rock gabion 
seawall. The funding came from the Indian Reservation Roads (IRR) 
program (23 U.S.C 200-204), which allows 100 percent federal funding. 
Nineteen villages that participate in Kawerak's program helped to fund 
our project, with funds identified for their benefit under the IRR 
program. The project was developed to protect the main street in the 
community and the road to the airport, at their locations closest to 
the threatened bluff. Five barges of rock were brought in from Cape 
Nome. Kawerak barged in heavy equipment and used local labor to build 
the project. The cost of the project was in excess of $2 million. 
Kawerak attempted to develop a cooperative project with the Army Corps 
of Engineers, but found that the Corps' programs would have used all 
funds as local match for federally required feasibility studies (a 
requirement under a majority of the Corps' programs). There was too 
great a risk that the Corps would find that the project was not in the 
best interest of the federal government. With the village's immediate 
plight, the decision was made for Kawerak to go forward to plan, 
design, and construct the 450 foot seawall. From the time of this 
decision, it took approximately 2 years to develop and build the 
project. Kawerak worked closely with Shishmaref, the Corps, the NRCS, 
and the Bureau of Indian Affairs in the development of the project.
    We have been approved for a Section 14, Emergency Shoreline 
Protection Project with the Army Corps of Engineers. The project is to 
provide protection for the shoreline in front of our school, 
approximately 230 feet. The Section 14 has a $1 million federal cap and 
requires a 35 percent match. The State has committed to provide the 
local match for this project. We request that the federal government 
waive the local cost share requirements for Alaska Native Village 
projects associated with flooding and erosion.
    In addition, Shishmaref has worked closely with the State to find 
additional funding to protect an additional 3,000 feet of the 
community. The legislature has put $2 million into appropriations, but 
the appropriation is not yet final. These funds are intended to provide 
for local match to Federal programs. However, we continue to have 
serious concerns that these funds would be required to go towards 
feasibility studies instead of construction. We recommend that federal 
programs designed to help communities at risk, must be redesigned by 
Congress to minimize burdensome planning requirements. The emphasis 
must be placed on funding actual construction. In addition, amendments 
to legislation must be written that considers the ability of a 
community to fund the local match, waiving the local match requirement 
should be allowable.
    Disaster programs are designed to do cleanup after the emergency, 
rather then allocating funds for prevention. Both the State and federal 
agencies have told us they couldn't provide assistance until a 
``Disaster Declaration'' has been made. The declaration itself requires 
a dollar value for the damage. In our case, because no value is 
provided for the lost land, and because we have been able to tug homes 
out of harms way, we don't qualify. Alaska Native Villages don't have 
the infrastructure found elsewhere within the United States, therefore 
there is little value assessed when there are losses within Alaska's 
rural communities.

Lack of funding for immediate and future infrastructure needs
    Shishmaref does not have modern water and sewer. The City hauls 
water to individual homes where there are interior storage tanks 
ranging in capacity from 32-200 gallons. Honey bucket haul systems 
(septic handling), with a capacity of 200 gallons, are located in front 
of every 2-4 homes. The City hauls these containers to the landfill 1.5 
miles to the west end of the island. In 2002, shortly after the 
community voted to relocate, we learned that agencies who had 
previously identified infrastructure projects for Shishmaref would no 
longer provide us with assistance (new clinic, tank farm, water and 
sewer). We believe the decision made by funding agencies to either 
assist or not, needs to take into consideration the human impacts. We 
had passed an ordinance that required that all new construction must be 
moveable. Alaska Village Electric (AVEC) had designed our tank farm 
project so that it could be relocated, however, this was not acceptable 
to the funding agency, the Denali Commission. We prefer that the water 
and sewer project be reserved for our relocation site. Haphazard 
actions and decisions have far reaching negative social and economic 
impacts.
    Currently, there is no infrastructure at the new site. We request 
assistance to build an emergency evacuation building at the Tin Creek 
Relocation Site. A structure that would be the command center and 
provide room for evacuation offices, clinic, school, and warehouse for 
emergency supplies, should the island have to be evacuated. Continued 
development of current basic essential health and sanitation needs must 
be done. The community needs a healthy environment.
    We don't know the actual costs to relocate the village. We believe 
that much of the infrastructure that will be needed for the new 
location has been deferred from our current location. Because of this, 
the deferred infrastructure development that would have been needed on 
the island (roads, clinic, water and sewer, etc.) should be considered 
in the equation of calculating the costs for the relocation.

The need for state and federal multi-agency coordination
    The process of relocating an entire community requires extensive 
interagency cooperation and coordination. There is currently no one 
agency stepping forward to take the lead. To be blunt, no agency's 
programs are designed for a project as complex as a full village 
relocation. Each agency has its realm of responsibility, and often 
there is a gap in responsibility program to program. We have reviewed 
the GAO report (GAO-04-142) completed in December 2003 and encourage 
you to consider their recommendations. We strongly agree that a 
coordinated effort to address issues caused by erosion and flooding of 
the threatened Alaska Native Villages is necessary. We believe that 
whichever agency is assigned to lead the effort, must be one that has 
proven itself to be proactive in addressing the needs of Alaska Native 
Villages.
    The situation facing Shishmaref needs to be categorized as an 
emergency. Overly burdensome federal regulations must be eased. Many of 
the federal requirements drive up the costs. We believe that the 
relocation could be accomplished at a significantly reduced cost if the 
agencies were allowed to act under emergency exceptions, and if the 
agencies were not required to implement overly burdensome feasibility 
studies and cost benefit analysis. We are not requesting a lessening of 
the engineering or NEPA requirements but an approach that utilizes 
common sense.
    The GAO report provides excellent recommendations to address the 
needs of Alaska Native Villages threatened by erosion and flooding. We 
urge Congress to take action based on their report. However, our 
situation is urgent, we are unlikely to survive until new Statutes, 
Regulations, or Policies can be developed and implemented. Because of 
this, we request that Shishmaref be identified as a demonstration 
project with maximum flexibility authorized, and that it be used to 
help determine what changes are needed in the Statutes, Regulations, 
and Policies overall.
    Shishmaref does not have the necessary internal administrative 
capacity to facilitate such a massive effort without additional funding 
and technical assistance. Kawerak, Inc. provides staff support and 
facilitation to Shishmaref, but is limited primarily to the 
transportation components of the relocation. Shishmaref requests 
additional assistance from the federal government.

Conclusion
    Shishmaref is where it is because of what the ocean, rivers, 
streams, and the land provide to us. If the land and water couldn't 
sustain us, we would have moved on long ago. Subsistence is our 
economic base; why do you work if not to feed your families? Our 
grocery store is out there, in the water and on the land.
    We are Shishmaref, we are Inupiaq Natives. Subsistence is our way 
of life, we are hunters and we are gatherers. Who and what we are is 
based on where we live and the way we live. We have been here for 
countless generations. We value our way of life, we value the 
environment as it sustains us; it provides for our very existence.
    I have been very fortunate in my life; I have traveled to many 
places including the home of our federal government, Washington, D.C. I 
have seen our national treasures. Shishmaref too, is a national 
treasure. But, right now, we are barely holding on, as we watch the sea 
eat away at everything we, and you, have built.
    We are a proud people, it is very difficult for us to ask for your 
assistance. But we do ask for it, for our very existence, for my 
people, please remember, that we are your people too, I am here today 
to ask for your help.
    Thank you for this opportunity to testify before you today, and to 
share with you about my home, Shishmaref.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Shishmaref Measurements 06-14-04

1--Tannery Building
2--Cottage Building
3--Charlene Ningealook
4--Alfred Pootoogooluk
5--Archie Kiyutelluk
6--Jim/Janet Barr
7--Alvin Pootoogooluk Sr.
8--Bill Jones
9--East--Bulk Tank
10--West--Bulk Tank
11--Margie Ningealook
12--Winfred Obruk
13--Nora Kuzuguk
14--Jenny Kuzuguk
15--Red School
16--Blue School
17--Native Store Warehouse
18--Lloyd Kiyutelluk
19--Shelton Kokeok
20--Signa Kokeok
21--Nathan Weyiouanna

Current estimated beach line:
  Measurement edge to building <r-arrow>
  PHomes moved 2002 


                                                                            SHISHMAREF EROSION MEASUREMENTS 2001-2004
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                     Distance from
                              Location                                 Edge Fall     July 1, 2002       Loss        November        Loss        November       Loss       June 14,       Loss
                                                                          2001                                      11, 2003                    25, 2003                    2004
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Tannery:
    Tannery Bldg...................................................          124            122.5            1.5          118            4.5          118            0          117            1
    Cottage Industry...............................................           64             61              3             57            4             57            0           54            3
Houses:
    Charlene Ningealook............................................          300            300              0            258           42            255            3          250            5
    Alfred Pootoogooluk............................................          205            205              0            201            4            200            1          195            5
    Archie Kiyutelluk..............................................          200            200              0            188           12            172           16          172            0
    Jim/Janet Barr.................................................          190            190              0            144           46            144            0          144            0
    Alvin Pootoogooluk Sr..........................................          195            195              0            195            0            195            0          195            0
    Bill Jones.....................................................           90             90              0             72           18             66            6           58            8
Bulk Tanks:
    East...........................................................           65             65              0             57            8             31           26           30            1
    West...........................................................           69             69              0             61            8             25           36           24            1
Houses:
    Margie Ningealook..............................................          105            104              1             86           18             60           26           60            0
    Winfred Obruk..................................................          105             94             11             67           27             67            0           67            0
    Nora Kuzuguk...................................................          100             89             11             67           22             58            9           52            6
    Jenny Kuzuguk..................................................          100             89             11             75           14             66            9           53           13
    Red School.....................................................           72             66              6             42           24             20           22           16            4
    Blue School....................................................           47.5           38              9.5           17           21             17            0           17            0
    Native Store: Warehouse........................................           50             50              0    ...........           50    ...........            0  ...........            0
Houses:
    Lloyd Kiyutelluk...............................................           66             66              0             61            5             57            4           43           14
    Shelton Kokeok.................................................           55             55              0             32           23             31            1           21           10
    Signa Kokeok...................................................          117            117              0             91           26             90            1           80           10
    Nathan Weyiouanna..............................................           65.5           65.5            0             13           53              5            8            1            4
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

                                                                                                                                                                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                                                                                                                                                     
                    Looking west from center of town
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                           Teachers quarters
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       Center of town beach front
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                      Center of town looking east
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                         Homes and drying racks
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                West end permafrost exposed and melting
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              Final work Kawerak Seawall Project--450 feet
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Stevens. Mr. Rexford.

STATEMENT OF FRANKLIN REXFORD, TRIBAL ADMINISTRATOR, 
            NATIVE VILLAGE OF KAKTOVIK
    Mr. Rexford. Thank you, Mr. Chairman, members of the 
committee. Thank you very much for giving Kaktovik the 
opportunity to give you at least an oral understanding of the 
things that are happening there in Kaktovik as far as erosion 
is concerned.
    I just want to touch on three things that are affecting the 
people of Kaktovik. We are working with the Department of 
Defense. The Air Force is working to protect the landfill that 
has been capped that was used since 1947 by the military, and 
this is a serious situation that we are finding that needs 
improvement. We want to continue working with the Air Force on 
the restoration advisory committee or restoration advisory 
board with the Air Force.
    The other project that we are working on at this time with 
the North Slope Borough is the FAA master plan on the airport 
relocation. The location has not been selected yet, but we are 
just commencing a government-to-government relation with the 
FAA that just started this past week. We also are working on a 
government-to-government relation with the Department of 
Defense to work on the various--couple of issues that really 
affect our people.
    My name is Franklin Rexford. I'm the Tribal Administrator 
of the Native Village of Kaktovik. I was born and raised in 
Kaktovik. I have been outside for higher education. I've been 
working with the Native Village since 1970. I've grown up and 
seen that our coastline has been affected.
    In 1914 several Canadian archaeologists and anthropologists 
excavated numerous cabins and graves, and I'm glad that they 
took the ones on the runway. In 1914 there were 76 things that 
were excavated with over 3,000 specimens saved in Canada. I was 
going to say that those at least have been saved--the military, 
when they built a runway, built it on the barrier island there. 
So we are fortunate the Canadian explorers to excavate and at 
least save a few specimens.
    In conjunction with that, there is an island called Airy 
(ph) Island. It's a point where it's called ``a place to go 
listen.'' It's a local treasure or historical treasure and has 
not been logged under the U.S. historical sites and places. We 
are sitting here and we're worrying about the artifacts and 
archaeology and our history on that part.
    But one important thing is the landfill. We know that the 
military in 1947 came to Barter Island and started a landfill. 
It's right on the bluff. They built about three or four berms 
to try to prevent--in front of the landfill where the gravel is 
gathering, it's about half a mile further away from where they 
wanted the gravel to build up because of the landfill that's 
there. God knows what's in there; PCB, lead paint, all kinds of 
stuff that the military dumped and it's right on the bluff.
    So they built these berms, building up gravel at another 
location. What they should have done is put it a little bit 
further west of the landfill and probably could have put a lot 
more gravel or more protection for the landfill. So that's our 
concern, because that landfill is about 300 yards from where we 
land or butcher our whales.
    We're allowed--we're a whaling community, and the west side 
of where we butcher our whales there's all the debris and 
stuff, garbage collecting along the beach. So that is a very 
serious situation we want to continue working with and maybe 
provide more funding to cap our--dig up all that garbage and 
get rid of that. It's just going to keep happening. The stuff 
that they have now is working, but it's being damaged every 
year.
    So the military has spent several hundred, maybe millions 
of dollars trying to protect that landfill. The airport, you 
heard--got written testimony on the airport from the FAA on the 
Kaktovik hub. The airport is owned by the military. It's leased 
by the Borough where they operate and lease the airport, but 
it's prone to flooding every year now. You can see that every 
year. But the runway has to be closed down 2 or 3 days of the 
year because of the weather.
    We've seen the stuff that they put on the honeycombs and 
the 55-gallon barrels, those are rotting out, and they really 
need to close that down. We are working with the FAA to 
relocate the airport. The villages were moved in 1947 when the 
military came in and in 1964, so we were fortunate we moved in 
1964, otherwise our houses and infrastructure would probably be 
falling off like Shishmaref or Kivalina or other places.
    So we're fortunate on that end. But our runway and landfill 
are the two most serious impacts to our village as far as 
health is concerned. The landfill is very serious and the FAA 
is working with the village to try and find the most economical 
place to build an airport.
    In light of that, I'll just summarize that there are three 
islands that I am concerned about. I'm concerned about the 
airport relocation, the landfill with the military, and our 
local historical treasures that haven't been made up with 
historical sites and places like Point Hope has. So with that--
Senator Murkowski asked for words on the Corps of Engineers.
    We are working with the folks there. We are fortunate to 
work with the Department of Defense Restoration Advisory Board, 
we've worked with the Corps and the DEC and the people of 
Kaktovik. So we're watching the cleanup and we're keeping an 
eye on the landfill and we're concerned about the runway.
    Thank you very much.
    Chairman Stevens. Thank you very much. The water on the 
runway is coming from the ocean, from the Arctic Ocean?
    Mr. Rexford. Yes. There is a barrier island north of the 
runway, but there's a channel where with the storm surge we get 
the strong west winds and it floods the east end of the runway.
    Chairman Stevens. And that's still under lease from the Air 
Force?
    Mr. Rexford. Yes. The military people own the runway.
    Chairman Stevens. Who built the landfill?
    Mr. Rexford. The military. With the airport, if they're 
going to relocate, they have to move the landfill 2 miles away 
from the airport and where they selected is near the beach.
    Chairman Stevens. The landfill you're talking about is the 
one that was built by the Air Force?
    Mr. Rexford. Yes, built by the military and it's closing.
    Chairman Stevens. Mr. Tom, you're one of the areas that's 
listed as being critical by the GAO.
    Mr. Tom. Yes, sir.
    Chairman Stevens. And are you working with the Corps now on 
a plan?
    Mr. Tom. Yes, sir.
    Chairman Stevens. You indicated you have a background for 
relocation report.
    Mr. Tom. Yes, we do.
    Chairman Stevens. You prepared that?
    Mr. Tom. Yes, I did, with the BIA's help. I knew it had to 
be done to prove the Newtok--the erosion impact. The village 
vote--we selected five sites and we discussed them for about 20 
years, and now we had our last vote back in August 2003. The 
majority voted for Nelson Island.
    Chairman Stevens. This answers one of the questions that 
Senator Burns had about the location with regard to the bluff.
    Can you tell us on this where is the site for the new--the 
new site for the village?
    Mr. Tom. It's on Nelson Island, on the peak of Nelson 
Island. In this map you can't see it, but it's--you can see the 
river here. Nelson is about here (indicating). It's about 45 
miles from this existing to Nelson Island.
    Chairman Stevens. Is the community in agreement about that 
site for relocation?
    Mr. Tom. I didn't hear you, sir.
    Chairman Stevens. Has the community agreed to that site for 
relocation?
    Mr. Tom. Yes, we have. We have the vote. The people voted 
on the back of the page and we have all the agencies. We used 
the public-involved survey questionnaires, and we have a--we 
answered questions on the site that they selected. The majority 
selected the Nelson Island. And we have the counts on the back 
of the page, too, with the ASAG report.
    Chairman Stevens. This shows that the 1996 dump site is 
actually totally inundated now?
    Mr. Tom. It's gone. It was already impacted. Back in 1996 
it was the city dump, but we had to relocate it right across 
the river.
    Chairman Stevens. You tell me it's on the other side of the 
Noatak River now?
    Mr. Tom. I think it is, but it's not the Noatak. We call it 
the Nitlik River. We used a 1964 map. You can see the 1964 map 
right here. There's the line right there, all the way to the 
present day. In 2003 the land is not being impacted and by 2006 
it will be gone. It's going already. We just lost 20 feet this 
summer.
    Chairman Stevens. This Nitlik River, is that a river, 
literally?
    Mr. Tom. Yes, sir, it's a river. The Nitlik is a river. The 
Bering Sea is this way, the west side.
    Chairman Stevens. I thought you were on the beach.
    Mr. Tom. No, we're not on the beach. We're on the mainland 
close to the inlet.
    Chairman Stevens. When we take our trip next year, we'll 
come out and take a look at that. You have indicated that you 
believe the existing land will be impacted--is being impacted 
now and will be gone by 2006, right?
    Mr. Tom. Yes, sir, that's my observation.
    Chairman Stevens. The barge landing is right there at the 
edge of the river?
    Mr. Tom. Yes, it's right there. You can see the barge 
landing now. It's getting impacted right now, and it's already 
halfway, and this summer we lost 20 feet.
    Chairman Stevens. Well, that's a staggering progression 
that's predicted for your area.
    Mr. Tom. We figure the erosion impact--it will be sooner 
than these figures because of the south wind.
    Chairman Stevens. How are you going to avoid future erosion 
if you move where you say you want to move?
    Mr. Tom. The mainland is connected to Nelson Island. From 
here it's pretty close. We have to move this in the wintertime 
to cross the Nitlik River.
    Chairman Stevens. How many people in your village now?
    Mr. Tom. Right now we have about 430.
    Chairman Stevens. All right. Thank you very much.
    Mr. Adams, I appreciate your statement, also. I understand 
your circumstance. Kivalina also is one of those listed by the 
Corps. We might revisit those four villages next year on our 
field trip. We have to go back into session and we have 
conventions, so we can't do it this year.
    Thank you, Ms. Eningowuk. Thank you for coming. As you 
know, I have been to Shishmaref and seen your situation twice. 
I think it's a staggering problem that you also have. We'll 
come to visit you also. Meanwhile, we'll try to see what we can 
do to get some of the changes that you discussed.
    Mr. Rexford, you have a different problem. You have 
Department of Defense assets at your disposal. I think we'll 
see if we can't get them to take care of that runway, fix that 
runway. We do thank you very much.
    Any questions, Senators?
    Senator Sununu. I have none.
    Senator Burns. I wrote down a note. If you're not teaching, 
Mr. Adams, what are you doing?
    Mr. Adams. Hunting.
    Senator Burns. Good choice. Thank you.
    Chairman Stevens. Thank you very much. We do appreciate it 
and I think the very lucid testimony follows up on the study 
done by the GAO. We appreciate you taking the time to come and 
explain it to us in person. Very good.
    We'll now turn to a request that was made to us by HESCO to 
have a presentation, while some of the village people are here, 
of the plan that they have undertaken and they have experience 
with here in the States.
    Let me ask Dr. Suhayda to present his testimony now. 
Doctor.

STATEMENT OF DR. JOSEPH SUHAYDA, HYDRAULIC ENGINEERS, 
            HESCO BASTION USA, LLC, HAMMOND, LOUISIANA
    Dr. Suhayda. Thank you very much, Mr. Chairman, members of 
the committee.
    My name is Joe Suhayda, and I'm pleased to have the 
opportunity to testify before you today on behalf of HESCO 
Bastion USA, a Louisiana-based manufacturer of a proven 
erosion-and flood-control product.
    In my testimony today I will briefly describe house 
patented HESCO Concertainers can provide cost-effective 
solutions to many of your erosion and flooding problems that 
have been referred to previously. I will also describe specific 
projects for two locations, Shishmaref and Point Hope, for 
which we have developed conceptual plans to provide immediate 
relief for communities with the help of our partners in Alaska 
on this project, Alaska Erosion Control.
    A little background. I'm a coastal engineer and I have 
about 30 years of experience working on coastal issues, 
particularly coastal erosion and flooding in Louisiana. Early 
in my career I actually did work in Alaska at Point Lay, Barrow 
and Pingok Island.
    I have been working to try to develop solutions to problems 
that are occurring with regard to coastal erosion and flood 
control that address the issues of small communities. In 
Louisiana we have several situations where we have communities 
larger than, but not dissimilar to many of the village 
communities in Alaska. The solutions for these types of 
communities need to be considered to be in a different 
situation than the technology that would be used to, say, deal 
with New Orleans or the Mississippi River or something like 
that.
    Chairman Stevens. Doctor, we've got to give up this room at 
12 noon. Could we ask you to tell us what you've got and tell 
us how this might work in Alaska?
    Dr. Suhayda. I will do that. What I have here is a 
miniature version of what's called the Concertainer. If you 
just take a look at it for a minute, what we have is a wire 
cage or basket. We've got an elongated rectangle. It has 
interior partitions of the wire.
    Chairman Stevens. In actual dimensions, how big is that?
    Dr. Suhayda. This could be manufactured from 2-foot squares 
to 3 foot, up to 7-foot squares. They can be made in lengths up 
to eight units long. So one of these is referred to as a 
Concertainer. The wire mesh is steel-coated with a zinc-
aluminum galvanization alloy. The 3-inch mesh has a life of 
about 40 years. On this particular example I have a 
polypropylene liner that is placed on the periphery of it, and 
that liner is to allow you to put native local materials into 
these cubes and contain them such that we then have a structure 
that is rigid and heavy enough to hold itself down.
    Chairman Stevens. Do you have any vertical poles to hold 
it?
    Dr. Suhayda. Not necessary, no, sir. What can be done if 
it's a situation where the forces are large enough is we can 
put another layer of these units, tie them together. Because of 
this spiral here at the junctions of the cubes, you can connect 
two units together or several units together. We can also put 
another unit on top of this one.
    You can actually build big structures, but they're 
integrated structures. There's little disconnects between any 
of the units.
    We're looking at different materials now to put in here 
that would be appropriate for the Arctic environment; some of 
the polypropylene products would not be. When it comes to the 
advantages of this product, it's shipped in a collapsed form. 
If you go out to a site, what you do--and this can be done by 
hand--even for a 7-foot unit, is fold the units out, connect 
them up, and then either with shovels or light equipment, take 
local materials; it could be sand, gravel, or rock, stabilized 
material--or in the extreme, if required, concrete--and fill 
these baskets up. What you end up with then is a structure 
that's of the appropriate height and geometry to deal with the 
specific problem that you have.
    Chairman Stevens. Don't you have to make the--like your 
example--don't you have to make the clip square?
    Dr. Suhayda. For this particular example, which is in the 
United Kingdom, and I'd like to go to the slides now. What we 
have here was an erosion problem that is similar to many of the 
locations in the Bering Sea. The solution here was to place the 
Concertainers at the base of the cliff and then build upward. 
These actually are filled with concrete. We're dealing with the 
northeast coast of England with a lot of wave action. Other 
locations would use other types of materials.
    If you notice here, there's this building--they actually 
built a wall up here such that the surface area above the wall 
could be used, that is, you actually reclaim some of that area.
    Could I have the next slide? The major use today of the 
HESCO Concertainer units is in military applications to provide 
blast and munitions protection. The Concertainer was 
developed----
    Chairman Stevens. We saw those. Let's get to the flood 
control.
    Dr. Suhayda. Yes, sir. We have in Louisiana some flood 
control applications. I just want to show you that they are, 
again, applicable not to a Corps of Engineers' scale of 
project, but much smaller.
    Here's a situation where we have a small--what was done was 
a keyway was cut, removed a surface organic material. They laid 
the units out, interconnected them by hand, and then with a 
small Bobcat or front-end loader filled them up with sand. We 
end up with now having raised this about 4 feet at about one-
third of the cost that it would have been for an alternative 
design.
    Chairman Stevens. What's it cost for 1,000 feet, 8 feet 
tall?
    Dr. Suhayda. I can give you costs for the materials, that 
is the Concertainers. Now, the local fill material, obviously 
if it's available freely, that would reduce the cost. 
Construction labor is also an issue. We can give you a cost per 
foot. It ranges, for a 4-foot unit--if you could get away with 
one 4-foot unit--less than $50 a foot.
    If you have to put two or three units together to build it 
up into a bigger pyramid type structure, it will run $100 or 
maybe a couple hundred dollars a foot for a very big unit. 
Again, this would just be materials cost in terms of the 
Concertainer, not the fill material and not the labor.
    An example of a little larger structure 7 feet high, which 
was two 4-foot units with a 3-foot unit on top of that was for 
the east Jefferson hurricane protection levee for the city----
    Chairman Stevens. Have you tried any of that in the Arctic 
yet?
    Dr. Suhayda. Not yet, sir, we're hoping to do that.
    Next slide. Well, what happened is that we became aware of 
some of the issues and problems in Alaska with regard to 
coastal erosion through a newspaper article. That piqued our 
interest as to whether we could find applications here in 
Alaska. So at the beginning of this year we had several people 
come up to Alaska, again, it was with Alaska Erosion Control, 
met with several of the villages. At that point it's a fact-
finding mission to learn more about what the issues are.
    You were gracious enough to meet with a person from HESCO 
and encouraged us to continue. At this point we have met with 
eight of the nine villages that are on the GAO critical 
communities list.
    What I would like to do is talk about our capabilities to 
support two projects this summer with regard to the materials. 
I'm using the examples here of Shishmaref and Point Hope. There 
could be other locations. One is a coastal erosion problem and 
the other is a flood problem.
    In Shishmaref there's about a 2,000-foot segment there that 
needs to be addressed. What we can do is make materials 
available at Shishmaref by the end of the month that should be 
sufficient to support any design that would be done, such that 
if the design engineering and construction capabilities are 
sufficient at the site, we could actually get something done 
before the winter freeze-up occurs.
    Our role in this is to provide the materials, provide 
support with regard to the engineering techniques and 
construction techniques, but to not do either the engineering 
or the construction. Obviously, the expertise is here in the 
State. We can make the material available to allow a period of 
about 2 to 3 months for construction and engineering. That's 
about the best we can do for this year.
    Next slide. This is Point Hope. You've got a flooding 
problem along with others. There are, as I have shown you 
before, designs and configurations that act very effectively as 
flood barriers that can be as high as 4 feet or 7 feet that are 
relatively easy to construct. The engineering required for that 
situation would be much less than it would be for Shishmaref. I 
think, again, we could provide enough material to support some 
type of flood-abatement project given that the engineering and 
construction, of course, would be needed.
    Chairman Stevens. What would be the estimate of the cost of 
each of those projects?
    Dr. Suhayda. I can give you a materials cost. I figured it 
out. As I said, we're talking about somewhere between $50 for a 
single unit up to maybe a couple hundred dollars a foot if you 
wanted to put more Concertainers. If you wanted to go to a very 
elaborate structure obviously with more components, more 
Concertainers, and the per foot cost is just going to be 
proportional to how many units we use.
    I'd like to just sum up, if I could. What we were hoping to 
do is provide you with a way of extending the impact of any 
funding that's available for projects. For example, if you have 
$1 million and a traditional design would allow you to build 
300 feet, we're hoping to provide you with options to build 600 
feet or 900 feet that would meet the same performance and 
engineering type theory of the original design. We can do that 
because there are some inherent advantages to this structure.
    [The statement follows:]

                Prepared Statement of Dr. Joseph Suhayda

                              INTRODUCTION

    Mr. Chairman, Senator Murkowski, Governor Murkowski and Members of 
the Committee, my name is Joseph Suhayda. I am pleased to have the 
opportunity to testify before you today on behalf of HESCO Bastion USA, 
LLC, a Louisiana based manufacturer of a proven erosion control 
product.
    In my testimony today I will briefly describe how patented HESCO 
Concertainers can provide cost effective solutions to many of the 
erosion and flooding problems that have been previously described. I 
will also describe specific projects for two locations, Shishmaref and 
Point Hope, for which we have developed conceptual plans to provide 
immediate relief for communities with the help of our partners in 
Alaska, Alaska Erosion Control, LLC.
    I am a coastal engineer and have had over 30 years experience 
dealing with coastal issues, particularly coastal erosion and flooding 
in Louisiana. Early in my career I did research on the North Slope of 
Alaska; at Point Lay, Barrow and Pingok Island. Louisiana, like Alaska, 
has been experiencing severe coastal erosion and flooding. For the last 
thirty years I have been working to develop solutions to these problems 
at Louisiana State University and as a consultant to several federal 
and state agencies.
    The primary means for addressing coastal wetland loss problems in 
Louisiana is the Coastal Wetland Planning Protection and Restoration 
Act, a shared federal and state program. Working with CWPPRA, or the 
Breaux Act as it is referred to in Louisiana, I have developed an 
appreciation for the importance of developing cost effective solutions 
for the erosion problems of small communities. I became involved with 
HESCO because it presented the first opportunity I was aware of to 
develop viable cost effective solutions to erosion and flooding 
problems not only in Louisiana but nationwide as well.

                        HESCO AND HESCO PRODUCTS

    To draw your attention to the unique and often hard to describe 
HESCO system, I have brought a miniature of one of the HESCO 
Concertainers. The Concertainer is a rectangular or cubic basket 
composed of wire and lined with a geotextile fabric. The panels are 
heavily galvanized wire mesh with a zinc-aluminum alloy and have a 
functional life of 38 years. The geotextile fabric is typically 
polypropylene, however, it can be any of a variety of materials suited 
to the particular environment of the project site.
    The units are shipped to the project site in a folded configuration 
and then quickly unfolded along the prepared route of the structure. 
The Concertainers are filled with native materials using light 
construction equipment or even shovels. Units of various sizes are 
stacked in order to achieve an overall structure for the desired width 
and height. A typical coastal erosion prevention structure is shown in 
Figure 1.
    The HESCO Concertainer was invented in England as an erosion and 
flood control product. The first erosion project done by HESCO UK was 
installed in 1989 and HESCO UK has established a reputation over the 
last 15 years of successfully preventing land erosion and coastal 
flooding worldwide.
    HESCO Concertainers are being used extensively by the U.S. 
Military in Iraq and all over the globe to build structures which 
protect our troops, as shown in Figure 2. As you have probably seen on 
the news, the military application is to build blast and munitions 
absorbent walls that provide troop protection. The photo in Figure 2 
was taken earlier this year in Iraq. This security application has 
become the main market for the HESCO product.
    Although HESCO UK has been working successfully with the United 
States military, the product has not seen much use as it was originally 
designed: erosion or flood control. To support this use, HESCO UK 
licensed the product to be manufactured in the United States. HESCO 
Bastion USA, LLC was opened on February 4, 2003 in Hammond, Louisiana. 
Because of the enormous erosion and flooding problems that occur in 
that region, HESCO USA has gained valuable experience in responding to 
the needs in the Gulf Coast states. Our interest and scope of 
capabilities has now expanded from Louisiana to Florida and California, 
and now with the help of Alaska Erosion Control, here in Alaska.
    The Concertainers have been used in several locations in 
Louisiana. Figure 3 shows the placement of two 4 foot high units in 
Jefferson Parish, Louisiana. The Concertainers replaced a failed sand 
bag structure and completed a critical component of the hurricane 
protection levee system surrounding the city of New Orleans.
    Figure 4 shows the addition of Concertainers to the top of the 
South Lafourche levee system in Raceland, Louisiana. This addition 
provided a cost effective incremental improvement to the existing levee 
system that was in need of being raised, but due to the costs 
associated with a prior product, improvements had been delayed. HESCO 
was able to come in and complete the project at a fraction of the 
original project's estimated cost. HESCO has been recently tested as a 
rapid response flood barrier by The Army Corps of Engineers at their 
Waterways Experiment Station (WES) in Vicksburg, MS. After a month-long 
series of lab and field tests, indications are that HESCO passed all 
the tests, but we are awaiting the official results from the Corps.
    The product is unique in that it has an almost universal 
application due to the flexibility of the design and its ability to 
adapt to local needs and conditions. Examples of this universality 
include successfully completed projects ranging from flood control, 
bank stabilization, mudslide prevention and port security. Based upon 
this proven record of success I believe that the Concertainer can 
provide a solution to many of the erosion and flooding problems 
occurring in Alaska.

                              HESCO ALASKA

    HESCO learned of the erosion and flooding problems in Alaska in 
September 2003, and with Alaska Erosion Control, conducted several 
reconnaissance visits to Alaskan villages in 2003 and 2004. After these 
initial visits, we met with you, Chairman Stevens, to discuss our 
findings and solicit your advice as to how to best make HESCO available 
in Alaska.
    At your urging, Mr. Chairman, HESCO and Alaska Erosion Control have 
since visited eight of the nine critical villages in the December 2003 
GAO report. We can now offer our assessment of what we can do to 
immediately help address the problems.
    Based on these visits and after assessing the viability of 
utilizing HESCO in the eight villages, we have decided in this 
presentation to focus on two of the villages where we feel we can be 
most helpful in the immediate future. These two sites reflect the two 
general types of problems being faced by many communities; flooding and 
erosion.
    The first location we address is Shishmaref. Figure 4 shows the 
nature of the problem. The coast is eroding at a severe rate and 
Shishmaref needs erosion control to save over about 2,300 feet of 
shoreline. Our preliminary design is shown in panel B and consists of 
several Concertainers stacked into an erosion barrier that would armor 
the shoreface. The placement and height of the wall will be determined 
in the final design. Again, the advantage of HESCO is that the design 
utilizes local materials and equipment.
    The second location we are to address is Point Hope. Figure 5 shows 
the nature of the problem. The community is located on a low lying 
barrier island and is subject to periodic flooding from the sea. Point 
Hope needs a flood protection system. Our conceptual design would 
consist of several Concertainer units stacked into a flood barrier 
that would surround any of the threatened areas. The placement and 
height of the wall will be determined in the final design. Again, the 
design takes advantage of local materials and equipment. We hope to 
install it this year, weather and paperwork permitting.
    These projects represent only two of many Alaskan projects we 
believe can be addressed with HESCO products. Not all of the problems 
faced by the Native Alaska Villages will be solved using HESCO. 
However, we believe we can provide a cost effective option to solve 
many of the critical erosion and flooding problems.

                                SUMMARY

    There are numerous advantages of HESCO products. First, is the 
simplicity of installing the product. Second is the use of indigenous 
materials to fill the Concertainers and the use of local machinery and 
labor to provide this service. The third advantage is the cost 
advantage that HESCO's product provides is the use of light 
construction equipment. With proper training ``tech transfer'' can 
occur allowing local project planners and engineers to design 
solutions, and local labor to conduct installation and maintenance of 
future projects. HESCO and Alaska Erosion Control would continue to 
provide technical support.
    HESCO Concertainers are a cost effective option to address many of 
the erosion problems that have been discussed during these hearings. 
Our approach is to utilize local resources including local people, 
equipment and materials. Based upon this approach, we believe we have 
the best method to maximize the chance of completing at least one of 
the two projects, if not both, discussed previously during this season. 
Thank you again Senator Stevens for inviting me to testify here today. 
I hope to answer any questions you may have.

    Chairman Stevens. Senators, do you have any questions?
    Senator Sununu. The existence of that polypropylene shell, 
doesn't that increase the force of a tide or any current on the 
structure?
    Dr. Suhayda. Well, it doesn't increase it. It does prevent 
or control the movement of the sediment. We don't want fine 
sand, for example, to leach out. That's why we need something 
that contains fine material. Obviously, the measurement size 
could be adjusted. It doesn't really influence the magnitude of 
the forces.
    Senator Burns. That's the way we build some corner posts in 
Montana for our fences.
    Dr. Suhayda. I'd just like to conclude by thanking you very 
much for this opportunity to testify. If there are any more 
questions, I would be glad to take them.
    Chairman Stevens. Would you consider those temporary 
barriers or permanent barriers?
    Dr. Suhayda. No, it's designed to be permanent. I mean, 
this is not something that you would plan to remove. Now, it's 
not impossible to remove them. In fact, in certain cases they 
have been removed. But, no, this is a permanent structure.
    Chairman Stevens. Do you think that you could prevent the 
intrusion of the water on the airport there at Point Hope? Have 
you visited there?
    Dr. Suhayda. I'm telling you that we've done projects where 
that has been engineered. We had a recent test by the Corps of 
Engineers exactly for that purpose, to look at the ability of 
one 4-foot high unit to resist flood waters. I don't want to 
preempt the Corps' final report, but in my opinion it passed 
all those tests. So I believe, yes, sir, we've got a product 
that if properly designed and constructed would do that.

                    ADDITIONAL SUBMITTED STATEMENTS

    Chairman Stevens. The committee has received statements 
from the Northwest Arctic Borough and Matanuska-Susitna Borough 
which will be placed in the record at this point.
    [The statements follow:]

   Prepared Statement of Thomas K. Bolen, Public Services Director, 
                        Northwest Arctic Borough

    Thank you for the opportunity to testify on this important topic 
today. Shoreline erosion is a fact of life that many Alaskans have 
lived with, day in and day out, for many years. In northwest Alaska, we 
have several communities that suffer the impacts of shoreline erosion, 
but none quite so perilously as the community of Kivalina.
    Northwest Arctic Borough is the regional (like a county) form of 
government serving an area the size of the state of Indiana. Borough 
government has been working with the people of Kivalina for the past 15 
years on the issue of planning the relocation of this coastal community 
which has been continuously threatened by shoreline erosion and 
inundation by water and ice. The study efforts have been a cooperative 
venture by the U.S. Army Corps of Engineers, the Northwest Arctic 
Borough, the City of Kivalina, and the Native Village of Kivalina. The 
cost of this study and planning work has been shared equally by the 
federal government and the local partners.
    Although Kivalina's location was probably a great choice of a place 
to put a subsistence fishing, whaling, or seal hunting camp, many years 
ago, it is agreed by all who have seen Kivalina first hand that it is 
not a suitable site for a modern community in need of room to grow and 
lacking the infrastructure necessary to bring it into the 21st century. 
Kivalina residents dwell on a narrow barrier island facing the Chukchi 
Sea to the west and the Kivalina Lagoon to the east. Erosion and 
flooding occur from both directions under differing weather conditions. 
Kivalina residents haul water to their homes in plastic buckets and 
haul sewage and other wastes from their homes in other plastic buckets. 
These conditions continue today because state and federal funding 
agencies are prohibited from funding infrastructure improvements due to 
the threat of erosion and inundation.
    Residents of Kivalina cannot evacuate their barrier island easily 
or quickly. To do so would require boarding many small planes, or 
readying and launching many small boats. Neither of these options are 
usually available during the severe storm conditions which would 
usually bring high water. Kivalina is a catastrophe waiting to happen. 
As the Emergency Manager for Northwest Arctic Borough, I have constant 
concerns for the welfare of Kivalina residents.
    This community is in dire need of an affordable alternate site, and 
of critical importance initially is a means of access to an alternate 
site. To date, except for the ice trails of winter, there has never 
been any access to alternate sites. Kivalina residents have never had 
Spring, Summer, or Fall access to any alternative site which could 
stimulate organized or individual relocation. It is therefore no small 
wonder that after 15 years of study, planning, and designing, that 
Kivalina residents are still trapped on their barrier island.
    The Northwest Arctic Borough has always supported Kivalina's desire 
to relocate, and continues to work to bring about successful 
relocation. The Borough and Kivalina residents are grateful to Senator 
Stevens and his congressional allies for making study money available 
to investigate this issue. We urge that more funding is needed to 
address making relocation happen for Alaskan residents, like those in 
Kivalina, who find themselves socially, economically, physically, and 
spiritually pinned down by the forces of Mother Nature. As Moses said 
to the Pharaoh, ``let my people go.'' We must find a way to build 
access to the promised land and set Kivalina residents free.
                                 ______
                                 
 Prepared Statement of John Duffy, Borough Manager, Matanuska-Susitna 
                                Borough

    I am writing to you today to present the testimony of the 
Matanuska-Susitna Borough regarding erosion problems.
    The Matanuska-Susitna Borough encompasses an area approximately the 
size of the state of Pennsylvania. The Borough has one of the fastest 
growing populations in the United States, increasing from 44,260 in 
1986 to over 66,000 in 2004, and is ranked as the 47th fastest growing 
``county'' in the country. The Borough has about 75 miles of saltwater 
shore and over 10,000 miles of inland shore line.
    The Matanuska-Susitna Borough is characterized by high mountains 
dropping to fertile valleys, where most residents live. Thousands of 
streams and dozens of rivers course through the Borough providing some 
of the most important habitat and recreational areas in the state. 
There are currently over 3,500 individual parcels designated as creek 
or river frontage.
    An additional 9,700 parcels are listed as lake frontage. Many of 
these parcels are also affected by erosion issues. Unfortunately these 
numbers underestimate the risk because millions of acres containing 
thousands of miles of rivers and creeks remain in large ownership 
blocks. These lands are being subdivided and developed at an ever 
increasing rate.
    The borough suffers from repetitive and substantial flooding which 
is causing more damage and risk to public health and property as our 
population and development density increases. While the history of 
flooding in the Borough is incomplete due to the remote nature of the 
area, many damaging floods have occurred in just the last fifty years 
(1955, 1959, 1969, 1971, 1973, 1975, 1986, 1992, and 1995). It is 
important to note that much of the damage to property and structures 
caused by these flood events resulted from erosion rather than high 
water levels. In addition, the damage from erosion occurs much more 
frequently than flood damage.
    Due to the nature of the rivers and streams in our Borough the risk 
from erosion and flooding is not described or predicted through the 
traditional concept of the 100 year flood plain study. To prevent this 
damage and loss the Borough needs better tools to predict these erosion 
risks.
    One of the biggest obstacles to preventing damage along our 
waterways is the fact that many of the rivers and streams in the 
Borough are braided and meandering, or steep and fast moving. Both 
types of watercourses travel predominantly through alluvial and 
glacially deposited soils and gravel which are easily displaced even by 
non-floodwater velocities. This characteristic results in frequent and 
very prevalent erosion and undercutting as the streams change course 
and cut new channels. The damage can be quite dramatic with undercut 
bluffs dropping hundreds of feet and shore lands cutting more than 
sixty feet per day into uplands along thousands of feet of the shore.
    This characteristic of our watercourses is common to braided and 
meandering streams and is not necessarily a function of the flood 
stage. The erosion and undercutting occurs more frequently than 
flooding and can be more devastating than flooding because the dramatic 
change in topography often makes reconstruction or redevelopment 
impossible. Several blocks of the original town site of Talkeetna are 
now lost to the waters of the Susitna River. Whole blocks of 
subdivisions have similarly been eroded into the Matanuska River. Homes 
have fallen into the Matanuska River as recently as 1992. Some homes 
and buildings have been relocated as the river or stream advanced. The 
Borough has condemned some structures to facilitate removal. Many 
cabins and structures have fallen into numerous other streams and 
rivers over the years. Currently major roads such as the Glenn Highway 
and Parks Highway, as well as the Alaska Railroad and major electrical 
utility lines, are continually threatened by undercutting from these 
and other watercourses.
    Structural mitigation measures such as shore armor, levies and 
dikes are used to reduce damage. The borough and the state have 
repeatedly been forced to conduct emergency stopgap efforts to 
temporarily stave off quickly developing imminent threats to homes and 
roads. Unfortunately, the shear volume and relentless actions of the 
water flow defeats these structures in a remarkably short time unless 
they are frequently repaired at great expense.
    The constantly changing course of the streams makes it impossible 
to map the floodway with any predictive certainty, rendering Flood 
Insurance Rate Maps almost useless. The meandering characteristics of 
the alluvial rivers also quickly outdate any detailed mapping effort 
using conventional backwater analysis. Inaccurate Flood Insurance Rate 
Maps result in inaccurate decisions about flood and erosion risk for 
planners and developers. Uncertainty makes it more difficult to adopt 
and implement meaningful land use and development plans and 
regulations.
    Viewing the area likely to be traversed by the meandering river as 
a ``Meander Belt'' allows a more meaningful basis to develop hazard 
analysis and mitigation plans. The meander belt analysis requires 
adequate tools for recognizing both the vertical and horizontal 
boundaries of areas likely to be impacted by water volume, water 
velocity, erosion and sediment deposition over a specified time frame. 
Using this information, local, state and federal government officials 
can make the most accurate and cost effective decisions for preventing 
loss of property and risk to public safety. High risk areas can be more 
easily avoided and development can be more efficiently designed to 
maximize profit, as well as, public value, in the feasible area.
    The borough lacks methodology, resources and information for 
developing the necessary new models to predict and assess risk of 
riverine meander belts. Even basic historic water volume and flow data 
does not exist for many of our water courses. Watershed data and 
traditional flood hazard data is incomplete or outdated, where it does 
exist.
    Having wrestled with the problem of erosion for many years we have 
considered several alternatives to address the problem. The damage 
arising from the unusual circumstances not routinely encountered in 
flood situations elsewhere requires rejection of traditional 100 year 
flood plain concepts. It is our opinion that a new concept is needed to 
arrive at realistic mitigation measures.
    The Borough therefore respectfully requests that Congress authorize 
the development of methodology to predict the 30, 60, and 100 year 
erosion meander belts with associated flood hazard areas of the water 
courses in the Matanuska-Susitna Borough, particularly in the areas 
where development pressure is highest, and to revise National Flood 
Insurance Rate Map panels accordingly. To this end, we request the 
creation of a demonstration project that would result in the following 
products: completion of a comprehensive watershed study of the Borough; 
establishment of a comprehensive network of flow meters in the more 
significant streams and rivers; study of those watercourses resulting 
in a new flood and erosion hazard study for the Borough; identification 
of 30, 60, and 100 year erosion meander belts; and identification of 
best management practices and guidelines to protect property from 
erosion.
    We believe that the following watercourses should be included 
within the demonstration project: Susitna River, Matanuska River, Knik 
River, Little Susitna River, Willow Creek, Deshka River (Kroto Creek), 
Kahiltna River, Skwenta River, Yentna River, Alexander Creek, Talkeetna 
River, and Chulitna River.
    With the information obtained through this demonstration project, 
the Borough will have much better tools available to protect property 
and the safety, health and welfare of its residents. Moreover, the 
information will be readily transferable to other communities and 
municipalities in Alaska.
    The Matanuska-Susitna Borough thanks the Committee for its 
attention to this serious matter. If there is more information that we 
may provide, please do not hesitate to contact me at (907) 745-9689.

                         CONCLUSION OF HEARINGS

    Chairman Stevens. Okay. Thanks very much. We appreciate you 
coming up.
    This will conclude our hearing.
    [Whereupon, at 12:02 p.m., Wednesday, June 30, the hearings 
were concluded, and the committee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
